No.__

In the Supreme Court of the United States
RITESH TANDON; KAREN BUSCH; TERRY GANNON; CAROLYN GANNON;
JEREMY WONG; JULIE EVARKIOU; DHRUV KHANNA; CONNIE RICHARDS;
FRANCES BEAUDET; MAYA MANSOUR,
APPLICANTS,
v.
GAVIN NEWSOM; ROB BONTA; TOMÁS J. ARAGÓN;
JEFFREY V. SMITH; SARA H. CODY.
RESPONDENTS.
To the Honorable Elena Kagan
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Ninth Circuit

EMERGENCY APPLICATION FOR WRIT OF INJUNCTION OR IN THE ALTERNATIVE
FOR CERTIORARI BEFORE JUDGMENT OR SUMMARY REVERSAL
RELIEF REQUESTED BY SATURDAY, APRIL 3, 2021
ROBERT E. DUNN
J.D. TRIPOLI
EIMER STAHL LLP
99 S. Almaden Blvd.
Suite 642
San Jose, CA 95113
(408) 889-1690
rdunn@eimerstahl.com
jtripoli@eimerstahl.com
JOHN K. ADAMS
EMILY E. SULLIVAN
EIMER STAHL LLP
224 S. Michigan Ave.
Suite 1100
Chicago, IL 60604
(312) 660-7600
jadams@eimerstahl.com
esullivan@eimerstahl.com

RYAN J. WALSH
Counsel of Record
AMY MILLER
EIMER STAHL LLP
10 East Doty Street
Suite 800
Madison, WI 53703
(608) 442-5798
rwalsh@eimerstahl.com
amiller@eimerstahl.com
Counsel for Applicants

QUESTION PRESENTED
In ordinary times, Pastor Jeremy Wong and Karen Busch regularly held Bible
studies, prayer meetings, and worship services at their homes—as had millions of
other Christians in California who sincerely believe assembling for small-group,
“house church” fellowship is just as indispensable to their faith as attending Mass is
for a Catholic. Yet for over a year now, California has completely prohibited or
substantially restricted those “gatherings” and many others. Indoor gatherings are
completely prohibited in Tier 1 counties and limited to no more than three households
in Tiers 2, 3, and 4, while outdoor gatherings are limited to no more than three
households in all tiers. By contrast, the State allows countless other activities to take
place outdoors without any numerical limitations, from weddings and funerals to
secular cultural events and political rallies. It also permits more than three
households to congregate inside buses, trains, universities, airports, barber shops,
government offices, movie studios, tattoo parlors, salons, and other commercial
venues. Santa Clara County, where Wong and Busch live, is currently in Tier 3 and
thus even restaurants and movie theatres can operate indoors at 50% capacity.
The

question

presented

is:

Whether

California’s

restrictions

on

“gatherings” trigger and fail strict scrutiny under the Free Exercise Clause to the
extent that they prohibit (or severely restrict) at-home religious gatherings—
notwithstanding this Court’s clear instructions that California “must place religious
activities on par with the most favored class of comparable secular activities.” App.
36 (Bumatay, J., dissenting).
- ii -

PARTIES AND RULE 29.6 STATEMENT
Applicants are RITESH TANDON; KAREN BUSCH; TERRY GANNON; CAROLYN
GANNON; JEREMY WONG; JULIE EVARKIOU; DHRUV KHANNA; CONNIE RICHARDS;
FRANCES BEAUDET; MAYA MANSOUR. Applicants are the Plaintiffs in the United States
District Court for the Northern District of California and Appellants in the United
States Court of Appeals for the Ninth Circuit.
Respondents are GAVIN NEWSOM, in his official capacity as Governor of
California; ROB BONTA, in his official capacity as the Acting Attorney General of
California; TOMÁS J. ARAGÓN, in his official capacity as the Director of the California
Department of Public Health; JEFFREY V. SMITH, in his official capacity as County
Executive of Santa Clara County; SARA H. CODY, in her official capacity as the Health
Officer and Public Health Director of Santa Clara County. Respondents are
Defendants in the United States District Court for the Northern District of California
and Appellees in the United States Court of Appeals for the Ninth Circuit.
DECISIONS BELOW
All decisions in the lower courts in this case are styled Tandon v. Newsom. The
order of the United States Court of Appeals for the Ninth Circuit, dated March 30,
2021, denying Applicants’ motion for an injunction pending appeal, over the dissent
of Judge Bumatay, is attached hereto at App. 1. The order of the United States
District Court for the Northern District of California, dated February 19, 2021,
denying Applicants’ motion for an injunction pending appeal is attached hereto at
App. 53. The order of the United States District Court for the Northern District of
- iii -

California, dated February 5, 2021, denying Applicants’ motion for a preliminary
injunction, which is the order on appeal in the court of appeals, is attached hereto at
App. 54 and is also available at 2021 WL 411375. The transcript of the district court’s
hearing on Applicants’ motion for a preliminary injunction is attached hereto at App.
134. The docket number in the United States District Court for the Northern District
of California is 20-cv-07108-LHK, and the docket number in the United States Court
of Appeals for the Ninth Circuit is 21-15228.
JURISDICTION
Applicants have a pending interlocutory appeal in the United States Court of
Appeals for the Ninth Circuit pursuant to 28 U.S.C. § 1292. This Court has
jurisdiction pursuant to 28 U.S.C. § 1651.
CONSTITUTIONAL PROVISIONS
The First Amendment provides in pertinent part:
Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the right
of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const. amend. I.

- iv -

TABLE OF CONTENTS
QUESTION PRESENTED ............................................................................................ ii
PARTIES AND RULE 29.6 STATEMENT .................................................................. iii
DECISIONS BELOW ................................................................................................... iii
JURISDICTION............................................................................................................ iv
CONSTITUTIONAL PROVISIONS............................................................................. iv
APPLICATION .............................................................................................................. 1
STATEMENT OF THE CASE ....................................................................................... 8
A. Applicants Wong And Busch Seek To Hold Religious Gatherings In
Their Homes ............................................................................................... 8
B. The State Restricts Religious “Gatherings” But Allows Indoor And
Outdoor Secular Activities ......................................................................... 9
C. Procedural History ................................................................................... 12
REASONS FOR GRANTING THE APPLICATION .................................................. 15
I.

The Violation Of Wong’s And Busch’s Free Exercise Rights Is
Indisputably Clear, And The Lower Courts Grossly Misapplied This
Court’s Recent Decisions In Diocese of Brooklyn, South Bay II, And
Gateway City Church, Causing Confusion As To The Scope Of Those
Decisions.......................................................................................................... 16
A. The Gatherings Guidance Burdens Wong’s And Busch’s Free
Exercise Rights ......................................................................................... 18
A. The Gatherings Guidance Does Not Apply Equally, As Even The
Ninth Circuit Apparently Recognized, And Thus Is Subject To Strict
Scrutiny..................................................................................................... 20
B. The State’s Three-Household Limit On Religious Gatherings Cannot
Survive Strict Scrutiny............................................................................. 27
C. The Ninth Circuit’s Decision Cannot Be Squared With This Court’s
Recent Opinions And Sows Confusion Regarding The Scope Of The
First Amendment’s Protections ............................................................... 32
-v-

II. The Equities Weigh Strongly In Favor Of Injunctive Relief ......................... 35
A. The State’s Violation Of Applicants’ Constitutional Rights Will
Continue To Cause Irreparable Harm Absent Injunctive Relief. ........... 35
B. The Balance Of Hardships And Public Interest Likewise Favor
Injunctive Relief. ...................................................................................... 36
III. In The Alternative, The Court Should Grant Certiorari Before
Judgment......................................................................................................... 39
CONCLUSION............................................................................................................. 39

- vi -

TABLE OF CONTENTS
Court of Appeals Order Denying Motion for Injunction Pending Appeal
(Mar. 30, 2021) ...................................................................................................... App. 1
District Court Order Denying Motion for Injunction Pending Appeal
(Feb. 19, 2021) ..................................................................................................... App. 53
District Court Order Denying Motion for Preliminary Injunction
(Feb. 5, 2021) ....................................................................................................... App. 54
Transcript of Hearing, Motion for Preliminary Injunction
(Dec. 17, 2021) ................................................................................................... App. 134
Cal. Dep’t of Pub. Health, Blueprint for a Safer Economy
(Mar. 11, 2021) .................................................................................................. App. 183
Cal. Dep’t of Pub. Health, Guidance for the Prevention of COVID-19
Transmission for Gatherings (Nov. 13, 2020) .................................................. App. 190
Declaration of Plaintiff Jeremy Wong in Support of Preliminary Injunction
(Oct. 22, 2020) ................................................................................................... App. 195
Declaration of Plaintiff Karen Busch in Support of Preliminary Injunction
(Oct. 22, 2020) ................................................................................................... App. 199
Declaration of Plaintiff-Appellant Jeremy Wong in Support of Motion for
Injunction Pending Appeal (Mar. 4, 2021)....................................................... App. 203
Declaration of Plaintiff-Appellant Karen Busch in Support of Motion for
Injunction Pending Appeal (Mar. 4, 2021)...................................................... App. 206

- vii -

TABLE OF AUTHORITIES
Cases
Am. Trucking Ass’ns, Inc. v. Gray,
483 U.S. 1306 (1987) ................................................................................................ 16
Ass’n v. City and Cty. of S.F.,
916 F.3d 749 (9th Cir. 2019) .................................................................................... 36
Blackhawk v. Pennsylvania,
381 F.3d 202 (3d Cir. 2004) ...................................................................................... 22
Capitol Hill Baptist Church v. Bowser,
2020 WL 5995126 (D.D.C. Oct. 9, 2020) .................................................................. 34
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993) .......................................................................................... passim
City of Ladue v. Gilleo,
512 U.S. 43 (1994) .................................................................................................... 30
Cutter v. Wilkinson,
544 U.S. 709 (2005) .................................................................................................. 43
Elrod v. Burns,
427 U.S. 347 (1976) .................................................................................................. 35
Employment Div. v. Smith,
494 U.S. 872 (1990) ............................................................................................ 16, 17
Engel v. Vitale,
370 U.S. 421 (1962) .................................................................................................. 34
First Pentecostal Church of Holly Springs v. City of Holly Springs, Mississippi,
959 F.3d 669 (5th Cir. 2020) .................................................................................... 34
Fisher v. University of Texas at Austin,
570 U.S. 297 (2013) .................................................................................................. 27
Gateway City Church v. Newsom,
– S. Ct. –, 2021 WL 753575 (Feb. 26, 2021) .................................................... passim
Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418 (2006) .................................................................................................. 20
Harvest Rock Church, Inc. v. Newsom,
– S. Ct. –, 2021 WL 406257 (Feb. 5, 2021) .......................................................... 2, 18
Jin Yun Xiao v. Att’y Gen. of U.S.,
230 F. App’x 139 (3d Cir. 2007) ............................................................................... 31
Larson v. Valente,
456 U.S. 228 (1982) .................................................................................................. 34
League of Wilderness Defs/Blue Mountain Biodiversity Project v. Connaughton,
752 F.3d 755 (9th Cir. 2014) .................................................................................... 36
Little Sisters of the Poor Home for the Aged v. Sebelius,
571 U.S. 1171 (2014) ................................................................................................ 16
- viii -

Lucas v. Townsend,
486 U.S. 1301 (1988) ................................................................................................ 16
Mitchell v. Helms,
530 U.S. 793 (2000) .................................................................................................. 34
Monclova Christian Acad. v. Toledo-Lucas Cnty. Health Dep’t,
984 F.3d 477 (6th Cir. 2020) .............................................................................. 17, 22
Nken v. Holder,
556 U.S. 418 (2009) .................................................................................................. 36
Ohio Citizens for Responsible Energy, Inc. v. NRC,
479 U.S. 1312 (1986) ................................................................................................ 15
Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020) .......................................................................................... passim
Segura v. United States,
468 U.S. 796 (1984) .................................................................................................. 31
South Bay United Pentecostal Church v. Newsom,
141 S. Ct. 716 (2021) ........................................................................................ passim
South Bay United Pentecostal Church v. Newsom,
985 F.3d 1128 (9th Cir. 2021) .................................................................................. 35
Spencer v. World Vision, Inc.,
633 F.3d 723 (9th Cir. 2011) .................................................................................... 34
Sts. Constantine & Helen Greek Orthodox Church, Inc. v. City of New Berlin,
396 F.3d 895 (7th Cir. 2005) .................................................................................... 20
U.S. Dep’t of Def. v. Fed. Lab. Rels. Auth.,
510 U.S. 487 (1994) .............................................................................................. 3, 31
United States v. Davis,
139 S. Ct. 2319 (2019) .............................................................................................. 25
Vidal v. Girard’s Ex’rs,
43 U.S. 127 (1844) .................................................................................................... 35
Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7 (2008) ...................................................................................................... 36
Yellowbear v. Lambert,
741 F.3d 48 (10th Cir. 2014) .................................................................................... 22
Statutes
28 U.S.C. § 1651 ....................................................................................................... 8, 15
28 U.S.C. § 2101(e)....................................................................................................... 39
Other Authorities
An Introduction to Christian Theology, The Boisi Center at Boston College (2021),
https://tinyurl.com/98teabak ................................................................................ 19

- ix -

James Madison, Memorial and Remonstrance Against Religious Assessments (June
20, 1785), reprinted in Selected Writings of James Madison (Ralph Ketcham ed.,
2006) ......................................................................................................................... 33
Letters of Centinel II, reprinted in 2 The Complete Anti-Federalist (Herbert J.
Storing ed., 1981) ..................................................................................................... 33

-x-

APPLICATION
TO THE HONORABLE ELENA KAGAN,
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED STATES
AND CIRCUIT JUSTICE FOR THE NINTH CIRCUIT:
This Court has issued four orders in just the past five months unequivocally
holding that governments may not restrict the free exercise of religion—even in the
name of fighting a pandemic—if comparable nonreligious activities are not subject to
the same restrictions. Yet California—assisted by the Ninth Circuit, which has
“disregard[ed] the lessons from [this] Court” and “turned a blind eye to discrimination
against religious practice”—continues its rearguard action against the free (and safe)
practice of religious faith. App. 32 (Bumatay, J., dissenting). Because of the State’s
recalcitrance and the Ninth Circuit’s refusal to follow this Court’s “clear and, by now,
redundant” precedents, this Court’s intervention is, unfortunately, once again
necessary. App. 36 (Bumatay, J. dissenting).
In Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020), this
Court enjoined a New York executive order that imposed 10- and 25-person caps on
houses of worship that were harsher than restrictions on secular businesses. The
regulations—which were “far more restrictive than any COVID-related regulations
that ha[d] previously come before the Court”—could not survive strict scrutiny
because the State “offered no evidence that applicants [ ] contributed to the spread of
COVID-19,” and there were “many other less restrictive rules that could be adopted
to minimize the risk to those attending religious services.” Id. at 67.

-1-

Undeterred, California continued to impose a total prohibition on indoor
worship in Tier 1 counties—a restriction even more onerous than the regulations
enjoined in Diocese of Brooklyn—despite allowing numerous indoor commercial
activities. This Court put a stop to that unconstitutional practice in South Bay United
Pentecostal Church v. Newsom, 141 S. Ct. 716 (2021) (South Bay II), and Harvest Rock
Church, Inc. v. Newsom, – S. Ct. –, 2021 WL 406257 (Feb. 5, 2021) (Harvest Rock
Church III). As Justice Gorsuch, joined by four other justices, explained, California’s
indoor worship ban “imposed more stringent regulations on religious institutions
than on many businesses,” and the State could not “thread the needle” of strict
scrutiny because it failed “to explain why narrower options it finds sufficient in
secular contexts do not satisfy its legitimate interests.” South Bay II, 141 S. Ct. at
717–19 (statement of Gorsuch, J.).
The South Bay II decision should have put California’s autocrats on notice that
the pandemic does not provide a license to squelch religious exercise while allowing
other “essential” activities—i.e., activities preferred by the State—to continue with
fewer restrictions. But alas, like seed falling on rocky ground, the message did not
take root. Mere weeks after South Bay II, the County of Santa Clara had the audacity
to argue that its total prohibition of indoor worship was generally applicable and thus
subject only to rational basis review. The County contended that its gathering ban
did not discriminate against religious gatherings because it “prohibit[ed] all indoor
gatherings of all kinds at all places.” Br. of Santa Clara County in Gateway City
Church v. Newsom, No. 20A138, at 19 (U.S. Feb. 24, 2021). But the County’s bespoke
-2-

definition of gatherings did not encompass commercial activities that involved large
numbers of people congregating indoors for secular activities, making the County’s
restriction on worship every bit as discriminatory in operation as the State’s. This
Court made short work of the County’s argument, granting the application for
injunctive relief on the ground that the “outcome [was] clearly dictated by this Court’s
decision in South Bay [II].” Gateway City Church v. Newsom, – S. Ct. –, 2021 WL
753575, at *1 (Feb. 26, 2021).
Given this string of decisions, a reasonable observer might have expected
California to be especially solicitous of the rights of believers, if simply to avoid the
appearance of naked hostility to religion. But that is not the path the State has
chosen. Instead, the State continues to enforce its onerous restrictions on
“gatherings” to prohibit or sharply restrict religious gatherings to study the Bible,
pray, and worship communally in the very place “accorded special consideration in
our Constitution, laws, and traditions”—the home. U.S. Dep’t of Def. v. Fed. Lab. Rels.
Auth., 510 U.S. 487, 501 (1994) (emphasis added). The State defines gatherings as
“social situations that bring together people from different households at the same
time in a single space or place.” App. 190. For practical purposes, that definition is
equivalent to the one put forward by Santa Clara County, which defined a gathering
as “an event, assembly, meeting, or convening that brings together multiple people
from separate households in a single space, indoors or outdoors, at the same time and

-3-

in a coordinated fashion.” 4-ER-879.1
By distinguishing between “social situations” and commercial activities, the
State—like the County before it—accomplishes a subtle but unmistakable religious
gerrymander, conveniently excluding business gatherings from the definition of
prohibited activity, even though people from many different households are allowed
to be in the same place at the same time in restaurants, buses, salons, movie theaters,
airports, trains, movie studios, government offices, barbershops, tattoo parlors, and
elsewhere. In addition to this definitional sleight of hand, the State explicitly exempts
certain activities from the gatherings ban. For example, the State allows weddings
and funerals to occur outdoors with no numerical limits. It likewise allows unlimited
numbers of people to engage in political protests and rallies outdoors, even though
social distancing is largely impossible, shouting is common, and mask wearing
infrequent at such events. The State also allows people to gather outdoors in
unlimited numbers at “houses of worship,” giving some measure of protection to more
traditional, ritualistic faith practices. But it does not permit an individual to gather
with others in her own backyard to study the Bible, pray, or worship with members
of more than two other households, all of which are common (and deeply important)
practices of millions of contemporary Christians in the United States.

Citations of evidentiary materials—primarily expert declarations and
numerous government orders—are made through citation of the Ninth Circuit
Excerpts of Record, located at Tandon v. Newsom, No. 21-15228 (CA9) ECF No. 13.
-41

The State’s treatment of indoor activities is equally discriminatory. In Tier 1,
indoor home-based religious gatherings are completely prohibited, while people may
cluster at hair salons, barbershops, retail stores, “[p]ersonal [c]are [s]ervices”
businesses, App. 183–84, and for work in the entertainment industry, 5-ER-922–23.
In Tiers 2 through 4, indoor home-based religious gatherings are limited to three
households, regardless of the size of the building or the safety procedures followed.
Yet in Tier 2 the State continues to allow gatherings in “[p]ersonal [c]are [s]ervices”
businesses, which include nail salons, tattoo parlors, piercing, and skincare salons,
App. 184; 4-ER-757–83 (personal care services), and further permits crowds at
museums, zoos, aquariums, movie theaters, and gyms, App. 184–85. In Tiers 3 and
4, even restaurants, wineries, breweries, cardrooms, distilleries, and bowling alleys
can host gatherings indoors. App. 185–86. Yet in-home religious gatherings are still
restricted to no more than three households. App. 183.
Under these rules, Pastor Wong and Karen Busch can sit for a haircut with 10
other people in a barbershop, eat in a half-full restaurant (with members of 20
different families), or ride with 15 other people on a city bus, but they cannot host
three people from different households for a Bible study indoors or in their backyards.
The State thus treats religious exercise far more harshly than secular activities.
Notwithstanding the State’s clear discrimination against religious exercise,
the Ninth Circuit applied rational basis to the Gatherings Guidance and denied
Applicants’ request for an injunction pending appeal. App. 27. The Court reached that
head-scratching result based on its conclusion that “in-home secular and religious
-5-

gatherings are treated the same.” App. 27. But the State’s decision also to disfavor
some nonreligious activity—such as in-home birthday parties or Super Bowl
gatherings—does not save the State’s Gatherings Guidance from strict scrutiny, as
this Court has explained, repeatedly, in Diocese of Brooklyn, South Bay II, Harvest
Rock, and Gateway City Church. Instead, “regulations must place religious activities
on par with the most favored class of comparable secular activities, or face strict
scrutiny” App. 36 (Bumatay, J., dissenting) (citing Diocese of Brooklyn, 141 S. Ct. at
66–67). And none of those precedents suggests that the Free Exercise Clause applies
only to formally established “houses of worship,” or that businesses and government
services are not proper comparators to private homes with respect to the risk of
infection, as the panel majority concluded. On the contrary, this “Court’s prior
decisions ‘clearly dictated’ enjoining the restrictions,” but the Ninth Circuit “again
fail[ed] to apply [those] precedents”—“[a]t this point, a tale as old as time.” App. 36
(Bumatay, J., dissenting).
Because the State treats religious exercise worse than comparable secular
activities, the Gatherings Guidance is subject to strict scrutiny. It fails that rigorous
review for the same reasons as the government orders in Diocese of Brooklyn, South
Bay II, and Gateway City Church. While the State contends that in-home religious
gatherings are riskier than other types of allowable social interactions, it has not
demonstrated that the risk factors it identifies are “always present” at such
gatherings or that they are “always absent from the other secular activities its
regulations allow.” South Bay II, 141 S. Ct. at 718 (Statement of Gorsuch, J.). Nor
-6-

has the State been able to “explain why it cannot address its legitimate concerns with
rules short of a total ban.” Id. Wong and Busch have both attested that they could
host gatherings safely, and there is no reason why the State could not allow such
gatherings to occur with the use of masks, social distancing, regular sanitizing, and
ventilation (e.g., open windows). App. 197, 201, 204–05, 207. More fundamentally, the
State has not explained why it could not achieve its goals of reducing sickness and
death from COVID-19 by relaxing its community-wide restrictions and focusing its
protective efforts on those most vulnerable to the disease. Many other states have
employed less restrictive measures to combat the pandemic with equal or superior
health outcomes. California is not obligated to embrace liberty to the same extent as
other states to which its citizens have been fleeing, but when it comes to core First
Amendment activities, California is not free to choose the most restrictive means of
pursuing its legitimate goals.
Given the blatant First Amendment violation here, this Court should not
hesitate to enjoin the Gatherings Guidance to the extent it applies to religious
gatherings at the home. These gatherings are central to Wong’s and Busch’s religious
exercise, and the deprivation of their First Amendment rights even for a limited time
constitutes irreparable harm. The public interest also strongly favors injunctive
relief. Although the virus is still circulating at low levels in California—as it likely
always will—the public health system is not under any strain, and there are currently
fewer people hospitalized with COVID-19 than at any point in the past year. Millions
of Californians, including the most vulnerable, have been vaccinated, and millions
-7-

more have already recovered from infection—or were infected but had no symptoms—
and thus have acquired at least temporary immunity. In other words, an injunction
here will not harm public health. Indeed, since this Court granted the injunctions in
South Bay II and Gateway City Church, California has continued to see a steady
decline in the number of deaths, hospitalizations, and confirmed cases.
For all these reasons, pursuant to Rules 20, 22, and 23 of the Rules of this
Court and 28 U.S.C. §1651, Applicants respectfully request that the Circuit Justice
grant this Application for an injunction precluding Respondents from enforcing the
Gatherings Guidance to the extent it applies to religious gatherings in the home to
study the Bible, pray, worship, and otherwise gather for communal religious exercise.
Applicants ask that the injunction remain in effect until such time as the State’s
Gatherings Guidance is permanently withdrawn, repealed, or invalidated by a court.
Because Wong and Busch hope to be able to hold Bible studies and prayer meetings
on Easter and throughout the Easter season (the most important holiday season in
Christianity), they request that an injunction issue on Holy Saturday, April 3,
2021, or as soon thereafter as is practicable.
STATEMENT OF THE CASE
A.

Applicants Wong And Busch Seek To Hold Religious Gatherings
In Their Homes

Pastor Jeremy Wong and Karen Busch want to host small in-person Bible
studies in their homes, as both had done regularly for over two years before the
pandemic. App. 196, 200. If allowed to hold such gatherings, they could (and would)
-8-

employ social distancing and other mitigation measures. App. 197, 291. Yet for more
than a year, the State has prohibited Wong and Busch from hosting religious
gatherings in their own homes. App. 196–97, 200–01, 204, 207.
“Communal worship, congregational study, and collective prayer are central
tenets of [their] faith[s]” and “are impossible to replicate in an online format.” App.
197, 201. “The Bible commands …certain activities such as singing and gathering inperson.” App. 197. “An online or virtual sermon cannot replicate God’s presence
among an assembled church.” App. 197, 201. Matters are even worse for the members
of Busch’s religious gatherings who do not have computers and are relegated to
participating over the phone. App. 201.
B.

The State Restricts Religious “Gatherings” But Allows Indoor
And Outdoor Secular Activities

Governor Newsom proclaimed a state of emergency on March 4, 2020, after the
initial outbreak of COVID-19 in California. 4-ER-614–18. Shortly thereafter, Newsom
issued Executive Order N-33-20, which directed all California residents “to
immediately heed the []State public health directives.” 4-ER-620. On May 4, 2020,
Newsom issued Executive Order N-60-20, directing all California residents “to
continue to obey State public health directives, as made available [online] and
elsewhere as the State Public Health Officer may provide.” 4-ER-624. The online
resource mentioned in that order, “About COVID-19 restrictions,” claims that the
online “[q]uestions and answers” have the same effect as other orders of the State
Public Health Officer. 4-ER-624; 4-ER-815; see also Tandon, No. 21-15228 (CA9) Dkt.
-9-

14 Ex. 2.2 Both EO-N-33-20 and EO-N-60-20 invoke California Government Code
§ 8665, threatening any person who fails to obey the orders with a “misdemeanor”
conviction, “$1,000” fine, or six-months’ imprisonment. Cal. Gov’t Code § 8665; 4-ER620; 4-ER-624.
The California Department of Public Health used its new power to impose and
then eliminate several regulatory frameworks before issuing the current four-tiered,
color-coded system commonly known as the “Blueprint for a Safer Economy”
(“Blueprint”). Under this system, local health jurisdictions in the state may reopen
specified sectors according to their respective county’s Tier. Three metrics govern the
Blueprint’s tier system: (1) the average number of “cases” per 100,000 residents over
a seven-day period, (2) the average amount of COVID-19 tests that come back
“positive” over a seven-day period, and (3) the “health equity metric.” 4-ER-645–48;
4-ER-650–55. Applying these metrics, the Blueprint color-codes each tier as follows:
Purple Tier 1 (Widespread); Red Tier 2 (Substantial); Orange Tier 3 (Moderate);
Yellow Tier 4 (Minimal). 4-ER-645–46; 4-ER-651.
The Blueprint determines for each tier whether various activities can occur
indoors and/or outdoors and at what capacities. See App. 183–89. Even in Tier 1, the
State allows certain businesses to operate indoors, such as hair salons, retail stores
and shopping centers (at 25% capacity), personal care services, hotels, “[l]imited

Applicants submitted a request for judicial notice to the Ninth Circuit on
March 9, 2021 to update the court on the State’s recent changes to its COVID-19
orders.
- 10 2

[s]ervices” (e.g., laundromats, pet grooming, and auto repair shops), and “[c]ritical
[i]nfastructure,” which includes food manufacturers, warehouses, call centers, legal
and accounting services, and “the entertainment industries, studios, and other
related establishments.”3 Id.; 5-ER-915–27. In Tiers 2–4, the State allows gatherings
in “[p]ersonal [c]are [s]ervices,” which include nail salons, tattoo parlors, piercing,
and skincare services, App. 184; 4-ER-757–83 (personal care services), and further
permits crowds at museums, zoos, aquariums, movie theaters, and gyms, App. 184–
85. And in Tiers 3 and 4 even restaurants, wineries, breweries, cardrooms,
distilleries, and bowling alleys can host gatherings indoors. App. 185–86.
The State has also issued changing guidance on “gatherings.” It defines
“gatherings” to mean “social situations that bring together people from different
households at the same time in a single space or place.” App. 190. On March 16, 2020,
CDPH banned all indoor and outdoor gatherings “across the state of California[.]” 4ER-825. Six months later, the State “updated” this guidance but maintained its
statewide ban on gatherings “unless otherwise specified.” 4-ER-828. On October 9,
2020, the State banned private indoor gatherings entirely and restricted outdoor
gatherings to no more than three households in a two-hour period, provided that the
venue allows six-foot physical distancing. 4-ER-831. On November 13, it again
updated its guidance, prohibiting all indoor gatherings for counties in Tier 1,
prohibiting gatherings in other tiers “that include more than 3 households,” and

California for All, Essential Workforce (last updated January 7, 2021),
https://covid19.ca.gov/essential-workforce/.
- 11 3

prohibiting “singing, chanting, shouting, cheering, and similar activities” at indoor
gatherings. App. 190–94; see also App. 183–89.
On February 5, 2021, in South Bay II, this Court enjoined the State’s
prohibition on indoor worship services in Tier 1 on the grounds that it violated the
Free Exercise Clause. 141 S. Ct. at 716. In response, the State amended the Blueprint
to allow indoor services at “places of worship” at up to 25% capacity in Tiers 1 and 2.
Tandon, No. 21-15228 (CA9) Dkt. 14 Ex. 2. The State also now allows “[w]edding
ceremonies” and “cultural ceremonies” to be held indoors with a maximum of 25%
capacity in Tier 1 (the State had previously prohibited these indoor gatherings in Tier
1). Id. at Ex. 4. Outdoor political rallies and protests, wedding ceremonies, cultural
ceremonies, and services at places of worship are not currently subject to capacity
limitations by the State. Id. Exs. 2 and 4; 4-ER-818–19.
Despite Respondents’ revisions and Santa Clara’s movement to Tier 3 on
March 24, 2021, gatherings of more than three households remain prohibited—
whether indoors or outdoors—except for political rallies and protests, cultural
ceremonies, or religious services at “place[s] of worship.” Tandon, No. 21-15228 (CA9)
Dkt. 14 Exs. 2 and 4; App. 183–89. The exempted gatherings may be held indoors up
to 50% capacity or 200 persons, whichever is less, and outdoors with no capacity
restrictions. Id.
C.

Procedural History

Applicants’ complaint, filed on October 13, 2020, claims that Respondents’
orders violate their rights to free speech and free exercise under the First
- 12 -

Amendment, as well as their rights to earn a living and to equal protection under the
Fourteenth Amendment.4 On October 22, 2020, Applicants moved for a preliminary
injunction. Applicants Wong, Busch, Tandon, and the Gannons sought to enjoin the
State of California and Santa Clara County from enforcing the Gatherings Guidance
against their First Amendment-protected gatherings. Tandon (a congressional
candidate) and the Gannons seek to hold campaign fundraisers and in-home political
discussions, while Wong and Busch seek to hold in-home religious gatherings.
Evarkiou, Khanna, Mansour, Beaudet, and Richards seek to operate their small
businesses.
The district court denied Applicants’ motion for a preliminary injunction on
February 5, 2021. App. 54. Addressing Applicants’ free exercise claims, the district
court upheld the orders, concluding that they were neutral, generally applicable, and
rationally related to a legitimate government interest. Id. at 121–25. In the
alternative, the court held that the orders were narrowly tailored to achieve a
compelling government interest. Id. at 126. Addressing the other preliminaryinjunction factors, the district court concluded that the State’s restrictions on
gatherings irreparably harmed Wong and Busch but that an injunction was not in
the public interest because public health would be “endangered” if Defendants’
Orders were enjoined. Id. at 126–32.

While Applicants continue to assert their free speech, equal protection, and
due process claims on appeal in the Ninth Circuit, their Application in this Court is
limited to the free exercise claim.
- 13 4

Applicants appealed the district court’s decision to the Ninth Circuit and filed
a motion in the district court to enjoin the orders pending appeal. The district court
denied this motion in a one-sentence order on February 19, 2021. Id. at 53. Applicants
subsequently filed an emergency motion for injunction pending appeal in the Ninth
Circuit, which was denied on March 30, 2021. Id. at 30.
The Ninth Circuit motions panel concluded that Applicants had not
demonstrated a likelihood of success on the merits of any of their claims. With respect
to the free speech and assembly claims asserted by Tandon and the Gannons, the
panel determined that an injunction was “unnecessary” because “the State’s
gatherings restrictions do not apply to Tandon’s requested political activities, and
given the State’s failure to define rallies or distinguish Tandon’s political activities
from the Gannons’ political activities . . . the State’s restrictions do not apply to the
Gannons’ political activities.” Id. at 28–29.
The panel disagreed as to whether Applicants are entitled to an injunction on
their free exercise claims. The majority held that “rational basis review should apply
to the State’s gatherings restrictions because in-home secular and religious
gatherings are treated the same, and because [Applicants] … have not provided any
support for the conclusion that private gatherings are comparable to commercial
activities in public venues in terms of threats to public health or the safety measures
that reasonably may be implemented.” Id. at 27. Because the majority determined
that Applicants had not established a likelihood of success, it declined to address

- 14 -

whether they were experiencing irreparable harm or whether an injunction was in
the public interest. Id. at 27 n.12.
Judge Bumatay dissented from the majority’s resolution of the free exercise
claim. He would have “grant[ed Applicants Wong and Busch] their requested
injunction pending appeal of their religious freedom claim[s]” because “California has
clearly infringed on Wong and Busch’s free exercise rights.” Id. at 32 (Bumatay, J.,
dissenting). Judge Bumatay concluded that strict scrutiny applies to the orders
because they “disparately impact[] religious practice compared to analogous secular
conduct,” which the State was unable to satisfy. Id. at 37–38. Judge Bumatay also
determined that the loss of religious freedom constituted irreparable harm and that
an injunction is in the public interest because “[n]othing in the record supports the
view that Wong’s and Busch’s in-home worship is more dangerous for the spread of
COVID-19 than the operation of other businesses open for customers without
household caps.” Id. at 51–52.
REASONS FOR GRANTING THE APPLICATION
The All Writs Act, 28 U.S.C. § 1651(a), authorizes an individual Justice or the
full Court to issue an injunction when (1) the circumstances presented are “critical
and exigent”; (2) the legal rights at issue are “indisputably clear”; and (3) injunctive
relief is “necessary or appropriate in aid of the Court’s jurisdiction.” Ohio Citizens for
Responsible Energy, Inc. v. NRC, 479 U.S. 1312 (1986) (Scalia, J., in chambers)
(citations and alterations omitted). The Court also has discretion to issue an
injunction “based on all the circumstances of the case,” without its order “be[ing]
- 15 -

construed as an expression of the Court’s views on the merits” of the underlying claim.
Little Sisters of the Poor Home for the Aged v. Sebelius, 571 U.S. 1171 (2014). This
Court has previously granted injunctive relief when applicants “have shown that
their First Amendment claims are likely to prevail, that denying them relief would
lead to irreparable injury, and that granting relief would not harm the public
interest.” Diocese of Brooklyn, 141 S. Ct. at 66; see also South Bay II, 141 S. Ct. at
719. A Circuit Justice or the full Court may also grant injunctive relief “[i]f there is a
‘significant possibility’ that the Court would” grant certiorari “and reverse, and if
there is a likelihood that irreparable injury will result if relief is not granted.” Am.
Trucking Ass’ns, Inc. v. Gray, 483 U.S. 1306, 1308 (1987) (Blackmun, J.); see also
Lucas v. Townsend, 486 U.S. 1301, 1304 (1988) (Kennedy, J., in chambers)
(considering whether there is a “fair prospect” of reversal).
I.

The Violation Of Wong’s And Busch’s Free Exercise Rights Is
Indisputably Clear, And The Lower Courts Grossly Misapplied This
Court’s Recent Decisions In Diocese of Brooklyn, South Bay II, And
Gateway City Church, Causing Confusion As To The Scope Of Those
Decisions.
The First Amendment declares that the government “shall make no law

respecting an establishment of religion, or prohibiting the free exercise thereof.” U.S.
Const. amend. I. As this Court has explained, “the ‘exercise of religion’” protected by
the First Amendment “often involves not only belief and profession but the
performance of (or abstention from) physical acts,” including “assembling with others
for a worship service.” Employment Div. v. Smith, 494 U.S. 872, 877 (1990); accord

- 16 -

South Bay II, 141 S. Ct. at 718 (statement of Gorsuch, J.) (“[W]orshippers may seek
only to … study in small groups.”).
Although this Court has held that religious exercise concerns do not generally
“relieve an individual of the obligation to comply with a ‘valid and neutral law of
general applicability,’” Smith, 494 U.S. at 879, “[a] law burdening religious practice
that is not neutral or not of general application must undergo the most rigorous of
scrutiny,” Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520,
546 (1993). A law is not neutral or generally applicable if it is underinclusive,
meaning the law “fail[s] to prohibit nonreligious conduct that endangers [the
government’s proffered] interests in a similar or greater degree than” the burdened
religious conduct. Id. at 543; see Monclova Christian Acad. v. Toledo-Lucas Cnty.
Health Dep’t, 984 F.3d 477, 480 (6th Cir. 2020) (“Whether [nonreligious] conduct is
analogous” is “measured against the interests the State offers in support of its
restrictions on conduct.”). In other words, a law is underinclusive if it exempts
nonreligious conduct from its purview while failing to give the same treatment “to
cases of ‘religious hardship.’” Lukumi, 508 U.S. at 537. The analysis for neutrality
and general applicability is similar because “[they] are interrelated, and … failure to
satisfy one requirement is a likely indication that the other has not been satisfied.”
Id. at 531.
The application of these principles to COVID-related restrictions is
straightforward because courts are “no longer writing on a blank slate.” App. 33
(Bumatay, J., dissenting). This Court has reiterated four times this term that a law
- 17 -

treating religious activities less favorably than “comparable” nonreligious activities
(including commercial activities) triggers strict scrutiny. Diocese of Brooklyn, 141 S.
Ct. at 66–68; South Bay II, 141 S. Ct. at 716; Harvest Rock Church III, 2021 WL
406257 at *1; Gateway City Church, 2021 WL 753575 at *1. This is true regardless of
whether the law also treats some nonreligious activities just as unfavorably. Diocese
of Brooklyn, 141 S. Ct. at 73 (Kavanaugh, J., concurring); South Bay II, 141 S. Ct. at
718–19 (Statement of Gorsuch, J.). Indeed, the “instructions provided by [this] Court
are clear and, by now, redundant.” App. 36 (Bumatay, J., dissenting). “[R]egulations
must place religious activities on par with the most favored class of comparable
secular activities, or face strict scrutiny,” and secular “businesses are analogous
comparators” when they involve comparable social interactions. Id.
A.

The Gatherings Guidance Burdens Wong’s And Busch’s Free
Exercise Rights

Before the pandemic, both Wong and Busch hosted weekly in-person Bible
studies and communal worship in their homes with groups of eight to twelve
individuals. App. 196 ¶¶2–3; App. 200 ¶¶2–3. The State’s Gatherings Guidance now
prevents them, and millions of others, from gathering in their home with individuals
from more than two other households to practice what they consider to be essential
elements of their Christian faith. And for much of the past year, while Santa Clara
County was in Tier 1, such gatherings in their home have been forbidden completely.
This is because the State defines “gatherings” as “social situations that bring together
people from different households at the same time in a single space or place.” App.
- 18 -

190. Encompassed within this definition are religious gatherings held in the privacy
of a home or backyard. Although the State now allows indoor religious gatherings at
“houses of worship”—thanks to this Court’s repeated interventions—the State does
not consider a home to be a “house of worship.” At the hearing on Plaintiffs’ motion
for preliminary injunction, the State insisted that rules applicable to “houses of
worship” do not apply to home-based religious gatherings because houses are not
zoned the same way as churches. App. 166–67; see also App. 80 (“[T]he Court notes
that Plaintiffs’ free exercise claims do not challenge restrictions on houses of
worship.”). Thus, while churches, synagogues, and mosques in Santa Clara County
are now allowed to hold indoor gatherings with up to 50% capacity given the County’s
recent move to Tier 3, Wong and Busch still cannot invite more than two other
households, which typically means two other people, to their home for a Bible study,
prayer meeting, or worship service. And while such religious gatherings could be held
in their backyards, even outdoors the State limits “gatherings” to no more than three
households. App. 183.
Both Wong and Busch offered uncontroverted declarations attesting that inperson communal religious assembly, study, and worship are indispensable to their
faith, App. 197 ¶5; App. 201 ¶5, just as those same practices are to numerous other
practitioners of contemporary Protestant Christianity. See, e.g., An Introduction to
Christian

Theology,

THE BOISI CENTER

AT

BOSTON COLLEGE

15

(2021),

https://tinyurl.com/98teabak (explaining that “Protestants” “ritualize[] prayers”
through “group prayer” and “Bible study”). Remote worship, moreover, is an
- 19 -

inadequate substitute because not every member of their faith communities has
access to such technology. See App. 197 ¶5; App. 201 ¶5. Yet carrying out those
necessary, in-person activities with more than two other co-religionists today, even
with the use of masks and social distancing, is a crime. 4-ER-620–21 (citing Cal. Gov’t
Code § 8665). The burdens imposed on Wong and Bush thus easily trigger review
under the First Amendment, and neither the district court nor court of appeals
concluded differently. See Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418, 425–32 (2006) (orders that prohibit religious ceremonies, enforced by
threats of prosecution, amount to a significant burden on religious conduct); Diocese
of Brooklyn, 141 S. Ct. at 66–67 (caps on religious worship triggered First
Amendment scrutiny); see also Sts. Constantine & Helen Greek Orthodox Church, Inc.
v. City of New Berlin, 396 F.3d 895, 900 (7th Cir. 2005) (noting “vulnerability” of more
informal, less ritualized Christian practices “to subtle forms of discrimination”).
A.

The Gatherings Guidance Does Not Apply Equally, As Even The
Ninth Circuit Apparently Recognized, And Thus Is Subject To
Strict Scrutiny

The Gatherings Guidance is substantially underinclusive, and thus it is
neither neutral nor generally applicable. See Lukumi, 508 U.S. at 536–37, 543. The
State allows a broad swath of “comparable” activities to occur, both indoors and
outdoors, that implicate its purported interest in combatting the spread of COVID19, while simultaneously prohibiting the in-home religious gatherings that both
Wong and Busch wish to hold. See Diocese of Brooklyn, 141 S. Ct. at 66–68.

- 20 -

1. For example, while backyard Bible studies are limited to three households,
weddings, funerals, “cultural events,” political protests and rallies, and services at
conventionally defined “houses of worship” are allowed outdoors without any
numerical limit—even when a county is in Tier 1. App. 3–4, 11; Tandon, No. 21-15228
(CA9) Dkt. 14 Ex. 2. For counties in either Tier 1 or 2, California citizens may further
congregate outdoors at “wineries [or] breweries,” “kart racing [or] mini golf,” and
“sports [or] live performances”—generally without any numerical limit. App. 185–87
(cleaned up). People may further muster outdoors in either tier at “movie theaters,”
“gyms,” “restaurants,” “museums,” “zoos,” and more without numerical limits. App.
184–88 (cleaned up). For counties in Tier 3, like Santa Clara County, California
citizens may additionally go to “[b]ars” outdoors. App. 186. Thus, although Wong or
Busch could watch John Legend sing outdoors at one of their favorites bars or
wineries, they cannot host their faith community in their backyard for worship,
prayer, or Bible study.
The State also allows people to congregate indoors in numerous comparable
venues and for various purposes. For example, in both Tier 1 and Tier 2, people may
patronize “hair salons [or] barbershops,” “all retail,” and “personal care services.”
App. 183–84 (cleaned up). “‘Personal care services’ include many businesses where
hours-long physical proximity and touching is required, such as nail salons, tattoo
parlors, body waxing, facials and other skincare services, and massages.” App. 38–39
(Bumatay, J., dissenting) (citing California Industry Guidance). People can also
gather indoors if they are involved in “[c]ritical infrastructure,” App. 183, as well as
- 21 -

if they work in the entertainment industry, at a studio, or in a related establishment.
See 5-ER-922–23; Tandon, No. 21-15228 (CA9) Dkt. 14 Ex. 4; see South Bay II, 141
S. Ct. at 719 (Statement of Gorsuch, J.) (noting that the “powerful entertainment
industry” earned “exemption[s]” in the State’s COVID regime). For counties in Tier
3, in addition to those activities, people may assemble in “cardrooms [or] satellite
wagering” places, “offices,” or “bowling alleys.” App. 186 (cleaned up). Thus, although
Wong or Busch could contract out their home to Netflix for the filming of Warrior Nun
with dozens of stagehands and actors inside, they could not host a nun and two other
people from different households for an ecumenical prayer meeting. The State also
“allows people to sit in relatively close proximity inside buses,” “train[s],” and
airports. South Bay II, 141 S. Ct. at 718 (Statement of Gorsuch, J.). But five people
studying the Book of Exodus in a living room is a criminal affair.
2. All of these secular gatherings are “comparable” to home-based religious
gatherings. What matters under the Free Exercise Clause is whether the exempted
activities carry analogous or comparable risks of harm, such that exempting them
“undermines the purposes of the law to at least the same degree as the covered
conduct that is religiously motivated.” Blackhawk v. Pennsylvania, 381 F.3d 202, 209
(3d Cir. 2004) (Alito, J.) (citing Lukumi, 508 U.S. at 543–46); accord South Bay II,
141 S. Ct. at 718 (listing comparators, such as “train stations” or “retailers,” that
present same risks of COVID spread); Monclova Christian Academy, 984 F.3d at 480
(“[C]onduct is analogous” as “measured against the interests the State offers in
support of its restrictions on conduct.”); Yellowbear v. Lambert, 741 F.3d 48, 60 (10th
- 22 -

Cir. 2014) (Gorsuch, J.) (“[U]nderinclusiveness” means a “failure to cover significant
tracts of conduct implicating the law’s animating and putatively compelling
interest.”). In this case, the exempted nonreligious activity is comparable to in-home
religious conduct because both present the same risks of viral spread that California
is purportedly trying to prevent.
The panel majority stated without evidence that “when people gather in social
settings, their interactions are likely to be longer than they would be in a commercial
setting” and “that participants in a social gathering are more likely to be involved in
prolonged conversations.” App. 19. But there is no evidence to support that
speculative assertion. After all, the State allows customers to be in “the close physical
proximity of hairstylists or manicurists” who “touch and remain near [their
customers] for extended periods,” while others wait inside for their appointments.
South Bay II, 141 S. Ct. at 718 (statement of Gorsuch, J.); accord App. 39 (Bumatay,
J., dissenting) (“Some personal care services may even allow their clients to forego
masking.”). The State also permits “scores [of people to] pack into train stations or
wait in long checkout lines” at retail stores and airports. South Bay II, 141 S. Ct. at
718 (statement of Gorsuch, J.). And the State does not impose any limits on the
amount of time people can sit on a bus, eat in a restaurant, or film inside a movie
studio.
The panel majority further stated—in the face of evidence to the contrary—
that “private houses are typically smaller and less ventilated than commercial
establishments” and “that social distancing and mask-wearing are less likely in
- 23 -

private settings and enforcement is more difficult.” App. 19. But both Wong and
Busch offered uncontroverted declarations attesting that they could “hold communal
gatherings in a way that protects [their] guests.” App. 197 ¶6; App. 201 ¶6. Wong, for
instance, owns “large outdoor spaces” where he can host “in-person gathering[s] …
where attendees could socially distance by more than six feet.” App. 197 ¶6. And their
guests would wear “masks, gloves, screens, or other devices to protect and inhibit the
spread of COVID-19.” Id.; App. 201 ¶6. They could (and would) also adopt many of
the same safety and sanitizing measures that the panel majority championed for
industries, including personal care services, that the State permits to open. Compare
App. 20–22, with App. 197 ¶6; App. 201.
In all events, the panel’s opinion itself demonstrates that the State’s orders are
underinclusive. According to the panel majority, indoor “political activities”—
including “debates, fundraisers, [] meet-the-candidate events,” and “small-group
political discussions”—are exempted from the State’s orders. App. 28–29. The upshot
of the panel’s opinion is thus that the Gannons can gather with more than three
households for political discussions—such as whether Governor Newsom should be
recalled—but Wong and Busch are prohibited from gathering to discuss Christ’s
admonition to “render unto Caesar.” See Matthew 22:21–23. The indoor political
discussions that the Gannons are now allowed to have undeniably involve the same
risks of harm that the State offers in support of its restrictions. Other allowable FirstAmendment activities, including gatherings for rallies and protests, involve even

- 24 -

greater risks of spread, as these gatherings can involve enormous crowds, shouting,
and limited mask wearing.5 App. 24–25.
The panel majority’s holding makes even less sense now that Santa Clara
County is in Tier 3. There is zero evidence that an indoor Bible study is riskier than
a trip to the movies, dinner in a restaurant, a workout in a gym, or a gathering with
dozens of friends at a winery, brewery, distillery, or bowling alley.
To be sure, judges are “not scientists,” South Bay II, 141 S. Ct. at 718
(statement of Gorsuch, J.), but it does not require any special expertise to appreciate
that the exempted conduct—e.g., movie studios filming in private homes, tattoo
parlors operating in narrow spaces, or hairstylists touching their customers—
presents the same risks of viral spread as indoor religious gatherings. “[T]he State’s
present determination,” in other words, “appears to reflect not expertise or discretion,
but instead insufficient appreciation or consideration of the interests at stake.” Id. at
717 (Roberts, C.J., concurring).

With little explanation, the panel majority inserted ambiguity into “rally” and
“protest” under the State’s orders by arbitrarily defining them as occurring only in
“public spaces.” App. 24–25. But “rally” and “protest” are not limited to “public
spaces.” See, e.g., “Rally,” Merriam-Webster, https://tinyurl.com/ybwu22hc (“[T]o
muster for a common purpose.”). And, in all events, the “government officials who
created California’s complex regime” should not be permitted “to benefit from its
confusing nature.” South Bay II, 141 S. Ct. at 719 n.2 (statement of Gorsuch, J.). And
even if there is ambiguity here, and there is not, the rule of lenity favors Wong and
Busch—not the State—because the State’s order subjects its transgressors to
criminal punishment. 4-ER-620–21; see United States v. Davis, 139 S. Ct. 2319, 2333
(2019).
- 25 5

The State argued below that its ban on in-home religious services is justified
because it applies to all private gatherings whether secular or religious. The panel
majority agreed, holding that “[w]hen compared to analogous secular in-home private
gatherings, the State’s restrictions on in-home private religious gathering are neutral
and generally applicable and, thus, subject to rational basis review.” App. 8. But that
is the very argument this Court rejected in Gateway City Church. There, the County
insisted that its ban on indoor gatherings did not trigger strict scrutiny because it
“prohibit[ed] all indoor gatherings [] regardless of where they occur and regardless of
purpose.” Br. of Santa Clara County in Gateway City Church v. Newsom, No. 20A138,
at 19 (U.S. Feb. 24, 2021). Because the County, like the State, permitted secular
business activities that present the same risk of infection as other types of
“gatherings,” this Court unceremoniously rejected that argument and enjoined the
County’s order as to indoor worship services, holding that “[t]his outcome is clearly
dictated by … [South Bay II].” Gateway City Church, 2021 WL 753575, at *1. There
is no daylight between the State’s orders here and the County’s order in Gateway City
Church.
Because California “impos[es] more stringent regulations on religious
[gatherings] than on many businesses” or other types of conduct that present the
same risk of transmitting COVID-19, its orders are subject to strict scrutiny. South
Bay II, 141 S. Ct. at 717–18 (statement of Gorsuch, J.).

- 26 -

B.

The State’s Three-Household Limit On Religious Gatherings
Cannot Survive Strict Scrutiny

“Strict scrutiny is a searching examination, and it is the government that bears
the burden” of proof. Fisher v. University of Texas at Austin, 570 U.S. 297, 310 (2013).
Specifically, the government must establish that the law is “justified by a compelling
governmental interest and … narrowly tailored to advance that interest.” Lukumi,
508 U.S. at 531–32. The State’s orders fail strict scrutiny because there are far less
restrictive options available to advance the State’s asserted interest in combatting
the spread of COVID-19.
For example, the State allows dozens or even hundreds of people to congregate
in various commercial and government settings with basic precautions—masking and
social distancing—that could be employed in the home. See App. 183–89. Both Wong
and Busch attested that they could (and would) incorporate the same mitigation
measures used in commercial settings—masks, distancing, ventilation, sanitizing—
“to protect and inhibit the spread of COVID-19.” App. 197 ¶6; App. 201 ¶6; see also
App. 48 (Bumatay, J., dissenting) (explaining that Wong and Busch can sanitize just
like “nail parlors and other small business). The State has never explained why the
same mitigation measures that allow hundreds of people to shop in a Wal-Mart, wait
in an airport terminal, eat at a restaurant, or ride a bus, could not be used to
responsibly host religious gatherings—both indoors and outdoors.
The State also employs percentage capacity restrictions that allow larger
gatherings in larger spaces. Similar restrictions could be employed for in-home
- 27 -

gatherings. For example, movie theatres and restaurants in Santa Clara County are
currently allowed to operate at 50% capacity (or 200 people, whichever is fewer), App.
184–85, and the State does not explain why a similar limitation could not be applied
to religious gatherings in the home.
The State argued below that religious gatherings are inherently more risky
than other types of commercial activity, but this Court rejected the exact same
argument in South Bay II. There, the State attempted to defend a similar restriction
against houses of worship on the ground that worship services “involve (1) large
numbers of people mixing from different households; (2) in close physical proximity;
(3) for extended periods; (4) with singing.” 141 S. Ct. at 718 (statement of Gorsuch,
J.). Although the Court recognized the State’s compelling interest in reducing the
spread of COVID-19, it nonetheless invalidated the orders insofar as they imposed
more severe restrictions on religious gatherings than commercial activities.
California could not satisfy narrow tailoring because it is not true that those “four
factors are always present in worship [] or always absent from other secular activities
its regulations allow.” Id. For example, while the State “presume[d] that worship
inherently involves a large number of people,” some “worshippers may seek only to
pray in solitude, go to confession, or study in small groups.” Id. (emphasis added).
Moreover, while the State asserted that commercial activities entailed less human
contact—“scores might pack into train stations or wait in long checkout lines in the
businesses the State allows to remain open.” Id.

- 28 -

The logic of South Bay II “applies with equal force to worship and prayer within
the home.” App. 43 (Bumatay, J., dissenting). Although the State applied eight
“objective criteria” to purportedly show that private, in-home gatherings greatly risk
the spread of COVID-19, “these criteria are nearly word for word the same ones
rejected” by South Bay II. Id. In short, it is simply not the case that these factors “are
always present in [private gatherings] or always absent from other [] activities [the]
regulations allows.” South Bay II, 141 S. Ct. at 718 (statement of Gorsuch, J.).
Nor has the State “explain[ed] why it cannot address its legitimate concerns
with rules short of a total ban.” Id. The panel majority’s broad and unsupported
factual conclusions concerning private gatherings could equally apply to “the close
physical proximity of hairstylists or manicurists” who California allows to operate
while “they touch and remain near [their customers] for extended periods.” Id. at 718;
accord App. 39–40 (Bumatay, J., dissenting) (discussing personal care services and
tattoo parlors).
The State also “allows people to sit in relatively close proximity inside buses,”
airports, and trains. South Bay II, 141 S. Ct. at 718 (statement of Gorsuch, J.). The
State has decided that less restrictive options are available for these settings—
including “social distancing requirements, masks, cleaning, plexiglass barriers, and
the like”—yet it has persisted in completely banning (or severely limiting) First
Amendment-protected gatherings regardless whether such precautions are used. Id.
at 718–19; accord App. 44 (Bumatay, J., dissenting). And though the panel majority
raised the specter that social gatherings may last longer, App. 19, the State does “not
- 29 -

limit … citizens to running in and out of other establishments.” South Bay II, 141 S.
Ct. at 719 (statement of Gorsuch, J.). “[N]o one is barred from lingering in shopping
malls, salons, or bus terminals.” Id. And if “the State is truly concerned about the
‘proximity, length, and interaction’ of private gatherings, as it claims, it could
regulate those aspects of religious gatherings in a narrowly tailored way” by applying
the same rules it affords to “barbershops, tattoo … parlors,” and more. App. 44
(Bumatay, J., dissenting). The State has yet to explain its decision to adopt a total
ban (or three household cap) rather than placing a “reasonable limit” on the length of
indoor religious gatherings. South Bay II, 141 S. Ct. at 719 (statement of Gorsuch,
J.).
The panel majority opined that these less restrictive options are not practicable
because the Fourth Amendment prevents the government from entering private
homes “at will” to enforce masking and social distancing restrictions. App. 22. But as
Judge Bumatay recognized, the fact that private homes cannot be regulated as easily
as private industry cuts in precisely the opposite direction. App. 48 (Bumatay, J.,
dissenting). If the State cannot require mask wearing and social distancing inside the
home because of the special privacy interests at stake, surely the far more draconian
step of banning or significantly curtailing gatherings in the home should be
constitutionally off limits. See City of Ladue v. Gilleo, 512 U.S. 43, 58 (1994)
(recognizing the “special respect for individual liberty in the home [that] has long
been part of our culture and our law,” including the “special resonance” for individual
liberty “when the government seeks to constrain a person’s ability to speak there”).
- 30 -

As this Court has repeatedly recognized, “the home is sacred in Fourth Amendment
terms not primarily because of the occupants’ possessory interests in the premises,
but because of their privacy interests in the activities that take place within.” Segura
v. United States, 468 U.S. 796, 810 (1984); accord U.S. Dep’t of Def. v. Fed. Lab. Rels.
Auth., 510 U.S. 487, 501 (1994) (“[T]he privacy of the home … is accorded special
consideration in our Constitution, laws, and traditions.”). Yet instead of providing
special deference for religious activities within the sanctity of the home, the State has
imposed restrictions typically associated with authoritarian regimes that asylees try
to escape. See, e.g., Jin Yun Xiao v. Att’y Gen. of U.S., 230 F. App’x 139, 141 (3d Cir.
2007) (remanding claims for asylum where Chinese police came to a resident’s home
“when she was leading a Bible study group, threatened and cursed her, and accused
her of holding an illegal gathering”).
Finally, the order fails narrow tailoring because to the extent the State is
seeking to reduce sickness, hospitalizations, and death, there are far less restrictive
means available than a blanket restriction on gatherings. Specifically, as Applicants’
experts explained, the State could target its interventions to protect the most
vulnerable, including those in nursing homes and long-term care facilities, and those
receiving in-home services. See 2-ER-139–41; ¶¶50–55; 2-ER-179 ¶¶95–104. The
State could further implement increased testing for workers at these locations, reduce
staff rotations, and test visitors. 2-ER-182–83 ¶¶100–02; 2-ER-140 ¶51. Other States
have avoided the level of adverse health outcomes California has suffered while

- 31 -

imposing far less draconian restrictions on gatherings than California. See 2-ER-129
¶23; 2-ER-177–78 ¶89.6
C.

The Ninth Circuit’s Decision Cannot Be Squared With This
Court’s Recent Opinions And Sows Confusion Regarding The
Scope Of The First Amendment’s Protections

Apart from South Bay II and Gateway City Church, the decision by the panel
majority betrayed a fundamental misunderstanding of the First Amendment which,
if allowed to stand, would sow confusion in the lower courts. Specifically, the panel
majority declined to follow Diocese of Brooklyn, South Bay II, and Gateway City
Church because it concluded that these precedents apply only to “houses of worship.”
App. 12. In the words of the panel majority, this Court “compared religious activity
to commercial activity” only “in the context of comparing public-facing houses of
worship to public-facing businesses.” App. 14. But “[b]y limiting these precedents to
houses of worship, the majority loses sight of why houses of worship are protected at
all: because of the religious exercise that occurs therein.” App. 46 (Bumatay, J.,
dissenting). “The Constitution shields churches, synagogues, and mosques not
because of their magnificent architecture or superlative acoustics, but because they
are a sanctuary for religious observers to practice their faith.” Id.

For example, Michigan provided a blanket exemption from its gathering order
for all constitutionally protected conduct. See, e.g., Michigan Gatherings and Face
Mask Order ¶ 10.g (Dec. 18, 2020), https://tinyurl.com/d3vp2wmk (“Nothing in this
order should be taken to infringe … protections guaranteed by the state or federal
constitution under these emergency circumstances.”). In recent days, moreover, many
states have lifted all restrictions, including capacity limitations and mask
requirements.
- 32 6

The idea that religious practice is worthy of protection no matter where it
happens is deeply embedded in this nation’s history and traditions. As James
Madison observed, “[t]he religion [] of every man must be left to the conviction and
conscience of every man; and it is the right of every man to exercise it as [he] may
dictate.” James Madison, Memorial and Remonstrance Against Religious Assessments
(June 20, 1785), reprinted in Selected Writings of James Madison 21, 22 (Ralph
Ketcham ed., 2006). Indeed, the Founders encouraged explicit protection for religious
freedom in the Bill of Rights because in “[t]he new plan,” there was “no declaration[]
that all men have a natural and unalienable right to worship Almighty God,
according to the dictates of their own conscience and understanding.” Letters of
Centinel II, reprinted in 2 The Complete Anti-Federalist 143, 152 (Herbert J. Storing
ed., 1981); James C. Phillips, Is U.S. Legal Scholarship "Losing [Its] Religion" or Just
Playing Favorites?: An Empirical Investigation, 1998-2012, 2018 Pepp. L. Rev. 139,
219 n. 98 (2018) (“Free exercise issues involve religious freedom or liberty—the ability
of one to not just worship, but to live one’s religion outside of the confines of a
church/synagogue/mosque.”).
Beyond history and tradition, this Court has declared that the “Free Exercise
Clause[] requires government respect for, and noninterference with, the religious
beliefs and practices of our Nation’s people.” Cutter v. Wilkinson, 544 U.S. 709, 719
(2005). This is because to afford special treatment only to conventionally defined
“church[es]” while denying it to religious activities “which are organized for a
religious purpose and have sincerely held religious tenets,” but are not conventional
- 33 -

“houses of worship,” would be to discriminate on the basis of religion. Spencer v.
World Vision, Inc., 633 F.3d 723, 728 (9th Cir. 2011) (O’Scannlain, J., concurring). As
this Court recognized in striking down laws that created differential treatment
between “well-established churches” and “churches which are new and lacking in
constituency,” the Free Exercise clause prohibits the government from “mak[ing]
explicit and deliberate distinctions between different religious organizations.” Larson
v. Valente, 456 U.S. 228, 246 n.23 (1982). Equally clear is this Court’s aversion to
governments or courts sifting through personal beliefs and practices to determine
whether they’re sufficiently religious under the Free Exercise Clause. See, e.g.,
Mitchell v. Helms, 530 U.S. 793, 828 (2000) (plurality opinion) (“It is well established,
in numerous other contexts, that courts should refrain from trolling through a
person’s … religious beliefs.”) (emphasis added); see also Capitol Hill Baptist Church
v. Bowser, 2020 WL 5995126, at *5 (D.D.C. Oct. 9, 2020) (“It is for the Church, not
the District or this Court, to define for itself the meaning of ‘not forsaking the
assembling of ourselves together.’”) (quoting Hebrews 10:25)).
Here, neither Wong nor Busch, nor millions of other Christians, view the
“church [as] a building” only. First Pentecostal Church of Holly Springs v. City of
Holly Springs, Mississippi, 959 F.3d 669, 670–71 (5th Cir. 2020) (Willett, J.,
concurring) (“When the New Testament speaks of the church, it never refers to brickand-mortar places where people gather, but to flesh-and-blood people who gather
together. Think people, not steeple.”); see also Engel v. Vitale, 370 U.S. 421, 442 n.7
(1962) (Douglas, J. concurring) (“The First Amendment put an end to placing any one
- 34 -

church in a preferred position.”); Vidal v. Girard’s Ex’rs, 43 U.S. 127, 175 (1844)
(“Different sects have different forms of worship, but all agree that preaching is
indispensable.”). Instead, in-home “[c]ommunal worship, congregational study, and
collective prayer are central tenants of [their] faith and ministry.” App. 197 ¶5; App.
201 ¶5. The panel majority thus erred in limiting this Court’s recent precedents to
“Houses of Worship.” This Court should correct that error.
II.

The Equities Weigh Strongly In Favor Of Injunctive Relief
A.

The State’s Violation Of Applicants’ Constitutional Rights Will
Continue To Cause Irreparable Harm Absent Injunctive Relief.

“There can be no question that the challenged restrictions, if enforced, will
cause irreparable harm,” because it is well-settled that “‘[t]he loss of First
Amendment freedoms, for even minimal periods of time, unquestionably constitutes
irreparable injury.’” Diocese of Brooklyn, 141 S. Ct. at 67 (quoting Elrod v. Burns, 427
U.S. 347, 373 (1976)). Here, as the district court correctly found, Wong and Busch
established irreparable harm based on the State’s deprivation of religious freedoms.
App. 127–28; see also South Bay United Pentecostal Church v. Newsom, 985 F.3d
1128, 1149 (9th Cir. 2021) (“We agree that South Bay is suffering irreparable harm
by not being able to hold worship services in the Pentecostal model to which it
subscribes.”). The Ninth Circuit did not disturb that ruling even though it erroneously
held that the Gatherings Guidance does not violate the First Amendment. Judge
Bumatay, who correctly held that Wong and Busch had demonstrated a likelihood of
success and thus addressed the equities, concluded that “[t]he irreparable harm
- 35 -

factor also cuts strongly in favor of granting the injunction” because, “[a]s enforced,
the household limitation bars Wong and Busch from hosting in-home Bible studies or
communal prayers with their group of fellow worshipers.” App. 49 (Bumatay, J.,
dissenting). The Gatherings Guidance—like the Blueprint itself—has no termination
date and will continue to apply even when Santa Clara County transitions to Tier 4.
Accordingly, “absent injunctive relief, [Wong and Busch’s] religious practices will
continue to be interrupted for the foreseeable future.” App. 50 (Bumatay, J.,
dissenting).
B.

The Balance Of Hardships And Public Interest Likewise Favor
Injunctive Relief.

The balance of equities factor focuses on the “effect on each party of the
granting or withholding of the requested relief.” Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 24 (2008). “The public interest inquiry primarily addresses impact on nonparties rather than parties.” League of Wilderness Defs/Blue Mountain Biodiversity
Project v. Connaughton, 752 F.3d 755, 766 (9th Cir. 2014). When the government is
the defendant, the analyses of these two “factors merge.” Nken v. Holder, 556 U.S.
418, 435 (2009).
A preliminary injunction is warranted here because “it is always in the public
interest to prevent the violation of a party’s constitutional rights.” Am. Bev. Ass’n v.
City and Cty. of S.F., 916 F.3d 749, 758 (9th Cir. 2019) (en banc). The State argued
below that an injunction is not in the public interest because it could cause “the
State’s hospital system” to be “overwhelmed.” But there are now roughly one tenth as
- 36 -

many patients hospitalized with COVID-19 in California as there were during the
high point of the winter surge in early January, and the numbers continue to trend
downward.7 Although it is possible that the hospital system will be threatened
someday in the future, the State cannot justify endless restrictions based on such
illusory threats. See South Bay II, 141 S. Ct. at 720 (statement of Gorsuch, J.) (“[I]t
is too late for the State to defend extreme measures with claims of temporary
exigency, if it ever could.”).
The State engaged in similar fearmongering in South Bay II, claiming that “the
relief plaintiffs seek from this Court would imperil public health.” See State Br., Nos.
20A136, 20A137 at 56 (Jan. 29, 2021). But in the nearly two months since this Court
enjoined the State’s total prohibition on indoor worship, cases, hospitalizations, and
deaths have all sharply decreased.8 For example, on February 5—the day of this
Court’s South Bay II decision—the 7-day rolling average of positive cases per 100,000
was 26.1.9 By March 30, the 7-day rolling average per 100,000 had dropped below 5.10
Given the State’s dismal track record in predicting the course of the disease, this
Court can safely ignore any protestations that an injunction would jeopardize public
health.

On January 6, 2021, the State reported that there were 22,853 hospitalized
patients with COVID-19. CDPH, Tracking COVID-19 in California,
https://covid19.ca.gov/state-dashboard/. By March 31, 2021, the number of
hospitalized COVID-19 patients had dropped to 2,583. Id.
8 Id.
9 Id.
10 Id.
- 37 7

The State’s justification for continued intrusions on religious liberty is further
undermined by the widespread distribution of vaccines in the State to the most
vulnerable—the elderly, health care workers, and those with preexisting conditions.
Although the overall infection fatality rate (IFR) from COVID-19 has been calculated
around .27%, for those under age 70 the IFR is only .05%, while for those above 70
the IFR is 5.4%.11 In other words, the public health risks of COVID-19 are heavily
concentrated in the older population. In defending society-wide lockdowns, the State
has argued—and the district court agreed—that the only way to protect the most
vulnerable is to reduce the overall spread of the virus in the community. See App. 96
(holding that it was rational “to place restrictions on the entire population because
vulnerable people have extensive contact with non-vulnerable individuals in longterm care facilities, multigenerational homes, and essential workplaces”). But even if
that was true in 2020 (which it was not12) any justification for such sweeping
lockdowns ended with the arrival of a vaccine.13 As ample data has confirmed,

5-ER-946–47; see also Centers for Disease Control and Prevention, COVID19
Pandemic
Planning
Scenarios,
https://www.cdc.gov/coronavirus/2019ncov/hcp/planning-scenarios.html. The IFR is effectively zero for those under 20, for
those ages 20-49 the IFR it is .02%, and for those between 50 and 70 it is .05%.
12 Applicants’ expert, Dr. Jayanta Bhattacharya, has cogently explained that a
system of “focused protection” could be used to prevent the disease from infecting
those most vulnerable to sickness and death while allowing the rest of the community
to go about their lives with reasonable precautions. 2-ER-136–38 ¶¶ 42–45. Focused
protection makes even more sense now that we have a vaccine that can help protect
the vulnerable and hasten us toward herd immunity.
13 Governor Newsom has now made the vaccine available to everyone over 50,
and 20.7% of Californians are now fully vaccinated and another 17.3% are partially
vaccinated.
See
Vaccines,
Cal.
Dep’t
of
Public
Health,
https://covid19.ca.gov/vaccines/#California-vaccines-dashboard.
- 38 11

COVID-19 poses a serious health risk to only a small sector of the population. That
sector has been, or soon will be, vaccinated.
The State also argued below that the threat of “new variants” support
perpetual restrictions. But there is no evidence that any of the new variants are more
dangerous than the previous ones, and the mere possibility of unknown health
threats in the future cannot justify indefinite restrictions on liberty. As members of
this Court have recognized, “[g]overnment actors have been moving the goalposts on
pandemic-related sacrifices for months, adopting new benchmarks that always seem
to put restoration of liberty just around the corner.” South Bay II, 141 S. Ct. at 720
(Statement of Gorsuch, J.). It is time for California to turn the corner and cease its
relentless persecution of the faithful.
III.

In The Alternative, The Court Should Grant Certiorari Before
Judgment
In the alternative to entering an injunction pending appeal, the Court should

grant certiorari before judgment in the Court of Appeals and enjoin the Governor’s
actions pending disposition by this Court. See 28 U.S.C. § 2101(e).
CONCLUSION
This Court undoubtedly has better things to do than sheepdog California and
the Ninth Circuit. Yet until State leaders and lower court judges respect the
boundaries established by the Constitution, the task of protecting religious believers
from overzealous government officials remains this Court’s cross to bear. For the
reasons set forth above, Applicants respectfully ask this Court to grant the
- 39 -

Application, or grant certiorari before judgment, and enjoin Respondents from
continuing their unconstitutional restrictions on religious liberty.
Respectfully submitted,
ROBERT E. DUNN
J.D. TRIPOLI
EIMER STAHL LLP
99 S. Almaden Blvd.
Suite 642
San Jose, CA 95113
(408) 889-1690
rdunn@eimerstahl.com
jtripoli@eimerstahl.com
JOHN ADAMS
EMILY E. SULLIVAN
EIMER STAHL LLP
224 S. Michigan Ave.
Suite 1100
Chicago, IL 60604
(312) 660-7600
jadams@eimerstahl.com
esullivan@eimerstahl.com

/s/Ryan J. Walsh
RYAN J. WALSH
Counsel of Record
AMY MILLER
EIMER STAHL LLP
10 East Doty Street
Suite 800
Madison, WI 53703
(608) 442-5798
rwalsh@eimerstahl.com
amiller@eimerstahl.com
Counsel for Applicants

- 40 -

No. ______

In the Supreme Court of the United States
RITESH TANDON; KAREN BUSCH; TERRY GANNON; CAROLYN GANNON;
JEREMY WONG; JULIE EVARKIOU; DHRUV KHANNA; CONNIE RICHARDS;
FRANCES BEAUDET; MAYA MANSOUR,
APPLICANTS,
v.
GAVIN NEWSOM; ROB BONTA; TOMÁS J. ARAGÓN;
JEFFREY V. SMITH; SARA H. CODY.
RESPONDENTS.

To the Honorable Elena Kagan
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Ninth Circuit

APPENDIX TO
EMERGENCY APPLICATION FOR WRIT OF INJUNCTION OR IN THE ALTERNATIVE
FOR CERTIORARI BEFORE JUDGMENT OR SUMMARY REVERSAL
RELIEF REQUESTED BY SATURDAY, APRIL 3, 2021
ROBERT E. DUNN
J.D. TRIPOLI
EIMER STAHL LLP
99 S. Almaden Blvd.
Suite 642
San Jose, CA 95113
(408) 889-1690
rdunn@eimerstahl.com
JOHN K. ADAMS
EMILY E. SULLIVAN
EIMER STAHL LLP
224 S. Michigan Ave.
Suite 1100
Chicago, IL 60604
(312) 660-7600
jadams@eimerstahl.com
esullivan@eimerstahl.com

RYAN J. WALSH
Counsel of Record
AMY MILLER
EIMER STAHL LLP
10 East Doty Street
Suite 800
Madison, WI 53703
(608) 442-5798
rwalsh@eimerstahl.com
amiller@eimerstahl.com
jtripoli@eimerstahl.com
Counsel for Applicants

TABLE OF CONTENTS
Court of Appeals Order Denying Motion for Injunction Pending Appeal
(Mar. 30, 2021) .......................................................................................................App. 1
District Court Order Denying Motion for Injunction Pending Appeal
(Feb. 19, 2021) ......................................................................................................App. 53
District Court Order Denying Motion for Preliminary Injunction
(Feb. 5, 2021) ........................................................................................................App. 54
Transcript of Hearing, Motion for Preliminary Injunction
(Dec. 17, 2021) ....................................................................................................App. 134
Cal. Dep’t of Pub. Health, Blueprint for a Safer Economy
(Mar. 11, 2021) ...................................................................................................App. 183
Cal. Dep’t of Pub. Health, Guidance for the Prevention of COVID-19
Transmission for Gatherings (Nov. 13, 2020)...................................................App. 190
Declaration of Plaintiff Jeremy Wong in Support of Preliminary Injunction
(Oct. 22, 2020) ....................................................................................................App. 195
Declaration of Plaintiff Karen Busch in Support of Preliminary Injunction
(Oct. 22, 2020) ....................................................................................................App. 199
Declaration of Plaintiff-Appellant Jeremy Wong in Support of
Motion for Injunction Pending Appeal
(Mar. 4, 2021) .....................................................................................................App. 203
Declaration of Plaintiff-Appellant Karen Busch in Support of
Motion for Injunction Pending Appeal
(Mar. 4, 2021) .....................................................................................................App. 206

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 1 of 52

FILED

FOR PUBLICATION
UNITED STATES COURT OF APPEALS

MAR 30 2021
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
RITESH TANDON; KAREN BUSCH;
TERRY GANNON; CAROLYN GANNON;
JEREMY WONG; JULIE EVARKIOU;
DHRUV KHANNA; CONNIE RICHARDS;
FRANCES
BEAUDET;
MAYA
MANSOUR,

No.

U.S. COURT OF APPEALS

21-15228

D.C. No. 5:20-cv-07108-LHK
Northern District of California,
San Jose
ORDER

Plaintiffs-Appellants,
v.
GAVIN NEWSOM; XAVIER BECERRA;
SANDRA SHEWRY; ERICA PAN;
JEFFREY V. SMITH; SARA H. CODY,
Defendants-Appellees.
Before: M. SMITH, BADE, and BUMATAY, Circuit Judges.
Order by Judges M. SMITH and BADE, Partial Dissent and Partial Concurrence by
Judge BUMATAY
This appeal challenges the district court’s February 5, 2021 order denying
Appellants’ motion for a preliminary injunction. Appellants now move for an
emergency injunction pending appeal, seeking to prohibit the enforcement of
California’s restrictions on private “gatherings” and various limitations on
businesses as applied to Appellants’ in-home Bible studies, political activities, and
business operations.

We conclude that the Appellants have not satisfied the

- App. 001 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 2 of 52

requirements for the extraordinary remedy of an injunction pending appeal. See
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008) (“[I]njunctive relief [is]
an extraordinary remedy that may only be awarded upon a clear showing that the
plaintiff is entitled to such relief.”). Therefore, we deny the emergency motion.
I.
A.
In the district court, Appellants challenged the State’s and Santa Clara
County’s restrictions on private “gatherings.” However, in this motion, Appellants
limit their challenges to the State’s restrictions.1 These restrictions “appl[y] to
private gatherings, and all other gatherings not covered by existing sector guidance
are prohibited.” Cal. Dep’t of Pub. Health, Guidance for the Prevention of COVID19

Transmission

for

Gatherings,

https://cdph.ca.gov/programs/cid/dcdc/pages/covid-19/guidance-for-theprevention-of-covid-19-transmission-for-gatherings-november-2020.aspx

(last

visited Mar. 30, 2021). “Gatherings are defined as social situations that bring

1

The State restrictions assign counties to different tiers based on factors such
as adjusted COVID-19 case rates, positivity rates, a health equity metric, and
vaccination rates. See Cal. Dep’t of Pub. Health, Blueprint for a Safer Economy,
https://covid19.ca.gov/safer-economy/#tier-assignments (last visited Mar. 30,
2021). These tiers are assigned number and color designations in descending order
of risk: Widespread (Tier 1 or purple); Substantial (Tier 2 or red); Moderate (Tier 3
or orange); and Minimal (Tier 4 or yellow). See id. Appellants reside in Santa Clara
County, which is currently a Tier 2 county.
2
- App. 002 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 3 of 52

together people from different households at the same time in a single space or
place.” Id. Under these restrictions, indoor and outdoor gatherings are limited to
three households, but indoor gatherings are prohibited in Tier 1 and “strongly
discouraged” in the remaining tiers. Id. The gatherings restrictions also limit
gatherings in public parks or other outdoor spaces to three households. Id. A
gathering must be in a space that is “large enough” to allow physical distancing of
six feet, should be two hours or less in duration, and attendees must wear face
coverings. Id. Finally, singing, chanting, shouting, cheering, and similar activities
are allowed at outdoor gatherings with restrictions, but singing and chanting are not
allowed at indoor gatherings. Id.
Appellants assert that the State’s gatherings restrictions provide exemptions,
which allow outdoor gatherings with social distancing, political protests and rallies,
worship services, and cultural events such as weddings and funerals. Therefore, we
also consider the restrictions that apply to these events.

Under the State’s

restrictions, outdoor services with social distancing are allowed at houses of
worship, such as churches, mosques, temples, and synagogues. About COVID-19
Restrictions, https://covid19.ca.gov/stay-home-except-for-essential-needs (under
“Can I Go to Church” tab) (last visited Mar. 30, 2021). Indoor services at houses of
worship are subject to capacity restrictions (25% of capacity in Tier 1 and 2 counties,
and 50% of capacity in Tier 3 and 4 counties), and other safety modifications

3
- App. 003 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 4 of 52

including face coverings, COVID-19 prevention training, social distancing, cleaning
and disinfection protocols, and restrictions on singing and chanting. Id.; see also
Industry

Guidance

to

Reduce

Risk,

https://covid19.ca.gov/industry-

guidance#worship (under “Places of worship and cultural ceremonies—updated
February 22, 2021” tab) (last visited Mar. 30, 2021).
The restrictions for houses of worship also apply to cultural ceremonies such
as funerals and wedding ceremonies.

About COVID-19 Restrictions,

https://covid19.ca.gov/stay-home-except-for-essential-needs/ (under “Are weddings
allowed?” tab) (last visited Mar. 30, 2021). However, wedding receptions are
subject to the gatherings restrictions, so in Tier 1 receptions must take place outdoors
and are limited to three households, while outdoor or indoor receptions, limited to
three households, are allowed in the other tiers. Id.
“[S]tate public health directives do not prohibit in-person outdoor protests and
rallies” with social distancing and face coverings. Id. (under “Can I engage in
political rallies and protest gatherings?” tab) (emphasis in original). The terms
“protests” and “rallies” are not defined,2 but the guidance states that “Local Health
Officers are advised to consider appropriate limitations on outdoor attendance
capacities,” and that failure to follow the social distancing restrictions and to wear

2

One dictionary defines a “rally” as “a mass meeting intending to arouse
group enthusiasm.”
See Rally, MERRIAM-WEBSTER, https://www.merriamwebster.com/dictionary/rally (last visited Mar. 30, 2021).
4
- App. 004 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 5 of 52

face coverings “may result in an order to disperse or other enforcement action.” Id.
Indoor protests and rallies are not allowed in Tier 1 counties but are allowed in other
counties subject to the capacity restrictions for places of worship, social distancing,
face covering requirements, and prohibitions on singing and chanting. Id.
B.
Appellants challenge the restrictions on three grounds. First, Appellants
Pastor Jeremy Wong and Karen Busch argue that the gatherings restrictions violate
their right to free exercise of religion because they prevent them from holding inhome Bible studies and communal worship with more than three households in
attendance. Second, Appellants Ritesh Tandon and Terry and Carolyn Gannon
argue that the gatherings restrictions violate their First Amendment rights to freedom
of speech and assembly. Tandon was a candidate for the United States Congress in
2020 and plans to run again in 2022, and he claims that the gatherings restrictions
prevent him from holding in-person campaign events and fundraisers. The Gannons
assert that the restrictions prohibit them from hosting forums on public affairs at
their home. Finally, the business owner Appellants argue that the gatherings
restriction, capacity limitations, and other regulations on their businesses violate
their Fourteenth Amendment substantive due process and equal protection rights.
C.
In determining whether to grant an injunction pending appeal, we apply the

5
- App. 005 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 6 of 52

test for preliminary injunctions. Se. Alaska Conservation Council v. U.S. Army
Corps of Eng’rs, 472 F.3d 1097, 1100 (9th Cir. 2006). “A plaintiff seeking a
preliminary injunction must establish that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence of preliminary relief, that the
balance of equities tips in his favor, and that an injunction is in the public interest.”
Winter, 555 U.S. at 20.
II.
A.
We first address Appellants’ free exercise claim. The district court denied
Appellants’ motion for a preliminary injunction because it concluded that
California’s private gatherings restrictions are neutral and generally applicable, and
rationally related to a legitimate government interest. Tandon v. Newsom, No. 20CV-07108-LHK, 2021 WL 411375, at *38 (N.D. Cal. Feb. 5, 2021). Alternatively,
the district court concluded that the restrictions would satisfy strict scrutiny. Id.
Appellants argue that the district court erred in applying rational basis review, that
the restrictions do not meet the heightened standard of strict scrutiny, and that we
should therefore issue an injunction pending appeal.3

3

Appellants do not argue that the State’s restrictions on gatherings would fail
rational basis review. Under that deferential standard, regulations “must be upheld
. . . if there is any reasonably conceivable state of facts that could provide a rational
basis for the classification.” Heller v. Doe, 509 U.S. 312, 320 (1993) (quoting

6
- App. 006 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 7 of 52

Specifically, Appellants assert that the Supreme Court’s decisions in Gateway
City Church v. Newsom, __ S. Ct. __, 2021 WL 753575 (Feb. 26, 2021), South Bay
United Pentecostal Church v. Newsom, 141 S. Ct. 716 (2021) (South Bay II), and
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020) (per curiam),
establish that the restrictions at issue are not “neutral and generally applicable” and
thus strict scrutiny applies.4 In these cases, the Court addressed free exercise

F.C.C. v. Beach Commc’ns, Inc., 508 U.S. 307, 313 (1993)). In contrast, under strict
scrutiny, the regulations “must be ‘narrowly tailored’ to serve a ‘compelling’ state
interest.” Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 67 (2020)
(per curiam) (quoting Church of the Lukumi Babalu Aye, Inc., v. City of Hialeah,
508 U.S. 520, 546 (1993)).
4
The parties do not discuss, or even cite, the Supreme Court’s recent decisions
in Harvest Rock Church v. Newsom, ___ S. Ct. ___, No. 20A137, 2021 WL 406257
(Feb. 5, 2021) (per curiam), and Harvest Rock Church v. Newsom, 141 S. Ct. 889
(2020) (mem.). In the first of these two decisions in the same case, without
elaboration, the Court treated an application for injunctive relief as a petition for writ
of certiorari before judgment and granted the petition, vacated the district court’s
judgment, and remanded to this court to remand to the district court for “further
consideration in light of” Roman Catholic Diocese. 141 S. Ct. 889.
In the second decision, the Court considered the same prohibitions on indoor
services at house of worship that were at issue in Gateway, 2021 WL 3086060, at
*4, and South Bay II, 141 S. Ct. at 716, and granted an application for injunctive
relief pending appeal and enjoined the State from enforcing the Tier 1 prohibition
on indoor worship services but denied the application with respect to the percentage
capacity limitations and the singing and chanting restrictions during indoor services.
2021 WL 406257 at *1. While some Justices noted that they would have granted
the application for injunctive relief in full and other Justices noted that they
dissented, those Justices only referenced their statements in South Bay II. See id.
Thus, Harvest Rock does not substantively add to the body of case law informing
our analysis, as our dissenting colleague apparently agrees. See Dissent at 7 (noting
that “Roman Catholic Diocese, South Bay [II], and Gateway City Church instruct
us”).
7
- App. 007 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 8 of 52

challenges to COVID-19-based capacity limitations at public places of worship that
were more prohibitive than capacity limitations at comparable businesses. See
Gateway, __ S. Ct. __, 2021 WL 753575; South Bay II, 141 S. Ct. 716; Roman
Catholic Diocese, 141 S. Ct. 63.
Appellants further argue that the State’s current restrictions on in-home or
private religious gatherings fail strict scrutiny because they do not apply to “a host
of comparable secular activities,” such as entering crowded train stations, airports,
malls, salons, and retail stores, waiting in long check-out lines, and riding on buses.
Thus, Appellants argue that the State’s gatherings restriction is underinclusive
because it does not “include in its prohibition substantial, comparable secular
conduct that would similarly threaten the government’s interest.” Stormans, Inc., v.
Wiesman, 794 F.3d 1064, 1079 (9th Cir. 2015).
But as we explain below, from our review of these recent Supreme Court
decisions, we conclude that Appellants are making the wrong comparison because
the record does not support that private religious gatherings in homes are
comparable—in terms of risk to public health or reasonable safety measures to
address that risk—to commercial activities, or even to religious activities, in public
buildings. When compared to analogous secular in-home private gatherings, the
State’s restrictions on in-home private religious gatherings are neutral and generally
applicable and, thus, subject to rational basis review. See Church of the Lukumi

8
- App. 008 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 9 of 52

Babalu Aye, Inc., v. City of Hialeah, 508 U.S. 520, 531 (1993) (holding that “a law
that is neutral and of general applicability . . . even if the law has the incidental effect
of burdening a particular religious practice” must only survive rational basis review).
Therefore, we conclude that Appellants have not established a likelihood of success
on the merits. See Winter, 555 U.S. at 20.
B.
As Appellants argue, three recent Supreme Court decisions addressing free
exercise challenges to COVID-19 restrictions are relevant to our analysis. First, in
Roman Catholic Diocese, the Court held that New York’s COVID-19 restrictions
triggered strict scrutiny because “[t]he applicants . . . made a strong showing that the
challenged restrictions violate ‘the minimum requirement of neutrality’ to religion.”
141 S. Ct. at 66 (quoting Lukumi, 508 U.S. at 533). The Court wrote that “the
regulations cannot be viewed as neutral because they single out houses of worship
for especially harsh treatment.” Id.
As proof of this “especially harsh treatment,” the Court pointed out that “while
a synagogue or church may not admit more than 10 persons, businesses categorized
as ‘essential’ may admit as many people as they wish,” and that those “essential
businesses” included “acupuncture facilities, camp grounds, garages, as well as . . .
all plants manufacturing chemicals and microelectronics and all transportation
facilities.” Id.; see also id. at 69 (Gorsuch, J., concurring) (“People may gather

9
- App. 009 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 10 of 52

inside for extended periods in bus stations and airports, in laundromats and banks,
in hardware stores and liquor shops. No apparent reason exists why people may not
gather, subject to identical restrictions, in churches or synagogues . . . .”). Because
“a large store in Brooklyn . . . could ‘literally have hundreds of people shopping
there on any given day,’” but “a nearby church or synagogue would be prohibited
from allowing more than 10 or 25 people inside for a worship service,” the
restrictions were not neutral or generally applicable. Id. at 67 (citation omitted). The
Court further held that the restrictions did not pass strict scrutiny. Id.
Then, in South Bay II, the Court reviewed California’s Tier 1 restrictions,
which included a total “prohibition on indoor worship services,” and enjoined
enforcement of this restriction. 141 S. Ct. at 716. Justice Gorsuch, joined by Justices
Thomas and Alito, and with whom Justices Kavanaugh and Barrett agreed,5 wrote:
California has openly imposed more stringent regulations on religious
institutions than on many businesses. The State’s spreadsheet
summarizing its pandemic rules even assigns places of worship their
own row. [For the Tier 1 regulations] applicable [at that time] in most
of the State, California forbids any kind of indoor worship. Meanwhile,
the State allows most retail operations to proceed indoors with 25%
occupancy, and other businesses operate at 50% occupancy or more.
Apparently, California is the only State in the country that has gone so
far to ban all indoor religious services.

5

Justice Barrett did not join Justice Gorsuch’s statement, but she “agree[d]
with [that] statement, save” one issue not relevant to this appeal. South Bay II, 141
S. Ct. at 717 (Barrett, J., joined by Kavanaugh, J., concurring in the partial grant of
application for injunctive relief).
10
- App. 010 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 11 of 52

Id. at 717 (Statement of Gorsuch, J.) (citations omitted). Justice Gorsuch also
compared indoor religious services to the “scores [that] might pack into train stations
or wait in long checkout lines in the businesses the State allows to remain open.” Id.
at 718. And he questioned California’s arguments about close physical proximity,
even as it allowed certain businesses to permit closer physical interactions. Id. at
718–19.
Finally, the Court addressed Santa Clara County’s restrictions in Gateway, __
S. Ct. __, 2021 WL 753575. Santa Clara County had enacted a restriction that
“[p]rohibited” all indoor gatherings.

As examples, Santa Clara County listed

“political events, weddings, funerals, worship services, movie showings, [and]
cardroom operations.” But the county imposed different restrictions for “a number
of businesses and activity types, including retail stores,” which were allowed to
operate at 20% capacity indoors. Gateway City Church v. Newsom, No. 20-08241,
2021 WL 308606, at *4 (N.D. Cal. Jan. 29, 2021). Our court affirmed the district
court’s ruling and held that this regulation, which restricted indoor gatherings in
“places of worship,” “applie[d] equally to all indoor gatherings of any kind or type,
whether public or private, religious or secular” because it did “not ‘single out houses
of worship’ for worse treatment than secular activities.” Gateway City Church v.
Newsom, 2021 WL 781981, at *1 (9th Cir. Feb. 12, 2021) (quoting Roman Catholic
Diocese, 141 S. Ct. at 66). The Court rejected this reasoning, stating: “The Ninth

11
- App. 011 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 12 of 52

Circuit’s failure to grant relief was erroneous. This outcome is clearly dictated by
[the] Court’s decision in” South Bay II. Gateway, 2021 WL 753575, at *1.
C.
Reviewing this precedent, we conclude that the regulations at issue in
Gateway and South Bay II, which applied total bans on indoor services at houses of
worship, differ significantly from those at issue in this case.

The gatherings

restrictions at issue here do not impose a total ban on all indoor religious services,
but instead limit private indoor and outdoor gatherings to three households. There
is no indication that the State is applying the restrictions to in-home private religious
gatherings any differently than to in-home private secular gatherings.
“[I]f the object of a law is to infringe upon or restrict practices because of their
religious motivation, the law is not neutral.” Lukumi, 508 U.S. at 533. But here, the
gatherings restrictions apply equally to private religious and private secular
gatherings, and there is no indication, or claim, of animus toward religious
gatherings. The restrictions do not list examples of prohibited gatherings or single
out

religious

gatherings.

See

Blueprint

for

a

Safer

Economy,

https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH%20Document%20Library/
COVID-19/Dimmer-Framework-September_2020.pdf (last visited Mar. 30, 2021).
Thus, the gatherings restrictions are neutral on their face. See Lukumi, 508 U.S. at
533 (holding that for a law that burdens religious practice to be neutral, it must at

12
- App. 012 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 13 of 52

least be neutral on its face).
However, “[f]acial neutrality is not determinative.” Id. at 534.6 Instead, we
must also “survey meticulously the circumstances of governmental categories” to
determine whether there are “subtle departures from neutrality” or “religious
gerrymander[ing],” which could indicate that the object of the law is to restrict
religious practices. Id. (citations and internal quotation marks omitted). Here,
Appellants have not asserted that the object of the gatherings restrictions is to restrict
religious practices, and there is no indication that the restrictions were adopted for
discriminatory purposes instead of addressing public health concerns.
Accordingly, we must consider whether the regulations nonetheless “treat[]
religious observers unequally,” and thus are not laws of general applicability. See
Parents for Privacy v. Barr, 949 F.3d 1210, 1235 (9th Cir. 2020). One way to assess
whether a law is selectively applicable is to determine whether the law’s restrictions
“substantially underinclude non-religiously motivated conduct that might endanger
the same governmental interest that the law is designed to protect.” Stormans, 794

6

Thus, we agree with our dissenting colleague that “the fact that a restriction
is itself phrased without reference to religion is not dispositive.” Dissent at 6.
However, we note that, unlike in South Bay II, where California’s “spreadsheet
summarizing its pandemic rules even assign[ed] places of worship their own row,”
141 S. Ct. at 717 (Statement of Gorsuch, J.), the gatherings restrictions here never
mention religion. See also Agudath Israel of Am. v. Cuomo, 979 F.3d 177, 182 (2d
Cir. 2020) (Park, J., dissenting) (“In each zone, the order subjects only ‘houses of
worship’ to special ‘capacity limit[s].’”).
13
- App. 013 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 14 of 52

F.3d at 1079 (citing Lukumi, 508 U.S. at 542–46). “In other words, if a law pursues
the government’s interest ‘only against conduct motivated by religious belief’ but
fails to include in its prohibitions substantial, comparable secular conduct that would
similarly threaten the government’s interest, then the law is not generally
applicable.” Id. (quoting Lukumi, 508 U.S. at 545).
Appellants argue that pursuant to the reasoning of Roman Catholic Diocese,
South Bay II, and Gateway, the gatherings restrictions at issue in this case are
underinclusive because the State applies different restrictions to commercial activity
in public buildings. Appellants compare the restrictions on private gatherings to the
restrictions on commercial activities in public buildings, such as train stations, malls,
salons, and airports. But in Roman Catholic Diocese, South Bay II, and Gateway,
the Court did not make similar comparisons. Instead, in each case in which the
Supreme Court compared religious activity to commercial activity, it did so in the
context of comparing public-facing houses of worship to public-facing businesses.7

7

The dissent argues that “when California allows greater freedoms for some
sectors, it may not leave religious activities behind” and that “the suppression of
some comparable secular activity in a similar fashion to religious activity is not
dispositive.” Dissent at 12, 17–18 (citing Roman Catholic Diocese, 141 S. Ct. at 73
(Kavanagh, J., concurring). Although Justice Kavanaugh’s concurrence in Roman
Catholic Diocese is not the controlling opinion, the dissent mischaracterizes that
opinion. Justice Kavanaugh wrote that “under [the Supreme] Court’s precedents, it
does not suffice for a State to point out that, as compared to houses of worship, some
secular businesses are subject to similarly severe or even more severe restrictions.”
Roman Catholic Diocese, 141 S. Ct. at 73 (Kavanaugh, J., concurring) (some

14
- App. 014 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 15 of 52

Because we identify the comparison applied in these cases—houses of
worship compared to secular businesses—our dissenting colleague suggests that we
are holding that First Amendment free exercise rights apply only in houses of
worship. Dissent at 15. He misses the point. We note that in these cases the
Supreme Court addressed restrictions on houses of worship—not because we are
suggesting that the Constitution’s protections for the free exercise of religion apply
only in houses of worship—but rather because the Court’s precedent directs us to
compare restrictions on religious activities to restrictions on “analogous” secular
activities. See Lukumi, 508 U.S. at 546. In its recent decisions, the Supreme Court
held that restrictions subjected worship services to disparate treatment because the
settings at issue were similar and subject to meaningful comparisons—houses of
worship such as churches, mosques, synagogues, and temples compared to public
buildings for commercial activities such as stores, malls, and other businesses.
The dissent’s argument that “businesses are analogous comparators to
religious practice in the pandemic context,” Dissent at 6, oversimplifies the issue
here. Although the Supreme Court has compared regulation of religious activities
to regulation of business activities under comparable circumstances, it has never
framed its analysis in the general terms of “religious practice” and

emphasis added). Thus, Justice Kavanaugh, in line with the controlling opinions and
orders in Roman Catholic Diocese, South Bay II, and Gateway, compared businesses
only to houses of worship, not to all religious activities.
15
- App. 015 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 16 of 52

“businesses.” Rather, it has focused on the circumstances surrounding the regulated
religious activities to determine whether those particular classes of religious activity
were being treated less favorably than comparable classes of secular activity. Thus,
it was essential in the recent Supreme Court decisions that the regulations in question
implicated religious activity in houses of worship. See South Bay, 141 S. Ct. at 717
(Roberts, C.J., concurring) (“[T]he State’s present determination—that the
maximum number of adherents who can safely worship in the most cavernous
cathedral is zero—appears to reflect not expertise or discretion, but instead
insufficient appreciation or consideration of the interests at stake.”); Roman Catholic
Diocese, 141 S. Ct. at 67 (analyzing regulations that “single out houses of worship
for especially harsh treatment” and noting that “the maximum attendance at a
religious service could be tied to the size of the church or synagogue”).
Moreover, when the Court granted injunctive relief as to gathering restrictions
in South Bay and Harvest Rock, it did not issue a blanket injunction covering all state
regulation of “religious practice.” Instead, it distinguished between restrictions on
operating houses of worship—which were impermissible under the circumstances—
and capacity limitations and restrictions on “indoor singing and chanting,” which it
declined to enjoin because the plaintiffs had not carried their burden (at least at that
stage of the proceedings) of showing “that the State is not applying
the . . . prohibition . . . in a generally applicable manner.” Harvest Rock Church v.

16
- App. 016 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 17 of 52

Newsom, No. 20A137, __ S. Ct. __, 2021 WL 406257, at *1 (Feb. 5, 2021); South
Bay, 141 S. Ct. at 716 (“This order is without prejudice to the appellants presenting
new evidence to the District Court that the State is not applying the percentage
capacity limitations or the prohibition on singing and chanting in a generally
applicable manner.”).
By taking this approach, we absolutely do not “confine religious freedom to
‘free exercise zones,’” Dissent at 15, as the dissent suggests. We simply recognize
that the Supreme Court’s free exercise analysis—which first requires determining
which tier of scrutiny to apply—fundamentally turns on whether a state
discriminates against religious practice. In turn, to determine whether a state
discriminates, the Supreme Court instructs us to compare “analogous non-religious
conduct,” Lukumi, 508 U.S. at 546 (emphasis added), not to compare all nonreligious conduct. See also Roman Catholic Diocese, 141 S. Ct. at 69 (Gorsuch, J.,
concurring) (noting that the First “Amendment prohibits government officials from
treating religious exercises worse than comparable secular activities, unless they are
pursuing a compelling interest and using the least restrictive means available.”
(emphasis added)); Stormans, 794 F.3d at 1079 (describing how Lukumi requires
analyzing “prohibitions on substantial, comparable secular conduct that would
similarly threaten the government’s interest” (emphasis added)).
An analogy requires “[a] corresponding similarity or likeness.” Analogy,

17
- App. 017 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 18 of 52

BLACK’S LAW DICTIONARY (11th ed. 2019). Thus, we cannot answer the question
of whether the state discriminates without first framing the correct comparison. And
not every activity is analogous to every other activity. That would empty all meaning
from the word “analogy.” Unsurprisingly, then, this analysis depends on the type,
location, and circumstances of the regulated activities.
Here, Appellants’ underinclusivity argument relies on a comparison of
gatherings in private homes to commercial activity in public buildings, and in
particular they point to commercial activity in large buildings such as train stations,
airports, and shopping malls.8 But nothing in the record supports Appellants’
suggestions that these commercial activities are proper comparators to in-home
private religious gatherings. Instead, it appears Appellants are arguing that we
should reach the conclusion the Supreme Court rejected when it did not enjoin
capacity limitations and singing restrictions in houses of worship:

that any

restrictions that have an incidental effect on religious conduct can be appropriately
compared to restrictions on any secular conduct.
Based on the record, the district court concluded that the State reasonably
distinguishes in-home private gatherings from the commercial activity Appellants

8

Appellants also mention salons in a laundry list of indoor commercial
activities that are not limited to three households. But Appellants do not explain
why salons should be considered analogous secular conduct and they point to
nothing in the record to support that comparison.
18
- App. 018 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 19 of 52

assert is comparable. For example, the district court found that the State reasonably
concluded that when people gather in social settings, their interactions are likely to
be longer than they would be in a commercial setting; that participants in a social
gathering are more likely to be involved in prolonged conversations; that private
houses are typically smaller and less ventilated than commercial establishments; and
that social distancing and mask-wearing are less likely in private settings and
enforcement is more difficult. Tandon, 2021 WL 411375, at *30. Appellants do not
dispute any of these findings. Therefore, we conclude that Appellants have not
established that strict scrutiny applies to the gatherings restrictions. Appellants do
not contend that the State’s restrictions fail rational basis review, and we agree with
the district court that the capacity restrictions likely meet that low bar. See id. at
*40. Therefore, Appellants have not shown a likelihood of success on the merits of
the free exercise claim.
D.
Our dissenting colleague apparently agrees with Appellants’ argument that
broadly compares private religious gatherings to secular or commercial activity,
although unlike Appellants he focuses on the comparison to small businesses, such
as barbershops and tattoo parlors. These small businesses are not subject to the
three-household restriction for private gatherings or the capacity restrictions that
apply to other businesses and to houses of worship. See Cal. Dep’t of Pub. Health,

19
- App. 019 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 20 of 52

Blueprint for a Safer Economy, https://covid19.ca.gov/safer-economy/#tierassignments (last visited Mar. 30, 2021).
Nonetheless, the State requires that these small businesses implement
extensive safety protocols, explained in a fourteen-page, single-spaced document,
which incorporates the Guidance on Face Coverings and therefore “requires the use
of face coverings for both members of the public and workers in all public and
workplace settings.” See COVID-19 Industry Guidance: Expanded Personal Care
Services, at 3 (Oct. 20, 2020), https://files.covid19.ca.gov/pdf/guidance-expandedpersonal-care-services--en.pdf. Among other things, the Industry Guidance also
requires that such businesses:
• “Establish a written workplace-specific COVID-19 prevention plan,”
train workers on that plan and COVID-19 safety in general, and
“[r]egularly evaluate the workplace for compliance with the plan.”
• “Provide temperature and/or symptom screenings for all workers at the
beginning of their shifts.”
• “Contact customers before visits to confirm appointments and ask if
they or someone in their household is exhibiting any COVID-19
symptoms.”
• “Tell customers that no additional friends or family will be permitted
in the facility, except for a parent or guardian accompanying a minor.”
• “Use hospital grade, Environmental Protection Agency (EPA)approved products to clean and disinfect anything the client came in
contact with.”

20
- App. 020 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 21 of 52

• “Implement measures to ensure physical distancing of at least six feet
between and among workers and customers, except while providing the
services that require close contact.”
• “Maintain at least six feet of physical distance between each work
station area, and/or use impermeable barriers between work stations to
protect customers from each other and workers.”
• Require that “workers who consistently must be within six feet of
customers or co-workers must wear a secondary barrier (e.g., face
shield or safety goggles) in addition to a face covering.”
• “Stagger appointments to reduce reception congestion and ensure
adequate time for proper cleaning and disinfection between each
customer visit.”
• “Ask customers to wait outside or in their cars . . . [r]eception areas
should only have one customer at a time.”
Id. at 4–10.

These businesses are also subject to ventilation, cleaning, and

disinfecting protocols. Id. at 7–9. The Industry Guidance also provides additional
restrictions for specific services such as esthetic and skin care services, electrology
services, nail services, massage services, and restrictions for body art professionals,
tattoo parlors, and piercing shops. Id. at 11–14. These restrictions, for example,
“suspend piercing and tattooing services for the mouth/nose area,” allow “tattooing
or piercing services for only one customer at a time,” and state that “[f]acial
massages should not be performed if it requires removal of the client’s face

21
- App. 021 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 22 of 52

covering.” Id. at 14.9
These restrictions for businesses that provide personal care services establish
that there is very little basis for comparing these businesses to private in-home
religious gatherings. For example, they refer extensively to policies these businesses
should adopt regarding “customers,” “appointments,” and “workers,” which do not
appear to translate readily to in-home gatherings. Also, ensuring public-facing
businesses comply with these regulations is a fundamentally different task from
regulating conduct in private homes, which government authorities cannot simply
enter at will. See, e.g., Florida v. Jardines, 569 U.S. 1, 6 (2013) (“At the [Fourth]
Amendment’s very core stands the right of a man to retreat into his own home and
there be free from unreasonable governmental intrusion.” (quotation marks and
citation omitted)). Thus, it appears that “personal care services” are not analogous
secular businesses or appropriate comparators to private in-home religious
gatherings.
Significantly, we do not ground our conclusion on any speculation outside the

9

The dissent repeatedly emphasizes tattoo parlors, see Dissent at 9, 10, 14,
17, 21, which might provide a useful rhetorical foil for in-home Bible studies, but
the parties do not cite tattoo parlors as a point of comparison for in-home religious
activities. Our dissenting colleague’s implication is that tattoo parlors are subject to
less onerous restrictions than in-home Bible study (apparently based on his opinion
that a three-household limit is more onerous than the detailed restrictions that apply
to businesses that provide personal care services) and that they significantly
contribute to the spread of COVID-19 in California (or else they would not be
relevant comparators to in-home religious gatherings).
22
- App. 022 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 23 of 52

record about the circumstances in which “personal care services” typically take
place. The dissent, in contrast, does make such speculations about personal care
services. See Dissent at 8–10. We remind our colleague, however, that Appellants
bear the burden of showing a likelihood of success on the merits to justify an
injunction pending appeal. To do so on the basis that the regulation fails under strict
scrutiny, they (not the State) bear the further burden of showing that the regulation
triggers strict scrutiny by regulating religious activities more strictly than
comparable secular activities. See Doe v. Harris, 772 F.3d 563, 570 (9th Cir. 2014)
(explaining that for a preliminary injunction “in the First Amendment context, the
moving party bears the initial burden of making a colorable claim that its First
Amendment rights have been infringed, or are being threatened with infringement,
at which point the burden shifts to the government to justify the restriction.” (citation
omitted)). They have failed to make that showing here.10
E.
Our dissenting colleague also argues that the gatherings restrictions are not
neutral because they favor certain political activities, specifically outdoor rallies and

10

Additionally, our dissenting colleague appears to conflate the two steps of
the free exercise analysis when he argues that California’s regulation of these
businesses “is a sure sign that narrower tailoring is possible for in-home religious
practice.” Dissent at 18. We need not, and do not, analyze whether California’s
gatherings restriction is narrowly tailored because we conclude that it does not
disfavor religious practice and therefore does not trigger strict scrutiny.
23
- App. 023 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 24 of 52

protests, over outdoor religious activities.

Dissent at 10–11.

However, he

recognizes that outdoor religious activities are allowed at houses of worship and are
not

limited

to

three

households.

See

About

COVID-19

Restrictions,

https://covid19.ca.gov/stay-home-except-for-essential-needs (under “Can I go to
church?” tab) (last visited Mar. 30, 2021). Also, indoor rallies and protests are
subject to the same restrictions as public indoor religious gatherings at houses of
worship. Id. (under “Can I engage in political rallies and protest gatherings?” tab)
(explicitly applying the restrictions for indoor services at houses of worship to indoor
rallies and protests). Therefore, in arguing that outdoor religious and secular
activities in private homes are treated differently, it appears that the dissent assumes
that outdoor “rallies” and “protests” are allowed in backyards of private homes.
Dissent at 10–11. But this is not at all clear from the plain language of the
restrictions, which fail to define “rallies” and “protests” and do not clearly delineate
where these events are allowed, and so the dissent’s argument necessarily depends
on assumptions and speculation.
If we were to apply the dictionary definition of “rally,” we could conclude
that outdoor “rallies” and “protests” refer to mass public gatherings, typically
organized outside government buildings, not private gatherings in backyards. See
Rally,

MERRIAM-WEBSTER,

https://www.merriam-webster.com/dictionary/rally

(last visited Mar. 30, 2021). Moreover, other language in the restrictions suggests

24
- App. 024 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 25 of 52

that rallies and protests are public political events that are treated the same as public
religious activities. For example, indoor public religious activities and indoor rallies
and protests are subject to the same capacity, face covering, and other safety
restrictions. See About COVID-19 Restrictions, https://covid19.ca.gov/stay-homeexcept-for-essential-needs/ (under “Can I engage in political rallies and protest
gatherings?” tab) (last visited Mar. 30, 2021). In addressing rallies and protests, the
State encourages “Local Health Officers” to consider outdoor attendance capacities,
which appears to refer to capacities in public locations, not backyards. See id. The
restrictions also state that participants at rallies and protests “must maintain a
physical distance of at least 6 feet from any uniformed peace officers.” Id. While it
is perhaps conceivable that uniformed peace officers would be at rallies and protests
in private backyards, this restriction certainly suggests the State is addressing
outdoor rallies and protests in public locations. Finally, the restrictions encourage
those for whom “collective action in physical space is important” to consider
participating in protests from their cars. Id. (under “I want to express my political
views. How can I make my voice heard without raising public health concerns?”
tab). Again, this suggests that rallies and protests would occur in public spaces that
can accommodate participation from cars, which would seem to exclude the
backyards of most private homes.
But again, we need not, and do not, rely on speculation outside the record to

25
- App. 025 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 26 of 52

determine whether Appellants have shown that rallies and protests are comparable
secular activities. Rather, we decline to grant the “drastic and extraordinary
remedy,” Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139, 165 (2010), of
emergency injunctive relief on the speculative grounds raised by our dissenting
colleague because Appellants have failed to carry their burden on these issues. See
Winter, 555 U.S. at 22 (“[I]njunctive relief [is] an extraordinary remedy that may
only be awarded upon a clear showing that the plaintiff is entitled to such relief.”).
Even as we deny Appellants’ motion for an injunction pending appeal, we do
so without prejudice to the possibility that a plaintiff could conceivably prevail based
on the political activities argument that the dissent makes—assuming, of course, that
plaintiff could make the necessary factual showings in support of those
arguments. But because these plaintiffs have not made this argument, and the State
has had no reason or opportunity to respond to them, we decline to express an
opinion on them now, let alone rely on them to grant the extraordinary remedy of an
injunction pending appeal.11
*

*

*

We believe the best interpretation of Roman Catholic Diocese, South Bay II,

11

Although our dissenting colleague writes that we “appear[] to share [his]
concerns regarding California’s exemption for political rallies and protests, but not
for religious activity,” Dissent at 19, we expressly make no ruling pertaining to the
substance of that argument.
26
- App. 026 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 27 of 52

and Gateway is that rational basis review should apply to the State’s gatherings
restrictions because in-home secular and religious gatherings are treated the same,
and because Appellants’ underinclusivity argument fails as they have not provided
any support for the conclusion that private gatherings are comparable to commercial
activities in public venues in terms of threats to public health or the safety measures
that reasonably may be implemented.

Thus, Appellants have not shown that

gatherings in private homes and public businesses “similarly threaten the
government’s interest,” and therefore they have not shown that strict scrutiny
applies.
Even if our dissenting colleague’s interpretation of the Supreme Court’s
precedent is plausible, that is not enough for Appellants to succeed at this stage of
the litigation. When a party asks for an emergency injunction pending appeal, we
ask whether that party “is likely to succeed on the merits.” Winter, 555 U.S. at 20
(emphasis added). The facts before us and the Supreme Court’s current case law do
not support the outcome advocated by our dissenting colleague.

Thus, it is

inappropriate to issue an injunction based on Appellants’ free exercise claims at this
time.12

12

Because the first Winter factor is dispositive of Appellants’ emergency
motion, we need not address the other factors. See California v. Azar, 911 F.3d 558,
575 (9th Cir. 2018) (“Likelihood of success on the merits is ‘the most important’
factor; if a movant fails to meet this ‘threshold inquiry,’ we need not consider the
other factors.” (citation omitted)).
27
- App. 027 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 28 of 52

III.
We also deny as unnecessary Appellants’ request for an injunction on their
free speech and assembly claims. Tandon seeks to host political activities such as
debates, fundraisers, and meet-the-candidate events, while the Gannons wish to hold
small-group political discussions. The district court concluded, without explanation,
that “the State’s private gatherings restrictions do not apply to the political campaign
events Tandon wishes to hold.” Tandon, 2021 WL 411375, at *25. Earlier, in its
summary of the various restrictions at issue, the district court stated that “the State
permits unlimited attendance at . . . outdoor political events.” Id. at *15. The district
court also stated that Tandon challenged Santa Clara County’s restrictions, while the
Gannons challenged the State’s restrictions. Id. at 13. But the district court did not
explain why the State’s restrictions would apply to the Gannons but not Tandon, and
did not explain how, or if, any of these political gatherings would be considered
rallies or protests.
On appeal, the State does not challenge the district court’s ruling. And
Appellants seem to assume that the gatherings restrictions prohibit all political
gatherings at issue here, except Tandon’s campaign rallies. The parties do not define
“rallies,” or explain when or where such events are permitted, or whether any
restrictions or safety protocols apply to these events. Nonetheless, based on the
district court’s ruling, the State’s gatherings restrictions do not apply to Tandon’s

28
- App. 028 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 29 of 52

requested political activities, and given the State’s failure to define rallies or
distinguish Tandon’s political activities from the Gannons’ political activities, we
conclude that, on the record before us, the State’s restrictions do not apply to the
Gannons’ political activities. Therefore, Appellants have not established that an
injunction is necessary, and we deny as moot the emergency motion for injunctive
relief on these claims.13
IV.
Finally, we conclude that the business owner Appellants have not established
a likelihood of success on their challenge. We have “never held that the right to
pursue work is a fundamental right,” and, as such, the district court likely did not err
in applying rational basis review to their due process claims. See Sagana v. Tenorio,
384 F.3d 731, 743 (9th Cir. 2004); Tandon, 2021 WL 411375, at *16–19. Likewise,
business owners are not a suspect class, and the district court correctly applied
rational basis review to their equal protection claims. See Williamson v. Lee Optical,
348 U.S. 483, 489, 491 (1955); Tandon, 2021 WL 411375, at *19–25.
V.
Appellants have not demonstrated a likelihood of success on the merits for

13

This denial is without prejudice to a party asserting in subsequent
proceedings that either Tandon’s or the Gannons’ motion for an injunction is not
mooted by the district court’s ruling limiting the scope of California’s gatherings
restriction.
29
- App. 029 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 30 of 52

their free exercise, due process, or equal protection claims, nor have they
demonstrated that injunctive relief is necessary for their free speech claims.
Therefore, we deny the emergency motion for an injunction pending appeal.
DENIED.

30
- App. 030 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 31 of 52

FILED
Ritesh Tandon v. Gavin Newsom, No. 21-15228
MAR 30 2021
BUMATAY, J., Circuit Judge, dissenting in part and concurring in part:

MOLLY C. DWYER, CLERK

In this uncertain time, only a few things are clear:

U.S. COURT OF APPEALS

First, courts are not competent to respond to the COVID-19 crisis.
California, like other States, is charged with the authority and the responsibility of
guiding her people through this pandemic.

And courts shouldn’t engage in

unnecessary second-guessing or hindsight quarterbacking when it comes to matters
of health and safety.
Second, and most foundational, the Constitution is enduring. The rights
enshrined by the Constitution persist in times of crisis and tranquility. Thus, at all
times, courts must fulfill their duty to ensure that constitutional rights are protected.
Equally certain are the Supreme Court’s instructions for navigating the
intersection of these two principles. While States possess the discretion to respond
to the pandemic, we can never abdicate our role as the bulwark against constitutional
violations. In adjudicating challenges to COVID-19 restrictions, we must recognize
that the right to the free exercise of religion guaranteed by the First Amendment is
among our most fundamental freedoms. No State, in implementing a COVID-19
response, can arbitrarily discriminate against the exercise of religion.
Three times before, the Supreme Court has found that our court failed to strike
the proper balance between these principles. Unfortunately, we make the same
mistake here. California currently bans all indoor and outdoor gatherings at home
1

- App. 031 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 32 of 52

with more than three households. Pastor Jeremy Wong and Karen Busch seek to
enjoin that restriction to allow them to host Bible studies and communal worship in
their homes without the three-household limitation.

By failing to grant their

requested injunction, we disregard the lessons from the Court and turn a blind eye
to discrimination against religious practice.
I agree with the majority that (1) an injunction is unnecessary on Appellants’
free speech and assembly claims since California’s gatherings restrictions do not
apply to their political activities, and (2) Appellants have not demonstrated that the
State’s commercial restrictions violate due process or equal protection. But I would
hold that California has clearly infringed on Wong and Busch’s free exercise rights.
Accordingly, I would grant their requested injunction pending appeal of their
religious freedom claim. For this reason, I respectfully dissent.
I.
The Free Exercise Clause forbids the government from subjecting religious
activity to “unequal treatment.” Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 542 (1993) (simplified). To that end, a law that burdens
religious practice must be both neutral and generally applicable.

Id. at 546.

Otherwise, it must be subjected to “the most rigorous of scrutiny.” Id. Restrictions
are not generally applicable if they burden religious activity more than “analogous”
secular conduct. Id.

2

- App. 032 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 33 of 52

When it comes to Free Exercise challenges to COVID-19 restrictions, we are
no longer writing on a blank slate. Just last month, the Supreme Court corrected us
in three separate cases—each time enjoining portions of California’s emergency
restrictions on Free Exercise grounds. See S. Bay United Pentecostal Church v.
Newsom, 141 S. Ct. 716 (2021) (South Bay); Harvest Rock Church v. Newsom, No.
20A137, __ S. Ct. __, 2021 WL 406257 (Feb. 5, 2021); Gateway City Church v.
Newsom, No. 20A138, __ S. Ct. __, 2021 WL 753575 (Feb. 26, 2021). Even before
then, the Court provided significant direction on how to evaluate COVID-19
limitations on religious exercise. See Roman Catholic Diocese of Brooklyn v.
Cuomo, 141 S. Ct. 63 (2020) (per curiam). Cumulatively, the message has been
clear: States may not disfavor religious activity in responding to the pandemic.
Our first lesson was in Roman Catholic Diocese of Brooklyn, when the Court
enjoined a New York executive order that limited attendance at religious services to
10 or 25 people, depending on whether the service took place in a “red” or “orange”
zone. Id. at 65–66. The Court explained that the restriction effected “disparate
treatment” because analogous businesses—including acupuncture facilities,
campgrounds, garages, and retail stores—were not subject to capacity limits. Id. at
66. It therefore applied strict scrutiny and concluded that the order was not narrowly
tailored. Id. at 67. Justice Kavanaugh further explained that it did not matter that
“some secular businesses are subject to similarly severe or even more severe

3

- App. 033 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 34 of 52

restrictions.” Id. at 73 (Kavanaugh, J., concurring) (emphasis original). When
restrictions create a “favored class” of businesses, the State must justify excluding
houses of worship from that class. Id.
After Roman Catholic Diocese came Harvest Rock Church.

That case

required two interventions by the Supreme Court. On the first trip up to the Court,
we had declined to enjoin California’s total prohibition on indoor worship services
in Tier 1—the most severe level of COVID-19 restrictions. Harvest Rock Church,
Inc. v. Newsom, 977 F.3d 728, 730–31 (9th Cir. 2020) (Harvest Rock II). The
Supreme Court gave us a second chance, vacating that order and remanding in light
of Roman Catholic Diocese. No. 20A94, __ S. Ct. __, 2020 WL 7061630 (Dec. 3,
2020) (Harvest Rock III). On the second trip to the Court, we again denied relief in
a largely unreasoned decision. 985 F.3d 771 (9th Cir. 2021) (Harvest Rock IV). The
Court once more stepped in and enjoined the prohibition. Harvest Rock Church,
2021 WL 406257, at *1.
Our court seemed to take the hint in South Bay, which challenged the same
ban on indoor religious services as in Harvest Rock Church. When the district court
denied injunctive relief, we vacated and remanded in light of Roman Catholic
Diocese and Harvest Rock Church. S. Bay United Pentecostal Church v. Newsom,
981 F.3d 765 (9th Cir. 2020) (South Bay II). But when the district court again denied
relief, we simply affirmed, reaching the astounding conclusion that the total ban

4

- App. 034 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 35 of 52

satisfied strict scrutiny. S. Bay United Pentecostal Church v. Newsom, 985 F.3d
1128, 1146–48 (9th Cir. 2021) (South Bay III). This time, the Court responded
decisively.
Justice Gorsuch, joined in relevant part by four other members of the Court,
explained that California’s total ban on indoor religious services “single[d] out
religion for worse treatment than many secular activities,” triggering strict scrutiny.
South Bay, 141 S. Ct. at 719 (statement of Gorsuch, J.). And the Court had already
“made it abundantly clear that edicts like California’s fail strict scrutiny and violate
the Constitution.” Id. (citing Roman Catholic Diocese, 141 S. Ct. 63). Specifically,
the State failed to show that less-restrictive alternatives, like those afforded to
secular activities, were insufficient to address COVID-19 concerns. Id. at 718–19.
The Court’s order, therefore, “should have been needless” because of the “extensive
guidance” made available to lower courts. Id. But our failure to apply Roman
Catholic Diocese compelled the Court itself to enjoin the ban.
Finally came Gateway City Church. There, Santa Clara County’s order
restricted religious activity by shuttering indoor “[g]atherings (e.g., political events,
weddings, funerals, worship services, movie showings, cardroom operations).”
Gateway City Church v. Newsom, No. 20-cv-8241, 2021 WL 308606, at *4 (N.D.
Cal. Jan 29, 2021) (Gateway City Church II). As here, exceptions were made for
certain favored activities but not worship services. Id at *10. Nevertheless, we

5

- App. 035 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 36 of 52

denied an injunction pending appeal simply because the County’s order restricted
“gatherings” without specific reference to religion.

No. 21-15189, 2021 WL

781981, at *1 (9th Cir. Feb. 12, 2021) (Gateway City Church III). In our view, that
made the order neutral and generally applicable. Id. The plaintiffs appealed to the
Supreme Court, and you can guess the rest: it granted the injunction in a oneparagraph opinion, tersely faulting our court for again failing to apply its precedents.
Gateway City Church, 2021 WL 753575, at *1. Once again, we should have
recognized that the Court’s prior decisions “clearly dictated” enjoining the
restriction. Id. At this point, a tale as old as time.
The instructions provided by the Court are clear and, by now, redundant.
First, regulations must place religious activities on par with the most favored class
of comparable secular activities, or face strict scrutiny. Roman Catholic Diocese,
141 S. Ct. at 66–67. States do not satisfy the Free Exercise Clause merely by
permitting some secular businesses to languish in disfavored status alongside
religious activity. Id. Second, the fact that a restriction is itself phrased without
reference to religion is not dispositive. See Gateway City Church, 2021 WL 753575,
at *1. So long as some comparable secular activities are less burdened than religious
activity, strict scrutiny applies. Third, businesses are analogous comparators to
religious practice in the pandemic context. Roman Catholic Diocese, 141 S. Ct. at
67.

6

- App. 036 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 37 of 52

II.
Pastor Jeremy Wong and Karen Busch each seek an injunction of the
California restriction preventing them from hosting Bible studies and communal
worship services with more than three total households of fellow worshippers. To
succeed, they must establish (1) a strong likelihood of success on the merits, (2) a
possibility of irreparable injury if relief is not granted, (3) a balance of hardships in
their favor, and (4) advancement of the public interest. Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 20 (2008). Likelihood of success on the merits is the most
important preliminary injunction factor. Doe #1 v. Trump, 984 F.3d 848, 861 (9th
Cir. 2020). Furthermore, because the government is a party to the case, the third and
fourth factors merge. Id.
A.
Based on the legal background above, California’s gatherings restriction as
applied to in-home worship and Bible study is subject to strict scrutiny, and the State
has not sustained its burden to prove the household limitations are narrowly tailored.
Consequently, Wong and Busch have shown a clear likelihood of success on the
merits, and the first Winter factor tips strongly in favor of granting the injunction.
1.
As Roman Catholic Diocese, South Bay, and Gateway City Church instruct
us, we must apply strict scrutiny to any restriction that disparately impacts religious

7

- App. 037 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 38 of 52

practice compared to analogous secular conduct. For purposes of this comparison,
“[w]hether conduct is analogous . . . does not depend on whether the religious and
secular conduct involve similar forms of activity[,]” but is instead “measured against
the interests the State offers in support of its restrictions on conduct.” Monclova
Christian Acad. v. Toledo-Lucas Cnty. Health Dep’t, 984 F.3d 477, 480 (6th Cir.
2020) (applying Roman Catholic Diocese to a regulation on all schools given its
impact on religious schools).
Here, the State’s worthy interest is in mitigating the transmission of COVID19. But California’s limitations on in-home religious activities is noticeably more
restrictive than analogous secular activities. The gatherings order limits Wong’s and
Busch’s Bible study and home worship to three households, even when held
outdoors. 1

Yet California permits the operation of many comparable secular

activities without similar household limitations, despite implicating the same interest
in preventing the spread of COVID-19.
In particular, hair salons, barbershops, and “personal care services” may open
indoors without maximum household restrictions.2 “Personal care services” include

1

CDPH Guidance for the Prevention of COVID-19 Transmission for
Gatherings, California Department of Public Health (Nov. 13, 2020),
https://www.cdph.ca.gov/Programs/CID/DCDC/Pages/COVID-19/Guidance-forthe-Prevention-of-COVID-19-Transmission-for-Gatherings-November-2020.aspx.
2
See California Department of Public Health, COVID-19 Industry Guidance:
Hair
Salons
and
Barbershops
(Oct.
20,
2020),
8

- App. 038 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 39 of 52

many businesses where hours-long physical proximity and touching is required, such
as nail salons, tattoo parlors, body waxing, facials and other skincare services, and
massages.3 So too with barbershops and hair salons. Discussions of faith and
scripture, by comparison, can take place while socially distanced.
Some personal care services may even allow their clients to forego masking.
Facials, electrolysis, and other like services necessarily require ready access to a
client’s face, and California permits clients in such circumstances to go maskless.4
The result is that a beauty shop may host an unrestricted number of households, half
of them bare-faced and in immediate proximity to the other half. But Wong, in a
space of the same size—even an outdoor space—would be limited to three
households, despite donning masks and maintaining a six-foot distance.
Likewise, Busch, whose Bible study is attended by couples, can host only two
other couples in her house or backyard, no matter how much distance they maintain
or the size of her living room. But tattoo artists may inject ink into the arms, legs,

https://files.covid19.ca.gov/pdf/guidance-hair-salons--en.pdf;
California
Department of Public Health, COVID-19 Industry Guidance: Expanded Personal
Care Services (Oct. 20, 2020), https://files.covid19.ca.gov/pdf/guidance-expandedpersonal-care-services--en.pdf.
3
See
Industry
guidance
to
reduce
risk,
Covid.CA.gov,
https://covid19.ca.gov/industry-guidance/#personal-care-services (updated Oct. 20,
2020).
4
California Department of Public Health, COVID-19 Industry Guidance:
Expanded
Personal
Care
Services
11
(Oct.
20,
2020),
https://files.covid19.ca.gov/pdf/guidance-expanded-personal-care-services--en.pdf.
9

- App. 039 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 40 of 52

and faces of clients with no household limitation—meaning, in a space the same size
as Busch’s living room, tattoo parlors may accommodate perhaps double or triple
the number of households.
The disparity of treatment between secular and religious activities is even
more pronounced when we consider the outdoor-gatherings rules.

Under

California’s restrictions, except at places of worship,5 outdoor gatherings for
religious activities are subject to a three-household maximum.

Nevertheless,

outdoor gatherings for rallies and protests are subject to no household maximum, so
long as attendees stay six feet away from others of different households.6
Accordingly, if Wong and Busch move their Bible studies or prayer groups to their
backyards, the three-household maximum would still be in effect. But if a political
party or organization wants to hold a rally or protest at the same or any other
location, then maximum household limits are off the table. Under the Constitution,
what’s good for political rallies and protests should also be good for religious

Although California restricts indoor capacity at places of worship to 25% in
Tiers 1 and 2 and to 50% in Tiers 3 and 4, it does not impose maximum household
limits on outdoor activities. See Industry guidance to reduce risk, Covid.CA.gov,
https://covid19.ca.gov/industry-guidance/ (under the “Places of worship and cultural
ceremonies” tab) (updated Feb. 22, 2021).
6
About COVID-19 restrictions, Covid19.CA.gov (Mar. 22, 2021),
https://covid19.ca.gov/stay-home-except-for-essential-needs/ (under the “Can I
engage in political rallies and protest gatherings?” tab).
5

10

- App. 040 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 41 of 52

worship. In other words, California cannot treat religious exercise worse than
political expression.
A law is not generally applicable when its restrictions “substantially
underinclude non-religiously motivated conduct that might endanger the same
governmental interest that the law is designed to protect.” Stormans, Inc. v.
Wiesman, 794 F.3d 1064, 1079 (9th Cir. 2015) (citing Lukumi, 508 U.S. at 542–46).
But California is guilty of doing just that. The State makes exemptions based on the
subject matter of the gathering by lifting household caps for political expression but
not for religious expression. If people want to gather to engage in an outdoor
political rally or protest, California’s message to them is, “Go right ahead!” But if
those same people wish to gather outdoors to pray, unless at a place of worship,
California says, “Not so fast!” Political rallies and protests are favored—even
though the State admits that they “present special public health concerns for high
risk of COVID-19 transmission.” 7 Religious gatherings are not. This sort of
religious gerrymander is odious to the First Amendment and to the Supreme Court’s
precedents. Consequently, California’s restrictions have the same problem as in
Gateway City Church: once again providing exceptions for certain favored activities
but excluding religious activities. 2021 WL 308606, at *10.
About COVID-19 restrictions, Covid19.CA.gov (Mar. 22, 2021),
https://covid19.ca.gov/stay-home-except-for-essential-needs/ (under the “Can I
engage in political rallies and protest gatherings?” tab).
7

11

- App. 041 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 42 of 52

These inconsistent regulations amount to disparate treatment of religious
practice and are accordingly not generally applicable. See Roman Catholic Diocese,
141 S. Ct. at 66–67; South Bay, 141 S. Ct. at 717 (statement of Gorsuch, J.).
California’s COVID-19 restrictions patently favor analogous, secular activities over
in-home worship and Bible studies. Thus, these restrictions are subject to the “most
rigorous of scrutiny.” Lukumi, 508 U.S. at 546. I do not begrudge business owners
their reprieve, but when California allows greater freedoms for some sectors, it may
not leave religious activities behind. The Court’s recent decisions “clearly dictate[]”
the outcome here. Gateway City Church, 2021 WL 753575, at *1. Strict scrutiny
applies.
2.
To satisfy strict scrutiny, California must show that the restriction is narrowly
tailored to serve a compelling state interest. Roman Catholic Diocese, 141 S. Ct. at
67. Managing the COVID-19 pandemic is doubtless a compelling interest. Id. But
California has not met its burden of demonstrating that the gatherings restriction is
narrowly tailored.
Our strict scrutiny review is no less exacting because of our unusual times.
Even in the face of a pandemic, “[i]t has never been enough for the State to insist on
deference or demand that individual rights give way to collective interests.” South
Bay, 141 S. Ct. at 718 (statement of Gorsuch, J.). While “we are not scientists,” we

12

- App. 042 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 43 of 52

do not “abandon the field when government officials with experts in tow seek to
infringe a constitutionally protected liberty.” Id.
California asserts the gatherings restriction is narrowly tailored because it is
based on “objective risk criteria,” and baldly claims that less-restrictive alternatives
will not do. See Tandon v. Newsom, No. 20-cv-7108, 2021 WL 411375, at *18 (N.D.
Cal. Feb. 5, 2021). The criteria are:
(1) the ability to accommodate face covering wearing at all times; (2)
the ability to physically distance between individuals of different
households; (3) the ability to limit the number of people per square foot;
(4) the ability to limit the duration of exposure; (5) the ability to limit
the amount of mixing of people from different households; (6) the
ability to limit the amount of physical interactions; (7) the ability to
optimize ventilation; and (8) the ability to limit activities that are known
to increase the possibility of viral spread, such as singing, shouting, and
heavy breathing.
Id. But these criteria are nearly word for word the same ones rejected by the
Supreme Court as insufficient to justify the shutdown of places of worship under
strict scrutiny. See South Bay III, 985 F.3d at 1134 (listing criteria); South Bay, 141
S. Ct. at 718 (statement of Gorsuch, J.) (noting that these factors—while “legitimate
concerns”—do not justify a total ban on places of worship).
The reasoning of South Bay applies with equal force to worship and prayer
within the home. The above factors are not “always present in [in-home] worship,”
even with more than three households, and they are not “always absent from the
other secular activities its regulations allow.” 141 S. Ct. at 718. An in-home Bible

13

- App. 043 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 44 of 52

study including more than three households may be conducted with face coverings
and physical distancing; for a limited duration; with no “mixing” of households,
physical interactions, or singing or shouting; and with open windows and doors. The
same can hardly be said of tattoo parlors and nail salons. This sort of mismatch is a
“telltale sign[]” of the lack of narrow tailoring. Id. California’s failure to even
attempt to distinguish South Bay only underscores this inevitable conclusion.
Even if studying scripture at home risks some level of transmission of
COVID-19, the exemptions for barbershops, tattoo and nail parlors, and other
personal care businesses reveal that less-restrictive alternatives are available to
California to mitigate that concern. If the State is truly concerned about the
“proximity, length, and interaction” of private gatherings, as it claims, it could
regulate those aspects of religious gatherings in a narrowly tailored way. But the
one thing California cannot do is privilege tattoo parlors over Bible studies when
loosening household limitations. 8

The majority falsely charges me with implying that tattoo parlors
“significantly contribute” to the spread of COVID-19 in California. Maj. Op. 22
n.9. I make no such implication. Indeed, the majority cites to nothing in my dissent
for this needless accusation. I draw the comparison between the two because tattoo
parlors require close interactions, while Bible studies do not. That California treats
them differently should be given the highest scrutiny.
8

14

- App. 044 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 45 of 52

Accordingly, the gatherings restriction fails strict scrutiny when applied to
religious practices, and so Wong and Busch are likely to prevail on their Free
Exercise claim.
3.
The majority concludes that Wong and Busch are unlikely to succeed on the
merits because California bans in-home gatherings with more than three households
across the board. The majority insists that we look to California’s treatment of other
in-home activities, and not to secular businesses, to determine if the Constitution
was violated. It confines Roman Catholic Diocese, South Bay, and Gateway City
Church to only places of worship. This is wrong for several reasons.
Neither the Constitution nor the Court’s precedents limit the right to free
exercise to places of worship. The text of the First Amendment confers protection
on religious “exercise,” not “places of worship.” U.S. Const. amend. I. Thus, the
freedom to practice one’s religion inheres without respect to location. So whether
at church, mosque, synagogue, or at home, the State may not infringe on the free
exercise right—at least not without a compelling interest and narrow tailoring.
The majority draws a different rule, allowing States to disfavor religious
exercise at home, as long as they ensure places of worship maintain equal footing
with business interests. But there is no basis under the Free Exercise Clause or the
Supreme Court’s precedents to confine religious freedom to “free exercise zones,”

15

- App. 045 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 46 of 52

while worship elsewhere is left in the cold. The majority only gets there by
narrowing Roman Catholic Diocese, South Bay, and Gateway City Church’s
applicability to places of worship so that they have no binding or even persuasive
value in any other context. But as lower court judges, we “don’t have license to
adopt a cramped reading of a case” or to “create razor-thin distinctions” to evade the
reach of precedent. Nat’l Lab. Rels. Bd. v. Int’l Ass’n of Bridge, Structural,
Ornamental, & Reinforcing Iron Workers, Loc. 229, AFL-CIO, 974 F.3d 1106, 1117
(9th Cir. 2020) (Bumatay, J., dissenting). Rather, we often look to the “reasoning”
of the Court’s precedents for instruction, not just a simplistic comparison of facts.
Langere v. Verizon Wireless Servs. LLC, 983 F.3d 1115, 1121–22 (9th Cir. 2020).
By limiting these precedents to houses of worship, the majority loses sight of
why houses of worship are protected at all: because of the religious exercise that
occurs therein. The Constitution shields churches, synagogues, and mosques not
because of their magnificent architecture or superlative acoustics, but because they
are a sanctuary for religious observers to practice their faith. And that religious
practice is worthy of protection no matter where it happens. As singer Brandon
Flowers puts it, “[t]his church of mine may not be recognized by steeple / But that
doesn’t mean that I will walk without a God.” Playing With Fire, Flamingo (Island
Records 2010). So while Wong and Busch’s prayer groups and Bible studies do not

16

- App. 046 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 47 of 52

take place in a building topped with a steeple, the First Amendment is broad enough
to shelter their worship.
The majority artificially creates narrow lines of comparison by refusing to
consider California’s treatment of secular businesses. This flies in the face of the
Court’s instructions, which analogized places of worship to a broad range of
facilities, including schools, garages, and campgrounds. Roman Catholic Diocese,
141 S. Ct. at 66. Under California’s stated interest in reducing the transmission of
COVID-19, it’s hard to see why in-home religious gatherings should be treated
differently from personal care businesses. Indeed, it does not take a scientist or
doctor to understand that hair salons, barbershops, and tattoo parlors can operate in
spaces similar in size to a home; that they could host a similar number of households
as a Bible study; or that they could service customers for as long as a prayer meeting.
The majority does not refute any of this. Instead, it cites to the district court’s
findings regarding the relative risk of transmission between social gatherings in
general and grocery and retail shopping. See Maj. Op. 19 (citing Tandon, 2021 WL
411375, at *30). None of this is dispositive for comparison to personal care
businesses.
Given the similarities between these activities, we should not myopically
focus only on California’s treatment of in-home activities to determine whether the
State unconstitutionally infringes on religious rights. As explained above, the

17

- App. 047 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 48 of 52

suppression of some comparable secular activity in a similar fashion as religious
activity is not dispositive.

See Roman Catholic Diocese, 141 S. Ct. at 73

(Kavanaugh, J., concurring). That California treats all in-home activities in an
equally poor manner does not grant it a pass on strict scrutiny review.
The majority also emphasizes that nail parlors and other small businesses are
not analogous to in-home worship because, though exempt from maximum
household limitations, they must disinfect surfaces and take other protective
measures. Maj. Op. 20–22. This only proves my point: there is no apparent reason
why California cannot provide health and safety guidance for in-home worship as it
does for businesses.9 That California believes these measures allow businesses—
even those requiring physical proximity and unmasking, like facial providers—to
open without a three-household limitation is a sure sign that narrower tailoring is
possible for in-home religious practice. While such measures may be intrusive,
preventing Wong and Busch from practicing their religion as they see fit is even
more intrusive.10
The majority also makes the most circular of arguments here: that personal
care businesses are not proper comparators to in-home religious worship precisely
because California imposed different COVID-19 restrictions on the two. Maj. Op.
22. But this roundabout reasoning permits the State to shield itself from strict
scrutiny by imposing a regulatory disparity, which instead should trigger strict
scrutiny. Courts then become nothing more than rubberstamps for State regulation.
10
The majority reasons that the Fourth Amendment’s core protection of the
home somehow supports the banning of religious exercises at that same home. Maj.
Op. 22. I disagree with that understanding of the Fourth Amendment.
9

18

- App. 048 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 49 of 52

Finally, the majority appears to share my concerns regarding California’s
exemption for political rallies and protests but not for religious activity. The
majority prefers not to reach that issue because Wong and Busch have not made the
precise argument here. Maj. Op. 26. But, as Justice Thurgood Marshall once wrote,
“[w]hen an issue or claim is properly before the court, the court is not limited to the
particular legal theories advanced by the parties, but rather retains the independent
power to identify and apply the proper construction of governing law.” Kamen v.
Kemper Fin. Servs., Inc., 500 U.S. 90, 99 (1991). In addition to the other indicia of
disparate treatment, the political rallies and protests exemption demonstrates a clear
disfavoring of religious activity. Accordingly, we should have held that Appellants
are likely to succeed on the merits. 11
B.
The irreparable harm factor also cuts strongly in favor of granting the
injunction. California’s gatherings restriction unquestionably causes “irreparable
harm.” Winter, 555 U.S. at 20. As enforced, the household limitation bars Wong
and Busch from hosting in-home Bible studies or communal prayers with their group
of fellow worshipers. But even during a pandemic, the “loss of First Amendment
Under our recent precedents, a motions panel’s decision is not binding on a
later merits panel in the same case. See, e.g., City & Cnty. of San Francisco v. U.S.
Citizenship & Immigr. Servs., 981 F.3d 742, 753 (9th Cir. 2020). While I question
the wisdom of this precedent, the merits panel in this case is free to revisit the
majority’s erroneous view of the law.
11

19

- App. 049 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 50 of 52

freedoms, for even minimal periods of time, unquestionably constitutes irreparable
injury.” Roman Catholic Diocese, 141 S. Ct. at 67 (quoting Elrod v. Burns, 427 U.S.
347, 373 (1976) (plurality opinion)).
Here, the loss has been far greater than just a day. Although both Wong and
Busch regularly held these religious gatherings in the years leading up to the
pandemic, California has barred them from meeting as a group for nearly a year.
And absent injunctive relief, their religious practices will continue to be interrupted
for the foreseeable future.
C.
The public interest also favors an injunction. Protecting religious liberty is
“obviously” in the public interest. California v. Azar, 911 F.3d 558, 582 (9th Cir.
2018). Indeed, the “Constitution and laws have made the protection of religious
liberty fundamental.” Apache Stronghold v. United States, No. 21-15295, 2021 U.S.
App. LEXIS 6562, at *20 (9th Cir. Mar. 5, 2021) (Bumatay, J., dissenting). Here,
Wong and Busch request a very narrow injunction, seeking only to prevent
California from prohibiting them from hosting religious gatherings at their homes
with more than three households during the pendency of this appeal. They have not
requested a State-wide injunction of the gatherings rule. Such a targeted injunction
is eminently justified compared to the “profound interest in men and women of faith

20

- App. 050 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 51 of 52

worshiping together.” On Fire Christian Ctr., Inc. v. Fischer, 453 F. Supp. 3d 901,
914 (W.D. Ky. 2020).
California asserts, and I agree, that “the public has a powerful interest in
curbing COVID-19 to prevent illness and death as well as preventing the State’s
hospital system from being overwhelmed.” Opp’n 29. Nevertheless, there is no
indication that “public health would be imperiled if less restrictive measures were
imposed.” Roman Catholic Diocese, 141 S. Ct. at 68. Nothing in the record supports
the view that Wong’s and Busch’s in-home worship is more dangerous for the spread
of COVID-19 than the operation of other businesses open for customers without
household caps.
At bottom, the public interest is not “served by maintaining an
unconstitutional policy when constitutional alternatives are available to achieve the
same goal.” Agudath Israel of Am. v. Cuomo, 983 F.3d 620, 637 (2d Cir. 2020).
Instead, California has amply demonstrated that such alternatives are available given
that hair salons, tattoo parlors, and piercing shops are all operating without strict
household limitations.
III.
The purpose of the Constitution was to place certain freedoms beyond the
whims of the government. Even in times of crisis, we do not shrink from our duty
to safeguard those rights. Freedom of worship is one of those enshrined rights, and

21

- App. 051 -

Case: 21-15228, 03/30/2021, ID: 12058150, DktEntry: 21, Page 52 of 52

the Supreme Court’s instructions have been clear, repeated, and insistent: no
COVID-19 restriction can disfavor religious practice. Yet our court today trudges
out another denial of relief to those seeking to practice their faith in the face of
discriminatory restrictions. I respectfully dissent.

22

- App. 052 -

Case 5:20-cv-07108-LHK Document 69 Filed 02/19/21 Page 1 of 1

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10

SAN JOSE DIVISION

United States District Court
Northern District of California

11
12

RITESH TANDON, et al.
Plaintiffs,

13
14

Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR
INJUNCTION PENDING APPEAL

v.

15

GAVIN NEWSOM, et al.,

16

Defendants.

Re: Dkt. No. 68

17
18
19

The Court DENIES Plaintiffs’ motion for an injunction pending appeal, ECF No. 68.
IT IS SO ORDERED.

20
21
22
23

Dated: February 19, 2021
______________________________________
LUCY H. KOH
United States District Judge

24
25
26
27
28

1
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR INJUNCTION PENDING APPEAL

- App. 053 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 1 of 80

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10

SAN JOSE DIVISION

United States District Court
Northern District of California

11
12

RITESH TANDON, et al.
Plaintiffs,

13
14

Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR
PRELIMINARY INJUNCTION

v.

15

GAVIN NEWSOM, et al.,

16

Defendants.

Re: Dkt. No. 18

17
18

Plaintiffs Ritesh Tandon, Terry and Carolyn Gannon, Jeremy Wong, Karen Busch, Maya

19

Mansour, Dhruv Khanna, Frances Beaudet, Julie Evarkiou, and Connie Richards (collectively,

20

“Plaintiffs”) sue Defendants Gavin Newsom, the Governor of California; Xavier Becerra, the

21

Attorney General of California; Sandra Shewry, the Acting State Director of the California

22

Department of Public Health; Erica S. Pan, Acting State Public Health Officer of the California;

23

Jeffrey V. Smith, County Executive of Santa Clara County; and Sara H. Cody, Health Officer and

24

Public Health Director of Santa Clara County (collectively, “Defendants”). Plaintiffs bring five

25

claims challenging Defendants’ COVID-19 restrictions: (1) violation of the right to free speech

26

and assembly protected by the First and Fourteenth Amendments; (2) violation of the right to free

27
28

1
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 054 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 2 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11

exercise and assembly protected by the First and Fourteenth Amendments; (3) violation of the
right to earn a living under the Due Process Clause of the Fourteenth Amendment; (4) violation of
the Equal Protection Clause of the Fourteenth Amendment; and (5) violation of the prohibition on
unconstitutionally vague criminal laws.
Before the Court is Plaintiffs’ motion for a preliminary injunction. Plaintiffs argue that
they are likely to succeed on the merits of their first four claims, they are likely to face irreparable
harm absent an injunction, and the public interest favors an injunction. Having considered the
parties’ submissions and oral arguments, the relevant law, and the record in this case, the Court
DENIES Plaintiffs’ motion for a preliminary injunction.
I. BACKGROUND
The COVID-19 Pandemic

12

1. The Emergence and Spread of COVID-19

13
14
15
16
17
18

In December of 2019, the novel coronavirus SARS-CoV-2 emerged in the Chinese city of
Wuhan. Watt Decl. Exh. 3. That coronavirus spread rapidly worldwide, causing a disease known
as Coronavirus Disease 2019 (“COVID-19”). Watt Decl. Exh. 12. On February 7, 2020, about two
months after COVID-19 had first been detected in China, Patricia Dowd, a 57-year-old woman
living in Santa Clara County, died of COVID-19, becoming the first known COVID-19 death in
the United States. Cody Decl. ¶ 10.

19
20
21

There have been 104 million confirmed cases of COVID-19 and 2.2 million deaths from
COVID-19 worldwide as of February 3, 2021. See WHO Coronavirus Disease (COVID-19)
Dashboard, World Health Organization, available at https://covid19.who.int/.1 In the United

22
23
24
25
26
27
28

1

The Court takes judicial notice of the most recently reported numbers of COVID-19 infections
and deaths. The Court may take judicial notice of matters that are either “generally known within
the trial court’s territorial jurisdiction” or “can be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b). Courts take judicial
notice of information found on government agency websites, such as the number of COVID-19
2
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 055 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 3 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

States, as of February 3, 2021, there have been 26 million confirmed cases of COVID-19 and
445,000 deaths; both are the highest numbers of any nation in the world. See COVID Data
Tracker, Centers for Disease Control and Prevention, available at https://covid.cdc.gov/coviddata-tracker/#datatracker-home [hereinafter “CDC COVID Data Tracker”]. The United States is
projected to face a death toll as high as the number of Americans that were killed in battle in
World War II. Rutherford Decl. ¶ 26. Public health experts have stated that the pandemic is the
worst in at least one hundred years. Id. ¶¶ 26, 42; Cody Decl. ¶ 71.
Since the pandemic began, the United States has experienced three waves of COVID-19.
Currently, the country is in its third wave, the worst wave yet by far. Rutherford Decl. ¶ 109.
In recent weeks, case counts and deaths have repeatedly shattered records. On January 8, 2021,
more than 314,000 confirmed cases were reported in the United States, a record number. See CDC
COVID Data Tracker.
California (“the State”) has been particularly affected by the pandemic. As of February 3,
2021, there have been 3.2 million confirmed cases of COVID-19, the highest number of any state
in the country, and more than 41,000 deaths, the second most of any state in the country. See CDC
COVID Data Tracker; Tracking COVID-19 in California, California for All, available at
https://covid19.ca.gov/state-dashboard/. In Santa Clara County, as of February 3, 2021, there have
been 102,836 confirmed COVID-19 cases, and 1,433 people have died from COVID-19. Johns
Hopkins University, COVID-19 Status Report, available at https://bao.arcgis.com/covid19/jhu/county/06085.html.
infections and deaths. See Paralyzed Veterans of Am. v. McPherson, 2008 WL 4183981, at *5–6
(N.D. Cal. Sept. 9, 2008) (citing circuit and district court cases). However, to the extent any facts
are subject to reasonable dispute, the Court will not take judicial notice of those facts. See Lee v.
City of L.A., 250 F.3d 668, 689 (9th Cir. 2001) (“A court may take judicial notice of matters of
public record . . . . But a court may not take judicial notice of a fact that is subject to reasonable
dispute.”) (internal quotation marks omitted), overruled on other grounds by Galbraith v. Cty. of
Santa Clara, 307 F.3d 1119 (9th Cir. 2002).
3
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 056 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 4 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

California has been particularly impacted during the current wave of the pandemic, when
cases and deaths have repeatedly shattered records. From November 16, 2020 to December 16,
2020, the number of new cases per day jumped from 9,890 to 53,711. See CDC COVID Data
Tracker. Deaths have spiked as well. Prior to the current wave, the record number of deaths per
day was 219 on August 1, 2020. Id. However, during the current wave, the record number of
deaths per day was 764 on January 22, 2021, or almost four times the previous record. Id.
The current wave of the pandemic has also strained hospital capacity. In recent weeks, the
State and various counties, including Santa Clara County, had 0 percent remaining ICU capacity.
See About COVID-19 Restrictions, California For All, https://covid19.ca.gov/stay-home-exceptfor-essential-needs/ (last accessed January 19, 2021); COVID-19 Hospitalizations Dashboard,
County of Santa Clara Emergency Operations Center, available at
https://www.sccgov.org/sites/covid19/Pages/dashboard-hospitals.aspx. As a result of the current
wave, Los Angeles County recently released a memorandum directing that patients not be
transported if they go into cardiac arrest and cannot be revived in the field. See EMS Transport of
Patients in Traumatic and Nontraumatic Cardiac Arrest, available at
http://file.lacounty.gov/SDSInter/dhs/1100458_Directive_6revTransportofTraumaticandNontraum
aticCardiacArrest.pdf.
As of February 3, 2021, Santa Clara County, which has a population of 1.9 million, has 5
percent remaining ICU capacity, which corresponds to just 16 ICU beds. COVID-19
Hospitalizations Dashboard, County of Santa Clara Emergency Operations Center, available at
https://www.sccgov.org/sites/covid19/Pages/dashboard-hospitals.aspx; Cody Decl. ¶ 5.
2. How COVID-19 Spreads
COVID-19 is highly contagious. Lipsitch Decl. ¶ 20. It has a reproduction rate of 2 to 6,
meaning that, if uncontrolled, each person with COVID-19 spreads it to between two and six
others. Id. This reproduction rate causes the number of COVID-19 infections to multiply
4
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 057 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 5 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

exponentially. Id. If a virus has a reproduction rate of more than one, the epidemic will grow, and
disease and death in the population will increase. Stoto Decl. ¶¶ 10, 12; Watt Decl. ¶ 26.
COVID-19 is transmitted when an individual is exposed to a sufficient dose of the virus to
overcome the body’s defenses. Watt Decl. ¶ 33. COVID-19 is primarily spread through respiratory
droplets from an infected person’s nose or mouth. Rutherford Decl. ¶¶ 28–33, Watt Decl. ¶¶ 25–
32. Although transmission by contact with an object on which the virus is present is believed to be
possible, it is rare. Rutherford Decl. ¶ 31; Watt Decl. ¶ 29.
Instead, individuals are likely to be exposed to a sufficient dose of the virus to be infected
when they are in close proximity with an infected person for an extended period of time, which
permits viral droplets or particles to move from the infected person to others. Watt Decl. ¶¶ 33,
37–44; Rutherford Decl. ¶ 74. The higher the dose of the virus to which someone is exposed, the
more likely they are to become seriously ill. Rutherford Decl. ¶ 34.
COVID-19 can be spread by individuals exhibiting no symptoms. About 40 percent of
those who are infected are asymptomatic, but asymptomatic people can still spread the virus. Cody
Decl. ¶ 9; Rutherford Decl. ¶ 28; Watt Decl. ¶¶ 30–31; Reingold Decl. ¶ 23. Furthermore, even
individuals who develop symptoms are believed to be most contagious the day before they
develop symptoms. Watt Decl. ¶ 32.
Because COVID-19 can be spread by individuals who are asymptomatic or
presymptomatic, it is difficult to control. Watt Decl. ¶ 32. Many people who are infected are not
aware that they are sick, so they do not take the appropriate precautions, such as isolating
themselves at home. Rutherford Decl. ¶ 28; Watt Decl. ¶ 32. In addition, people who are healthy
are often not able to determine by mere observation whether others they are with are sick. Watt
Decl. ¶ 39.
Individuals are likely to be exposed to a sufficient dose of the virus to be infected when
they are in close proximity with an infected person for an extended period of time, which permits
5
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 058 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 6 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

viral droplets or particles to move from the infected person to others. Watt Decl. ¶¶ 33, 37–44.
Accordingly, gatherings, which bring individuals from different households together for an
extended period of time, are particularly risky settings for the transmission of COVID-19. Id.;
Rutherford Decl. ¶¶ 60, 76–77; Cody Decl. ¶¶ 34–35.
The more time that a non-infected person spends in close proximity to an infected person,
the higher the likelihood that viral particles will move from the infected person to the non-infected
person. Watt Decl. ¶¶ 33, 37–44. For this reason, the risk of COVID-19 transmission increases
with the duration of the gathering. Rutherford Decl. ¶ 78; Watt Decl. ¶ 43.
The higher the number of households that gather together, the higher potential there is for
the virus to spread. Watt Decl. ¶ 42; Rutherford Decl. ¶ 77. This is because having a larger
gathering increases the number of people who can be infected, and those people can then infect
others. Watt Decl. ¶ 42. In addition, having a larger gathering increases the likelihood that a
person who is infected with COVID-19 is present. Id.; Cody Decl. ¶ 34. Furthermore, the
likelihood that an infected person is present is increased further where a gathering takes place in a
county in which there is a high prevalence of infection. Id.; Rutherford Decl. ¶ 81; Stoto Decl. ¶¶
10, 18.
Indoor gatherings are particularly dangerous because in an indoor environment with
limited ventilation, the virus disperses less easily and can remain in the air for a long period of
time, which allows it to accumulate into doses large enough to overcome the immune system.
Watt Decl. ¶ 44; Rutherford Decl. ¶¶ 60, 76–77; Reingold Decl. ¶ 20; Cody Decl. ¶ 29. One study
found that the likelihood of transmitting COVID-19 was 18.7 times greater in a closed
environment than in an open environment. Watt Decl. ¶ 44. Accordingly, the CDC advises that
activities are safer when they are held in outdoor spaces. Cody Decl. ¶ 31. However, even outdoor
gatherings carry a risk that the virus will be transmitted, especially when individuals are in close
proximity for an extended period. Rutherford Decl. ¶ 77.
6
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 059 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 7 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Singing, chanting, shouting, loud talking, and sustained conversations present particularly
high risks of infection because they involve vocalization, which increases the number of droplets
or particles that emit from an infected individual and the distance those droplets or particles can
travel. Rutherford Decl. ¶¶ 29, 79; Reingold Decl. ¶¶ 20–22; Cody Decl. ¶ 35. Although droplets
will normally fall to the ground within six feet, droplets can travel double that length, or twelve
feet, if a person is singing or speaking loudly. Rutherford Decl. ¶ 29. For these reasons, after a
choir rehearsal in Washington attended by 61 people, 32 people were confirmed COVID-19 cases,
20 people were probable COVID-19 cases, 3 people were hospitalized, and 2 people died.
Reingold Decl. ¶ 22; Cody Decl. ¶ 36.
Wearing face coverings and maintaining at least six feet of physical distance diminish the
risk of infection. Watt Decl. ¶¶ 38, 45–46, 48. However, a significant risk of infection remains,
particularly when people get together for extended periods and in environments with limited
ventilation, such as indoors. Id.; Rutherford Decl. ¶¶ 60, 76–77, 84. Accordingly, wearing a face
covering and physical distance are measures that should be taken in addition to, not instead of,
refraining from lengthy interactions. Rutherford Decl. ¶ 60; Watt Decl. ¶ 50.
In sum, because the virus spreads when droplets or particles move from an infected person
to a non-infected person, gatherings are particularly likely to lead to viral spread. Gatherings are
especially likely to lead to the spread of COVID-19 when: (1) the duration of time that the
gathering is held increases; (2) the number of people and households gathering increases; (3) the
rate of COVID-19 in the community increases; (4) the gathering is held indoors; and (5) the
gathering involves vocalization, such as loud speaking or singing. Although wearing a face
covering and physical distancing diminish the risk of spreading COVID-19, a significant risk of
infection remains, especially when gatherings are held indoors.
Because of the dangers of gatherings, at least 23 of 30 California counties experiencing
increases in their COVID-19 cases identified gatherings as a cause of the rise in cases. Watt Decl.
7
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 060 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 8 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16

¶ 41. In Sacramento, 71 cases of COVID-19 were linked to a church that held large indoor
services and smaller services in private homes. Cody Decl. ¶ 37. In Maine, an indoor wedding
attended by 62 people resulted in more than 180 infections, including among people living at a
long-term healthcare facility and at a jail. Id. Eight people who did not attend the wedding died.
Id. In Michigan, 187 infections were connected to an indoor bar and restaurant with a live DJ and
an open dance floor. Id. Of the total cases traced back to the restaurant, 144 were people who had
been to the venue, and 43 were family members, friends, and other contacts who had not. Id.
When California has put restrictions on gatherings into place, there has been a decrease in
cases. Id. ¶¶ 62, 93. The County has also seen a decrease in cases when gatherings have been
restricted. Cody Decl. ¶ 19. For example, when the County first issued a shelter-in-place order, the
case count was doubling every five days. Id. By contrast, after the County implemented its order,
the case count was doubling every three and a half months. Id. The County estimates that its
shelter in place orders prevented 80 percent of the infections that would have occurred. Id. ¶ 20.
One study estimates that without the stay at home orders at the outset of the pandemic, ten times
as many people would have become infected with COVID-19. Maldonado Decl. ¶ 15.
3. The Effects of COVID-19

17
18
19
20
21
22
23

COVID-19 results in a wide range of symptoms, from none at all to severe illness and
death. Watt Decl. ¶ 21. COVID-19 can cause pneumonia, respiratory failure, other organ failure,
cardiovascular events, strokes, seizures, and death. Rutherford Decl. ¶ 21; Watt Decl. ¶ 22;
Reingold Decl. ¶ 14.
The risk of severe illness from COVID-19 increases steadily with age. Watt Decl. ¶ 22;
Reingold Decl. ¶ 15.2 However, many younger people have become seriously ill and died from

24
25
26
27
28

2

The CDC previously stated that those in specific age thresholds were more at risk for severe
illness. Watt Decl. ¶ 22. However, the CDC now warns that the risk of severe illness increases
steadily as a person ages, and it is not only those over 65 who are most at risk. Id.
8
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 061 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 9 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

COVID-19. About twenty percent of those who have died of COVID-19 in the United States have
been younger than 65 years old. Lipsitch Decl. ¶ 28. In addition, nearly two thousand people who
have died of COVID-19 were younger than 30 years old as of February 3, 2021. See CDC COVID
Data Tracker.
Indeed, people of any age with underlying conditions and pregnant women are at increased
risk of severe illness from COVID-19. Id.; Rutherford Decl. ¶ 99. Underlying conditions that
increase the risk of serious illness include cancer, chronic kidney disease, chronic obstructive
pulmonary disease, heart conditions, immunocompromised state, obesity, severe obesity,
pregnancy, sickle cell disease, smoking, and type 2 diabetes mellitus. Reingold Decl. ¶ 15.
Underlying conditions that might increase the risk of serious illness include asthma (moderate to
severe), cerebrovascular disease, cystic fibrosis, hypertension or high blood pressure,
immunocompromised state, neurologic conditions, liver disease, being overweight, pulmonary
fibrosis, thalassemia, and type 1 diabetes mellitus. Id.
The CDC has found that approximately six in ten Americans have been diagnosed with a
subset of the COVID-19 underlying conditions. Specifically, six in ten Americans have been
diagnosed with at least one of the following: heart disease, cancer, chronic lung disease, stroke,
Alzheimer’s disease, diabetes, or chronic kidney disease. Reingold Decl. ¶ 17. Moreover, four in
ten Americans have been diagnosed with more than one of these conditions. Id. These conditions
are more common in communities of color and low-income communities. Lipsitch Decl. ¶ 28.
Approximately 15 percent of COVID-19 patients require hospitalization. Rutherford Decl.
¶ 22. Although a minority of COVID-19 patients require hospitalization, a high number of overall
infections results in a high number of hospitalizations. Lipsitch Decl. ¶ 17. As a result of the
number of patients who require hospitalization, COVID-19 outbreaks have created a public health
crisis of the highest magnitude. Rutherford Decl. ¶ 26; Reingold Decl. ¶ 13. The hospital system is
so full that it cannot provide appropriate treatment for people who have COVID-19 or otherwise
9
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 062 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 10 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24

treatable conditions. Rutherford Decl. ¶ 26.
Even individuals who are not hospitalized can face serious and long-term effects from
COVID-19, including cardiovascular, neurologic, renal, and respiratory damage, psychiatric
effects, and loss of limbs from blood clotting. Cody Decl. ¶ 7; Han Decl. ¶ 20; Watt Decl. ¶ 23;
Rutherford Decl. ¶¶ 23–25, 97. For example, the National Collegiate Athletic Association found
that college football players who had recovered from asymptomatic or mildly symptomatic
COVID-19 infections had a high rate of myocarditis, which can lead to cardiac arrest with
exertion. Rutherford Decl. ¶ 25. Much remains unknown about the effects of a COVID-19
infection, as it typically takes years for scientists to fully analyze a new virus. Rutherford Decl. ¶
16; Watt Decl. ¶ 18.
There is currently no cure or generally effective treatment for COVID-19. Rutherford Decl.
¶ 38; Watt Decl. ¶ 24. Patients who have trouble breathing can receive breathing and blood
oxygenation assistance. Id. However, when it is not possible to administer sufficient oxygen
through an external device, patients must be intubated and provided breathing assistance using a
ventilator. Id. Although the treatments have improved since the beginning of the pandemic, there
are still many deaths even with the improved treatments. Rutherford Decl. ¶ 40.
Although the first COVID-19 vaccines were approved on December 11, 2020 and
December 18, 2020, access to the vaccines remains limited in most communities to health care
workers and older adults. In the meantime, prior to the widespread availability of the vaccine, the
strategies recommended by the vast consensus of public health experts include stay at home
orders, physical distancing requirements, and limitations on gatherings. Rutherford Decl. ¶ 50;
Stoto Decl. ¶ 15; Watt Decl. ¶¶ 51–52; Reingold Decl. ¶ 27; Cody Decl. ¶ 75; Maldonado Decl. ¶¶
13, 18.

25
26
27
28

10
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 063 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 11 of 80

1

The State’s and the County’s Response to COVID-19

2

1. The State’s Response

3

Since the start of the pandemic, the State’s restrictions have constantly evolved based on

4

the scientific understanding of how COVID-19 spreads, the level of spread of COVID-19 in the

5

State, and the extent to which the State’s hospitals and ICUs lacked capacity.
On March 4, 2020, Governor Newsom proclaimed a State of Emergency in California.

United States District Court
Northern District of California

6
7

Haddad Decl. Exh. 6. 3 Two weeks later, as the first wave of COVID-19 was spreading, Governor

8

Newsom issued Executive Order N-33-20, the Stay at Home Order, which required “all

9

individuals living in the State of California to stay home or at their place of residence except as

10

needed to maintain continuity of operations of the federal critical infrastructure sectors.” Haddad

11

Decl. Exh. 7.

12

On April 28, 2020, as the first wave of infections came to an end, Governor Newsom

13

announced a “Resilience Roadmap,” which outlined four stages for reopening: (1) safety and

14

preparation; (2) reopening of lower-risk workplaces and other spaces; (3) reopening of higher-risk

15

workplaces and other spaces; and (4) ending the Stay at Home Order. Haddad Decl. Exh. 9.

16

During the summer of 2020, there was a second, and bigger, wave of COVID-19 infections

17

and deaths. Watt Decl. ¶ 66. On July 13, 2020, the State tightened restrictions, ordering closures of

18

bars, pubs, brewpubs, breweries, restaurants, wineries, tasting rooms, family entertainment

19

centers, movie theaters, zoos, museums, and cardrooms. Haddad Decl. Exh. 10 at 5–6; Watt Decl.

20

¶¶ 74–75. In counties that had heightened infection rates, the State also ordered the closure of

21

indoor operations of houses of worship, offices for non-critical infrastructure sectors, personal care

22

services, hair salons, barbershops, gyms, fitness centers, and malls. Id. at 6. As a result of these

23

restrictions, the infection rate decreased significantly. Watt Decl. ¶ 76.

24
25
26
27
28

3

The parties include the State and the County restrictions at issue in this case as exhibits to their
declarations. The Court cites to these restrictions throughout the order by citing to the exhibits.
11
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 064 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 12 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

On August 28, 2020, the Governor announced the Blueprint for a Safer Economy (“the
Blueprint”), which is an umbrella designation for the COVID-related restrictions enacted by the
State. Haddad Decl., Exh. 11. Some of the Blueprint’s restrictions are being challenged by
Plaintiffs in this case.
The Blueprint is a framework that prescribes restrictions based on the risk tier of the
county. Id. Counties are assigned to the widespread tier, the substantial tier, the moderate tier, and
the minimal tier. Id. Counties are assigned to a tier based on: (1) the average number of cases per
100,000 residents over a seven-day period; (2) the average percentage of COVID tests that come
back positive over a seven-day period; and (3) the health equity metric, which looks at case counts
and positivity rates in the County’s most disadvantaged neighborhoods, as measured by voting
participation, tree coverage, and retail density. Id.; Watt Decl. ¶ 76; Kurtz Decl. ¶¶ 17, 22–24.
The Blueprint’s restrictions differ based on the tier the county is in. In assigning activities
to each tier, the State considered eight objective factors, which are associated with the likelihood
that a given activity will result in the spread of COVID-19: (1) the ability to accommodate face
covering wearing at all times; (2) the ability to physically distance between individuals of different
households; (3) the ability to limit the number of people per square foot; (4) the ability to limit the
duration of exposure; (5) the ability to limit the amount of mixing of people from different
households; (6) the ability to limit the amount of physical interactions; (7) the ability to optimize
ventilation; and (8) the ability to limit activities that are known to increase the possibility of viral
spread, such as singing, shouting, and heavy breathing. Kurtz Decl. ¶ 20.
The Blueprint assigns activities to tiers as follows. Counties in the widespread tier are
subject to the most severe restrictions. Haddad Decl. Exh. 12. No indoor gatherings are permitted,
and outdoor gatherings are limited to three households maximum. Id. Restaurants, wineries,
cardrooms, gyms, museums, zoos, movie theaters, and family entertainment centers can operate
outdoors only. Id. Retail and shopping centers can operate at a maximum of 25 percent capacity.
12
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 065 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 13 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23

Id. Houses of worship also can operate outdoors only. In addition, on November 21, 2020, the
State added a curfew for counties in the widespread tier, who must stop “non-essential” activities
between 10 p.m. and 5 a.m.
In the substantial tier, gatherings are “strongly discouraged” but permitted indoors with up
to three households. Id. Shopping centers can operate at a maximum of 50 percent capacity. Id.
Museums and zoos can operate at a maximum of 25 percent capacity. Id. Restaurants and movie
theaters can operate indoors at a maximum of 25 percent capacity or 100 people, whichever is
fewer. Id. Gyms can operate at a maximum of 10 percent capacity. Id. Houses of worship can
operate indoors at a maximum of 25 percent capacity. Id.
In the moderate tier, gatherings are “strongly discouraged” but permitted indoors with up
to three households. Id. Shopping centers can operate, but they must close their common areas and
reduce the capacity of their food courts. Id. Museums and zoos can operate at a maximum of 50
percent capacity. Id. Restaurants and movie theaters can operate indoors at a maximum of 50
percent capacity or 200 people, whichever is fewer. Id. Gyms, cardrooms, and wineries can
operate at a maximum of 25 percent capacity. Id. Houses of worship can operate indoors at a
maximum of 50 percent capacity. Id.
The Blueprint originally set attendance limits for houses of worship in the substantial tier
at either 25 percent capacity or 100 people, whichever is fewer, and for houses of worship in the
moderate tier at either 50 percent capacity or 200 people, whichever is fewer. Haddad Decl. Exh.
12. However, the fixed 100 and 200 person attendance limits were enjoined by the Ninth Circuit
on January 22, 2021. See South Bay United Pentecostal Church v. Newsom, --- F.3d ---, 2021 WL
222814, at *17–*18.4

24
25
26
27
28

4

The appellants in South Bay have asked the United States Supreme Court for an emergency writ
of injunction. See Emergency Application for Writ of Injunction Relief Requested before Sunday
January 31, 2021, No. 20-746 (U.S. filed Jan. 25, 2021). That application is pending.
13
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 066 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 14 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

In every tier, the Blueprint allows modified operation of critical infrastructure sectors,
including healthcare, emergency services, the food and agriculture supply chain, the energy sector,
water and wastewater management, transportation, communications and information technology,
critical manufacturing, financial services, chemical and hazardous materials, defense, and
industrial, commercial, residential, and sheltering facilities and services. Id.
On top of the Blueprint, the State’s Department of Public Health issued guidance on
gatherings on October 9, 2020. Dunn Decl. Exh. 32. The State banned indoor gatherings and
limited outdoor gatherings to no more than three households in a two hour period, provided that
the venue permitted at least six feet of distance and people wore face coverings. Id.; Watt Decl. ¶
81.
On November 13, 2020, the State updated its ban on gatherings. Dunn Reply Decl. Exh. 4.
In the widespread tier, indoor gatherings were banned and outdoor gatherings were limited to no
more than three households. Id.
Beginning in November, a third, and bigger, wave of COVID-19 infections and deaths
started. On December 3, 2020, the State issued a new Regional Stay at Home Order, which created
five regions in the State and added additional restrictions if the region’s ICU capacity dropped
below 15 percent. Dunn Reply Decl. Exh. 7. The Regional Stay at Home Order required “[a]ll
individuals living in the Region [to] stay home or at their place of residence except as necessary to
conduct activities associated with the operation, maintenance, or usage of critical infrastructure.”
Id. Accordingly, under the Regional Stay at Home Order, all gatherings were banned. Id.
However, outdoor worship and outdoor political expression were permitted. Id.
On December 4, 2020, several Bay Area counties, including Santa Clara County, adopted
the Regional Stay at Home Order’s restrictions even though the counties had not yet met the
criteria set by the State. Dunn Reply Decl. Exh. 8. The restrictions went into effect in Santa Clara
County on December 6, 2020 at 10:00 p.m. Id. On December 15, 2020, the Bay Area region’s ICU
14
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 067 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 15 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

capacity dropped below 15 percent, making the Regional Stay at Home Order mandatory in Santa
Clara County. On January 25, 2021, the State ended the Regional Stay at Home Order. ECF No.
61 Exh. 1. However, the State’s Blueprint restrictions remain in place.
2. The County’s Response
Like the State’s restrictions, the County’s restrictions have been modified as the scientific
understanding of COVID-19 has progressed, as the spread of COVID-19 in the County has
changed, and as the County’s hospital and ICU capacity has changed.
Following the State’s declaration of a State of Emergency, on March 16, 2020, the County
issued a shelter-in-place order directing all individuals to stay at their place of residence except to
perform limited essential activities. Cody Decl. ¶¶ 11, 13. All businesses, except certain essential
businesses, were directed to cease operations, except certain minimum basic operations. Id. ¶ 13.
All gatherings of any number were prohibited, except with members of an individual’s own
household. Id.
On March 31, 2020, the County issued an updated shelter-in-place order that extended
through May 3, 2020. Id. ¶ 15. The Order included: (1) mandatory social distancing requirements,
(2) additional restrictions on essential businesses requiring them to limit the number of people in
the business and disinfect high touch surfaces; and (3) a prohibition on the use of playgrounds,
dog parks, and public recreational areas. Id. ¶ 17.
On April 29, 2020, the County issued a revised shelter-in-place order that extended most
shelter-in-place restrictions through May 31, 2020. Id. ¶ 22. Then, on May 18, 2020, the County
issued a revised shelter-in-place order that extended most of the restrictions. Id. ¶ 23. However,
based on the progress the County had made in slowing the spread of COVID-19, this order
allowed a limited number of businesses and activities to resume operations with safety precautions
in place. Id. ¶ 24.
On June 1, 2020, the County amended the May order. Based on the progress the County
15
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 068 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 16 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21

and the Bay Area had made in slowing the spread of COVID-19, this amendment allowed
additional businesses and activities to resume operations and allowed certain outdoor activities to
resume with restrictions. Id. ¶ 27.
On July 2, 2020, the County issued a new order. Id. ¶ 38. Based on the County’s increased
capacity to implement widespread testing and contain the virus, the County transitioned from a
shelter-in-place order to a longer-term harm reduction model. Id. ¶ 39. The order allowed most
activity, travel, and business operations to resume with significant limitations to reduce the spread
of the virus. Id. ¶ 40. Indoor and outdoor gatherings were allowed, but with face covering
requirements and attendance limits. Id. ¶ 42.
Following the July 2 order, the County issued the three orders being challenged in this
case: (1) the Mandatory Directive for Gatherings; (2) the Mandatory Directive for Personal Care
Services Businesses; and (3) the Mandatory Directive for Outdoor Dining, Wineries, Bars, and
Smoking Lounges (“Mandatory Directive for Outdoor Dining”).
On July 8, 2020, after COVID-19 cases in the County rose, the County issued a Mandatory
Directive for Gatherings, which prohibited indoor gatherings regardless of size and allowed
outdoor gatherings of up to 60 people with face coverings and physical distancing. Id. ¶ 43. On
July 14, 2020, the County issued three directives:
•

an Updated Mandatory Directive for Gatherings, which limited indoor and
outdoor gatherings,

•

a Mandatory Directive for Personal Care Services Businesses, which prohibited
any personal services on the face or neck because the client could not wear a
face covering, and

•

a Mandatory Directive for Outdoor Dining, which prohibited indoor dining and
required restaurants to situate tables such that tables were at least 10 feet apart.

22
23
24
25
26
27
28

Dunn Decl. Exh. 40, 42, 44.
On September 5, 2020, the County revised the Mandatory Directive for Gatherings by
16
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 069 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 17 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

relaxing some of its restrictions on outdoor gatherings. Cody Decl. ¶ 52. On October 4, 2020, the
County revised the Mandatory Directive for Outdoor Dining, Wineries, Bars, and Smoking
Lounges by broadening the definition of an outdoor facility to include those that have at least 50
percent of the perimeter open to the outdoors if covered, and 25 percent if uncovered. Id. ¶ 53.
On October 4, 2020, the County also updated the Personal Care Services Directive, which
permitted personal services on the face or neck as long as the provider of the service wore an N95
mask. On October 5, 2020, the County issued a revised risk reduction order, which superseded the
July 2 order. Id. ¶ 57.
On October 13, 2020, the County modified the Mandatory Directive for Gatherings.
Bussey Decl. Exh. B. For gatherings that were permitted by the State, the County limited indoor
gatherings to a maximum of 100 people, while outdoor gatherings were limited to a maximum of
200 people as long as they could maintain social distancing. Id. On November 16, 2020, the
County modified the Mandatory Directive for Gatherings. Bussey Decl. Exh. A. Unlike the
October 13, 2020 version of the Mandatory Directive for Gatherings, the November 16, 2020
version prohibited indoor gatherings while maintaining the 200 person limit on outdoor
gatherings. Id.
On October 13, 2020, the County also modified the Mandatory Directive for Outdoor
Dining by broadening the definition of an outdoor facility to include those that were completely
uncovered, like a courtyard, and by allowing indoor dining at the limits permitted by the
Blueprint. Cody Decl. ¶ 62. On November 17, 2020, the County modified the Mandatory Directive
for Outdoor Dining by prohibiting indoor dining and indoor wine tasting. Id. ¶ 66.
On December 4, 2020, the County adopted the State’s Regional Stay at Home Order even
though the County had not yet met the criteria set by the State. Dunn Reply Decl. Exh. 8. On
December 15, 2020, the Regional Stay at Home order became mandatory in the County. On
January 25, 2021, the State ended the Regional Stay at Home Order. ECF No. 61 Exh. 1.
17
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 070 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 18 of 80

1
2
3
4
5
6

However, the State’s Blueprint restrictions and the County’s restrictions remain in place. On
January 25, 2021, the County issued a modified Mandatory Directive for Gatherings. ECF No. 61
Exh. 3. Like the November 16, 2020 version of the Mandatory Direction, the current Mandatory
Directive for Gatherings prohibits indoor gatherings. Id. However, the County continues to permit
outdoor gatherings with an attendance limit of 200 people. Id.
3. Efforts Targeted at Vulnerable Populations

7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

In addition to these community-wide restrictions, the State and the County have also taken
measures that are targeted towards protecting populations that are especially vulnerable to severe
illness from COVID-19, including the elderly and residents of long-term care facilities.
In January 2020, about a month after COVID-19 was first detected and before any
COVID-19 cases had been detected in the State, the State began issuing guidelines and directives
that required long-term care facilities to undertake precautions. Steinecker Decl. ¶ 12. These
precautions have included routine testing, screening residents, limiting visitations, enhanced
sanitation, and mask wearing requirements. Steinecker Decl. ¶¶ 19–24; Tovmasian Decl. ¶¶ 12–
16, 24.5
Beginning in March 2020, the State has required licensed residential care facilities for the
elderly and adult residential facilities to take measures that prevent the spread of COVID-19,
including: (1) screening residents and staff for COVID-19 symptoms every day; (2) excluding
employees who display symptoms of COVID-19; (3) cleaning and disinfecting high-touch
surfaces; (4) requiring employees and residents to wash their hands upon entering the facility; (5)
limiting entry only to individuals who need entry for prevention, containment, and mitigation

5

The declaration of Lilit Tovmasian addresses the State’s policies for licensed residential care
facilities for the elderly and adult residential facilities, which are considered non-medical facilities.
Tovmasian Decl. ¶ 3. By contrast, the declaration of Heidi Steinecker addresses the State’s
policies for skilled nursing facilities, which are considered medical facilities. Steinecker Decl. ¶
10.
18
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 071 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 19 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

measures; (6) requiring staff to wear face coverings at all times and remind residents that they are
required to wear face coverings as much as practically possible; and (7) requiring training of staff
on prevention and control measures. Tovmasian Decl. ¶¶ 12–16, 24.
The State also requires facilities to engage in testing practices. Tovmasian Decl. ¶¶ 18–21,
Steinecker Decl. ¶ 15, 19. Facilities are required to test new residents prior to moving into the
facility, current residents who were treated off-site, new staff prior to starting, and current staff
after returning from a leave of absence. Id. ¶ 18. Facilities with a COVID-19 case must retest all
residents and staff every 14 days until no new cases are identified in two sequential rounds of
testing. Id. ¶ 20. Facilities without a COVID-19 case must conduct surveillance testing of 10
percent of all staff every 14 days and testing of residents who display symptoms or have been
exposed to someone who has tested positive. Id. ¶ 19. If a resident or staff member tests positive,
they are isolated and anyone who may have been exposed to them is quarantined. Tovmasian
Decl. ¶ 21.
The County has also taken steps to protect vulnerable populations, including targeted
outreach to distribute personal protective equipment, establishment of more testing locations in
vulnerable communities, and partnerships with community-based organizations. Garcia Decl. ¶ 14.
In addition, the County has taken measures to prevent the spread of COVID-19 inside long-term
care facilities, including implementing regular staff and resident testing, providing infection
control protocols, and visiting facilities to make recommendations on how best to implement
infection control. Han Decl. ¶ 9. The County has also taken steps to prevent the spread of COVID19 inside jails, including implementing regular testing, providing personal protective equipment,
contact tracing, and reducing the jail population. Id. ¶ 10. Finally, the County has implemented
measures to prevent spread inside homeless shelters by housing homeless individuals in motels
and finding permanent housing for formerly homeless residents and making regular testing
available. Id. ¶ 11.
19
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 072 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 20 of 80

1

Procedural History

2

On October 13, 2020, Plaintiffs Ritesh Tandon, Terry and Carolyn Gannon, Jeremy Wong,

3

Karen Busch, Maya Mansour, Dhruv Khanna, Frances Beaudet, Julie Evarkiou, and Connie

4

Richards brought suit against Defendants Gavin Newsom, the Governor of California; Xavier

5

Becerra, the Attorney General of California; Sandra Shewry, the Acting State Director of the

6

California Department of Public Health; Erica S. Pan, Acting State Public Health Officer of the

7

California; Jeffrey V. Smith, County Executive of Santa Clara County; and Sara H. Cody, Health

8

Officer and Public Health Director of Santa Clara County. ECF No. 1.

United States District Court
Northern District of California

9

Plaintiffs’ Complaint alleged five claims: (1) violation of the right to free speech and

10

assembly protected by the First and Fourteenth Amendments; (2) violation of the right to free

11

exercise and assembly protected by the First and Fourteenth Amendments; (3) violation of the

12

right to earn a living under the Due Process Clause of the Fourteenth Amendment; (4) violation of

13

the Equal Protection Clause of the Fourteenth Amendment; and (5) violation of the prohibition on

14

unconstitutionally vague criminal laws. ECF No. 1 ¶¶ 122–160. Plaintiffs sought declaratory and

15

injunctive relief. ECF No. 1.

16

On October 22, 2020, Plaintiffs filed a motion for a preliminary injunction. ECF No. 18

17

(“Mot.”). On November 18, 2020, County Defendants and State Defendants each filed an

18

opposition to Plaintiffs’ motion for a preliminary injunction. ECF No. 28 (“County Opp’n”); ECF

19

No. 30 (“State Opp’n”).

20

On November 25, 2020, the United States Supreme Court stayed New York’s COVID-

21

related restrictions on houses of worship in Roman Catholic Diocese v. Cuomo, 141 S. Ct. 63

22

(2020). The Court requested that Plaintiffs address the United States Supreme Court’s decision in

23

their reply and Defendants address the decision in a supplemental brief. ECF No. 38. On

24

December 7, 2020, Plaintiffs filed a reply. ECF No. 39 (“Reply”). On December 11, 2020,

25

Defendants filed a supplemental brief addressing the United States Supreme Court’s decision.

26

ECF No. 40 (“Supp. Brief”). On December 17, 2020, the Court held a hearing on Plaintiffs’

27
28

20
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 073 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 21 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

motion for a preliminary injunction. ECF No. 46.
On December 21, 2020, State Defendants filed a statement of recent decision in Harvest
Rock Church v. Newsom, Case No. 20-cv-06414-JGB (C.D. Cal. Dec. 21, 2020), and in South Bay
United Pentecostal Church v. Newsom, Case No. 20-cv-00865-BAS (S.D. Cal. Dec. 21, 2020).
ECF No. 47. On December 23, 2020, State Defendants filed a statement of recent decision in
Disbar Corporation d/b/a 58 Degrees & Holding Co. v. Newsom, Case No. 20-cv-02473 (E.D.
Cal. Dec. 22, 2020), and in Mitchell v. Newsom, Case No. 20-cv-08709 (C.D. Cal. Dec. 23, 2020).
ECF No. 53. On December 28, 2020, Plaintiffs filed a statement of recent decision in Agudath
Israel of America v. Cuomo, Case No. 20-3572 (2d. Cir. Dec. 28, 2020). ECF No. 54. On
December 31, 2020, State Defendants filed a statement of recent decision in Gish v. Newsom, Case
Nos. 20-55455, 20-56324 (9th Cir. Dec. 23, 2020), and South Bay United Pentecostal Church v.
Newsom, Case No. 20-56358 (9th Cir. Dec. 24, 2020). ECF No. 58. On December 31, 2020,
Plaintiffs filed a statement of recent decision in Monclova Christian Academy v. Toledo-Lucas
County Health Department, No. 20-4300 (6th Cir. Dec. 31, 2020). ECF No. 59. On January 29,
2021, County Defendants filed a statement of recent decision in South Bay United Pentecostal
Church v. Newsom, No. 20-56358 (9th Cir. Jan. 22, 2021); Harvest Rock Church v. Newsom, No.
20-56357 (9th Cir. Jan. 25, 2021); and Gateway City Church v. Newsom, No. 20-cv-08241-EJD
(N.D. Cal. Jan. 29, 2021).
On January 28, 2021, Plaintiffs filed a motion to supplement the record with, or take
judicial notice of, four recent documents: (1) a January 25, 2021 order issued by the State of
California, lifting the Regional Stay at Home Order; (2) a January 25, 2021 order issued by the
County, confirming that the Regional Stay at Home Order is no longer in effect; (3) a January 25,
2021 revised directive for gatherings issued by the County; and (4) a January 13, 2021 report
issued by the World Health Organization, addressing the use of PCR tests. ECF No. 61. On
February 1, 2021, Defendants filed a joint opposition in part. ECF No. 63. Defendants did not
21
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 074 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 22 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

object to the Court taking judicial notice of the January 25, 2021 documents, but objected to the
Court taking judicial notice of the January 13, 2021 report. Id.
The Court may take judicial notice of matters that are either “generally known within the
trial court’s territorial jurisdiction” or “can be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b). Public records are proper
subjects of judicial notice. See, e.g., United States v. Black, 482 F.3d 1035, 1041 (9th Cir. 2007).
However, to the extent any facts in documents subject to judicial notice are subject to reasonable
dispute, the Court will not take judicial notice of those facts. See Lee, 250 F.3d at 689. The Court
GRANTS Plaintiff’s motion to take judicial notice of the January 25, 2021 documents because
these documents are public records that are proper subjects of judicial notice. However, the Court
DENIES Plaintiff’s motion to take judicial notice of the January 13, 2021 report because courts
are not permitted to take judicial notice of the truth of the contents of a document. Hadley v.
Kellogg Sales Company, 273 F. Supp. 3d 1052, 1061 (N.D. Cal. 2017). Finally, the Court
DENIES Plaintiff’s motion to supplement the record because if Plaintiffs are permitted to
supplement the record, Defendants would also have to be accorded an equal opportunity to add
evidence on additional developments. Because the COVID-19 pandemic is rapidly evolving, the
process of submitting additional evidence must end.
II. LEGAL STANDARD
“A plaintiff seeking a preliminary injunction must establish that [she] is likely to succeed
on the merits, that [she] is likely to suffer irreparable harm in the absence of preliminary relief,
that the balance of equities tips in [her] favor, and that an injunction is in the public interest.”
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). As the parties seeking the injunction,
Plaintiffs bear the burden of proving these elements. Klein v. City of San Clemente, 584 F.3d 1196,
1201 (9th Cir. 2009). “A preliminary injunction is ‘an extraordinary and drastic remedy, one that
should not be granted unless the movant, by a clear showing, carries the burden of persuasion.’”
22
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 075 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 23 of 80

1
2
3
4
5
6
7

Lopez v. Brewer, 680 F.3d 1068, 1072 (9th Cir. 2012).
III. DISCUSSION
Plaintiffs’ motion for preliminary injunction requests that this Court enjoin the following
State and County restrictions:
Business Plaintiffs
•

Maya Mansour (“Mansour”), the owner of a skincare bar, seeks to enjoin the
County’s Personal Care Services Directive, which requires her to equip her staff
with N95 masks, on the grounds that it violates her rights under the Due Process
Clause and Equal Protection Clause of the Fourteenth Amendment.

•

Dhruv Khanna (“Khanna”), the owner of a winery business, seeks to enjoin the
State’s Blueprint, which limits outdoor gatherings to three households, and the
County’s Mandatory Directive for Gatherings, which limits outdoor gatherings
not prohibited by the State to 200 people, on the grounds that it violates his rights
under the Due Process Clause and Equal Protection Clause of the Fourteenth
Amendment.

•

Frances Beaudet (“Beaudet”), a restaurant owner, seeks to enjoin the County’s
Mandatory Directive for Outdoor Dining, which prohibits her from seating
diners indoors, on the grounds that it violates her rights under the Due Process
Clause and Equal Protection Clause of the Fourteenth Amendment.

•

Julie Evarkiou (“Evarkiou”), a salon owner, seeks to enjoin the State’s Blueprint,
which limits the capacity of her salon, prohibits indoor gatherings, and limits
outdoor gatherings to three households, on the grounds that it violates her rights
under the Due Process Clause and Equal Protection Clause of the Fourteenth
Amendment.

•

Connie Richards (“Richards”), the former owner of a fitness center, seeks to
enjoin the State’s Blueprint, which limits the capacity of her fitness center and
prohibits its operation indoors, on the grounds that it violates her rights under
the Due Process Clause and Equal Protection Clause of the Fourteenth
Amendment.

8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

23
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 076 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 24 of 80

1

Free Speech Plaintiffs

2

•

Ritesh Tandon (“Tandon”), a congressional candidate in 2020 who intends to
run in 2022, seeks to enjoin the County’s Mandatory Directive for Gatherings,
which prohibits him from holding indoor political events with more than 100
people or outdoor political events with more than 200 people, on the grounds
that it violates his free speech and assembly rights under the First and Fourteenth
Amendments.

•

Terry and Carolyn Gannon (“the Gannons”), who hold gatherings at their home
to discuss matters of public policy, seek to enjoin the State’s Blueprint, which
prohibits indoor gatherings and limits outdoor gatherings to three households,
on the grounds that it violates their free speech and assembly rights under the
First and Fourteenth Amendments.

3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11

Free Exercise Plaintiffs
•

12
13
14
15
16

Pastor Jeremy Wong (“Wong”) and Karen Busch (“Busch”), each of whom hold
Bible studies, theological discussions, collective prayer, and musical prayer at
their homes, seek to enjoin the State’s Blueprint, which prohibits indoor
gatherings and limits outdoor gatherings to three households, on the grounds that
it violates their free exercise and assembly rights under the First and Fourteenth
Amendments.

Mot. at ii–iii.

17

The Court first briefly describes the restrictions at issue. Then, the Court analyzes each

18

preliminary injunction factor in turn: (1) a likelihood of success on the merits; (2) irreparable harm

19

in the absence of preliminary relief; (3) that the balance of equities tips in the party’s favor; and (4)

20

that an injunction is in the public interest. Winter, 555 U.S. at 20.6

21
22
23
24
25
26
27
28

6

Under Ninth Circuit precedent, “‘serious questions going to the merits’ and a balance of
hardships that tips sharply towards the plaintiff can support issuance of a preliminary injunction,
so long as the plaintiff also shows that there is a likelihood of irreparable injury and that the
injunction is in the public interest.” All. for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th
Cir. 2011); accord Short v. Brown, 893 F.3d 671675 (9th Cir. 2018) (holding that these factors are
“on a sliding scale”). Thus, “when the balance of hardships tips sharply in the plaintiff’s favor, the
24
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 077 -

United States District Court
Northern District of California

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 25 of 80

1

The Restrictions at Issue

2

Plaintiffs’ motion requires the Court to address five restrictions: (1) the State’s Blueprint;

3

(2) the State’s guidance on gatherings; (3) the County’s Mandatory Directive for Gatherings,

4

which applies to certain gatherings not banned by the State; (4) the County’s Personal Care

5

Services Directive; and (5) the County’s Outdoor Dining Directive. Each of these restrictions has

6

been updated several times, including during the course of this litigation. In the Background

7

section above, supra Section I-B, the Court described these updates in detail. Below, the Court

8

briefly highlights the restrictions at issue in the instant motion.

9

The State’s Blueprint, which the California Department of Public Health issued on August

10

28, 2020, is a framework for the State’s COVID-19 related restrictions that prescribes restrictions

11

based on the tier in which the county is located. Haddad Decl. Exh. 12. At the most severe or

12

widespread tier, the Blueprint prohibits indoor private gatherings of individuals outside the

13

immediate household and restricts outdoor private gatherings to three households. Id. Similarly,

14

the State’s guidance on private gatherings, which the California Department of Health updated on

15

November 13, 2020, prohibits indoor gatherings of individuals outside the immediate household

16

and restricts outdoor private gatherings to three households in the widespread tier. Dunn Reply

17

Decl. Exh. 4 (stating that “[g]atherings that include more than 3 households are prohibited” and

18

“gatherings must be outdoors for counties in the [widespread] tier”). Thus, the Court refers to the

19

Blueprint’s restrictions on gatherings at the widespread tier and the State’s guidance on gatherings

20

at the widespread tier as “the State’s private gatherings restrictions.”

21

Importantly, the State permits unlimited attendance at outdoor worship services, outdoor

22
23
24
25
26
27
28

plaintiff need demonstrate only ‘serious questions going to the merits.’” hiQ Labs, Inc. v. LinkedIn
Corp., 938 F.3d 985, 992 (9th Cir. 2019) (quoting All. for the Wild Rockies, 632 F.3d at 1135). In
this case, the Court concludes that the balance of hardships does not tip sharply in Plaintiffs’
favor. See Section III-C, infra (analyzing the balance of the hardships and the public interest,
which merge when the government is a party). Accordingly, the Court does not consider whether
Plaintiffs have demonstrated serious questions going to the merits.
25
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 078 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 26 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19

political events, and outdoor cultural ceremonies like funerals and weddings. As the Ninth Circuit
found in South Bay, outdoor worship services are particularly viable in year-round warm climates
like California’s. Id. (“Given the obvious climatic differences between San Diego in the winter
and say, New York, the . . . allowance for outdoor services is much more than ‘lip service’ to the
demands of the First Amendment.”). The State’s Blueprint also allows indoor worship services in
the substantial, moderate, and minimal tiers. Specifically, at the substantial tier, the State allows
indoor services at 25 percent capacity. South Bay, 2021 WL 222814, at *17–*18. At the moderate
and minimal tiers, the State allows indoor services at 50 percent capacity. Id. The County imposes
the same limits for the same tiers.
Santa Clara County’s Mandatory Directive for Gatherings prohibits all indoor gatherings of
individuals outside the immediate household when the County is in the Blueprint’s widespread
tier. Bussey Decl. Exh. A. However, the County’s Mandatory Directive for Gatherings limits
outdoor worship services, outdoor political events, and outdoor cultural ceremonies like funerals
and weddings to 200 people regardless of the County’s Blueprint tier. Bussey Decl. Exh. A, Exh.
G (stating that “[o]utdoor gatherings may not exceed 200 people under any circumstances”). In
addition, the County “requires that . . . gatherings take place in an area large enough to allow for
social distancing of all attendees.” Cody Decl. ¶ 61. Thus, the County’s Mandatory Directive for
Gatherings applies to gatherings not regulated by the State’s private gatherings restrictions.7 The

20
21
22
23
24
25
26
27
28

7

When Plaintiffs filed the instant motion, Plaintiffs challenged the County’s 100 person limit on
indoor gatherings and 200 person limit on outdoor gatherings. Mot. at ii. However, on November
16, 2020, before Defendants filed their opposition to the instant motion, the County released an
updated Mandatory Directive for Gatherings that prohibited indoor gatherings when the County is
in the widespread tier, but did not change the 200 person limit on outdoor gatherings. Bussey Decl.
Exh. A (stating that “all indoor gatherings are currently prohibited”); Exh. G (stating that
“[o]utdoor gatherings may not exceed 200 people under any circumstances”). Regardless of
whether Plaintiffs challenge the County’s 100 person limit or the County’s prohibition on indoor
gatherings in the widespread tier, the Court’s analysis is the same.
26
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 079 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 27 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Court refers to the County’s Mandatory Directive for Gatherings as “the County’s private
gatherings restrictions.”
The County’s Personal Care Services Directive applies to services that “involve close,
often physical contact between service providers and clients.” Bussey Decl. Exh. H. The Personal
Care Services Directive requires workers to wear N95 masks when “the client cannot wear a face
covering.” Id. The County’s Mandatory Directive for Outdoor Dining prohibits indoor dining and
requires that outdoor tables be spaced at least ten feet apart. Bussey Decl. Exh. I.
Finally, the Court notes that Plaintiffs’ free exercise claims do not challenge restrictions on
houses of worship. See Tr. of Dec. 17, 2020 Hearing at 21:15–19, ECF No. 60 (The Court: “Are
any of these plaintiffs houses of worship, or alleging restrictions on houses of worship? It seems
like it’s more focused on private gatherings that have religious purposes, like Bible studies in the
home.” Plaintiffs’ Counsel: “I think that’s right, Your Honor.”). Instead, Plaintiffs challenge
restrictions on private gatherings inside and outside their homes. Specifically, Plaintiffs Jeremy
Wong and Karen Busch seek to enjoin the restrictions insofar as they (1) ban indoor religious
gatherings at their homes, including Bible studies, theological discussions, collective prayer, and
musical prayer; and (2) limit outdoor religious gatherings at their homes to three households.”
Mot. at iii (emphasis added). Thus, the instant motion is distinct from other lawsuits that have
challenged restrictions on attendance at houses of worship. See, e.g., Roman Catholic Diocese of
Brooklyn v. Cuomo, 141 S. Ct. 63, 66 (2020) (enjoining 10- to 25-person cap on services at houses
of worship); S. Bay United Pentecostal Church v. Newsom, No. 20-56358, 2021 WL 222814, at
*17–*18 (9th Cir. Jan. 22, 2021) (enjoining 100- to 200-person cap on same); Calvary Chapel
Dayton Valley v. Sisolak, 982 F.3d 1228, 1231 (9th Cir. 2020) (enjoining 50-person cap on same);
Harvest Rock Church, Inc. v. Newsom, No. 20-56357, 2021 WL 235640, at *2–*3 (9th Cir. Jan.
25, 2021) (O’Scannlain, J., specially concurring) (collecting cases).

26
27
28

27
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 080 -

United States District Court
Northern District of California

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 28 of 80

1

Plaintiffs are not likely to succeed on the merits of their claims.

2

Plaintiffs move for a preliminary injunction on four of their five claims: (1) violation of the

3

Fourteenth Amendment’s substantive due process right to earn a living; (2) violation of the

4

Fourteenth Amendment’s Equal Protection Clause; (3) violation of the First Amendment’s right to

5

free speech and assembly; and (4) violation of the First Amendment’s right to free exercise and

6

assembly. The Court discusses Plaintiffs’ likelihood of success on the merits of each of these

7

claims.

8

1. Plaintiffs are not likely to succeed on the merits of their Due Process claims.

9

Plaintiffs Mansour, Khanna, Beaudet, Evarkiou, and Richards are business owners who

10

argue that the State’s and County’s COVID-related restrictions on their businesses violate their

11

rights to make a living under the Due Process Clause of the Fourteenth Amendment. Specifically,

12

Mansour, who runs a facial bar, challenges the County’s Personal Care Services Directive. Mot. at

13

ii. Khanna, who owns a winery, challenges the State’s and the County’s private gatherings

14

restrictions. Id. Beaudet, who owns a restaurant, challenges the County’s Mandatory Directive for

15

Outdoor Dining. Id. Evarkiou, the owner of a hair salon, challenges the State’s private gatherings

16

restrictions and the Blueprint’s restrictions on hair salons. Id. Richards, a former gym owner,

17

challenges the Blueprint’s restrictions on gyms. Id.

18

Plaintiffs contend that the State’s and County’s COVID-related restrictions on their

19

businesses violate their right to earn a living, as protected by the substantive component of the

20

Due Process Clause. Mot. at 21. “The substantive component of the Due Process Clause forbids

21

the government from depriving a person of life, liberty, or property in such a way that . . .

22

interferes with rights implicit in the concept of ordered liberty.” Engquist v. Oregon Dep’t of

23

Agric., 478 F.3d 985, 996 (9th Cir. 2007) (quotation omitted).

24

However, as Plaintiffs concede, the right to earn a living is not a fundamental liberty

25

interest that has been traditionally protected by the substantive component of the Due Process

26

Clause. As the Ninth Circuit has explained, “[s]ubstantive due process has . . . been largely

27
28

28
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 081 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 29 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

confined to protecting fundamental liberty interests such as marriage, procreation, contraception,
family relationships, child rearing, education and a person’s bodily integrity, which are ‘deeply
rooted in this Nation’s history and tradition.’” Franceschi v. Yee, 887 F.3d 927, 937 (9th Cir.
2018) (quoting Moore v. East Cleveland, 431 U.S. 494, 503 (1977)). Neither the United States
Supreme Court nor the Ninth Circuit “has []ever held that the right to pursue work is a
fundamental right.” Sagana v. Tenorio, 384 F.3d 731, 743 (9th Cir. 2004). Rather, the Ninth
Circuit has held that the right to pursue one’s profession is not a fundamental right protected by
the Due Process Clause. See Franceschi, 887 F.3d at 937.
Because no fundamental right is at issue here, judicial review is “narrow.” Sagana, 384
F.3d at 743. The Court “do[es] not require that the government’s action actually advance its stated
purposes, but merely look[s] to see whether the government could have had a legitimate reason for
acting as it did.” Id. (quoting Wedges/Ledges of Cal., Inc. v. City of Phoenix, 24 F.3d 56, 66 (9th
Cir. 1994) (emphasis in original)).
When a state exercises its police powers to enact emergency health measures, courts will
uphold them unless (1) the measures have no real or substantial relation to public health, or (2) the
measures are “beyond all question” a “plain, palpable invasion of rights secured by [ ]
fundamental law.” See Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11, 37 (1905).
Plaintiffs contend that Jacobson does not apply to this case for two reasons. First, Plaintiffs
argue that Jacobson does not apply because the public health emergency has lasted for several
months. Mot. at 16–17. However, Plaintiffs have not cited a single case that states that Jacobson
does not apply if a public health emergency lasts for several months. Indeed, many courts have
applied Jacobson to COVID-related restrictions despite the length of the pandemic. See, e.g., Big
Tyme Investments, LLC v. Edwards, --- F.3d ---, 2021 WL 118628, at *6 (5th Cir. 2021) (January
13, 2021 opinion, rejecting the plaintiffs’ argument that the district court erred in applying
Jacobson); Illinois Republican Party v. Pritzker, 973 F.3d 760, 763 (7th Cir. 2020) (“[T]he district
29
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 082 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 30 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

court appropriately looked to Jacobson for guidance, and so do we.”); Delaney v. Baker, --- F.
Supp. 3d ---, 2021 WL 42340, at *11 (D. Mass. 2021) (January 6, 2021 opinion applying
Jacobson). Second, Plaintiffs argue that Jacobson does not apply because Jacobson arose in the
context of substantive due process, whereas this case raises First Amendment claims as well. Mot.
at 17. However, the Court only applies Jacobson in the context of Plaintiffs’ substantive due
process claim. Therefore, the Court continues with its Jacobson analysis.
As United States Supreme Court Chief Justice Roberts wrote last year, “[w]hen [public]
officials ‘undertake to act in areas fraught with medical and scientific uncertainties,’ their latitude
‘must be especially broad.’” South Bay, 140 S. Ct. at 1613 (Roberts, C.J., concurring) (quoting
Marshall v. United States, 414 U.S. 417, 427 (1974)). “Where those broad limits are not exceeded,
they should not be subject to second-guessing by an ‘unelected federal judiciary,’ which lacks the
background, competence, and expertise to assess public health and is not accountable to the
people.” Id. (quoting Garcia v. San Antonio Metro. Transit Auth., 469 U.S. 528, 545 (1985)).
Every court to have addressed the issue of whether COVID-related restrictions violated
substantive due process rights has concluded that the plaintiffs were not likely to succeed on the
merits of their substantive due process claims. See Slidewaters LLC v. Washington Dep’t of Labor
& Industries, 2020 WL 3130295, at *4 (E.D. Wash. June 12, 2020) (concluding that water park
was not likely to succeed on the merits of its substantive due process claims); Best Supplement
Guide, LLC v. Newsom, 2020 WL 2615022, at *6 (E.D. Cal. May 22, 2020) (concluding that gym
owners were not likely to succeed on the merits of substantive due process claims); Open Our
Oregon v. Brown, 2020 WL 2542861, at *2 (D. Ore. May 19, 2020) (collecting cases and
explaining that businesses’ motion for a preliminary injunction should be denied because “[a]t this
stage, this Court is inclined to side with the chorus of other federal courts in pointing to Jacobson
[v. Commonwealth of Massachusetts, 197 U.S. 11, 25 (1905)] and rejecting similar constitutional
claims brought by Plaintiffs challenging similar COVID-19 restrictions in other states”). Plaintiffs
30
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 083 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 31 of 80

1
2
3
4
5
6
7
8

United States District Court
Northern District of California

9

do not cite a single case holding otherwise.
The Court comes to the same conclusion as the other courts. Below, the Court analyzes the
two elements that the United States Supreme Court set forth in Jacobson: (1) whether the
measures bear a real or substantial relation to public health, and (2) whether the measures are
“beyond all question” a “plain, palpable invasion of rights secured by [ ] fundamental law.”
Jacobson, 197 U.S. at 30.
The State’s and the County’s restrictions bear a real and substantial relation
to public health.
As to the first Jacobson element, the restrictions on Defendants’ businesses bear a real and

10

substantial relation to public health. Every court has also concluded that COVID-19 related

11

restrictions bear a real and substantial relation to public health, and Plaintiffs do not cite a single

12

case holding otherwise. See, e.g., Bimber’s Delwood, Inc. v. James, --- F. Supp. 3d ---, 2020 WL

13

6158612, at *9 –*10 (W.D.N.Y. Oct. 21, 2020) (concluding that the plaintiffs could not show that

14

New York’s COVID-19 related restrictions on businesses, including bars and restaurants, did not

15

bear a real or substantial relation to public health); Altman v. County of Santa Clara, 464 F. Supp.

16

3d 1106, 1124 (N.D. Cal. 2020) (explaining that the Court “easily concludes” that a shelter in

17

place order bears a real and substantial relationship to the public health goals of reducing COVID-

18

19 transmission and preserving health care resources).

19

This Court comes to the same conclusion as the other courts. Specifically, the Court finds

20

that (1) the State’s Blueprint; (2) the State’s private gatherings restrictions; (3) the County’s

21

private gatherings restrictions; (4) the County’s Personal Care Services Directive; and (5) the

22

County’s Mandatory Directive for Outdoor Dining bear a real and substantial relation to public

23

health. The Court discusses each in turn below. Before doing so, the Court notes that the

24

Background Section I-A-2, supra, describes at great length the ways in which COVID-19 is

25

spread. Below the Court just highlights a few examples for each set of restrictions.

26
27
28

First, the State’s Blueprint bears a real and substantial relation to public health. In
31
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 084 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 32 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

designing the Blueprint and coming up with restrictions for each tier, the State considered
eight objective risk criteria related to the spread of COVID-19: (1) the ability to accommodate
face covering wearing at all times; (2) the ability to physically distance between individuals of
different households; (3) the ability to limit the number of people per square foot; (4) the ability to
limit the duration of exposure; (5) the ability to limit the amount of mixing of people from
different households; (6) the ability to limit the amount of physical interactions; (7) the ability to
optimize ventilation; and (8) the ability to limit activities that are known to increase the possibility
of viral spread, such as singing, shouting, and heavy breathing. Kurtz Decl. ¶ 20. Because the
State has sorted activities based on the risk that they result in the spread of COVID-19, the State’s
restrictions bear a real and substantial relation to public health, including the interests of slowing
the spread of COVID-19, protecting high-risk individuals.
Second, the State’s and the County’s private gatherings restrictions bear a real and
substantial relation to public health. The State and the County limit gatherings because gatherings
bring people from different households together for an extended period of time and thus are a main
source of COVID-19 spread. Watt Decl. ¶¶ 33, 37–44. The State and the County impose stricter
limits on indoor gatherings because indoor gatherings are much more likely to spread COVID-19
than outdoor gatherings. Haddad Decl. Exh. 12 (prohibiting indoor gatherings but allowing indoor
gatherings in the widespread tier); Bussey Decl. Exhs. A, G (prohibiting indoor gatherings but
permitting outdoor gatherings of up to 200 people). Furthermore, the State’s private gatherings
restrictions are more stringent in counties with higher rates of transmission, where gatherings are
more likely to include someone who has COVID-19. See Haddad Decl. Exh. 12 (State Blueprint,
prohibiting indoor gatherings in the widespread tier and permitting indoor gatherings of three
households in the substantial tier).
Third, the Personal Care Services Directive bears a substantial relation to slowing the
spread of COVID-19 because of the unique dangers that personal care services can play in the
32
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 085 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 33 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

spread of COVID-19. COVID-19 is much more likely to be spread when persons are in close
proximity for an extended period of time, such as during the time a personal care service is
performed. Watt Decl. ¶¶ 33, 37–44. Furthermore, personal care services often take place inside,
where COVID-19 transmission is much more likely to occur. Watt Decl. ¶ 44; Rutherford Decl. ¶¶
60, 76–77; Reingold Decl. ¶ 20; Cody Decl. ¶ 29. In addition, the personal care services
implicated do not permit the client to wear a face covering, and face coverings help to avoid the
transmission of COVID-19. Watt Decl. ¶¶ 38, 45–46, 48. Thus, it is rational for the County to
impose additional restrictions on personal care services, including requiring workers to wear N-95
masks. Dunn Decl. Exh. 42. The County might reasonably require workers to wear more
protective masks because clients cannot wear masks at all during the services, which puts workers
at a significantly higher risk of contracting COVID-19. See Bhatia Reply Decl. ¶ 65 (explaining
that workers bear the burden of infection risk in workplace settings).
Fourth, the Mandatory Directive for Outdoor Dining bears a substantial relation to slowing
the spread of COVID-19 because of the unique dangers of indoor dining in spreading COVID-19.
COVID-19 is much more likely to be spread inside than outside. Watt Decl. ¶ 44; Rutherford
Decl. ¶¶ 60, 76–77; Reingold Decl. ¶ 20; Cody Decl. ¶ 29. Furthermore, COVID-19 is much more
likely to be spread when persons are in close proximity for an extended period of time, such as
during a meal. Watt Decl. ¶¶ 33, 37–44. In addition, while dining, people cannot wear face
coverings, which help to avoid the transmission of COVID-19. Id. ¶¶ 38, 45–46, 48. Given these
circumstances, the County may legitimately require that dining only take place outdoors and that
tables be spaced 10 feet away from each other. Dunn Decl. Exh. 44. Thus, the State’s and the
County’s restrictions at issue bear a real and substantial relation to public health and satisfy the
first Jacobson element. Jacobson, 197 U.S. at 30 (explaining that courts should uphold emergency
public health restrictions unless they do not bear a “real or substantial relation” to public health).

26
27
28

33
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 086 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 34 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

The State’s and County’s restrictions are not a plain, palpable invasion of
rights secured by fundamental law.
As to the second Jacobson element, Plaintiffs have not shown that the State’s and County’s
restrictions are “beyond all question” a “plain, palpable invasion of rights secured by [ ]
fundamental law.” Id. Every court considering challenges to COVID-related restrictions has
similarly concluded that the restrictions are not a plain, palpable invasion of rights secured by
fundamental law. See, e.g., Bimber’s Delwood, Inc., 2020 WL 6158612, at *13 (concluding that
the plaintiffs could not show that New York’s COVID-related restrictions on businesses, including
bars and restaurants, were a plain, palpable invasion of rights secured by fundamental law);
Altman, 464 F. Supp. 3d at 1124 (concluding that county’s shelter in place order did not effect a
plain, palpable invasion of the plaintiffs’ Second Amendment rights). Plaintiffs do not cite a single
case to the contrary.
The Court comes to the same conclusion here. As explained above, the right to earn a
living is not a fundamental liberty interest that has been traditionally protected by the substantive
component of the Due Process Clause. See Franceschi, 887 F.3d at 937; Sagana, 384 F.3d at 743.
Thus, the State’s and County’s restrictions are not a “plain, palpable invasion of rights secured by
. . . fundamental law.” Jacobson, 197 U.S. at 30 (emphasis added). Because Plaintiffs have not
satisfied both elements of Jacobson, Plaintiffs have not shown that they are likely to succeed on
their substantive due process claims.
2. Plaintiffs are not likely to succeed on the merits of their Equal Protection claims.
Plaintiffs Mansour, Khanna, Beaudet, Evarkiou, and Richards also argue that the COVIDrelated restrictions on their businesses violate their rights under the Equal Protection Clause of the
Fourteenth Amendment.
“The Equal Protection Clause of the Fourteenth Amendment commands that no State shall
‘deny to any person within its jurisdiction the equal protection of the laws,’ which is essentially a
direction that all persons similarly situated should be treated alike.” City of Cleburne v. Cleburne
34
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 087 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 35 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Living Ctr., 473 U.S. 432, 439 (quoting Plyler v. Doe, 457 U.S. 202, 216 (1982)).
The United States Supreme Court has held that business owners are not a suspect class. See
Williamson v. Lee Optical, 348 U.S. 483, 489, 491 (1955) (concluding that a regulation on
opticians would be subject to rational basis review). For this reason, other courts considering
Equal Protection challenges to COVID-related restrictions brought by business owners have
concluded that no suspect class is implicated. See, e.g., League of Independent Fitness Facilities &
Trainers, Inc. v. Whitmer, 814 F. App’x 125, 128 (6th Cir. 2020) (applying rational basis review to
an Equal Protection challenge brought by fitness center owners); Six v. Newsom, 462 F. Supp. 3d
1060, 1072 (C.D. Cal. 2020) (concluding that “California’s essential/non-essential [business]
distinction does not disadvantage a suspect class”). Not surprisingly, Plaintiffs concede that
Plaintiffs are not members of a suspect class pursuant to United States Supreme Court and Ninth
Circuit precedent. See Mot. at 21 (stating that rational basis review applies).8
Because Plaintiffs are not part of a suspect class, the Court must apply rational basis
review and determine whether the restrictions are rationally related to a legitimate government
interest. Lazy Y Ranch Ltd. v. Behrens, 546 F.3d 580, 588 (9th Cir. 2008) (“In cases . . . involving
rational basis review, a state actor’s classification comports with the Equal Protection Clause so
long as it is ‘rationally related to a legitimate state interest’”) (quotation omitted). “[R]ationalbasis review in equal protection analysis ‘is not a license for courts to judge the wisdom, fairness,
or logic of legislative choices.’” Heller v. Doe by Doe, 509 U.S. 312, 319 (1993) (quoting FCC v.

8

In their reply brief, Plaintiffs argue that the restrictions should be subject to “rational basis ‘with
a bite’” because the State’s and County’s regulations have resulted in the closure or restriction of
hundreds of thousands of businesses. Reply at 15. However, Plaintiffs do not cite to, and the Court
has not found, United States Supreme Court or Ninth Circuit precedent holding that rational basis
“with a bite” would apply in these circumstances. Moreover, even if the Court considers the
restrictions under the rational basis “with a bite” standard, the Court would still uphold the
restrictions because they are supported by ample scientific evidence regarding the ways in which
COVID-19 spreads.
35
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 088 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 36 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Beach Comms., Inc., 508 U.S. 307, 313 (1993)). Accordingly, regulations “must be upheld against
[an] equal protection challenge if there is any reasonably conceivable state of facts that could
provide a rational basis for the classification.” Id. at 320. The “burden is on [Plaintiffs] to negat[e]
every conceivable basis which might support [the classification].” Id. (quotation omitted). Thus,
courts must uphold the classification as long as it “find[s] some footing in the realities of the
subject addressed by legislation.” Id. at 321.
Under these deferential standards, every court considering Equal Protection challenges
brought by business owners to COVID-related restrictions has upheld the restrictions, and
Plaintiffs do not cite a single case to the contrary. See, e.g., Big Tyme Investments, LLC v.
Edwards, --- F.3d ---, 2021 WL 118628, at *6 (5th Cir. 2021) (rejecting Equal Protection
challenge brought by bar owners to COVID-related restriction prohibiting consumption of alcohol
at bars); League of Independent Fitness Facilities & Trainers, Inc. v. Whitmer, 814 F. App’x 125,
128 (6th Cir. 2020) (rejecting an Equal Protection challenge brought by fitness center owners to
COVID-related restrictions closing their fitness centers).
The Court comes to the same conclusion in the instant case for two reasons. First, there are
multiple compelling government interests at stake. Second, the State’s and County’s restrictions
are rationally related to those government interests.
As to the multiple compelling government interests, the Supreme Court, the Ninth Circuit,
and even Plaintiffs agree on this point. The Supreme Court has held that “stemming the spread of
COVID-19 is unquestionably a compelling interest.” Roman Catholic Diocese, 141 S. Ct. at 67.
The Ninth Circuit has concluded that the State has compelling interests “in reducing community
spread of COVID-19, protecting high-risk individuals from infection, and preventing the
overwhelming of its healthcare system as a result of increased hospitalizations.” South Bay, 2021
WL 222814, at *10.
Moreover, Plaintiffs concede that the State has a strong interest in preventing hospitals
36
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 089 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 37 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

from being overwhelmed. See Mot. at 1 (“Governor Newsom was correct to focus on the risk that
hospitals would be overrun”), 15 (acknowledging “the compelling interest in preventing
hospitalizations and deaths resulting from COVID-19”). Even one of Plaintiffs’ experts, Dr.
Bhattacharya, concedes that restrictions might be justified “where hospital overcrowding is
predicted to occur” because overcrowding and “the unavailability of sufficient medical personnel”
“might induce avoidable mortality.” Bhattacharya Reply Decl. ¶ 15.
Thus, the State and the County have compelling interests in slowing the spread of COVID19, protecting high-risk individuals from infection, and preventing the overwhelming of the
healthcare system. These compelling government interests are far greater than the legitimate
government interest required for the rational basis review that the Court must undertake here.
The Court must now consider whether the restrictions applicable to Plaintiffs’ businesses
are rationally related to these compelling government interests. Plaintiffs present four arguments
as to why the restrictions applicable to their businesses are irrational. First, Plaintiffs contend that
they are just as capable of implementing social distancing measures as other businesses not subject
to as stringent regulations. Second, Plaintiffs argue that they should not be treated more harshly
because of the county in which they are located. Third, Plaintiffs contend that the State’s
restrictions are irrational because they base restrictions on PCR tests. Finally, Plaintiffs argue that
it is irrational to impose restrictions on the whole population when only a subset is vulnerable to
severe illness from COVID-19. The Court addresses each of these arguments in turn.
It is rational for the State and the County to distinguish between businesses.
First, Plaintiffs argue that Plaintiffs are “just as capable, if not more so, of implementing
social distancing measures applicable to other businesses not subject to as stringent regulations.”
Mot. at 22. For example, Mansour argues that her facial salon should not face harsher restrictions
than a doctor’s or dentist’s office. Id. However, as the County points out, there are many
legitimate reasons that the County might reasonably expect medical offices to be better trained in
37
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 090 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 38 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

preventing the spread of disease than non-medical offices. Cody Decl. ¶¶ 55–56. In general, the
State’s and the County’s distinctions between different kinds of businesses are rational because the
State and the County have carefully tailored their restrictions to the risks attendant to each
business. See Section III-B-1-a, supra (explaining that the State’s and the County’s private
gatherings restrictions, Personal Care Services Directive and Mandatory Directive for Outdoor
Dining bear a substantial relation to the public health interest of slowing the spread of COVID-19,
protecting high-risk individuals, and preventing the overwhelming of hospitals).
It is rational for the State and the County to distinguish between counties.
Plaintiffs argue that their businesses should not be treated more harshly because of the
county in which they are located. Mot. at 22. However, it is rational for the State to restrict
activities based on the prevalence of the coronavirus in a particular county. If a gathering takes
place in a county where there is a high prevalence of infection, the likelihood of coming into
contact with someone who is infected and able to spread COVID-19 is increased. Watt Decl. ¶ 42;
Rutherford Decl. ¶ 81; Stoto Decl. ¶¶ 10, 18. Accordingly, restricting activities based on the
prevalence of the coronavirus in a particular county is not irrational.
It is rational for the State to rely on PCR tests.
Plaintiffs outline three reasons that it is irrational for the State’s restrictions to be based on
PCR tests. Mot. at 23–24. First, PCR tests are taken from a portion of the population that is more
likely to test positive, including people who have been referred to testing, people who are
experiencing symptoms, and people who are essential workers. Bhattacharya Decl. ¶ 27. Second,
PCR tests result in a high number of false positives. Id. ¶¶ 28–30. Third, PCR tests do not detect
risk variations between people testing positive who are likely to face mortality and people testing
positive who are not. Id. ¶ 32; Bhatia Decl. ¶ 37. Plaintiffs thus contend that the State should use
hospitalization rates, not PCR tests, in determining whether to loosen or tighten restrictions.
Bhatia Decl. ¶¶ 47–49.
38
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 091 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 39 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

However, Plaintiffs are incorrect in three respects. First, even Plaintiffs’ expert concedes
that PCR tests are the gold standard for measuring the presence of infection in the community.
Bhattacharya Reply Decl. ¶ 7. Although PCR tests will not capture spread as accurately as they
would if they were given to the entire population, they do an adequate job in assessing disease
spread and determining whether to tighten or loosen restrictions. Id. ¶ 105; Stoto Decl. ¶¶ 19, 22;
Lipsitch Decl. ¶¶ 38–39. In addition, California has a wider testing program than other states,
which makes the prevalence rate more reliable. Rutherford Decl. ¶ 105; Lipsitch Decl. ¶ 35. The
County of Santa Clara also has a robust testing program with broader community access and
greater testing capacity than other communities. Reingold Decl. ¶ 30; Lipsitch Decl. ¶ 35.
Second, although Plaintiffs argue that the State should use hospitalization rates,
hospitalization rates suffer from several downfalls. Indeed, hospitalization rates lag infections in
the community by several weeks. Rutherford Decl. ¶ 55; Stoto Decl. ¶ 23; Lipsitch Decl. ¶ 44;
Maldonado Decl. ¶¶ 25–26. Thus, hospitalization rates show spread from several weeks ago, not
recent spread. Id. In addition, hospitalization rates have often underestimated the severity of the
pandemic. For instance, hospitalization rates can be lower at times when hospital capacity is
strained and many patients who would otherwise be hospitalized are not being taken to the
hospital. Stoto Decl. ¶ 23. As the Ninth Circuit recently explained in South Bay, “paramedics in
Los Angeles County have been instructed to conserve oxygen in treating patients and not to bring
patients to the hospital who have little chance of survival.” 2021 WL 222814, at *4. Similarly,
hospitalization rates do not capture the spread of the virus outside of hospitals. The spread of the
virus outside of hospitals is a public health issue because patients who are not hospitalized with
COVID-19 can face long-term effects. Cody Decl. ¶ 7; Han Decl. ¶ 20; Watt Decl. ¶ 23;
Rutherford Decl. ¶¶ 23–25, 97. Undoubtedly, there are limits to any criteria that might be used,
including PCR tests. However, the Court merely concludes that the State did not act irrationally in
choosing to use PCR tests given the problems with using hospitalization rates.
39
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 092 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 40 of 80

1
2
3
4
5
6
7
8

Third, although Plaintiffs’ experts argue that PCR tests are flawed because they do not
detect risk variations between people testing positive who are likely to face mortality and people
testing positive who are not, COVID-19 is dangerous to all populations. In the next section, the
Court discusses extensively how vulnerable populations live and work with non-vulnerable
populations. See Section III-A-2-d, infra. Thus, detecting COVID-19 cases among non-vulnerable
people is important to protecting vulnerable populations. Accordingly, it is not irrational for the
State to focus on PCR tests.
It is rational for the State to place restrictions on the general population, not
just the vulnerable.

9

Plaintiffs argue that the State’s and County’s strategies are irrational because they have not

United States District Court
Northern District of California

10
11

tried to focus on vulnerable populations, such as the elderly. One of Plaintiffs’ medical experts,

12

Dr. Bhattacharya, is one of three scientists who drafted the Great Barrington Declaration, which

13

proposes that COVID-19 be allowed to spread among young, healthy people while governments

14

focus on preventing vulnerable people from getting it. Bhattacharya Reply Decl. ¶ 31; Lipsitch

15

Decl. ¶ 15. Plaintiffs’ other expert, Dr. Bhatia, who signed the Great Barrington Declaration,

16

proposes that the State and the County should focus exclusively on vulnerable populations. Bhatia

17

Decl. ¶¶ 73–84.9
However, Plaintiffs’ argument suffers from three flaws. First, the State and the County

18
19
20
21
22
23
24
25
26
27
28

9

As the State and the County stress, the vast majority of public health experts embrace restrictions
on gatherings. Although Plaintiffs’ experts do not, this does not mean that the State’s and
County’s restrictions are irrational. In fact, in Jacobson, where mandatory vaccination for
smallpox was at issue, the United States Supreme Court acknowledged that “some physicians of
great skill and repute[] do not believe that vaccination is preventive of smallpox.” Jacobson, 197
U.S. at 34. However, the Court nevertheless rejected the plaintiff’s challenge and noted that “most
members of the medical profession” disagreed with these physicians about the importance of
vaccination. Id. at 34–35. “The possibility that the belief may be wrong . . . is not conclusive; for
the legislature has the right to pass laws which, according to the common belief of the people, are
adapted to prevent the spread of contagious diseases.” Id. at 35. The same is true here.
40
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 093 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 41 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

have already put in place measures to protect the vulnerable. Second, it is rational for the State and
the County to place restrictions on the entire population because even individuals who are not
specifically vulnerable to COVID-19 can become seriously ill and die from the virus. Finally, it is
rational for the State and the County to place restrictions on the entire population because
vulnerable individuals have extensive contact with non-vulnerable individuals in long-term care
facilities, multigenerational homes, and workplaces. The Court addresses each of these issues in
turn.
First, the State and the County have already put extensive measures into place to protect
vulnerable people, including the measures recommended by Plaintiffs’ experts. Plaintiffs’ experts
recommend: (1) site infection control and prevention practices; (2) routine health care worker
screenings; (3) prohibiting staff from coming to work sick; (4) outbreak response; (5) training; (6)
monitoring; and (7) testing asymptomatic health care workers. Bhatia Decl. ¶¶ 88–89. The State’s
and County’s long-term care facilities already implement these measures and others to slow the
spread of COVID-19.
The State has issued guidelines and directives that required long-term care facilities to
undertake precautions, including (1) cleaning and disinfecting high-touch surfaces; (2) screening
residents for COVID-19 symptoms every day; (3) excluding employees who display symptoms of
COVID-19; (4) requiring employees and residents to wash their hands upon entering the facility;
(5) limit entry only to individuals who need entry for prevention, containment, and mitigation
measures; (6) requiring staff to wear face coverings at all times and remind residents that they are
required to wear face coverings as much as practically possible; and (7) requiring training of staff
on prevention and control measures. Tovmasian Decl. ¶¶ 12–16, 24; Steinecker Decl. ¶¶ 10, 19–
24. The State also requires facilities to engage in testing, including surveillance testing even if
they do not currently have a positive COVID-19 case. Tovmasian Decl. ¶¶ 18–21, Steinecker
Decl. ¶ 15, 19. The County has also taken targeted measures to protect vulnerable populations.
41
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 094 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 42 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Those measures include implementing regular staff testing in long-term care facilities, providing
infection control protocols, and visiting facilities to make recommendations on how best to
implement infection control. Han Decl. ¶ 9; Garcia Decl. ¶ 14.
Second, it is rational for the State and the County to place restrictions on the entire
population because many non-vulnerable people die or become seriously ill after being infected
with COVID-19. About twenty percent of those who have died of COVID-19 in the United States
have been younger than 65 years old. Lipsitch Decl. ¶ 28. In addition, nearly two thousand people
who have died of COVID-19 are younger than 30 years old. See CDC COVID Tracker.
Additionally, Dr. Bhattacharya’s declaration, which focuses on mortality, ignores the
serious long-term effects that plague many non-vulnerable people who have recovered from
COVID-19. Bhattacharya Decl. ¶¶ 32–39. Young people are at risk for serious and long-term
effects from COVID-19, including cardiovascular, neurologic, renal, and respiratory damage,
psychiatric effects, and loss of limbs from blood clotting. Cody Decl. ¶ 7; Han Decl. ¶ 20; Watt
Decl. ¶ 23; Rutherford Decl. ¶¶ 23–25, 97. For example, college football players who had
recovered from asymptomatic or mildly symptomatic COVID-19 infections were found to have a
high rate of myocarditis, which can lead to cardiac arrest with exertion. Rutherford Decl. ¶ 25.
In addition, many young people have underlying conditions. As discussed above, supra
Section I-A-3, chronic medical conditions are largely a subset of COVID-19 underlying
conditions. Yet, approximately six in ten Americans have been diagnosed with at least one chronic
medical condition, and four in ten have been diagnosed with more than one chronic medical
condition. Reingold Decl. ¶ 17. Moreover, in Latino and African-American communities, a higher
percentage of residents have diabetes, which make them more susceptible to becoming severely ill
from COVID-19. Garcia Decl. ¶ 13. Simultaneously, a lower percentage of Latino and AfricanAmerican community members have healthcare coverage, meaning that they are less able to get
care if infected with COVID-19. Id.
42
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 095 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 43 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Third, it is rational for the State and the County to place restrictions on the entire
population because vulnerable people have extensive contact with non-vulnerable individuals in
long-term care facilities, multigenerational homes, and essential workplaces. The Court addresses
each of these settings in turn.
Looking at care facilities, vulnerable people who live in care facilities are in close contact
on a regular basis with the staff, who live in the community. Rutherford Decl. ¶ 116; Stoto Decl.
¶ 35. Thus, higher levels of community spread can lead to spread in care facilities. Rutherford
Decl. ¶ 116; Han Decl. ¶ 14. Accordingly, a recent report showed that COVID-19 cases in nursing
homes have tracked the community spread of COVID-19 since September of 2020. Lipsitch Decl.
¶ 26. For example, in La Crosse, Wisconsin, researchers were able to trace COVID-19 clusters at
two nursing homes, which caused two deaths, back to gatherings and parties at three local
universities. Cody Decl. ¶ 37.
In addition, many vulnerable people live in multigenerational households. Garcia Decl. ¶ 8;
Lipsitch Decl. ¶ 25. According to one study, 20 percent of Americans live in a multigenerational
home. Maldonado Decl. ¶ 21. Vulnerable people are especially likely to live or work with less
vulnerable people in communities of color, immigrant communities, and low-income
communities. Garcia Decl. ¶ 8. In these communities, people often live in crowded homes, making
it difficult for them to isolate from other household members. Id. As Plaintiffs’ expert
acknowledges, older people living with working-age adults have a higher risk of COVID-19 than
older people living with other older people. Bhattacharya Reply Decl. ¶ 54. Because older people
live and work with younger people, COVID-19 cases in older people track with COVID-19 cases
in younger people. Rutherford Decl. ¶ 96.
Plaintiffs’ expert suggests that vulnerable people who live in multigenerational households
could temporarily live in another setting, such as empty hotel rooms that have been provided for
homeless populations. Bhattacharya Reply Decl. ¶ 54. However, even where the County has
43
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 096 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 44 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

offered to provide separate housing or other support for vulnerable individuals who live with other
household members, many factors lead them to be uncomfortable or unwilling to accept it. For
example, some vulnerable individuals distrust the government, while others are unwilling to
separate from their family members, for whom they might provide childcare and other support.
Garcia Decl. ¶ 12. For example, many older people are the primary caregivers for their
grandchildren. Maldonado Decl. ¶ 17.
Furthermore, many vulnerable people also work at essential jobs, increasing their potential
exposure to COVID-19. Garcia Decl. ¶¶ 9–10. Even those who are vulnerable are often
themselves breadwinners in their family, which means that they have to work outside the home to
support their families. Id. ¶ 13. This is especially true in communities of color and low-income
communities. Id. ¶ 13.
Plaintiffs’ expert also suggests that older people who work could be permitted to work
from home. Bhattacharya Reply Decl. ¶ 53. However, this proposal ignores the reality that many
older people work in essential jobs, where working from home is not possible. Garcia Decl. ¶¶ 9–
10. Although Plaintiffs’ expert proposes that those who cannot work from home be able to take a
funded 3 to 6 month sabbatical, Plaintiffs’ expert does not address the distrust of the government
and unwillingness to accept help that persists, particularly in communities of color and lowincome communities that have more essential workers. Garcia Decl. ¶ 12.
In sum, because of the numerous connections between the vulnerable and other members
of the community, COVID-19 spread in the community results in COVID-19 spread among the
vulnerable. For these reasons, the vast majority of public health experts reject an approach that
would focus solely on vulnerable populations without limiting spread in the community. Stoto
Decl. ¶ 14; Lipsitch Decl. ¶ 15; Maldonado Decl. ¶ 20. A strategy that solely focused on
vulnerable people without addressing community spread would result in increased COVID-19
spread, hospitalizations, and deaths. Lipsitch Decl. ¶ 24; Rutherford Decl. ¶¶ 115–117. For
44
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 097 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 45 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15

example, in Maine, an indoor wedding attended by 62 people resulted in more than 180 infections,
including among people living at a long-term healthcare facility and at a jail. Cody Decl. ¶ 37.
Eight people who did not attend the wedding died. Id. In Michigan, 187 infections were connected
to an indoor bar and restaurant with a live DJ and an open dance floor. Id. Of the total cases traced
back to the restaurant, 144 were people who had been to the venue and 43 were family members,
friends, and other contacts who had not. Id.
The downfalls of a targeted strategy can be seen in the example of Sweden. Sweden tried
to implement an approach targeted towards the elderly and nursing homes, and as a result, seven
percent of residents in nursing homes in Stockholm died. Lipsitch Decl. ¶ 27; Rutherford Decl.
¶¶ 115–117. Thus, Sweden is now implementing policies directed at slowing community spread.
Lipsitch Decl. ¶ 27.
Because Plaintiffs have not met the high bar of demonstrating that the State’s and County’s
restrictions are irrational, Plaintiffs have not shown that they are likely to succeed on the merits of
their Equal Protection claims.

16

3. Plaintiffs are not likely to succeed on the merits of their free speech and assembly
claims.

17

Plaintiffs Tandon and the Gannons argue that the State’s and the County’s private

18

gatherings restrictions violate their First and Fourteenth Amendment rights to free speech and

19

assembly. As explained above in Section III-A, supra, the State prohibits indoor gatherings and

20

limits private outdoor gatherings to three households or fewer. However, the State’s private

21

gatherings restrictions do not apply to the political campaign events Tandon wishes to hold.

22

Accordingly, Tandon’s gatherings are limited only by the County’s private gatherings restrictions,

23

which prohibit indoor gatherings10 and limit outdoor gatherings to 200 people. Bussey Decl. Exhs.

24
25
26
27
28

10

In the instant motion, Tandon challenged the County’s 100 person limit on indoor gatherings.
Mot. at ii; see supra footnote 7. However, before Defendants filed their opposition to the instant
45
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 098 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 46 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

A, G.
The Court first considers whether Tandon’s claims are moot now that the 2020 election has
passed. After concluding that Tandon’s claims are not moot, the Court analyzes the merits of
Plaintiffs’ free speech claims. As Plaintiffs note, “[t]he right of peaceable assembly is a right
cognate to th[at] of free speech.” Mot. at 12 (quoting De Jonge v. State of Oregon, 299 U.S. 353,
364 (1937)); accord Kuchenreuther v. City of Milwaukee, 221 F.3d 967, 972 n.16 (7th Cir. 2000)
(“We evaluate free speech and free assembly claims under the same analysis.”). Indeed, Plaintiffs’
freedom of assembly argument cites freedom of speech cases. Mot. at 12–18 (citing, e.g., Reed,
576 U.S. 155). Thus, the Court’s analysis of Plaintiffs’ free speech claims applies equally to
Plaintiffs’ free assembly claims.
Tandon’s free speech and assembly claims are not moot.
The State and the County argue that Tandon’s claims are moot because the 2020 election
has passed. State Opp’n at 7–8; County Opp’n at 8–9. The Court disagrees because Tandon has
expressed his intent to run in 2022, and Tandon has stated that he needs to meet with advisors,
donors, and constituents to support his 2022 campaign in the coming months, while the State and
the County restrictions are likely to remain in effect.
“Under Article III of the Constitution, federal courts may adjudicate only actual, ongoing
cases or controversies.” Lewis v. Continental Bank Corp., 494 U.S. 472, 477 (1990). “An ‘actual
controversy must be extant at all stages of review, not merely at the time the complaint is filed.’”
Alvarez v. Smith, 558 U.S. 87, 92 (2009) (quoting Preiser v. Newkirk, 422 U.S. 395, 401 (1975)).
“A case becomes moot ‘when the issues presented are no longer ‘live’ or the parties lack a legally
cognizable interest in the outcome.’” Porter v. Jones, 319 F.3d 483, 489 (9th Cir. 2003) (quoting
Clark v. City of Lakewood, 259 F.3d 996, 1011 (9th Cir. 2001)).

motion, the County updated its restrictions to prohibit all indoor gatherings. Bussey Decl. Exh. A
(stating that “all indoor gatherings are currently prohibited”).
46
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 099 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 47 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

However, there is an exception to the mootness doctrine if a case is “capable of repetition,
yet evading review.” Lewis, 494 U.S. at 481. Under this exception, cases for prospective relief can
go forward “despite abatement of the underlying injury . . . where the following two circumstances
[are] simultaneously present: ‘(1) the challenged action [is] in its duration too short to be fully
litigated prior to its cessation or expiration, and (2) there [is] a reasonable expectation that the
same complaining party would be subjected to the same action again.’” Id. (quoting Murphy v.
Hunt, 455 U.S. 478, 482 (1982) (per curiam)).
The Court concludes that these two circumstances are met in this case. First, Tandon’s
challenge is a “controversy evading review” because the 2020 election was too short to be fully
litigated before it ended. Wolfson v. Brammer, 616 F.3d 1045, 1054 (9th Cir. 2010). “Election
cases often fall within this exception, because the inherently brief duration of an election is almost
invariably too short to enable full litigation on the merits.” Porter, 319 F.3d at 490 (concluding
that an election challenge was a controversy evading review); see also Wolfson, 616 F.3d at 1054
(same); Joyner v. Mofford, 706 F.2d 1523, 1527 (9th Cir. 1983) (same).
“To satisfy the second requirement, that the action is capable of repetition, [a candidate]
must establish a reasonable expectation that he will be subjected to the same action or injury
again.” Wolfson, 616 F.3d at 1054. A candidate can meet this requirement even after the election
has passed where the candidate “has subsequently announced an intent to seek office in a future
election.” Id. at 1055; see also Davis v. Fed. Election Comm’n, 554 U.S. 724, 736 (2008)
(concluding that a challenge to self-financing rules was capable of repetition yet evading review
where the election had passed but the candidate subsequently announced an intent to self-finance
another bid for a House seat).
The County argues that Tandon’s claims are moot because Tandon has not expressed an
intent to seek office in a future election. County Opp’n at 8. However, in a sworn declaration,
Tandon states that he is “planning for another Congressional run in 2022.” Tandon Reply Decl. ¶¶
47
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 100 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 48 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12

5–6. Thus, Tandon “has subsequently announced an intent to seek office in a future election,”
which means that he can establish a reasonable expectation that he will be subject to the same
action or injury again. Wolfson, 616 F.3d at 1055.
The County argues that the likelihood that Tandon will face the same action or injury again
is “remote and speculative” because it is unclear what level of community transmission of
COVID-19, and what restrictions on gatherings, will exist leading up to the 2022 election. County
Opp’n at 9. However, Tandon states in his declaration that he will need to meet with advisors,
donors, and constituents in the coming months, while the restrictions remain in place. Tandon
Reply Decl. ¶¶ 5–6. Thus, the Court concludes that Tandon’s claim is not moot and proceeds to
consider the free exercise and free speech claims on the merits.
Plaintiffs are not likely to succeed on the merits of their free speech and
assembly claims.

13

The First Amendment, incorporated against the states by the Fourteenth Amendment,

14

prohibits states “from enacting laws ‘abridging the freedom of speech, . . . or the right of the

15

people peaceably to assemble.’” Long Beach Area Peace Network v. City of Long Beach, 574 F.3d

16

1011, 1020–21 (9th Cir. 2009) (quoting U.S. Const. amend. I). Under the First Amendment,

17

“certain types of speech enjoy special status.” Id. at 1021. In particular, “[p]olitical speech is core

18

First Amendment speech, critical to the functioning of our democratic system,” so it “‘rest[s] on

19

the highest rung of the hierarchy of First Amendment values.’” Id. (quoting Carey v. Brown, 447

20

U.S. 455, 467 (1980)).

21

To evaluate a free speech claim, the Court must first decide whether a law restricting

22

speech is content based or content neutral. Recycle for Change v. City of Oakland, 856 F.3d 666,

23

669 (9th Cir. 2017). “Content-based laws,” which are “those that target speech based on its

24

communicative content,” must satisfy strict scrutiny, meaning that “the government [must] prove[]

25

that they are narrowly tailored to serve compelling government interests.” Reed v. Town of

26

Gilbert, 576 U.S. 155, 163 (2015). In addition, laws must satisfy strict scrutiny if they are facially

27
28

48
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 101 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 49 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

content neutral, but “cannot be ‘justified without reference to the content of the regulated speech,’
or that were adopted by the government ‘because of disagreement with the message [the speech]
conveys.’” Id. at 164 (quoting Ward v. Rock Against Racism, 491 U.S. 781, 791 (1989)).
However, if “a law does not ‘suppress[] expression out of concern for its likely communicative
impact,’” the law must only satisfy intermediate scrutiny. Recycle for Change, 856 F.3d at 669–70
(quoting United States v. Swisher, 811 F.3d 299, 314 (9th Cir. 2016) (en banc)).
Accordingly, for the reasons discussed below, the Court reaches the following conclusions.
First, the State’s and the County’s private gatherings restrictions are content neutral. Second,
because the State’s and the County’s private gatherings restrictions are content neutral, the Court
applies intermediate scrutiny and concludes that the restrictions satisfy intermediate scrutiny.
Finally, in the alternative, even assuming that the State’s and the County’s private gatherings
restrictions are not content neutral, the Court applies strict scrutiny and concludes that these
restrictions satisfy strict scrutiny.

15

i. The State’s and the County’s private gatherings restrictions are content
neutral.

16

“Government regulation of speech is content based if a law applies to particular speech

17

because of the topic discussed or the idea or message expressed.” Reed, 576 U.S. at 163. “The

18

‘crucial first step’ in determining whether a law is content based is to ‘consider whether a

19

regulation of speech on its face draws distinctions based on the message a speaker conveys.”

20

Recycle for Change, 856 F.3d at 670 (quoting Reed, 576 U.S. at 163). “Some facial distinctions

21

based on a message are obvious, defining regulated speech by particular subject matter, and others

22

are more subtle, defining regulated speech by its function or purpose.” Reed, 576 U.S. at 163.

23

Where a restriction “does not, on its face, discriminate on the basis of content,” the restriction is

24

content neutral. Recycle for Change, 856 F.3d at 670. Accordingly, “blanket bans applicable to all

25

speakers are content neutral.” Santa Monica Nativity Scenes Comm. v. City of Santa Monica, 784

26

F.3d 1286, 1295 & n.5 (9th Cir. 2015).

27
28

49
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 102 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 50 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Courts have concluded that the State’s COVID-related restrictions are blanket bans that are
thus content neutral. In Givens v. Newsom, an individual who wished to protest and a
congressional candidate who wished to hold a rally sought permits for in-person gatherings at the
State Capitol. 459 F. Supp. 3d 1302, 1308 (E.D. Cal. 2020), appeal dismissed, --- F. App’x ---,
2020 WL 7090826 (9th Cir.). However, their permits were denied due to the State’s COVIDrelated restrictions on mass gatherings. Id. The individual and the congressional candidate sought
a temporary restraining order and argued that the restrictions violated their First Amendment
rights. Id. at 1307, 1309. The district court rejected their application for a temporary restraining
order and concluded that “[t]he State’s order, and the resulting moratorium on permits, are,
beyond question, content-neutral.” Id. at 1312. The district court emphasized the fact that the
“temporary moratorium on all permits for in-person gatherings applies to all applicants.” Id.
(emphasis omitted). The same reasoning applies to the gatherings restrictions here.
The Gannons challenge the State’s private gatherings restrictions. In counties at the most
severe or widespread tier, these restrictions prohibit indoor private gatherings of individuals
outside the immediate household and restrict outdoor private gatherings to three households. See
supra Section III-A; Haddad Decl. Exh. 12; Dunn Reply Decl. Exh. 4. Specifically, the State
defines gatherings as “social situations that bring together people from different households at the
same time in a single space or place.” Id. The State’s private gatherings restrictions are content
neutral because they apply to all gatherings regardless of the speech to be shared at that gathering.
Recycle for Change, 856 F.3d at 670 (“Here, the Ordinance is content neutral because it does not,
on its face, discriminate on the basis of content . . . .”). Indeed, the State’s private gatherings
restrictions are blanket bans on all gatherings, and blanket bans are content neutral. Santa Monica
Nativity Scenes Comm., 784 F.3d at 1295 & n.5 (holding that “blanket bans applicable to all
speakers are content neutral”).
Tandon challenges the County’s private gatherings restrictions. As discussed in Section
50
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 103 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 51 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

III-A above, the County’s private gatherings restrictions: (1) prohibit indoor gatherings, which are
also banned by the State’s private gatherings restrictions; (2) limit all outdoor gatherings to 200
people; (3) and require that the outdoor space must be large enough to permit attendees to
maintain six feet of distance. Id. Thus, regardless of the County’s Blueprint tier, the County limits
to 200 outdoor gatherings that are “an event, assembly, meeting, or convening that brings together
multiple people from separate households in a single space, indoors or outdoors, at the same time
and in a coordinated fashion—like a wedding, banquet, conference, religious service, festival, fair,
party, performance, movie theater operation, barbecue, protest, or picnic.” Bussey Decl. Exhs. A,
G. The State’s private gatherings restrictions do not regulate these gatherings. These County
restrictions apply regardless of the purpose of the gathering. Id. The County’s private gatherings
restrictions are thus akin to blanket bans applicable to all speakers, which are content neutral.
Santa Monica Nativity Scenes Comm., 784 F.3d at 1295 & n.5 (holding that “blanket bans
applicable to all speakers are content neutral.”). Accordingly, the restrictions challenged by
Tandon are also content neutral.
Plaintiffs argue that the State’s and the County’s private gatherings restrictions are not
content neutral because their gatherings are being treated more harshly than other activities. Reply
at 7. Plaintiffs assert that, while their indoor gatherings are prohibited, “the State and County have
allowed people to gather indoors at airports, shopping centers, retail stores, hair salons, tattoo
parlors, body art venues, piercing stores, pet grooming outlets, and more, so long as those present
can maintain six feet of distance.” Id. For example, Plaintiffs point out that Tandon could get a
tattoo indoors, but could not gather indoors with his supporters for a political event. Id.
Plaintiffs’ argument is unpersuasive for two reasons. First, the Ninth Circuit has recently
rejected a similar argument. Second, the Court’s independent review confirms that the commercial
activities to which Plaintiffs point are distinct from Plaintiffs’ private gatherings.
In South Bay, the Ninth Circuit concluded that the socially distanced commercial activities
51
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 104 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 52 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

to which Plaintiffs point had a lower risk of spreading COVID-19 than gatherings. Specifically,
the Ninth Circuit’s decision upheld the Blueprint’s restrictions on houses of worship, which
prohibit indoor worship services in counties in the widespread tier, and concluded that the
Blueprint’s restrictions were narrowly tailored to slow the spread of COVID-19, protect high-risk
individuals from infection, and prevent the overwhelming of the healthcare system. 2021 WL
222814, at *12–*14. The plaintiffs argued that the State’s restrictions were not narrowly tailored
because the State permitted numerous non-religious activities, including grocery and retail
shopping and personal care services. Id. at *11.
Rejecting the plaintiffs’ argument, the Ninth Circuit concluded that worship services were
distinct from, and more likely to spread COVID-19 than, socially distanced commercial activities.
The Ninth Circuit explained that, in commercial settings, “patrons typically have the intention of
getting in and out of grocery and retail stores as quickly as possible.” Id. at *12. By contrast, “the
very purpose of a worship service is to congregate as a community.” Id. The Ninth Circuit also
explained that ventilation was better in some commercial settings such as grocery stores, which
are equipped with high-functioning air conditioning systems that increase air flow. Id.
Finally, the Ninth Circuit emphasized the plethora of mandatory industry regulations aimed at
preventing the spread of COVID-19 that applied to the grocery, retail, personal care services, and
film industries, among others. Id. at *12–*14. These restrictions included use of plexiglass,
frequent disinfection of commonly used surfaces, and frequent testing of workers, including in the
film industry. Id.
In the instant case, the Court also concludes that the socially distanced commercial
activities cited by Plaintiffs are different in kind from Plaintiffs’ gatherings. Indeed, “evidence
suggests that gatherings may pose a higher risk of transmission than other kinds of activities that
remain subject to different restrictions.” Cody Decl. ¶ 59. Plaintiffs’ gatherings are markedly more
risky in at least six different ways: (1) people are together for a longer time; (2) singing, chanting,
52
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 105 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 53 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

shouting, loud talking, and sustained conversations are more likely to occur; (3) ventilation is
poorer; (4) masking and social distancing are less likely; (5) private gatherings are not required to
implement safety measures mandated by health and safety codes and industry regulations; and (6)
large numbers of people may be in the same place at the same time. The Court addresses each
distinction in turn.
First, people at Plaintiffs’ gatherings are together for a longer time. In commercial
environments, such as retail and grocery stores, “when people from different households are
together in a grocery store, they are together for a shorter duration of time as compared to
attendees at a coordinated gathering where attendees linger.” Cody Decl. ¶ 59. Further, grocery
shoppers may be less likely to be in close proximity to other shoppers, as opposed to attendees at a
gathering who have social connections to one another. See also South Bay, 2021 WL 222814, at
*12 (explaining that grocery stores are distinct from house of worship services because “patrons
typically have the intention of getting in and out of grocery and retail stores as quickly as
possible.”). Thus, the risk of transmission is generally less in a setting with brief contact between
individuals as compared to a setting such as a gathering that promotes sustained contact. The risk
of transmission “increases with the duration of the gathering, whether it takes place indoors or
outdoors.” Rutherford Decl. ¶ 78. The main mechanism for COVID-19 transmission is an infected
person exposing others to virus-containing droplets or aerosols. Id. ¶ 79.
Second, unlike people in commercial gatherings, people at Plaintiffs’ gatherings often have
social connections to one another and are coming together for the purposes of being together.
Cody Decl. ¶ 59; Rutherford Decl. ¶ 82. At Plaintiffs’ gatherings, people are likely to be in
extended conversations. Rutherford Decl. ¶ 82. “Even sustained conversations between
individuals, when they are in close proximity in indoor spaces, or in outdoor spaces in which
social distance is not maintained, carry increase risk of transmission.” Rutherford Decl. ¶ 79. In
some environments—such as a Bible study or political event—people might even sing or chant.
53
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 106 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 54 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

By contrast, singing, chanting, shouting, and loud talking are uncommon in commercial
environments, like grocery and retail stores. Singing, chanting, shouting, and loud talking are
more likely to spread COVID-19 because they produce more viral droplets and particles—and
project those droplets further. Rutherford Decl. ¶¶ 29, 79; Reingold Decl. ¶¶ 20–22; Cody Decl.
¶ 35. For instance, Plaintiffs propose Bible study groups and gatherings to debate policy issues—
gatherings which “involve groups of unrelated individuals from different households or ‘bubbles’
coming together for the purpose of being together and engaging in extended conversation and
interaction in close proximity to one another.” Rutherford Decl. ¶ 82.
Third, ventilation tends to be poorer at Plaintiffs’ gatherings. “There is in particular
heightened transmission risk from indoor gatherings taking place in buildings that have poor air
circulation, such as in private homes.” Rutherford Decl. ¶ 76. By contrast, some commercial
activities take place in large spaces. Others include systems that increase ventilation. For example,
“grocery stores are ‘almost always’ equipped with high-functioning air conditioning systems that
increase ventilation and air flow.” South Bay, 2021 WL 222814, at *12. Others take place
outdoors. See Dunn Decl. Exh. 23 (stating that some personal care services are permitted to take
place outdoors). In environments with better ventilation, the virus disperses more easily,
preventing it from accumulating into doses large enough to overcome the immune system. Watt
Decl. ¶ 44; Rutherford Decl. ¶¶ 60, 76–77; Reingold Decl. ¶ 20; Cody Decl. ¶ 29. Ventilation is
important even where people properly wear face coverings. “The increased risk of transmission
resulting from vocalization and other activities involving increased exhalation force that are
commonly engaged in during gatherings is reduced but not eliminated where all of the participants
wear face coverings.” Rutherford Decl. ¶ 80 (emphasis added).
Fourth, masking and social distancing are less likely at Plaintiffs’ gatherings than in
commercial settings. Under the State’s restrictions, commercial environments require masking and
social distancing, a requirement that can be enforced by commercial workers. See Haddad Decl.
54
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 107 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 55 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Exh. 9. On the other hand, at Plaintiffs’ gatherings, it is “uncertain whether participants in these
gatherings would maintain social distancing and face coverings during the entirety of the
gatherings.” Rutherford Decl. ¶ 84. Indeed, many gathering spaces in the home—such as kitchen
tables and living rooms—do not provide six feet of distance between persons. “[T]he closer the
proximity between individuals who gather, and the longer they are in close proximity, the more
opportunity there is for the virus to be transmitted via droplets or aerosolized particles containing
the virus.” Rutherford Decl. ¶ 74.
Fifth, Plaintiffs’ gatherings are not part of a regulated industry. By contrast, commercial
retail environments are subject to mandatory industry guidance, which include creation of a
COVID-19 prevention plan, cleaning and disinfecting of frequently used surfaces, and screening
of workers. Haddad Decl. Exh. 9; Dunn Decl. Exhs. 17–27; see also South Bay, 2021 WL 222814,
at *12 (explaining that commercial activities were distinct from worship services because they
included “plexiglass at checkout, frequent disinfection of commonly used surfaces such as
shopping carts, and the closure of any areas that encourage congregating”). Personal care services
are also subject to mandatory industry guidance. Dunn Decl. Exhs. 23, 24, 42. For example,
workers must wear a secondary barrier, like goggles or a face shield, in addition to a mask, when
providing services on clients who cannot wear a mask. Id. As to filming, “this sector is more
strictly regulated than many others.” South Bay, 2021 WL 222814, at *13 (emphasis in original).
For example, “filming in the state resumed only after the studios and unions reached an agreement
concerning safety guidelines.” Id. That agreement requires tri-weekly testing. Id. In addition, there
are special protocols for makeup, hair styling, costumes, and props. Id. These restrictions lower
the risk that COVID-19 will be spread. Moreover, the State can enforce industry guidance,
including by imposing a misdemeanor conviction, $1,000 fine, and six months imprisonment. See
Dunn Decl. Exhs. 2, 3 (referencing Cal. Gov’t Code § 8665); Cal. Gov’t Code § 8665.
Sixth, Plaintiffs’ gatherings can involve many more people than commercial interactions.
55
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 108 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 56 of 80

1
2
3
4
5
6
7
8
9

United States District Court
Northern District of California

10

Some commercial settings, such as personal care services, involve only “small numbers of
individuals interacting.” Id. The more people who are together, the more likely it is that COVID19 will be spread. Watt Decl. ¶ 42; Rutherford Decl. ¶ 77.
Accordingly, the State’s and the County’s private gatherings restrictions are content
neutral and need only satisfy intermediate scrutiny. Recycle for Change, 856 F.3d at 669–70
(applying intermediate scrutiny to a content neutral regulation). The Court next considers whether
the State’s and the County’s private gatherings restrictions satisfy intermediate scrutiny.
ii. The State’s and County’s content neutral restrictions satisfy intermediate
scrutiny.
Under intermediate scrutiny, a regulation is justified “[1] if it is within the constitutional

11

power of the Government; [2] if it furthers an important or substantial governmental interest; [3] if

12

the governmental interest is unrelated to the suppression of free expression; and [4] if the

13

incidental restriction on alleged First Amendment freedoms is no greater than is essential to the

14

furtherance of that interest.” Wilson v. Lynch, 835 F.3d 1083, 1096 (9th Cir. 2016) (quoting United

15

States v. O’Brien, 391 U.S. 367, 376 (1968)). The Court addresses each element in turn.

16
17
18
19
20
21
22
23

(a) The State’s and County’s restrictions are within the constitutional
power of the government.
The State’s and the County’s private gatherings restrictions are within the constitutional
power of the government. A restriction is within the government’s constitutional powers if the
government can constitutionally regulate the subject in question. Wilson, 835 F.3d at 1096; United
States v. Tomsha-Miguel, 766 F.3d 1041, 1048 (9th Cir. 2014). Plaintiffs do not argue that the
State or the County is prohibited from regulating private gatherings. Accordingly, the Court
concludes that the State’s and the County’s private gatherings restrictions are within the
constitutional power of the government.

24
25
26
27
28

56
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 109 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 57 of 80

1

(b) The State’s and County’s restrictions further the compelling interests
of slowing the spread of COVID-19, protecting high-risk individuals
from infection, and preventing the overwhelming of the healthcare
system.

2
3
4

The State’s and the County’s private gatherings restrictions are directed to slowing the

5

spread of COVID-19, protecting high-risk individuals from infection, and preventing the

6

overwhelming of the healthcare system. As discussed above, supra Section III-B-2, the Court

7

concludes that these are compelling government interests.
(c) Slowing the spread of COVID-19, protecting high-risk individuals from
infection, and preventing the overwhelming of the healthcare system
are unrelated to the suppression of free expression.

8

United States District Court
Northern District of California

9
10

Slowing the spread of COVID-19, protecting high-risk individuals from infection, and

11

preventing the overwhelming of the healthcare system are unrelated to the suppression of free

12

expression. As explained above, the State’s and the County’s private gatherings restrictions are

13

blanket bans applicable to all gatherings. See Section III-B-3-b-i, supra. Thus, the State’s and the

14

County’s private gatherings restrictions do not prevent the expression of any particular message or

15

viewpoint. Accordingly, the Court concludes that the compelling government interests at issue

16

here are unrelated to the suppression of free expression. Tomsha-Miguel, 766 F.3d at 1048 (9th

17

Cir. 2014) (concluding that a statute was unrelated to the suppression of free expression because

18

the statute “does not prevent the expression of any particular message or viewpoint”) (quotation

19

omitted).

20
21
22
23
24
25
26
27
28

(d) The incidental restriction on speech and assembly is no greater than is
essential to slow the spread of COVID-19, protect high-risk individuals
from infection, and prevent the overwhelming of the healthcare system.
Finally, the Court considers whether the State’s and the County’s private gatherings
restrictions are “no greater than is essential to the furtherance of” the compelling government
interests at stake here. Wilson, 835 F.3d at 1096 (quotation omitted). In the context of content
neutral laws, a regulation need “not [be]. . . the least restrictive or least intrusive means” of
achieving the governmental interest. Ward, 491 U.S. at 798. Rather, the regulation must
57
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 110 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 58 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

“promote[ ] a substantial government interest that would be achieved less effectively absent the
regulation . . . . [and] the means chosen [must] not [be] substantially broader than necessary to
achieve the government’s interest.” Id. at 799–800.
The Court concludes that the State’s and the County’s private gatherings restrictions are no
greater than is essential to slow the spread of COVID-19, protect high-risk individuals, and
prevent the overwhelming of the healthcare system for the following three reasons. First, the Ninth
Circuit has held that some of the State’s restrictions are narrowly tailored in the context of strict
scrutiny, a higher standard than the intermediate scrutiny at issue here. Second, the Court’s
independent review of the State’s and the County’s private gatherings restrictions confirms they
promote compelling government interests that would be achieved less effectively absent the
restrictions. Finally, the State’s and the County’s private gatherings restrictions are not
substantially broader than necessary to achieve the compelling government interests at issue here.
First, in South Bay, the Ninth Circuit concluded that some of the State’s restrictions were
narrowly tailored to achieve the compelling government interests of slowing the spread of
COVID-19, protecting high-risk individuals from infection, and preventing the healthcare system
from being overwhelmed. South Bay, 2021 WL 222814, at *10–*14.11 The Ninth Circuit analyzed
the State’s restrictions on houses of worship in the widespread tier, which prohibit indoor worship
services, but permit outdoor worship services with no limit on attendance. Id. at *8.12 The Ninth
Circuit explained that these restrictions were narrowly tailored to slow the spread of COVID-19
11

Following the Ninth Circuit’s opinion in South Bay, the Ninth Circuit decided Harvest Rock
Church v. Newsom, which followed South Bay. 2021 WL 235640, at *1 (9th Cir. 2021).
12

At the time of the Ninth Circuit’s opinion in South Bay, the Regional Stay at Home Order
remained in effect. However, the Ninth Circuit considered not only the restrictions in the Regional
Stay at Home Order but also the restrictions in the Blueprint. South Bay, 2021 WL 222814, at 8
n.20 (“Because the State considered the same neutral risk criterial in formulating both the
Regional Stay at Home Order and the Blueprint . . . we consider the framework as a whole.”).

26
27
28

58
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 111 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 59 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

because the State had used objective factors to evaluate the risk that COVID-19 would be spread
by specific activities, including services at houses of worship. Id. at *10–*11. The State’s analysis
had concluded that services at houses of worship were more likely to spread COVID-19 than other
activities, such as grocery shopping, retail shopping, and personal care services. Id. at *11–*14.
Accordingly, the Ninth Circuit concluded that some of the Blueprint’s restrictions satisfied the
narrow tailoring requirement in the context of strict scrutiny, a higher threshold than the narrow
tailoring requirement in the context of intermediate scrutiny. See Ward, 491 U.S. at 798. Thus, if
the Ninth Circuit held that the Blueprint’s restrictions satisfied strict scrutiny, certainly the
restrictions would satisfy the lower intermediate scrutiny.
Second, the State’s and the County’s private gatherings restrictions promote the
compelling government interests of slowing the spread of COVID-19, protecting high-risk
individuals from infection, and preventing the overwhelming of the healthcare system, which
would be achieved less effectively absent the restrictions. Indeed, gatherings are especially likely
to result in the spread of COVID-19. Watt Decl. ¶¶ 42–44, Rutherford Decl. ¶¶ 60, 76–77; Cody
Decl. ¶¶ 34–35. Gatherings are particularly risky because COVID-19 is often spread when
individuals are in close proximity with an infected person for an extended period of time, which
allows a sufficient dose of viral droplets or particles to move from an infected person to others.
Rutherford Decl. ¶ 31; Watt Decl. ¶¶ 29, 33. The risk for gatherings, especially indoor gatherings,
remains high even when attendees socially distance, wear face coverings, and use sanitizer. Watt
Decl. ¶ 44, Rutherford Decl. ¶¶ 60, 75–77. COVID-19 is 18.7 times more likely to be transmitted
in a closed environment than in an open-air environment. Watt Decl. ¶ 44. Summarizing the risks
of indoor private gatherings, Dr. George Rutherford, Professor of Epidemiology and Biostatistics
at the U.C. San Francisco School of Medicine, explains:
As discussed, the proposed indoor gatherings would have a
substantial risk of transmission, including because of the heightened
risks involved in gatherings that bring together individuals from
59
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 112 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 60 of 80

1
2
3
4
5

United States District Court
Northern District of California

6

different households who are not regularly in contact with each other,
gatherings that take place indoors, the likely close proximity of the
individuals engaged in the activity, and the interaction and
vocalization between individuals in close proximity to one another
that would be expected at a gathering of this nature.
Rutherford Decl. ¶ 83.
Therefore, the consensus of public health experts is that limits on gatherings are essential

7

to slow the spread of COVID-19. Rutherford Decl. ¶ 50; Stoto Decl. ¶ 15; Watt Decl. ¶¶ 51–52;

8

Reingold Decl. ¶ 27; Cody Decl. ¶ 75; Maldonado Decl. ¶¶ 13, 18. Because of the unique dangers

9

of gatherings in spreading COVID-19, slowing the spread of COVID-19, protecting high-risk

10

individuals from infection, and preventing the overwhelming of the healthcare system would be

11

achieved less effectively without the State’s and County’s restrictions.

12

Third, the State’s and the County’s private gatherings restrictions are not substantially

13

broader than necessary to achieve the compelling government interests in slowing the spread of

14

COVID-19, protecting high-risk individuals from infection, and preventing the overwhelming of

15

the healthcare system for the following three reasons.

16

One, the State’s and the County’s private gatherings restrictions limit attendance. Haddad

17

Decl. Exh. 12 (State Blueprint, limiting gatherings in counties in the widespread tier to three

18

households outdoors); ECF No. 61 Exh. 3 (County’s restrictions, limiting gatherings to 200 people

19

outdoors). Limits on attendance are necessary because the bigger a gathering is, the more risk

20

there is that COVID-19 will be spread. Watt Decl. ¶ 42. A bigger gathering increases the risk of

21

spreading COVID-19 because it increases the number of people who can be infected and the

22

likelihood that an infected person is present. Id.

23

Two, the State’s and the County’s private gatherings restrictions are significantly more

24

restrictive of indoor gatherings than of outdoor gatherings. See Haddad Decl. Exh. 12 (State

25

Blueprint, prohibiting indoor gatherings but allowing outdoor gatherings in counties in the

26

widespread tier); ECF No. 61 Exh. 3 (County’s restrictions, prohibiting indoor gatherings and

27
28

60
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 113 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 61 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

permitting outdoor gatherings of 200 people or fewer). This distinction is aligned with the way
that COVID-19 spreads. One study found that the likelihood of transmitting COVID-19 was 18.7
times greater in a closed environment than in an open-air environment. Watt Decl. ¶ 44. COVID19 is more easily spread indoors because the virus disperses less easily indoors and can remain in
the air for a longer period of time, which allows it to accumulate into large enough doses to infect
people. Watt Decl. ¶ 44; Rutherford Decl. ¶¶ 60, 76–77; Reingold Decl. ¶ 20; Cody Decl. ¶ 29.
Accordingly, the CDC advises that activities are safer when they are held in outdoor spaces. Cody
Decl. ¶ 31. Following this guidance, the State and the County allow outdoor activities that are
banned indoors. For instance, singing, chanting, and shouting—activities that generate droplets
and aerosols—are allowed outdoors if participants wear face coverings and socially distance by at
least six feet. Watt Decl. ¶ 81.
Three, the State’s private gatherings restrictions are more restrictive of gatherings in
counties with greater spread of COVID-19. See Haddad Decl. Exh. 12 (State Blueprint, permitting
only outdoor gatherings with three households in the widespread tier and indoor gatherings with
three households in the substantial tier). This tiered system recognizes that the more people are
infected in a county, the more likely a gathering in that county has an infected person present.
Rutherford Decl. ¶ 81. The tiered system thus imposes stricter restrictions in higher risk counties.
By the same token, the tiered system minimizes restrictions in counties with lower prevalence of
infection.
Thus, the Court concludes that the State’s and County’s private gatherings restrictions are
no greater than are essential to slow the spread of COVID-19, protect high-risk individuals from
infection, and prevent the overwhelming of the healthcare system. In sum, although the State’s and
the County’s private gatherings restrictions are significant, the restrictions are being imposed to
address the worst public health crisis in one hundred years, and “‘narrow’ in the context of a
public health crisis is necessarily wider than usual.” Givens, 459 F. Supp. 3d at 1313 (concluding
61
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 114 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 62 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18

that California’s ban on gatherings was a content neutral restriction that survived intermediate
scrutiny). Thus, the Court concludes that the State’s and the County’s private gatherings
restrictions satisfy intermediate scrutiny.
iii. Even assuming that the State’s and the County’s private gatherings
restrictions are content based, they are narrowly tailored to serve a
compelling government interest.
Even assuming that the State’s and the County’s private gatherings restrictions are content
based, they nevertheless are constitutional because they are narrowly tailored to serve a
compelling government interest and thus satisfy strict scrutiny. Reed, 576 U.S. at 163. The Court
first considers whether the restrictions serve a compelling government interest then discusses
whether the restrictions are narrowly tailored.
(a) Slowing the spread of COVID-19, protecting high-risk individuals from
infection, and preventing the overwhelming of the healthcare system
are compelling government interests.
As discussed above, supra Section III-B-2, the Court concludes that the State and the
County have compelling government interests in slowing the spread of COVID-19, protecting
high-risk individuals from infection, and preventing the overwhelming of the healthcare system.
(b) The State’s and the County’s private gatherings restrictions are
narrowly tailored.
The State’s and the County’s private gatherings restrictions are narrowly tailored to slow

19

the spread of COVID-19, protect high-risk individuals, and prevent the overwhelming of hospitals

20

for three reasons. First, both the Ninth Circuit and other district courts have held that some of the

21

Blueprint’s restrictions are narrowly tailored. Second, the Court’s independent review of the

22

State’s and County’s restrictions confirms they are narrowly tailored. Third, Plaintiffs’ proposed

23

alternatives to the State’s and the County’s private gatherings restrictions are insufficient to halt

24

the spread of COVID-19.

25
26
27
28

First, on January 22, 2021, the Ninth Circuit concluded that the Blueprint’s restrictions on
houses of worship in the widespread tier, which prohibit indoor worship services but permit
62
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 115 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 63 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

outdoor worship services with no limit on attendance, were narrowly tailored to achieve the
compelling government interests of slowing the spread of COVID-19, protecting high-risk
individuals from infection, and preventing the overwhelming of the healthcare system. South Bay,
2021 WL 222814, at *8, *10–*14.13 The Ninth Circuit explained that these restrictions are
narrowly tailored because the State used objective factors to evaluate the risk that COVID-19
would be spread by specific activities, including services at houses of worship. Id. at *10–*11.
The State’s analysis concluded that services at houses of worship were more likely to spread
COVID-19 than other activities, such as grocery shopping, retail shopping, and personal care
services. Id. at *11–*14.
Other district courts analyzing the same restrictions have also concluded that they are
narrowly tailored to achieve the compelling government interest of slowing the spread of COVID19. See Harvest Rock Church v. Newsom, Case No. EDCV 20-6414-JGB, 2020 WL 7639584, at
*9 (C.D. Cal. Dec. 21, 2020), aff’d in part and rev’d in part, --- F.3d ---, 2021 WL 235640 (9th
Cir. 2021) (“California’s Blueprint is . . . painstakingly tailored to address the risks of [COVID19] transmission specifically”); South Bay, Case No. 20-CV-00865-BAS-AHG, 2020 WL
7488974, at *9 (S.D. Cal. Dec. 21, 2020), aff’d, --- F.3d ---, 2021 WL 222814 (9th Cir. 2021)
(concluding that “California did exactly what the narrow tailoring requirement mandates—that is,
California has carefully designed the different exemptions to match its goal of reducing
community spread”).
In the instant case, the Court similarly concludes that the State’s and the County’s private
gatherings restrictions are narrowly tailored to reduce community spread, protect high-risk
individuals, and prevent the healthcare system from being overwhelmed. As the Ninth Circuit
emphasized, the State public health officials who were designing the Blueprint considered eight

13

Following the Ninth Circuit’s opinion in South Bay, the Ninth Circuit decided Harvest Rock
Church v. Newsom, which followed South Bay. 2021 WL 235640, at *1 (9th Cir. 2021).
63
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 116 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 64 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

objective risk criteria related to the spread of COVID-19: (1) the ability to accommodate face
covering wearing at all times; (2) the ability to physically distance between individuals of different
households; (3) the ability to limit the number of people per square foot; (4) the ability to limit the
duration of exposure; (5) the ability to limit the amount of mixing of people from different
households; (6) the ability to limit the amount of physical interactions; (7) the ability to optimize
ventilation; and (8) the ability to limit activities that are known to increase the possibility of viral
spread, such as singing, shouting, and heavy breathing. Kurtz Decl. ¶ 20.
Here, Plaintiffs propose private gatherings. Applying these objective factors, private
gatherings are very risky for the spread of COVID-19. All eight of these factors show that private
gatherings greatly risk the spread of COVID-19. At private gatherings, people often do not use
face coverings (Factor 1). Nor do people maintain physical distancing (Factor 2) or limit the
number of people per square foot (Factor 3). The time spent in close proximity to others is longer
than in public settings (Factor 4), allowing a sufficient dose of viral droplets or particles to move
from one person to others. Watt Decl. ¶¶ 42–44; Rutherford Decl. ¶¶ 60, 76–77; Cody Decl. ¶¶
34–35. People from different households mix (Factor 5) and physically interact (Factor 6).
Ventilation is limited indoors (Factor 7). Watt Decl. ¶ 44; Rutherford Decl. ¶¶ 60, 76–77;
Reingold Decl. ¶ 20; Cody Decl. ¶ 29. Activities such as shouting can be involved, especially in
gatherings like the political rallies that Tandon wishes to hold (Factor 8). Even where face
coverings and strict physical distancing are used, indoor gatherings involve six of the other eight
factors that correspond to a higher risk of spreading COVID-19, and outdoor gatherings involve
five of the other eight factors. Thus, as the vast consensus of public health experts believes,
gatherings must be limited in order to slow the spread of COVID-19. Rutherford Decl. ¶ 50; Stoto
Decl. ¶ 15; Watt Decl. ¶¶ 51–52; Reingold Decl. ¶ 27; Cody Decl. ¶ 75; Maldonado Decl. ¶¶ 13,
18.
Second, as discussed above, the Court’s independent review of the State’s and the
64
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 117 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 65 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

County’s private gatherings restrictions confirms that the restrictions are narrowly tailored for
three reasons: (1) they limit attendance at gatherings; (2) they place stricter limits on indoor
gatherings than outdoor gatherings; and (3) the State’s restrictions place stricter limits on
gatherings in counties where COVID-19 is more prevalent. See Section III-B-3-b-iii-(d), supra.
Finally, Plaintiffs’ two less restrictive alternatives are insufficient to reduce community
spread, protect high risk individuals, and prevent the healthcare system from being overwhelmed.
Plaintiffs first propose focusing on vulnerable populations, but the Court has already explained
why that would be insufficient to meet the compelling government interests at stake. See Section
III-B-2-d, supra. Plaintiffs also propose indoor gatherings with face coverings and physical
distancing. However, as the Court explained more fully in Section III-B-3-b-i, supra, even when
people wear face coverings and physically distance, a significant risk of infection remains,
particularly when people get together for extended periods and in environments with limited
ventilation, such as indoors. Watt Decl. ¶¶ 38, 45–46, 48; Rutherford Decl. ¶¶ 60, 76–77, 84.
Moreover, the State’s and County’s experience bears out the importance of not only
wearing a face covering and social distancing but also limiting gatherings. At least 23 of 30
California counties experiencing increases in their COVID-19 cases identified gatherings as a
cause of the rise in cases. Watt Decl. ¶ 41. By contrast, when the State has put restrictions on
private gatherings into place, there has been a decrease in cases. Id. ¶¶ 62, 93. The County has also
seen a decrease in cases when gatherings have been restricted. Cody Decl. ¶ 19. Accordingly, the
State’s and County’s restrictions are the least restrictive alternative that will reduce community
spread, protect high risk individuals, and prevent the healthcare system from being overwhelmed.
Three recent United States Supreme Court and the Ninth Circuit decisions did not address
the restrictions at issue in the instant motion. Instead, those decisions struck down the imposition,
without consideration of capacity limits, of small attendance limits on large houses of worship. By
contrast, Plaintiffs in the instant case do not challenge restrictions on houses of worship. See Tr. of
65
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 118 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 66 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Dec. 17, 2020 Hearing at 21:15–19, ECF No. 60 (The Court: “Are any of these plaintiffs houses of
worship, or alleging restrictions on houses of worship? It seems like it’s more focused on private
gatherings that have religious purposes, like Bible studies in the home.” Plaintiffs’ Counsel: “I
think that’s right, Your Honor.”). Instead of restrictions on houses of worship, Plaintiffs challenge
restrictions on private gatherings, including gatherings at private homes. Private homes are
significantly smaller and less ventilated spaces than the large houses of worship at issue in those
three cases, which the Court now addresses.
In Roman Catholic Diocese v. Cuomo, the United States Supreme Court analyzed whether
New York’s COVID-related restrictions on houses of worship violated the free exercise of
religion. 141 S. Ct. at 66. The restrictions at issue used a color-coded tiered system to assess
coronavirus risk and limited attendance at services to 10 people in “red” zones and 25 people in
“orange” zones. Id. Yet in the same zones, “essential businesses” such as acupuncture facilities,
campgrounds, and garages “could admit as many people as they wished.” Id. Because the New
York restrictions “single[d] out houses of worship for especially harsh treatment,” the United
States Supreme Court concluded that the restrictions were not neutral and generally applicable. Id.
(quoting Lukumi, 508 U.S. at 133).14 Furthermore, because the New York restrictions imposed
limits on worship services that were not tethered to the capacity of the houses of worship, the
United States Supreme Court concluded that the New York restrictions were not narrowly tailored.
Id. at 67.
Subsequently, in Dayton Valley, the Ninth Circuit considered a Nevada directive that
prohibited attendance of more than 50 people at indoor worship services, but permitted casinos,

14

Furthermore, in Roman Catholic Diocese, the record included “statements made in connection
with the challenged rules, [which could] be viewed as targeting the ‘ultra-Orthodox [Jewish]
community.’” 141 S. Ct. at 66. By contrast, here, Plaintiffs have not pointed to any evidence that
the State enacted its generally applicable private gatherings restrictions in order to target religious
groups.
66
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 119 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 67 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

bowling alleys, retail businesses, restaurants, and arcades to operate at 50 percent of their fire-code
capacity. 982 F.3d at 1230. Because the Nevada directive “treat[ed] numerous secular activities
and entities significantly better than religious worship services,” the Ninth Circuit concluded that
the directive was not neutral and generally applicable. Id. at 1233. The Ninth Circuit also held that
the 50-person attendance limit on all houses of worship was not narrowly tailored because Nevada
had not tied attendance limits to the size of the house of worship. Dayton Valley, 982 F.3d at 1234.
Similarly, in South Bay, the Ninth Circuit considered the Blueprint’s restrictions on houses
of worship, which are not at issue in the instant case. At the widespread tier, houses of worship in
counties in the widespread tier can only hold religious services outdoors, but commercial entities
such as grocery stores and retail stores can operate indoors. Id. at *9. Because there were
“different capacity restrictions on religious services relative to non-religious activities and
services,” the Ninth Circuit held that the Blueprint’s restrictions on houses of worship were not
neutral and generally applicable. Id. at *9–*10. The Ninth Circuit later enjoined the Blueprint’s
100 and 200 person attendance limits on houses of worship in the substantial and moderate tiers
because these limits were not tied to the size of the house of worship. 2021 WL 222814, at *17–
*18.
The restrictions at issue here, which prohibit private gatherings, are distinguishable from
the restrictions at issue in those cases, which restricted services at houses of worship. Indeed, the
Gannons seek to hold gatherings at their private home, which is a significantly smaller space than
the large houses of worship at issue in Roman Catholic Diocese, Dayton Valley, and South Bay,
and thus more likely to lead to the spread of COVID-19. Watt Decl. ¶ 42. In a smaller space,
attendees are likely to be in higher density and more proximity to one another. “[T]he closer the
proximity between individuals who gather, and the longer they are in close proximity, the more
opportunity there is for the virus to be transmitted via droplets or aerosolized particles containing
the virus.” Rutherford Decl. ¶ 74. Moreover, smaller spaces have more limited ventilation, which
67
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 120 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 68 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17

increases the likelihood that COVID-19 will spread. Watt Decl. ¶ 44; Rutherford Decl. ¶¶ 60, 76–
77; Reingold Decl. ¶ 20; Cody Decl. ¶ 29. In addition, at private gatherings, it is “uncertain
whether participants in these gatherings would maintain social distancing and face coverings
during the entirety of the gatherings.” Rutherford Decl. ¶ 84. See supra Section III-B-3-b-i
(analyzing private gatherings in more detail).
The County’s private gatherings restrictions are also distinguishable from the restrictions at
issue in Roman Catholic Diocese, South Bay, and Dayton Valley. Unlike the large houses of
worship in those cases, Tandon has not shown that the County’s private gathering restrictions15 are
disproportionate to the space in which he plans to hold gatherings.
In sum, the Court concludes that the State’s and the County’s private gatherings
restrictions are content neutral and satisfy intermediate scrutiny. In the alternative, even assuming
that the State’s and the County’s private gatherings restrictions are not content neutral, these
restrictions nonetheless satisfy strict scrutiny because they are narrowly tailored to reduce
community spread, protect high risk individuals, and prevent the healthcare system from being
overwhelmed. Thus, Plaintiffs have not shown that they are likely to succeed on their free speech
and assembly claims.

18

4. Plaintiffs are not likely to succeed on the merits of their free exercise and
assembly claims.

19

Plaintiffs Wong and Busch argue that the State’s private gatherings restrictions violate

20

their First and Fourteenth Amendment rights to free exercise and assembly by preventing them

21

from holding Bible studies at their homes.16 As discussed above, the State’s private gatherings

22
23
24
25
26
27
28

15

As discussed in footnote 7 supra, after Plaintiffs filed the instant motion, the County released an
updated Mandatory Directive for Gatherings that prohibited indoor gatherings and permitted only
outdoor gatherings of up to 200 people.
16

On January 29, 2021, another court in this district enjoined: (1) the Blueprint’s 100 and 200
person limits on services at houses of worship in the substantial and moderate tiers, and (2) the
68
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 121 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 69 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

restrictions prohibit indoor gatherings and limit outdoor gatherings to three households or fewer.
See Section III-A, supra. The Court notes that the State does not limit the number of attendees at
any outdoor house of worship service.
As a general matter, “[t]he Free Exercise Clause of the First Amendment, which has been
made applicable to the States by incorporation into the Fourteenth Amendment . . . provides that
‘Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof[.]’” Emp’t Div., Dep’t of Human Res. v. Smith, 494 U.S. 872, 876–77 (1990)
(quoting U.S. Const., amend. I). To determine whether a law prohibits the free exercise of religion,
courts must first determine whether the law “is neutral and of general applicability.” Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 531 (1993). “[A] law that is neutral and
of general applicability” must only pass rational basis review, meaning that it “need not be
justified by a compelling government interest even if the law has the incidental effect of burdening
a particular religious practice.” Id. By contrast, a law that is not neutral and generally applicable
must survive strict scrutiny, meaning that it “must be justified by a compelling government
interest and must be narrowly tailored to advance that interest.” Id. at 531–32.
Below, the Court concludes that the State’s private gatherings restrictions are (1) neutral
and generally applicable; and (2) rationally related to a legitimate government interest. Moreover,
the Court finds that even assuming the restrictions are not neutral and generally applicable, they
would satisfy strict scrutiny.
The State’s private gatherings restrictions are neutral and generally applicable.
A law is not neutral “if the object of a law is to infringe upon or restrict practices because
of their religious motivation. ” Lukumi, 508 U.S. at 533. “A law lacks facial neutrality if it refers
State’s restrictions on other activities within houses of worship, such as a parishioner interacting
with clergy. See Gateway City Church v. Newsom, 2021 WL 308606, at *16–*17 (N.D. Cal. Jan.
29, 2021). As explained above, the instant motion does not raise any restrictions regarding houses
of worship. See Section III-A, supra.
69
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 122 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 70 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

to a religious practice without a secular meaning discernable from the language or context.” Id.
Therefore, where laws “make no reference to any religious practice, conduct, belief, or motivation,
they are facially neutral.” Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1076 (9th Cir. 2015).
A law is not generally applicable if it, “in a selective manner[,] impose[s] burdens only on
conduct motivated by religious belief.” Lukumi, 508 U.S. at 543. Accordingly, “[a] law is not
generally applicable if its prohibitions substantially underinclude non-religiously motivated
conduct that might endanger the same governmental interest that the law is designed to protect.”
Stormans, 734 F.3d at 1079 (citing Lukumi, 508 U.S. at 542–46). “Neutrality and general
applicability are interrelated, and . . . failure to satisfy one requirement is a likely indication that
the other has not been satisfied.” Id. at 531.
As explained above, for counties in the widespread tier, the State’s private gatherings
restrictions prohibit all indoor gatherings and limit outdoor gatherings to three households.
Haddad Decl. Exh. 12; Dunn Reply Decl. Exh. 4. The State’s private gatherings restrictions define
gatherings as “social situations that bring together people from different households at the same
time in a single space or place.” Id.
The State’s private gatherings restrictions are neutral for two reasons. For one, the State’s
object is not to restrict religious gatherings because they are religious in nature, but because they
are gatherings. Lukumi, 508 U.S. at 523. For another, the State’s restrictions “make no reference to
any religious practice, conduct, belief, or motivation.” Stormans, 794 F.3d at 1076.
The State’s private gatherings restrictions are also generally applicable. The State’s private
gatherings restrictions apply to all gatherings, whether religious or secular. Lukumi, 508 U.S. at
543. Thus, the State’s private gatherings restrictions are neutral and generally applicable.
Resisting this conclusion, Plaintiffs rely on the same body of case law, already described
by the Court above, supra Section III-B-3-b-iii, which held that certain COVID-related restrictions
on houses of worship were neither neutral nor generally applicable. See Roman Catholic Diocese,
70
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 123 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 71 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

141 S. Ct. at 67; South Bay, 2021 WL 222814, at *8; Dayton Valley, 982 F.3d at 1233. Those
cases are inapposite. They addressed restrictions that singled out houses of worship and treated
them less favorably than secular entities. By contrast, the State’s private gatherings restrictions
treat religious and secular gatherings alike and make no reference to religion. Haddad Decl. Exh.
12; Dunn Reply Decl. Exh. 4.
At least one court of appeals panel has distinguished Roman Catholic Diocese on similar
grounds. In Commonwealth ex rel. Danville Christian Academy v. Beshear, religious schools
brought a Free Exercise Clause challenge to a Kentucky order prohibiting in person instruction at
all public and private schools, religious or not. 981 F.3d 505, 507 (6th Cir. 2020), injunction
denied without prejudice,17 141 S. Ct. 527 (2020).18 The district court granted a preliminary
injunction, but the Sixth Circuit granted a stay of the preliminary injunction and concluded that the
plaintiffs were unlikely to succeed on the merits of their Free Exercise claim. Id. The Sixth Circuit
emphasized that the order “applies to all public and private elementary and secondary schools in

17

On December 17, 2020, the United States Supreme Court declined to enjoin the Sixth Circuit’s
decision in Beshear. 141 S. Ct. 527 (2020). The United States Supreme Court noted that Kentucky
students would be going on holiday break starting the following day, December 18, 2020, and
school would not resume until January 4, 2020. Id. The United States Supreme Court stated that
“[u]nder all the circumstances, especially the timing and the impending expiration of the Order,
we deny the application without prejudice to the applicants or other parties seeking a new
preliminary injunction if the Governor issues a school-closing order that applies in the new year.”
Id.
18

Following the Sixth Circuit’s decision in Beshear, another panel of the Sixth Circuit concluded
that an Ohio county’s order prohibiting instruction in schools, including religious schools, was not
neutral and generally applicable. See Monclova Christian Academy, et al. v. Toledo-Lucas County
Health Department, --- F.3d ----, 2020 WL 7778170, at *2–*4 (6th Cir. 2020). Monclova reached
that conclusion by comparing schools to other comparable secular actors, an analysis that Beshear
did not engage in. Id. at *3–*4. The Monclova panel justified its analysis in part by citing to
Justice Gorsuch’s dissent from the United States Supreme Court’s decision not to grant injunctive
relief. Id. at *2.
71
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 124 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 72 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21

the Commonwealth, religious or otherwise; it is therefore neutral and of general applicability and
need not be justified by a compelling government interest.” Id. at 509. The Sixth Circuit
distinguished Roman Catholic Diocese because the restrictions at issue in that case “appl[ied]
specifically to houses of worship.” Id.19 Furthermore, “the order at issue in Roman Catholic
Diocese treated schools, factories, liquor stores, and bicycle repair shops, to name only a few, ‘less
harshly’ than houses of worship.” Id. This same reasoning applies to the State’s private gatherings
restrictions. Like Kentucky’s restrictions on schools, which incidentally burdened religious
schools, the State’s private gatherings restrictions incidentally burden the religious gatherings that
Plaintiffs seek to hold. In sum, recent case law only underscores that the State’s private gatherings
restrictions—unlike restrictions invalidated elsewhere—are neutral and generally applicable.
With little case law to support them, Plaintiffs last argue that their in-home gatherings are
being treated more harshly than other activities, such as filming, going to laundromats, and
visiting hotels. Mot. at 20; Reply at 14. Plaintiffs specifically assert that some filming can take
place in a home even where Bible studies are banned. Reply at 14. Plaintiffs contend that these
exempted activities inflict identical or increased health risks. Mot. at 20. Thus, Plaintiffs argue that
the Blueprint is underinclusive, treating comparable secular activities more favorably.
However, to determine whether a restriction is underinclusive, courts must compare
religious conduct with “analogous non-religious conduct.” Lukumi, 508 U.S. at 546. As explained
above, the Court concludes that private gatherings are distinct from, and more likely to spread
COVID-19 than, socially distanced commercial activities. See Section III-B-3-b-i, supra.

22
23
24
25
26
27
28

19

Conversely, following the United States Supreme Court’s decision in Roman Catholic Diocese,
the Second Circuit concluded that New York’s restrictions were not neutral because they
“explicitly impos[ed] on ‘houses of worship’ restrictions inapplicable to secular activities.”
Agudath Israel of America v. Cuomo, --- F.3d ---, 2020 WL 7691715, at *7 (2d. Cir. 2020). The
State’s restrictions at issue here do not explicitly impose restrictions on religious gatherings that
are not imposed on secular gatherings—rather, all gatherings are subject to the same restrictions.
72
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 125 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 73 of 80

1
2
3
4
5
6

United States District Court
Northern District of California

7

Recognizing the unique dangers of gatherings, the State has treated all gatherings, religious and
non-religious, alike. Haddad Decl., Exh. 12. The fact that the State treats dissimilar activities
differently is of no import. Because the State treats all gatherings, religious and secular, the same,
the State’s private gatherings restrictions are neutral and generally applicable.
The State’s private gatherings restrictions are rationally related to a legitimate
government interest.
Because the State’s private gatherings restrictions are neutral and generally applicable,

8

they need only satisfy rational basis review. Lukumi, 508 U.S. at 531. Under rational basis review,

9

courts must uphold laws “if they are rationally related to a legitimate government purpose.”

10

Stormans, 794 F.3d at 1084. As explained above, the Court has already found that the State’s

11

private gatherings restrictions are rationally related to a legitimate government interest. See

12

Section III-B-2, supra.

13
14
15
16
17
18
19
20
21

The State’s private gatherings restrictions are narrowly tailored to achieve a
compelling government interest
In the alternative, even assuming the State’s private gatherings restrictions are not neutral
and generally applicable, they still are narrowly tailored to achieve the compelling government
interests of slowing the spread of COVID-19, protecting high-risk individuals from illness, and
preventing the overwhelming of the healthcare system. The Court has already found that the
State’s private gatherings restrictions are narrowly tailored to achieve these compelling
government interests. See Section III-B-3-b-iii, supra. Accordingly, Plaintiffs have not shown that
they are likely to succeed on the merits of their free exercise claims.

22

Only some Plaintiffs are likely to suffer irreparable harm in the absence of an
injunction.

23

For the Court to grant a preliminary injunction, a plaintiff must show that she is likely to

24

suffer irreparable harm in the absence of an injunction. Winter, 555 U.S. at 20. “[I]rreparable harm

25

is traditionally defined as harm for which there is no adequate legal remedy, such as an award of

26

damages.” Az. Dream Act Coal. v. Brewer, 855 F.3d 957, 978 (9th Cir. 2017).

27
28

73
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 126 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 74 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

The Court discusses Plaintiffs’ allegations of irreparable harm in three groups: (1)
Plaintiffs who claim monetary injury; (2) Plaintiffs who have been or are under threat of being
driven out of business; and (3) Plaintiffs who suffer loss of political and religious freedoms.
First, Plaintiffs Khanna, Beaudet, and Evarkiou are business owners who claim monetary
injury. See Khanna Decl. ¶ 7 (stating that the State and the County orders have led to a loss of
revenue and profits for Khanna’s winery business); Beaudet Decl. ¶ 3 (stating that Beaudet’s
restaurant has suffered significant losses); Evarkiou Decl. ¶ 5 (stating that Evarkiou’s salon has
lost revenue). Monetary injury alone is insufficient to show irreparable harm. Az. Dream Act
Coal., 855 F.3d at 978. Thus, Plaintiffs Khanna, Beaudet, and Evarkiou have not shown that they
are likely to suffer irreparable harm in the absence of an injunction.
Second, Richards, the gym owner, and Mansour, the facial bar owner, claim that they have
been or will be driven out of business. Richards Reply Decl. ¶ 4 (stating that she has been driven
out of business by COVID-related restrictions); Mansour Decl. ¶ 7 (stating that “it is unclear
whether [her] business will ever recover from [the restrictions]”). The Ninth Circuit has concluded
that “[t]he threat of being driven out of business is sufficient to establish irreparable harm.’” hiQ
Labs, Inc. v. LinkedIn Corp., 938 F.3d 985, 993 (9th Cir. 2019) (quoting Am. Passage Media
Corp. v. Cass Commc’ns, Inc., 750 F.2d 1470, 1474 (9th Cir. 1985)). Accordingly, Plaintiffs
Richards and Mansour have shown that they are likely to suffer irreparable harm.
Finally, Plaintiffs Tandon, the Gannons, Busch, and Wong claim loss of their political and
religious freedoms under the First Amendment. “The loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitutes irreparable injury.” See Elrod v. Burns, 427
U.S. 347, 373 (1976). Moreover, courts have held that plaintiffs challenging COVID-related
restrictions on religious freedoms are likely to suffer irreparable harm in the absence of an
injunction. See Roman Catholic Diocese, 141 S. Ct. at 67–68 (concluding that, in the absence of
injunctive relief, New York’s COVID-19 related restrictions on houses of worship would cause
74
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 127 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 75 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

irreparable harm); South Bay, 2021WL 222814, at *16 (“We agree that South Bay is suffering
irreparable harm by not being able to hold worship services in the Pentecostal model to which it
subscribes.”); Dayton Valley, 982 F.3d at 1234 (holding that Nevada’s restrictions on houses of
worship would cause irreparable harm). Because Plaintiffs Tandon, the Gannons, Busch, and
Wong claim loss of their political and religious freedoms, they have shown that they are likely to
suffer irreparable harm in the absence of an injunction.
An injunction would not be in the public interest.
The final preliminary injunction factor requires that plaintiffs show that the balance of
equities tips in their favor and that an injunction would advance the public interest. Winter, 555
U.S. at 20. The balance of equities factor focuses on “the effect of each party of the granting or
withholding of the requested relief.” Winter, 555 U.S. at 24. By contrast, “[t]he public interest
inquiry primarily addresses impact on non-parties rather than parties.” League of Wilderness
Defs/Blue Mountain Biodiversity Project. v. Connaughton, 752 F.3d 755, 756 (9th Cir. 2014)
(quoting Sammartano v. First Judicial Dist. Court, 303 F.3d 959, 974 (9th Cir. 2002)). When the
government is a party, the analysis of these two factors merges. Drakes Bay Oyster Co. v. Jewell,
747 F.3d 1073, 1092 (9th Cir. 2014) (citing Nken v. Holder, 556 U.S. 418, 435 (2009)). Thus, the
Court must consider what “public consequences” would result from issuing an injunction. See
Winter, 555 U.S. at 24 (quoting Weinberger v. Romero-Barcelo, 456 U.S. 305, 312 (1982)).
Here, an injunction would not be in the public interest. In reaching this conclusion, the
Court covers well-trodden ground. In South Bay, the Ninth Circuit affirmed a district court’s
conclusion that enjoining the Blueprint’s restrictions on houses of worship in the widespread tier
would not be in the public interest. See South Bay, 2021 WL 222814, at *16–*17. The Ninth
Circuit explained that if an injunction were granted, “the public will be further endangered by both
the virus and the collapse of the state’s health system.” Id. at *17. The Ninth Circuit stated that “it
is difficult to see how allowing more people to congregate indoors will do anything other than lead
75
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 128 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 76 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

to more cases, more deaths, and more strains on California’s already overburdened healthcare
system.” Id.
The Court agrees. The Court has concluded that the State’s and County’s restrictions,
including the State’s and the County’s private gatherings restrictions, the County’s Personal Care
Services Directive, and the County’s Mandatory Directive for Outdoor Dining, are carefully
designed to slow the spread of COVID-19, protect high-risk individuals, and prevent the
overwhelming of the healthcare system. See Section III-B-1-a, supra. If the Court overrode the
State’s and County’s public health officials and enjoined these restrictions, then more deaths, more
serious illnesses, and more strain on California’s already overburdened healthcare system would
result. The Court discusses each harm in turn.
First, if the Court enjoined the State’s and County’s restrictions, some people in the State
and the County would be at increased risk of dying from COVID-19. As of February 3, 2021,
COVID-19 has killed over 445,000 people in the United States. The disease has not spared the
young or the old. Twenty percent of those who have died of COVID-19 in the United States have
been younger than 65 years old, and nearly two thousand people who have died of COVID-19
were younger than 30 years old as of February 3, 2021. Lipsitch Decl. ¶ 28; Rutherford Decl. ¶ 97;
CDC COVID Data Tracker. In total, the United States is projected to face a death toll as high as
the number of Americans that were killed in battle in World War II. Rutherford Decl. ¶ 26.
Second, if the Court enjoined the State’s and County’s restrictions, some people in the
State and the County would be at increased risk of serious illness from COVID-19. COVID-19
can cause pneumonia, respiratory failure, other organ failure, cardiovascular events, strokes, and
seizures. Rutherford Decl. ¶ 21; Watt Decl. ¶ 22; Reingold Decl. ¶ 14. Although the risk of severe
illness from COVID-19 increases steadily with age, many younger people have become seriously
ill from COVID-19. Watt Decl. ¶ 22; Reingold Decl. ¶ 15. For example, the National Collegiate
Athletic Association found that college football players who had recovered from asymptomatic or
76
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 129 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 77 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

mildly symptomatic COVID-19 infections had a high rate of myocarditis, which can lead to
cardiac arrest with exertion. Rutherford Decl. ¶ 25. People of any age with certain underlying
conditions and pregnant women are at increased risk of severe illness from COVID-19. Id.;
Rutherford Decl. ¶ 99. Approximately six in ten Americans have been diagnosed with a chronic
medical condition, and four in ten have been diagnosed with more than one of these conditions.
Reingold Decl. ¶ 17. The conditions are more common in, and the related burden of COVID-19
deaths is likely to fall on, communities of color and low-income communities. Lipsitch Decl. ¶ 28;
Garcia Decl. ¶¶ 9–15.
Third, if the Court enjoined the State’s and County’s restrictions, the strain on California’s
already overburdened healthcare system would increase further. Even one of Plaintiffs’ experts,
Dr. Bhattacharya, concedes that restrictions might be justified “where hospital overcrowding is
predicted to occur” because overcrowding and “the unavailability of sufficient medical personnel”
“might induce avoidable mortality.” Bhattacharya Reply Decl. ¶ 15. In their briefs, Plaintiffs
concede that the State can act to permit the healthcare system from being overwhelmed. See Mot.
at 1 (“Governor Newsom was correct to focus on the risk that hospitals would be overrun”), 15
(acknowledging “the compelling interest in preventing hospitalizations and deaths resulting from
COVID-19”).
Plaintiffs and Plaintiffs’ experts relied on the now obsolete premise that California
hospitals never reached their capacities. Mot. at 1, 9; Reply at 20; Bhattacharya Decl. ¶ 21; Bhatia
Decl. ¶ 32, Bhattacharya Reply Decl. ¶¶ 13–17; Bhatia Reply Decl. ¶ 31. Since Plaintiffs’ motion
and declarations were submitted, the virus has surged in California, and California’s hospitals
have been overburdened. At times, the State and various counties, including Santa Clara County,
have had 0 percent remaining ICU capacity. See About COVID-19 Restrictions, California For All,
https://covid19.ca.gov/stay-home-except-for-essential-needs/ (last accessed January 19, 2021);
COVID-19 Hospitalizations Dashboard, County of Santa Clara Emergency Operations Center,
77
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 130 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 78 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

available at https://www.sccgov.org/sites/covid19/Pages/dashboard-hospitals.aspx. As the Ninth
Circuit explained on January 22, 2021, “paramedics in Los Angeles have been instructed to
conserve oxygen in treating patients and not to bring patients to the hospital who have little chance
of survival.” South Bay, 2021 WL 222814, at *4. Accordingly, the State’s and County’s
restrictions will prevent overwhelming the healthcare system.
In response, Plaintiffs make two arguments as to why an injunction would still be in the
public interest. Neither carries the day. First, Plaintiffs argue that an injunction is necessary to halt
violations of their constitutional rights. See Melendres v. Arpaio, 695 F.3d 990, 1002 (9th Cir.
2012) (“[I]t is always in the public interest to prevent the violation of a party’s constitutional
rights.”). However, the Court above has found that Plaintiffs’ constitutional rights have not been
violated. Moreover, religious worship is widely available to Plaintiffs at houses of worship.
Specifically, the State permits houses of worship to hold outdoor worship services with no
attendance limits in the widespread tier. South Bay, 2021 WL 222814, at *16–*17. Outdoor
gatherings and worship services are particularly viable in year-round warm climates like
California’s. See id. (“Given the obvious climatic differences between San Diego in the winter and
say, New York, the . . . allowance for outdoor services is much more than ‘lip service’ to the
demands of the First Amendment.”). In addition, even in the widespread tier, there are no limits on
indoor activities “other than worship services” at houses of worship. Gateway City Church, 2021
WL 308606, at *16–*17 (N.D. Cal. Jan. 29, 2021).20 For example, individual parishioners are
permitted to interact with clergy inside houses of worship. Id. at *14.
20

Gateway City Church enjoined “the Blueprint's restrictions on activities at places of worship
other than worship services.” Gateway City Church, 2021 WL 308606, at *17 (emphasis added).
As the Gateway City Church Court explained, activities other than worship services do not involve
“people of separate households gathering in close proximity for extended periods of time.” Id. at
*14. Rather, these activities involve individual parishioners from different households—or
multiple members of the same household—interacting with clergy in a way that “likely involve[s]
no more risk than certain personal care services.” Id.
78
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 131 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 79 of 80

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

As for the lower three tiers, indoor worship services are permitted at houses of worship.
Specifically, houses of worship can hold indoor worship services at 25 percent capacity in the
substantial tier and 50 percent capacity in the moderate and minimal tiers. South Bay, 2021 WL
222814, at *16–*17.
Plaintiffs also can hold small gatherings at their homes. In the widespread tier, Plaintiffs
can hold outdoor gatherings including up to three households. Haddad Decl. Exh. 12. In the
substantial, moderate, and minimal tiers, Plaintiffs can hold indoor gatherings of up to three
households. Id. As a political candidate, Tandon can hold even outdoor gatherings of up to 200
people even in the widespread tier. Bussey Decl. Exhs. A, G.
Second, Plaintiffs argue that an injunction would prevent other harms associated with
COVID-related restrictions, including mental health issues, substance abuse, hunger, and negative
impacts on children’s development. Bhattacharya Reply Decl. ¶ 37–41; Bhatia Decl. ¶ 95.
However, some of these harms are at least partially due to the pandemic itself. For example, even
if the Court enjoined COVID-related restrictions, private individuals, businesses, and
organizations might choose to continue their quarantines, such that people would continue to
experience the harms referenced by Plaintiffs. In fact, Plaintiffs’ expert emphasizes the extent to
which many individuals have made self-quarantine decisions in parallel to the State’s and
County’s restrictions. Bhatia Reply Decl. ¶¶ 60, 62–63. In addition, if the Court enjoined the
restrictions, the pandemic will worsen, serious illnesses and death would increase, which could
further exacerbate the issues to which Plaintiffs point.
Given the unique risks of gatherings in spreading COVID-19; the deaths and serious
illnesses that result from COVID-19; and the overwhelming strain on the healthcare system, the
Court finds that enjoining the State’s and County’s restrictions on Plaintiffs’ gatherings and on
Plaintiffs’ businesses would not be in the public interest. Therefore, Plaintiffs have not carried
their burden of demonstrating that an injunction is in the public interest.
79
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 132 -

Case 5:20-cv-07108-LHK Document 64 Filed 02/05/21 Page 80 of 80

1
2

IV. CONCLUSION
For the foregoing reasons, the Court DENIES Plaintiffs’ motion for a preliminary

3

injunction.

4

IT IS SO ORDERED.

5
6
7
8

Dated: February 5, 2021
______________________________________
LUCY H. KOH
United States District Judge

9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

80
Case No. 20-CV-07108-LHK
ORDER DENYING MOTION FOR PRELIMINARY INJUNCTION

- App. 133 -

1

1

UNITED STATES DISTRICT COURT

2

NORTHERN DISTRICT OF CALIFORNIA

3

SAN JOSE DIVISION

4
5

RITESH TANDON, ET AL.,

6
7
8

PLAINTIFFS,
VS.
GAVIN NEWSOM, ET AL.,

9

DEFENDANTS.

)
)
)
)
)
)
)
)
)
)

C-20-07108 LHK
SAN JOSE, CALIFORNIA
DECEMBER 17, 2020
PAGES 1-48

10
11
12

TRANSCRIPT OF ZOOM PROCEEDINGS
BEFORE THE HONORABLE LUCY H. KOH
UNITED STATES DISTRICT JUDGE

13
14
15

A P P E A R A N C E S:

16

FOR THE PLAINTIFFS:

EIMER STAHL, LLP
BY: ROBERT E. DUNN
99 SOUTH ALMADEN BOULEVARD, SUITE 662
SAN JOSE, CALIFORNIA 95113

FOR THE STATE
DEFENDANTS:

OFFICE OF THE ATTORNEY GENERAL
BY: LARA HADDAD
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CALIFORNIA 90013

17
18
19
20
21
22
23

APPEARANCES CONTINUED ON NEXT PAGE
OFFICIAL COURT REPORTER:

LEE-ANNE SHORTRIDGE, CSR, CRR
CERTIFICATE NUMBER 9595

24
25

PROCEEDINGS RECORDED BY MECHANICAL STENOGRAPHY
TRANSCRIPT PRODUCED WITH COMPUTER

UNITED STATES COURT REPORTERS

- App. 134 -

2

1
2

APPEARANCES (CONTINUED)

3
4
5
6

FOR THE COUNTY
DEFENDANTS:

OFFICE OF THE COUNTY COUNSEL
BY: JASON M. BUSSEY
70 WEST HEDDING STREET
EAST WING, NINTH FLOOR
SAN JOSE, CALIFORNIA 95110

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

UNITED STATES COURT REPORTERS

- App. 135 -

3

1

SAN JOSE, CALIFORNIA

DECEMBER 17, 2020
P R O C E E D I N G S

2

(ZOOM PROCEEDINGS CONVENED AT 2:42 P.M.)

3

THE COURT:

4
5

THE CLERK:

10

YES, YOUR HONOR.

AL.
COUNSEL, PLEASE STATE YOUR APPEARANCES FOR THE RECORD,
STARTING WITH COUNSEL FOR THE PLAINTIFF.

11

MR. DUNN:

12

MS. HADDAD:

13
14

THANK YOU.

CALLING CASE 20-7108, TANDON, ET AL., VERSUS NEWSOM, ET

7

9

THEN MS. DIBBLE, IF YOU WOULD

PLEASE GO AHEAD AND CALL THE CASE.

6

8

ALL RIGHT.

THANK YOU.

ROBERT DUNN FOR PLAINTIFFS.
THIS IS LARA HADDAD FOR THE STATE

DEFENDANTS.
MR. BUSSEY:

JASON BUSSEY FOR THE COUNTY DEFENDANTS.

15

AND I'LL ADD THAT MY COLLEAGUE, ROBIN WALL, WHO WAS

16

INITIALLY GOING TO MAKE AN APPEARANCE, WAS UNABLE TO IN LIGHT

17

OF THE TIMING CHANGE.

18

JUDGE FREEMAN, SO IT WILL JUST BE ME.

19
20
21

THE COURT:

HE HAS A 2:30 APPEARANCE BEFORE

OKAY.

ALL RIGHT.

WELL, THANK YOU FOR

THE FLEXIBILITY WITH THE TIMING CHANGE.
OKAY.

THEN LET'S GO AHEAD, PLEASE.

I HAVE A NUMBER OF

22

QUESTIONS, AND IF YOU COULD PLEASE KEEP YOUR ANSWERS BRIEF, WE

23

CAN GET THROUGH ALL OF THEM, AND THESE ARE REALLY JUST TO HELP

24

IN FIGURING OUT EXACTLY WHAT THE COURT HAS TO DECIDE AND HELP

25

IN MAKING THOSE DECISIONS WITH ALL THE DIFFERENT ISSUES YOU'VE

UNITED STATES COURT REPORTERS

- App. 136 -

4

1

RAISED.

2

SO MY FIRST QUESTION IS FOR BOTH SIDES, AND THAT IS

3

WHETHER THE RECENT STAY AT HOME ORDER SUPERSEDES THE BLUEPRINT

4

AS TO WHAT GATHERINGS ARE PERMITTED.

5

THAT?
MS. HADDAD:

6

DO BOTH SIDES AGREE ON

YES, YOUR HONOR.

I THINK -- THE STATE

7

DEFENDANTS' POSITION IS THAT THE BLUEPRINT IS -- THE STAY AT

8

HOME ORDER IS CURRENTLY IN EFFECT FOR SANTA CLARA COUNTY.
MR. DUNN:

9
10
11
12

YES, THAT'S OUR UNDERSTANDING TOO, YOUR

HONOR.
THE COURT:

OKAY.

CHALLENGING THE STAY AT HOME ORDER, OR ARE YOU --

13

THE REPORTER:

14

THE COURT:

15
16
17

SO THEN ARE THE PLAINTIFFS

YOUR HONOR, YOU CUT OUT.

SORRY, I'M NOT SURE HOW THAT HAPPENED.

ARE THE PLAINTIFFS CHALLENGING THE STAY AT HOME ORDER OR
THE BLUEPRINT, OR BOTH?
MR. DUNN:

YOUR HONOR, THE CHALLENGE THAT WE'VE

18

ASSERTED IN THE COMPLAINT IS TO THE BLUEPRINT SPECIFICALLY AND

19

THE COUNTY GUIDELINES AS THEY EXISTED AT THE TIME.

20

WE HAVE NOT CURRENTLY ASSERTED AND CHALLENGED THE

21

REGULATION OF THE STAY AT HOME ORDER.

WE THINK THERE ARE

22

ASPECTS OF THE STAY AT HOME ORDER THAT REMAIN PROBLEMATIC.

23

BUT IT'S OUR POSITION THAT YOU COULD RULE ON THE

24

BLUEPRINT -- WHICH WE UNDERSTAND WILL SNAP BACK INTO PLACE WHEN

25

THE STAY AT HOME ORDER EXPIRES -- THAT YOU COULD RULE ON THAT

UNITED STATES COURT REPORTERS

- App. 137 -

5

1

WITHOUT TOUCHING THE SHELTER IN PLACE ORDER IF YOU'RE INCLINED

2

TO DO SO.
THE COURT:

3

LET ME ASK MS. HADDAD, DO YOU THINK THE

4

CHALLENGE TO THE BLUEPRINT IS MOOTED NOW THAT WE'RE IN THE SORT

5

OF STAY AT HOME UNIVERSE FOR THE IMMEDIATELY FORESEEABLE

6

FUTURE?

7

MS. HADDAD:

YES, YOUR HONOR.

I THINK -- I MEAN, THE

8

REGIONAL STAY AT HOME ORDER IS THE OPERATIVE -- IT IS THE

9

OPERATIVE RULES AND THERE ARE SEVERAL -- THERE ARE SEVERAL

10

CHANGES THAT DO AFFECT PLAINTIFFS' CLAIM -- THAT AFFECT

11

DIRECTLY -- THAT DIRECTLY AFFECT PLAINTIFFS' CLAIMS.

12

THE COURT:

SO WHAT DO YOU PROPOSE, THAT WE JUST FIND

13

THE CHALLENGE TO THE BLUEPRINT MOOT AND THEN JUST FOCUS ON THE

14

STAY AT HOME ORDER?

15

MS. HADDAD:

I THINK WE WOULD WANT -- WE WOULD WANT A

16

CHANCE TO BRIEF THE STAY AT HOME ORDER.

17

EFFECT I BELIEVE YESTERDAY OR THE DAY BEFORE.

18

THE COURT:

19

MS. HADDAD:

20
21
22
23
24
25

IT DID JUST GO INTO

UM-HUM.
SO IF YOU -- IF YOU FIND IT MOOT, WE

WOULD REQUEST A CHANCE TO BRIEF THAT.
THE COURT:

ALL RIGHT.

WELL, WHAT'S YOUR REQUEST?

YOU ARE -- DO YOU WANT THE COURT TO FIND IT MOOT, OR NOT?
MS. HADDAD:

I -- YES, YOUR HONOR, IN THIS CASE I

THINK WE'D WANT THE COURT TO FIND IT MOOT.
THE COURT:

OKAY.

UNITED STATES COURT REPORTERS

- App. 138 -

6

1

LET ME HEAR FROM MR. DUNN.

WOULD YOU WANT TO BRIEF THE

2

STAY AT HOME ORDER?

3

REPLY, BUT PROBABLY NOT SORT OF THE HEAD-ON RESPONSE THAT YOU

4

MAY WANT, ESPECIALLY AS THAT IS WHAT THE DEFENDANT WANTS.

5
6
7

MR. DUNN:

YOU SLIGHTLY KIND OF TOUCHED ON IT IN YOUR

YOUR HONOR, I THINK OUR PREFERENCE IN THIS

CASE WOULD BE TO NOT MOOT THE CHALLENGE TO THE BLUEPRINT.
AS WE NOTED, THE BLUEPRINT HASN'T BEEN RESCINDED IN ANY

8

WAY, SHAPE, OR FORM.

IT PRESUMABLY STILL WILL BE GOVERNING

9

THROUGH THE WINTER, THROUGH THE SPRING, MAYBE INTO THE SUMMER.

10

IT'S UNCLEAR.

BUT THE BLUEPRINT HASN'T GONE ANYWHERE.

11

JUST BEEN TEMPORARILY SUPERSEDED.

IT'S

12

AND THIS SORT OF TOUCHES ON -- ONE OF THE TOUGH THINGS

13

ABOUT THIS CASE IS THERE'S THIS EVER MOVING TARGET AND WE CAN'T

14

PROBABLY GO THROUGH BRIEFING AND SCHEDULE HEARINGS EVERY TIME

15

THE ORDER CHANGES.

16

SO I THINK OUR PREFERENCE IN THIS CASE, GIVEN THAT BOTH

17

THE STATE AND THE COUNTY HAVE AT LEAST SET A DEADLINE ON THE

18

SHELTER IN PLACE ORDER OF JANUARY 4, THAT WE WOULD DECIDE THE

19

CHALLENGE BEFOREHAND, AND IF WE FIND IT NECESSARY TO CHALLENGE

20

THE SHELTER IN PLACE, I THINK WE WOULD WANT ADDITIONAL BRIEFING

21

AND MIGHT EVEN NEED TO BRING A NEW MOTION ON THAT.

22

MS. HADDAD:

YOUR HONOR, JUST TO CLARIFY IT, THE

23

REGIONAL STAY AT HOME ORDER IS REASSESSED ON JANUARY 4TH.

24

DEPENDS ON ICU CAPACITY.

25

THE COURT:

RIGHT.

AND I SEE THAT IN SOUTHERN

UNITED STATES COURT REPORTERS

- App. 139 -

IT

7

1

CALIFORNIA, THERE ARE ZERO ICU BEDS.

SOUTHERN CALIFORNIA IS AT

2

0 PERCENT CAPACITY; SAN JOAQUIN VALLEY IS AT 0.7 PERCENT

3

CAPACITY; SANTA CLARA COUNTY, WHICH IS ALMOST 2 MILLION PEOPLE,

4

WE HAVE 13 BEDS LEFT.

5

ALLOCATED, AND WITH THE ANTICIPATION OF INCREASED NEED FOR

6

HOSPITALIZATION BASED ON THE RISE OF CASES EVERY DAY, AND THEN

7

MORE -- YOU KNOW, WE'RE JUST FEELING THE EFFECTS OF

8

THANKSGIVING, WE'LL BE FEELING THE EFFECTS OF CHRISTMAS AND

9

HANUKAH AND ALL THE HOLIDAYS, I SUSPECT THIS SURGE WILL BE

I DON'T KNOW HOW THOSE ARE GOING TO BE

10

CONTINUING AND THE CORRESPONDING HOSPITALIZATIONS WILL BE

11

CONTINUING.

12

SO I -- I DON'T SEE THE BLUEPRINT GOING INTO EFFECT ON

13

JANUARY 5TH.

I MEAN, I THINK THE ESTIMATES ARE, IN FACT, THAT

14

IT WILL NOT BE GOING INTO EFFECT ON JANUARY 5TH, AND FOR THE

15

FORESEEABLE FUTURE WE'LL PROBABLY BE IN THIS STAY AT HOME

16

REGIME.
MS. HADDAD:

17

WE -- AND, YOUR HONOR, JUST TO EMPHASIZE

18

THAT IT IS -- ALL OF THESE RESTRICTIONS ARE INTENDED TO BE

19

TEMPORARY.

20

THE COURT:

21

MS. HADDAD:

UNDERSTOOD.
BUT, YES, IT IS -- GIVEN THE NUMBERS,

22

AND CALIFORNIA'S RATES IN PARTICULAR, THE REGIONAL STAY AT HOME

23

ORDER WILL LIKELY STAY IN EFFECT, ALTHOUGH I CAN'T SPEAK TO

24

THAT.

25

I DON'T -THE COURT:

SURE.

UNITED STATES COURT REPORTERS

- App. 140 -

8

1

MS. HADDAD:

2

THE COURT:

YEAH.
OKAY.

ALL RIGHT.

WELL, LET ME GO AHEAD

3

AND ASK THE REST OF MY QUESTIONS, AND THIS IS ALSO TO BOTH

4

SIDES.

5

ARE THERE PARTICULAR PORTIONS OF ANY OF YOUR MEDICAL

6

DECLARATIONS THAT YOU WANT THE COURT TO FOCUS ON?

7

LOT OF MEDICAL DECLARATIONS WERE SUBMITTED, SO IF YOU HAD ANY,

8

LIKE, EITHER PARTICULAR PARAGRAPH OR SECTION OR TOPIC, IT WOULD

9

BE HELPFUL IN JUST FOCUSSING THE COURT'S ATTENTION.

10
11

SO LET ME HEAR FROM BOTH SIDES.

I MEAN, A

WHAT IS IT THAT YOU FIND

WOULD BE MOST HELPFUL TO THE COURT IN DECIDING THIS MOTION?

12

MR. DUNN:

13

THE COURT:

14

MR. DUNN:

SURE.

I CAN START IT.

THAT'S FINE.

PLEASE.
YEAH, I THINK THE TWO THINGS WE WOULD DRAW

15

YOUR ATTENTION TO, YOUR HONOR, ARE, ONE, THE EVIDENCE

16

SPECIFICALLY FROM DR. BHATTACHARYA ON THE PCR TESTING -- AND

17

AGAIN, THIS IS NOT NECESSARILY RELEVANT TO THE SHELTER IN

18

PLACE, WHICH IS BASED ON HOSPITALIZATIONS -- BUT TO THE EXTENT

19

THE BLUEPRINT IS PREDICATED ON PCR TESTS, DR. BHATTACHARYA HAS

20

PRESENTED EVIDENCE THAT ESSENTIALLY MANY OF THESE TESTS,

21

BECAUSE OF THE WAY THEY ARE RUN, IN PARTICULAR THE CYCLE TIME,

22

THRESHOLDS THAT THEY USE ARE CAPTURING ESSENTIALLY WHAT ARE

23

FALSE POSITIVES, AND SO I THINK WE'LL HAVE A LARGE NUMBER OF

24

CASES AND SORT OF POSITIVITY PERCENTAGE ESSENTIALLY BEING

25

THROWN OFF BY THAT BECAUSE THESE LABORATORIES ARE RUNNING

UNITED STATES COURT REPORTERS

- App. 141 -

9

1
2

EXTREMELY HIGH CYCLE TIMES.
AND I THINK HIS REPLY DECLARATION HAS MORE SPECIFIC DATA

3

ON THAT THAT HE WAS ABLE TO LOCATE FROM THE ACTUAL LABS RUNNING

4

THE TESTS.

5

BUT THAT GOES DIRECTLY TO THE RATIONALITY.

6

AND I THINK DR. BHATIA -- I DON'T HAVE PARAGRAPH NUMBERS

7

ON THIS PARTICULAR THING -- BUT HE SPECIFIED THAT ONE OF THE

8

MAJOR DEFECTS IN THE BLUEPRINT IS THAT THE STATE STILL HASN'T

9

PROVIDED EVIDENCE LINKING THE SPECIFIC RESTRICTIONS TO HAZARDS.

10

SO, FOR EXAMPLE, THEY HAVEN'T YET BEEN ABLE TO EXPLAIN

11

WHAT PERCENTAGE OF INFECTIONS ARE FROM RESTAURANTS OR FROM

12

GYMS, YET THESE TYPES OF BUSINESSES ARE BEING HEAVILY

13

RESTRICTED WITHOUT THAT EVIDENCE.

14

AS YOU MAY HAVE SEEN, SAN DIEGO COUNTY AND L.A. COUNTY,

15

JUDGES IN SUPERIOR COURTS HAVE ISSUED INJUNCTIONS YESTERDAY AND

16

LAST WEEK STRIKING DOWN BANS ON INDOOR AND OUTDOOR DINING FOR

17

SPECIFICALLY THAT REASON, BECAUSE THE COUNTIES WERE GIVEN THE

18

OPPORTUNITY TO PRESENT THAT EVIDENCE AND THEY DIDN'T, EITHER

19

BECAUSE IT DOESN'T EXIST OR BECAUSE IT'S NOT STRONG ENOUGH AND

20

THEY DIDN'T PUT IT FORWARD.

21
22
23
24
25

BUT DR. BHATIA HAS A SORT OF STRONG PRESENTATION ON THAT
POINT.
SO THOSE ARE THE TWO THAT I WOULD HIGHLIGHT.

THERE ARE

OTHERS, BUT -THE COURT:

ALL RIGHT.

THANK YOU.

UNITED STATES COURT REPORTERS

- App. 142 -

I APPRECIATE

10

1
2

THAT.
LET ME ASK YOU, WITH THE PCR TESTING, I UNDERSTAND THAT

3

YOU MAY FEEL THAT THERE ARE OTHER TYPES OF TESTS THAT WOULD

4

CAPTURE OTHER INFORMATION THAT MIGHT BE USEFUL, BUT WHAT IS

5

IRRATIONAL ABOUT RELYING ON THAT?

6

MR. DUNN:

YEAH, I THINK THE BEST WAY TO UNDERSTAND

7

IT IS THAT THE STATE'S ASSERTED INTEREST IS IN MAINTAINING

8

HOSPITAL CAPACITY, AND WE'VE SEEN THAT IN THE REGIONAL SHELTER

9

IN PLACE ORDERS AS WELL.

10

AS BOTH OF OUR EXPERTS HAVE STATED, THAT'S A RATIONAL

11

GOAL, TO PREVENT HOSPITALS FROM BEING OVERWHELMED SO WE DON'T

12

END UP IN AN ITALY-LIKE SITUATION WHERE DOCTORS ARE ESSENTIALLY

13

HAVING TO MAKE CHOICES AS TO WHO GETS TREATED AND WHO DOESN'T,

14

WHO GETS WHEELED BACK OUT IN THE PARKING LOT.

15

THE POINT THAT BOTH DR. BHATTACHARYA AND DR. BHATIA HAVE

16

MADE IS THAT THE PCR TEST ISN'T LINKED TO THAT PARTICULAR GOAL

17

NEARLY AS DIRECTLY AS, YOU KNOW, AN EASILY AVAILABLE

18

ALTERNATIVE, WHICH IS HOSPITALIZATION RATES, AND PARTICULARLY

19

THE DIRECTION OF HOSPITALIZATION RATES.

20

SO THE STATE TRACKS VERY CLOSELY -- I TRACK IT EVERY DAY,

21

I'M SURE PLAINTIFFS' COUNSEL TRACK IT EVERY DAY --

22

HOSPITALIZATIONS, YOU KNOW, ICU CAPACITY, YOU KNOW, SORT OF THE

23

TREND IN HOSPITALIZATIONS.

24

AND THE POINT THAT THEY HAVE MADE IS NOT THAT THERE'S

25

ANOTHER TEST THAT SHOULD BE USED, THEY AGREE PCR TESTS ARE SORT

UNITED STATES COURT REPORTERS

- App. 143 -

11

1

OF THE GOLD STANDARD FOR DETERMINING WHETHER SOMEONE HAS BEEN

2

INFECTED OR COME IN CONTACT WITH THE VIRUS.

3

BUT WHAT THEIR POINT IS IS WHAT EVEN THE CDC HAS

4

RECOMMENDED USING IS SORT OF HOSPITALIZED, SYMPTOMATIC, YOU

5

KNOW, OBSERVED CASES WHERE SOMEONE TESTS POSITIVE IN THE

6

HOSPITAL WITH SYMPTOMS OF COVID-19, AND THAT WOULD BE THE --

7

SORT OF THE KEY BAROMETER FOR IMPOSING AND DECREASING

8

RESTRICTIONS.

9

BUT INSTEAD, FOR SOME REASON THAT IS NOT YET CLEAR, THE

10

STATE HAS DECIDED NOT TO USE HOSPITALIZATIONS AT ALL IN THE

11

BLUEPRINT.

IT ISN'T EVEN A FACTOR.

12

SO THAT'S -- THAT'S WHY -- BECAUSE THE PCR TEST HAS THAT

13

LATENT DEFECT, THAT THEY RETURN FALSE POSITIVES, THEY NEED TO

14

BE CORRELATED MORE DIRECTLY WITH HOSPITALIZATIONS, AND OUR VIEW

15

IS THAT THAT'S EASY TO DO AND IT'S WHAT THE CDC HAS

16

RECOMMENDED.
THE COURT:

17
18

IN PREVENTING HOSPITALIZATIONS IS COMPELLING?
MR. DUNN:

19
20

THE COURT:

25

YOU AGREE THAT THAT IS A COMPELLING

INTEREST?
MR. DUNN:

23
24

FROM PREVENTING HOSPITALS FROM BEING

OVERBURDENED OR HAVING -- OVERSTRIPPING THEIR CAPACITY.

21
22

DO YOU CONCEDE THAT THE STATE'S INTEREST

YEAH, WE WOULD AGREE THAT'S A COMPELLING

INTEREST.
THE COURT:

OKAY.

BUT THE INTEREST IN PREVENTING

UNITED STATES COURT REPORTERS

- App. 144 -

12

1

INDIVIDUALS FROM REQUIRING HOSPITALIZATION IS NOT COMPELLING IN

2

YOUR VIEW?

MR. DUNN:

3
4

OR IS?
I THINK WE WOULD SAY THAT THAT'S NOT A

COMPELLING INTEREST.

5

THE COURT:

WHAT KIND OF INTEREST IS THAT?

6

MR. DUNN:

SOMETHING LESS THAN COMPELLING.

YOU KNOW,

7

IT'S A RATIONAL INTEREST, CERTAINLY.

8

THE STATE HAS NO INTEREST IN PROTECTING PEOPLE FROM EVER BEING

9

HOSPITALIZED AND TREATED.

10

IT'S NOT -- IT'S NOT THAT

BUT I THINK ONCE YOU GO DOWN THAT ROAD, IF YOU SAID THAT

11

THAT'S A COMPELLING INTEREST IS TO KEEP PEOPLE FROM GETTING

12

SICK, THAT OPENS THE DOOR TO ALL SORTS OF RESTRICTIONS ALL THE

13

TIME.

14

SICKENS TENS OF THOUSANDS OF PEOPLE EVERY YEAR.

15

THERE'S NOTHING SPECIAL ABOUT COVID-19.

INFLUENZA

SO TO SAY THAT JUST TRYING TO KEEP PEOPLE OUT OF HOSPITALS

16

JUSTIFIES THESE TYPES OF RESTRICTIONS I THINK IS KIND OF A

17

PANDORA'S BOX.

18
19
20
21

THE COURT:

WHAT ABOUT PREVENTING DEATHS?

IS THAT A

COMPELLING INTEREST OR THAT'S ONLY A RATIONAL INTEREST?
MR. DUNN:

THAT'S CERTAINLY A COMPELLING INTEREST.

BUT THE STATE NEVER PURSUES THAT INTEREST, YOU KNOW,

22

ESSENTIALLY IN ISOLATION OF ALL OTHER INTERESTS.

23

COULD DO ALL SORTS OF RESTRICTIONS TO PREVENT DEATH, BUT IT

24

DOESN'T EVER TAKE IT TO THE EXTREME.

25

THE COURT:

UH-HUH.

THE STATE

SO LET ME ASK YOU, YOU MADE THE

UNITED STATES COURT REPORTERS

- App. 145 -

13

1

COMPARISON TO INFLUENZA.

2

DIED OF COVID; 58,000 DIED IN THE VIETNAM WAR; 37,000 DIED IN

3

THE KOREAN WAR; 116,000 AMERICANS DIED IN WORLD WAR I.

4

AS OF TODAY, 308,000 AMERICANS HAVE

SO WHAT DO YOU THINK ABOUT THAT COMPARISON IN DEATHS?

AND

5

I'M SURE THAT THE COVID DEATH NUMBER WILL BE INCREASING OVER

6

THE NEXT -- AT LEAST THE NEXT MONTH, PERHAPS THE NEXT SEVERAL

7

MONTHS AS WE SEE THE IMPACTS OF ALL OF THE HOLIDAYS IN ANY

8

SURGE IN HOSPITALIZATIONS AND POTENTIALLY DEATHS.

9

THINK ABOUT THAT COMPARISON?

10
11

WHAT DO YOU

DO YOU REALLY WANT TO COMPARE IT

TO INFLUENZA?
MR. DUNN:

NO.

I MEAN, I THINK THE POINT IS THAT

12

INFLUENZA HAS THE SAME CAPACITY TO KILL PEOPLE.

13

GOVERNMENT'S INTEREST IS SORT OF STATED AT THE HIGH LEVEL OF

14

JUST TO PREVENT DEATH, THAT DOESN'T DISTINGUISH THE DISEASE IN

15

ANY WAY FROM INFLUENZA, WHICH --

16

THE COURT:

SO IF THE

SO ARE YOU SAYING INFLUENZA HAS KILLED

17

MORE PEOPLE THAN THE VIETNAM WAR AND THE KOREAN WAR AND

18

WORLD WAR I IN A SINGLE EIGHT MONTH, NINE MONTH PERIOD?

19

MR. DUNN:

NO, NOT IN AN EIGHT MONTH -- WELL, IT HAS

20

IN SOME YEARS.

21

LIKE 80,000 FROM INFLUENZA, WHICH COULD BE MORE THAN THE

22

VIETNAM WAR.

23
24
25

I THINK THE HIGHEST YEAR WE HAD WAS SOMETHING

BUT I'M NOT SURE THAT'S -- THAT'S NOT NECESSARILY A USEFUL
COMPARISON.
THE COURT:

WHAT YEAR WAS THAT?

UNITED STATES COURT REPORTERS

- App. 146 -

14

MR. DUNN:

1

I DON'T KNOW.

I WOULD HAVE TO GO BACK AND

2

LOOK, BUT I THINK THAT'S WHAT I'VE SEEN AS SORT OF THE HIGH

3

POINT.

4

THE COURT:

5

MR. DUNN:

6
7

THAT.

ARE YOU TALKING ABOUT 1918 AND 1919?
NO.

1918 WAS I THINK EVEN WORSE THAN

BUT A MORE RECENT EXTREME INFLUENZA SEASON.
THE COURT:

YEAH, ALL RIGHT.

8

WELL, I'M GOING TO STOP YOU HERE.

9

LET ME HEAR FROM MS. HADDAD.

10

MS. HADDAD:

12

THE COURT:

14
15

WHAT ARE THE MEDICAL

DECLARATION SECTIONS THAT YOU WANT THE COURT TO FOCUS ON?

11

13

THANK YOU.

THANK YOU, YOUR HONOR.
OR MR. BUSSEY, WHOEVER WANTS TO ANSWER

FOR THE DEFENSE.
MS. HADDAD:

WELL, MR. BUSSEY AND I WILL HAVE

DIFFERENT -- WE SUBMITTED DIFFERENT DECLARATIONS.

16

THE COURT:

17

MS. HADDAD:

RIGHT.
SO IF IT'S ALL RIGHT, I'LL TELL YOU MINE

18

AND THEN HE'LL TELL YOU HIS.

19

THE COURT:

20

MS. HADDAD:

GO AHEAD.
SO FOR DR. RUTHERFORD, HE SPECIFICALLY

21

HAS A SECTION ENTITLED "TRANSMISSION RISKS," AND THAT'S AT

22

PARAGRAPHS 74 TO 87.

23

HE ALSO HAS A SECTION ON THE VERACITY OF PCR TESTS AND WHY

24

THEY ARE THE GOLD STANDARD, AND I WILL FIND THAT -- I WILL GET

25

YOU THAT PARAGRAPH CITE BEFORE THE END OF THIS HEARING.

UNITED STATES COURT REPORTERS

- App. 147 -

15

1

THE COURT:

2

MS. HADDAD:

OKAY.
DR. WATT HAS A SECTION ENTITLED "RISKS

3

OF GATHERINGS."

4

ATTENTION TO THAT, AS WELL AS THE PURPOSES OF THE BLUEPRINT.

5

WE WOULD PARTICULARLY LIKE TO DRAW THE COURT'S

AND I WILL JUST SAY THAT PLAINTIFFS ARE IGNORING THE GOALS

6

THAT ARE CLEARLY STATED IN OUR OWN DECLARATIONS.

IT'S NOT JUST

7

ABOUT -- THE BLUEPRINT AND RESTRICTIONS ARE NOT JUST ABOUT

8

PREVENTING HOSPITALIZATIONS, ALTHOUGH THAT IS ONE VERY

9

IMPORTANT PART.

10

AND THEN FINALLY DR. KURTZ, SHE -- HER DECLARATION IS

11

QUITE SHORT, BUT IT DOES DETAIL HOW THE STATE -- THE COSTS AND

12

BENEFITS THAT THE STATE WEIGHED AND THE ANALYSIS THAT THE STATE

13

DID IN CREATING THE BLUEPRINT'S RESTRICTIONS, AND I WILL GET

14

YOU HER SPECIFIC PARAGRAPHS AS WELL SHORTLY.

15

THE COURT:

16

MR. BUSSEY:

OKAY.
YOUR HONOR, FOR THE COUNTY DEFENDANTS,

17

I'D LIKE TO BEGIN BY EMPHASIZING A FEW EXCERPTS FROM

18

PLAINTIFFS' DECLARATIONS.

19

BHATTACHARYA'S REPLY DECLARATION, HE DOES NOT DISPUTE THE POINT

20

THAT PCR TESTS ARE THE GOLD STANDARD FOR DETECTING THE PRESENCE

21

OF THE VIRUS.

22

INFECTIOUSNESS, WHICH WE WOULD SUBMIT IS BESIDE THE POINT.

23

YOU GOT YOUR TEST ON FRIDAY AND YOU WERE INFECTIOUS ON

24

WEDNESDAY, THAT'S STILL A REALLY IMPORTANT CONSIDERATION WHEN

25

WE'RE TRYING TO MEASURE THE SPREAD OF THE VIRUS WITHIN THE

IN PARTICULAR, AT PARAGRAPH 7 OF

HE SAYS ONLY THAT THEY DO NOT DETECT CURRENT

UNITED STATES COURT REPORTERS

- App. 148 -

IF

16

1
2

COMMUNITY.
ON PARAGRAPH 52 OF BHATIA'S REPLY DECLARATION, HE SAYS

3

THAT THE STANDARD THAT PLAINTIFFS HAVE PROFFERED,

4

HOSPITALIZATIONS, IS, QUOTE, "BASED EXCLUSIVELY ON CONFIRMED

5

PCR TESTS."

6

MEASURE.

7

SO THEIR ALTERNATIVE MEASURE IS ALSO BASED ON OUR

AND THEN IN PARAGRAPH 53, BHATIA SAYS, QUOTE,

8

"HOSPITALIZATION ADMISSIONS ARE NOT PERFECT MEASURES," END

9

QUOTE.

10
11

SO HE'S ADMITTING THERE THAT THEIR STANDARD IS NOT A

PERFECT ONE, EITHER.
IN PARAGRAPH 64 OF BHATIA'S DECLARATION, I READ HIM TO BE

12

SAYING THAT MOST OF THE TRANSMISSION OCCURRING RIGHT NOW IS IN

13

HOUSEHOLDS, WHICH, OF COURSE, IS EXACTLY WHAT WE'RE TALKING

14

ABOUT IN THIS CASE.

15

THAT'S ONE OF THEM.

16

WE'RE TALKING ABOUT A LOT OF THINGS, BUT

AND THEN WITH RESPECT TO THE COUNTY'S DECLARATIONS, I

17

WOULD DIRECT THE COURT TO DR. LIPSITCH'S DECLARATION AT

18

PARAGRAPHS 34 TO 44, WHICH IS WHERE HE TALKS ABOUT THE UTILITY

19

OF PCR TESTS.

20
21
22
23
24
25

I WOULD DIRECT THE COURT TO DR. REINGOLD'S DECLARATION AT
PARAGRAPHS 27 TO 36 ON THE SAME SUBJECT.
THE COURT:

I'M SORRY.

CAN YOU REPEAT THE REINGOLD

PARAGRAPH NUMBERS AGAIN, PLEASE?
MR. BUSSEY:

OF COURSE.

I APOLOGIZE.

THROUGH 36.

UNITED STATES COURT REPORTERS

- App. 149 -

PARAGRAPHS 27

17

1

THE COURT:

2

MR. BUSSEY:

OKAY.

GO AHEAD, PLEASE.

I WOULD THEN DIRECT THE COURT TO

3

DR. MALDONADO'S DECLARATION.

DR. MALDONADO IS AT STANFORD

4

UNIVERSITY, THE SAME UNIVERSITY FROM WHICH PLAINTIFFS' EXPERTS

5

HAIL.

6

THAT THE VIEW THAT THEY HAD PRESENTED TO THIS COURT HAS BEEN

7

REJECTED BY THE MAJORITY OF EXPERTS IN THE RELEVANT FIELD,

8

WHICH I THINK IS AN IMPORTANT HIGH LEVEL POINT TO KEEP IN MIND.

AND IN PARTICULAR, AT PARAGRAPHS 22 TO 26, SHE EXPLAINS

AND THEN FINALLY, I WOULD LIKE TO DIRECT THE COURT TO A

9
10

NUMBER OF PARAGRAPHS FROM DR. CODY'S DECLARATION.

11

SPECIFICALLY, SHE ADDRESSES THE IMPORTANCE, AND THAT IS THE

12

INCREASED RISK PRESENTED BY A NUMBER OF FACTORS, AS FOLLOWS:

13

SHE TALKS ABOUT THE DURATION OF GATHERINGS IN PARAGRAPHS 14 AND

14

59.

15

THAN OUTDOOR GATHERINGS IN PARAGRAPHS 28 TO 29.

16

IN THOSE SAME TWO PARAGRAPHS ABOUT PROLONGED SINGING, TALKING,

17

AND SHOUTING.

SHE TALKS ABOUT INDOOR GATHERINGS BEING MORE DANGEROUS

18

THE COURT:

19

MR. BUSSEY:

20

SHE ALSO TALKS

THAT'S ALSO IN 28 AND 29?
THAT IS CORRECT.

SHE TALKS ABOUT THE SIZE OF GATHERING AS BEING IMPORTANT

21

IN PARAGRAPH 34.

IN PARAGRAPH 37, SHE TALKS ABOUT AND CITES

22

SOME STUDIES ADDRESSING SPECIFIC INSTANCES WHERE COVID

23

TRANSMISSION HAS BEEN TIED TO GATHERINGS, AND THE ONES I WOULD

24

REFERENCE SPECIFICALLY ARE A CHURCH SERVICE IN A PRIVATE

25

HOME -- THAT'S AT PARAGRAPH 37 AGAIN -- AND SHE ALSO TALKS IN

UNITED STATES COURT REPORTERS

- App. 150 -

18

1

THAT SAME PARAGRAPH, 37, ABOUT LECTURES AT A UNIVERSITY, AND

2

INDOOR BARS, BOTH OF WHICH LED TO CASES OF COVID-19 BEING

3

TRANSMITTED TO OTHERS.

4

THANK YOU.
THE COURT:

5

OKAY.

LET ME ASK THE DEFENDANTS, AND YOU

6

CAN DECIDE WHO WANTS TO ANSWER, OR IF BOTH OF YOU WANT TO

7

ANSWER, WHY IS A COMPLETE PROHIBITION ON GATHERINGS NO GREATER

8

THAN ESSENTIAL TO THE FURTHERANCE OF AN IMPORTANT GOVERNMENTAL

9

INTEREST IN PREVENTING COVID?
MS. HADDAD:

10
11

I'M SORRY, YOUR HONOR.

WOULD YOU REPEAT

THE QUESTION?
THE COURT:

12

YEAH.

WHY IS A COMPLETE PROHIBITION ON

13

GATHERINGS NO GREATER THAN ESSENTIAL TO FURTHER THE

14

GOVERNMENT'S INTEREST IN PREVENTING COVID?
MS. HADDAD:

15

YOUR HONOR, I UNDERSTAND THAT YOU'RE

16

ASKING UNDER THE NEW REGIONAL STAY AT HOME ORDER, ALL

17

GATHERINGS ARE PROHIBITED.
THE COURT:

18
19

IS THAT CORRECT?

I'M ASKING, THE COMPLETE PROHIBITION ON

GATHERINGS, WHY IS THAT NOT GREATER THAN ESSENTIAL?
MS. HADDAD:

20

SO GATHERINGS ARE PROHIBITED, ARE

21

PROHIBITED BASED ON THE RISK OF TRANSMISSION IN THE AREAS

22

WHERE, WHERE COVID IS -- THE INFECTION RATES ARE AT THEIR

23

HIGHEST.

24

FULL OR NEARING CAPACITY, THE ACTIVITIES THAT POSED THE

25

GREATEST RISK OF TRANSMISSION ARE THE ACTIVITIES THAT HAVE BEEN

AND AS YOU RIGHTLY POINTED OUT, WHERE ICU BEDS ARE

UNITED STATES COURT REPORTERS

- App. 151 -

19

1
2

THE FOCUS OF THE STATE'S RESTRICTIONS.
AND GATHERINGS IN PARTICULAR -- THE PURPOSE OF GATHERINGS

3

IS FOR PEOPLE WHO KNOW EACH OTHER TO GET TOGETHER AND HAVE LONG

4

FACE-TO-FACE INTERACTIONS IN AREAS -- AND IN THIS CASE WHERE

5

PLAINTIFFS ARE CHALLENGING ARE GATHERINGS IN THEIR PRIVATE

6

HOMES, OR THEY'RE CHALLENGING RESTRICTIONS ON GATHERINGS IN

7

THEIR PRIVATE HOMES.

8

THESE ARE NOT AREAS -- THESE ARE NOT CONDUCIVE TO IMPOSING

9

THE KINDS OF RESTRICTIONS THAT CAN MITIGATE THE TRANSMISSION OF

10

THE VIRUS, FOR EXAMPLE, IN RETAIL OR IN OTHER AREAS THAT ARE

11

MEANT FOR THE ASSEMBLY OF PEOPLE.

12

HERE WHEN PEOPLE GET TOGETHER, IT'S FACE-TO-FACE, IT'S

13

MUCH HARDER TO HAVE, TO HAVE LONG-TERM -- TO HAVE -- TO OBSERVE

14

COVID RESTRICTIONS FOR LONG PERIODS OF TIME, AND THEN THE RISK

15

OF TRANSMISSION IS GREATER.

16
17
18

AND THAT'S WHY THE REGIONAL STAY AT HOME ORDER AT LEAST
IMPOSED A COMPLETE GATHERING.
AND WE DO HAVE EXPERTS THAT HAVE TESTIFIED TO THIS IN

19

THEIR DECLARATIONS, AND I CAN GET YOU -- I HAVE THOSE PARAGRAPH

20

NUMBERS NOW, AND I HAVE THE OTHER PARAGRAPH NUMBERS I'D LIKE TO

21

PROVIDE IF NOW IS A GOOD TIME.

22

THE COURT:

23

MS. HADDAD:

OKAY.
OKAY.

GO AHEAD.
SO I WOULD ALSO LIKE TO DRAW YOUR

24

ATTENTION TO DR. RUTHERFORD'S DECLARATION, HIS PARAGRAPHS 50,

25

60, 76 THROUGH 77, AND 80.

UNITED STATES COURT REPORTERS

- App. 152 -

20

1
2
3

DR. WATT, AT PARAGRAPH 44, 45 TO 46, THESE FOCUS
SPECIFICALLY ON LIVING ROOM -- ON LIVING ROOM DISCUSSIONS.
REGARDING -- THERE'S ALSO -- WE ALSO HAVE SUBMITTED A

4

DECLARATION OF DR. STOTO.

5

PARAGRAPHS 30 THROUGH 34, THEY FOCUS ON HOW THE RESTRICTIONS

6

ARE PROPORTIONAL TO THE RISK.

7

PARAGRAPHS 17 THROUGH 24 AND

AND FINALLY, DR. KURTZ DISCUSSES THE BLUEPRINT AND THE

8

PURPOSES OF THE BLUEPRINT AT 54 TO 57.

9

SO, YES, THAT'S IT FOR NOW.

10

THE COURT:

11

MR. BUSSEY:

12

OKAY.
AND, YOUR HONOR, IF I MAY BRIEFLY

RESPOND TO THE QUESTION AS WELL?

13

THE COURT:

14

MR. BUSSEY:

OKAY.

GO AHEAD, PLEASE.

SO I THINK THE COURT FRAMED THE QUESTION

15

AS WHY A COMPLETE GATHERING BAN WAS APPROPRIATE, AND I WANT TO

16

EMPHASIZE AT THE OUTSET THAT WHILE COMPLETE, THE COMPLETE BAN

17

IS TEMPORARY AND IT'S TIED TO SOME SPECIFIC METRICS.

18

NOT TALKING ABOUT SOMETHING THAT'S GOING TO GO ON FOREVER.

19

THE OTHER POINT I WOULD LIKE TO EMPHASIZE IS HOW

SO WE'RE

20

GATHERINGS ARE DEFINED IN THE RELEVANT DOCUMENTS, AT LEAST FROM

21

THE COUNTY PERSPECTIVE.

22

EVENTS THAT INVOLVE CLOSE CONTACT BETWEEN INDIVIDUALS -- AND

23

NOT ANY TYPE OF CLOSE CONTACT -- WE'RE TALKING ABOUT EXTENDED

24

RATHER THAN TRANSIENT CONTACT, AND WE'RE TALKING ABOUT CONTACT

25

THAT IS GOING TO INVOLVE TALKING OR OTHER ACTIVITIES THAT WOULD

WE'RE TALKING SPECIFICALLY ABOUT

UNITED STATES COURT REPORTERS

- App. 153 -

21

1
2

EXPEL VIRUS-LADEN DROPLETS AND AEROSOLS.
AND IT'S JUST IMPRACTICAL FOR US TO SAY YOU CAN DO THAT,

3

FOR EXAMPLE, BUT YOU CAN'T DO IT MORE THAN EIGHT MINUTES OR TEN

4

MINUTES OR TWELVE MINUTES.

5

GOING TO GET YOURSELF INTO A LINE DRAWING PROBLEM THAT JUST

6

BECOMES IMPRACTICAL, VERY DIFFICULT TO UNDERSTAND, AND EQUALLY

7

DIFFICULT TO ENFORCE.

YOU KNOW, AT SOME POINT YOU'RE

8

THE COURT:

LET ME JUST GET SOME CLARIFICATION ABOUT

9

WHAT'S BEING CHALLENGED HERE.

AS FAR AS THE FREE EXERCISE

10

CLAIM, THE ONLY RESTRICTIONS BEING CHALLENGED ON GATHERINGS IS

11

THE ONE THAT IS -- THE RESTRICTION THAT IS PREVENTING THE

12

PLAINTIFFS FROM HOLDING BIBLE STUDIES.

13

MR. DUNN:

14

THE COURT:

15

IS THAT RIGHT?

CORRECT, YOUR HONOR.
OKAY.

THANK YOU.

I KNOW THAT ONE OF THE PLAINTIFFS IS A MINISTER, BUT ARE

16

ANY OF THESE PLAINTIFFS HOUSES OF WORSHIP, OR ALLEGING

17

RESTRICTIONS ON HOUSES OF WORSHIP?

18

FOCUSSED ON PRIVATE GATHERINGS THAT HAVE RELIGIOUS PURPOSES,

19

LIKE BIBLE STUDIES IN THE HOME.

20
21

MR. DUNN:

IT SEEMS LIKE IT'S MORE

I THINK THAT'S RIGHT, YOUR HONOR.

IF THEY

WERE HOUSES OF WORSHIP, THEY WOULD BE ABLE TO MEET.

22

YOU KNOW, WE WERE A LITTLE SURPRISED HONESTLY, AND

23

SOMEWHAT DISAPPOINTED, THAT THE DEFENDANTS' RESPONSE TO OUR

24

MOTION WASN'T TO CLARIFY THAT THESE HAVE THE SAME SORT OF

25

OPPORTUNITIES TO MEET AS CHURCHES DID.

UNITED STATES COURT REPORTERS

- App. 154 -

22

1

BUT IN OUR VIEW, THEY SHOULD BE TREATED THE SAME AS

2

CHURCHES WHEN YOU HAVE A PASTOR WHO'S LEADING ESSENTIALLY A

3

SMALL INDOOR HOUSE CHURCH-TYPE MEETING.

4

AND BOTH WONG AND BUSCH HAVE PUT IN THEIR DECLARATIONS

5

THAT THEY ARE COMMITTED TO THE SAME SORT OF SOCIAL DISTANCING,

6

MASK WEARING, THAT APPLY IN CHURCHES.

7

SO THESE AREN'T AN ATTEMPT TO HAVE A SORT OF, YOU KNOW,

8

NEW YEAR'S EVE PARTY UNDER THE GUISE OF A RELIGIOUS GATHERING

9

OR SOMETHING LIKE THAT.

10

BOTH OF THESE FOLKS HAVE DEMONSTRATED A HISTORY OF HAVING

11

THESE TYPES OF EVENTS.

THESE AREN'T PLAINTIFFS WHO ARE JUST

12

TRYING TO CONCOCT SOME SORT OF PRETENSE TO HAVE A GATHERING.

13

THEY'VE HAD SEVERAL YEARS OF A PATTERN OF RELIGIOUS GATHERINGS.

14

SO, YOU KNOW, WE'RE NOT -- THIS SUIT IS NOT ABOUT, IN

15

EVERY IN-HOME GATHERING, YOU KNOW, TRYING TO STRIKE A BLOW AT

16

THAT.

17

THAT'S JUST NOT WHAT THIS IS ABOUT.

THIS IS VERY SPECIFIC TO PEOPLE WHO ARE TRYING TO EXERCISE

18

THEIR RELIGIOUS FAITH RESPONSIBLY IN THE SAME WAY THAT, YOU

19

KNOW, THEY WOULD IN A CHURCH OR THAT, YOU KNOW, A POLITICAL

20

EVENT WOULD TAKE PLACE.

21

AND THEN EVEN BEYOND THAT, THE BLUEPRINT HAS ALL SORTS OF

22

INTERESTING EXEMPTIONS THAT ARE CLOSER TO THIS THAN YOU MIGHT

23

THINK.

24

ENTERTAINMENT INDUSTRY.

25

FOR TWO HOURS, BUT YOU COULDN'T HAVE A BIBLE STUDY WITH THE

SO, FOR EXAMPLE, THE BLUEPRINT HAS CARVED OUT THE
SO YOU COULD FILM A TV SHOW IN A HOUSE

UNITED STATES COURT REPORTERS

- App. 155 -

23

1
2

SAME NUMBER OF PEOPLE IN THE SAME HOUSE FOR AN HOUR.
SO IT'S THOSE TYPES OF THINGS THAT I THINK, ACCORDING TO

3

THE SUPREME COURT'S RECENT DECISION IN DIOCESE OF BROOKLYN, YOU

4

KNOW, IT MAKES IT -- IT CLEARLY TRIGGERS THE STRICT SCRUTINY,

5

AND THEN THE QUESTION IS, DO YOU HAVE TO BAN THESE TYPES OF

6

RELIGIOUS GATHERINGS TO ACCOMPLISH THE STATE'S INTEREST?

7

VIEW IS NO.

8
9

THE COURT:

OUR

SO ARE YOU SAYING THE GATHERING BAN

DOESN'T TREAT ALL GATHERINGS THE SAME WAY?

10

MR. DUNN:

NO, IT DOES NOT.

I MEAN, AT THE VERY --

11

AT THE VERY OUTSET, YOU HAVE TO DECIDE WHICH TIER YOU'RE

12

WORKING ON.

13

ALLOWED TO HAVE GATHERINGS INDOORS.

14

HAPPEN INDOORS.

SO FOR EXAMPLE, IN THE RED TIER, CHURCHES ARE
POLITICAL GATHERINGS CAN

15

IN THE PURPLE TIER, CERTAIN THINGS CAN HAPPEN OUTDOORS.

16

BUT, FOR EXAMPLE, IF THE GANNONS WANTED TO HOST AN

17

OUTDOOR, IN THEIR BACKYARD, POLITICAL DEBATE WITH MORE THAN

18

THREE HOUSEHOLDS, THEY CAN'T DO IT.

19

YOU KNOW, THEY CAN GO TO A PROTEST WITH A THOUSAND PEOPLE,

20

OR AT LEAST IN SANTA CLARA COUNTY, THERE MIGHT BE A 100 OR 200

21

PERSON LIMIT, BUT THEY CAN GO TO AN OUTDOOR PROTEST AND RUB

22

SHOULDERS, BUT THEY CAN'T HAVE AN OUTDOOR DEBATE, EVEN IF

23

EVERYONE IS SOCIALLY DISTANT.

24
25

SO THERE'S CLEAR DIVISIONS IN HOW THE GATHERINGS ARE
TREATED.

UNITED STATES COURT REPORTERS

- App. 156 -

24

1

WHEN WE FIRST FILED THE LAWSUIT, TANDON WASN'T EVEN

2

ALLOWED TO HAVE A POLITICAL RALLY.

HE COULDN'T HAVE A

3

FUNDRAISER, EVEN THOUGH PROTESTS WERE ALLOWED.

4

CHANGED THAT RULE IMMEDIATELY AFTER WE FILED OUR LAWSUIT, WHICH

5

IS WHY WE DIDN'T HAVE TO SEEK A TRO FOR THAT, AND THAT WAS

6

GREAT.

7

THING.

WE'RE HAPPY THAT THEY DID THAT.

SO THE STATE

THAT WAS THE RIGHT

8

BUT IT HIGHLIGHTS THAT THERE IS OTHER FIRST AMENDMENT

9

CONDUCT THAT IS JUST AS VALUABLE THAT IS STILL NOT ALLOWED, AND

10

THAT'S WHAT THE FIRST AMENDED COMPLAINT IN THIS CASE IS

11

FOCUSSED ON.

12
13
14
15
16

THE COURT:

LET ME HEAR FROM THE DEFENDANTS.

DO YOU AGREE THAT THE GATHERING PROHIBITION TREATS THE
GATHERINGS DIFFERENTLY?
MS. HADDAD:

NO, YOUR HONOR.

I THINK THIS TURNS ON WHAT THE DEFINITION, THE OPERATIVE

17

DEFINITION OF A GATHERING IS THAT WE'RE OPERATING UNDER.

18

FOR THE PURPOSES OF THESE RESTRICTIONS, GATHERINGS ARE

19

IN-PERSON, FACE -- TYPICALLY FACE-TO-FACE GET TOGETHERS WITH

20

PEOPLE THAT YOU KNOW FOR PROLONGED PERIODS OF TIME.

21

AND

PLAINTIFFS ARE NOT ASSERTING THAT THEY WANT TO GO TO A

22

PROTEST OR A RALLY OR THAT -- AND PLAINTIFFS ARE NOT ASSERTING

23

THAT THEY WANT TO HAVE A PROTEST OR RALLY IN THEIR BACKYARD.

24
25

AND PLAINTIFF REVEREND WONG SPECIFICALLY ASSERTS IN HIS
DECLARATION THAT HIS HOME IS NOT A HOUSE OF WORSHIP.

UNITED STATES COURT REPORTERS

- App. 157 -

THEY WANT

25

1

TO GATHER FOR THE PURPOSE OF BIBLE STUDY AND RELATED OR

2

RELIGIOUS MATTERS, AND WE -- WE UNDERSTAND THAT THIS IS A

3

RESTRICTION, BUT IT APPLIES JUST AS EQUALLY TO THE GANNONS, THE

4

PLAINTIFFS WHO WISH TO HAVE A DISCUSSION OF POLITICAL IDEAS,

5

AND IT APPLIES TO BOOK CLUBS.

6

IT APPLIES TO ALL OF THE UPCOMING HOLIDAY GATHERINGS THAT

7

PEOPLE WISH TO HAVE IN THEIR HOMES.

8
9

IT APPLIES ACROSS THE BOARD, AND

SPECIFICALLY, THE -- THE -- AND THE ACTIVITIES THAT
PLAINTIFFS ARE POINTING TO HERE AS, AS SUPPOSED COMPARATORS

10

ARE -- THEY'RE NOT -- THEY CAN'T BE COMPARED.

11

COMPARED TO EACH OTHER.

12

NOT UNRESTRICTED.

13

BASED ON THE ATTENDANT RISKS.

14
15
16
17
18

THEY CAN'T BE

THE ACTIVITIES THAT THEY POINT TO ARE

THEY HAVE THEIR OWN DIFFERENT RESTRICTIONS

THE COURT:

LET ME GO TO MR. DUNN.

ARE YOU SAYING THAT THE STATE GATHERING RESTRICTIONS ARE
NOT NEUTRAL ON THEIR FACE?
MR. DUNN:

CORRECT, YOUR HONOR.

SO, FOR EXAMPLE, I MEAN, A GATHERING THAT IS A PROTEST IS

19

TREATED DIFFERENTLY THAN OTHER TYPES OF GATHERINGS, EVEN THOUGH

20

THEY'RE ALL GATHERINGS.

21

GATHERING BAN, AND THEY ADDED THE GATHERING -- THEY ADDED THE

22

CARVEOUT FOR POLITICAL RALLIES AFTER OUR LAWSUIT BECAUSE THAT

23

WAS NOT ALLOWED AS THE GATHERING BAN WAS ORIGINALLY INSTITUTED.

24

SO WE'VE ACHIEVED -- WE'VE BEEN ABLE TO GET SORT OF ONE

25

CARVEOUT, AND THAT'S GOOD.

THOSE ARE SPECIFIC CARVEOUTS FROM THE

UNITED STATES COURT REPORTERS

- App. 158 -

26

1

BUT OUR VIEW IS THAT THE CARVEOUT NEEDS TO BE BROADER AND

2

EXTEND TO OTHER TYPES OF POLITICAL SPEECH.

3

FOR, YOU KNOW, A CARVEOUT FOR ALL FIRST AMENDMENT RELATED

4

CONDUCT, EXPRESSIVE CONDUCT, DANCING OR SOMETHING LIKE THAT.

5

SO WE HAVEN'T ASKED

BUT FOR POLITICAL SPEECH, OUR VIEW IS THAT A GATHERING BY

6

THE GANNONS SHOULD BE TREATED THE SAME AS A PROTEST AND AS A

7

POLITICAL GATHERING BY TANDON.

8
9
10
11

SO IN OUR VIEW IT IS CONTENT-BASED ON ITS FACE.

THAT'S --

WE'RE ASKING TO BASICALLY HARMONIZE IT SO THAT ALL OF THOSE ARE
TREATED EQUALLY.
AND THEN THE SAME THING WITH WONG AND BUSCH.

YOU KNOW,

12

THEY AREN'T HOUSES OF WORSHIP, SO THEY CAN'T MEET INDOORS EVEN

13

WHEN HOUSES OF WORSHIP ARE ALLOWED TO MEET INDOORS.

14

AND THEN I THINK THE DIOCESE OF BROOKLYN DECISION

15

ADDRESSES MANY OF THE ARGUMENTS THAT DEFENDANTS' COUNSEL IS

16

RAISING BECAUSE THE COURT VERY CLEARLY SAID IN THAT CASE YOU

17

CAN'T TREAT HOUSES OF WORSHIP DIFFERENTLY THAN A LAUNDROMAT OR

18

A LIQUOR STORE, EVEN THOUGH THOSE AREN'T IDENTICAL TYPES OF

19

GATHERINGS.

20

TRIGGERS HEIGHTENED SCRUTINY.

21

SO IN THIS CASE --

22

THE COURT:

THERE -- SORT OF THE DISPARATE TREATMENT THERE

BUT UNDER THE STAY AT HOME ORDER, HOUSES

23

OF WORSHIP ARE ACTUALLY ONE OF THE ONLY PLACES WHERE PEOPLE ARE

24

PERMITTED TO GATHER.

25

WOULDN'T APPLY.

SO TO THAT EXTENT, ROMAN CATHOLIC DIOCESE

ISN'T THAT RIGHT?

UNITED STATES COURT REPORTERS

- App. 159 -

27

MR. DUNN:

1

OUR VIEW IS AT THE VERY LEAST A HOME

2

WORSHIP SHOULD BE TREATED THE SAME AS A HOUSE OF WORSHIP.

SO

3

IF YOU'RE TRYING TO HAVE A HOUSE CHURCH, THERE'S NO REASON A

4

HOUSE CHURCH, WHICH GOES BACK TO THE BEGINNINGS OF THE CHURCH,

5

A HOUSE CHURCH SHOULDN'T BE TREATED DIFFERENTLY THAN A CHURCH

6

IN A BUILDING.

SO THAT'S SORT OF LIKE AS A FIRST ORDER THING.

7

NOW, WHETHER THE LIMITATIONS ON HOUSES OF WORSHIP

8

GENERALLY, YOU KNOW, RUN AFOUL OF THE CONSTITUTION, THAT IS

9

BEING LITIGATED IN OTHER CASES, AND I THINK IN THAT CASE THE

10

COMPARATORS IS WITH OTHER TYPES OF, YOU KNOW, INDOOR GATHERINGS

11

THAT ARE ALLOWED, RETAIL STORES AND STUDIO PRODUCTIONS,

12

PROFESSIONAL SPORTS, THESE TYPES OF THINGS.

13

BUT FOR OUR PURPOSES, I THINK THE LEAD POINT IS THAT HOUSE

14

GATHERINGS TO WORSHIP SHOULD NOT BE DISFAVORED VERSUS, YOU

15

KNOW, THE SAME TYPE OF GATHERING THAT'S TAKING PLACE IN A

16

CHURCH BUILDING.
THE COURT:

17
18

THAT?

19

MR. BUSSEY:

20

THE COURT:

21
22

MR. BUSSEY, DO YOU WANT TO RESPOND TO

ACTUALLY, I -YOU HAVEN'T RESPONDED TO ANY OF THESE

QUESTIONS SO FAR.
MR. BUSSEY:

SURE.

I WOULD FIRST POINT OUT THAT MOST

23

OF THE ALLEGED INCONSISTENT EXAMPLES THAT MR. DUNN BEGAN

24

RECITING ARE REFLECTED IN THE STATE ORDER THAT HE'S

25

CHALLENGING, NOT IN THE COUNTY ORDER.

UNITED STATES COURT REPORTERS

- App. 160 -

28

1

THE ONLY EXAMPLE I'VE HEARD WHERE HE SAYS THE COUNTY IS

2

TREATING DIFFERENT THINGS -- OR SIMILAR THINGS DIFFERENTLY IS

3

BY CALLING A VISIT TO A RETAIL STORE A GATHERING.

4

AND HE MAY TAKE AWAY FROM ROMAN CATHOLIC THE NOTION THAT

5

RETAIL STORES AND EXTENDED IN-PERSON GATHERINGS NEED TO BE

6

TREATED EXACTLY THE SAME, BUT I CERTAINLY DON'T TAKE THAT AWAY

7

FROM THE OPINION FOR A NUMBER OF REASONS, ONE BEING THAT OUR

8

ORDER IS NOT FACIALLY DISCRIMINATORY.

9

ORDER IN THAT CASE.

10

IT'S NEUTRAL, UNLIKE THE

AND NUMBER TWO, I DON'T KNOW WHAT RECORD WAS BEFORE THAT

11

COURT BECAUSE THE OPINION DOESN'T ADDRESS THE SUBJECT AT ALL AS

12

TO THE DIFFERENT RISKS PRESENTED BY DIFFERENT ACTIVITIES.

13

BUT THIS COURT DOES HAVE A VERY FULSOME RECORD WITH QUITE

14

A FEW EXPERTS WHO HAVE EXPOUNDED ON THE DIFFERENT RISKS

15

PRESENTED BY, SAY, A TRANSITORY TRIP TO A RETAIL STORE AND AN

16

EXTENDED IN-PERSON GATHERING IN SOMEBODY'S HOME.

17

NOTHING IN ROMAN CATHOLIC, OR IN ANY OTHER OPINION,

18

PREVENTS THIS COURT FROM ALLOWING THE GOVERNMENT TO TREAT THOSE

19

ACTIVITIES DIFFERENTLY BECAUSE THEY INVOLVE DIFFERENT RISKS.

20

AT MOST, YOU COULD TAKE AWAY FROM ROMAN CATHOLIC THE

21

NOTION THAT A VERY EXTREMELY DISPARATE TREATMENT IS NOT GOING

22

TO BE OKAY.

23

FACTS THAT ARE DISCUSSED IN THAT OPINION.

24

WORSHIP THAT COULD ACCOMMODATE, I THINK, A THOUSAND OR MAYBE

25

MORE THAN A THOUSAND PEOPLE.

AND I THINK IT'S -- IT'S IMPORTANT TO FOCUS ON THE
YOU HAD HOUSES OF

UNITED STATES COURT REPORTERS

- App. 161 -

29

HERE WE'RE TALKING ABOUT THE WONGS AND BUSCHS GATHERING IN

1
2

THEIR HOME.
AND I WILL ADD, TOO, THAT THERE DOES SEEM TO BE A LACK OF

3
4

CLARITY IN THE DEFINITION OF RELIGIOUS GATHERINGS.

WHEN I LOOK

5

AT THEIR PROPOSED ORDER, IT'S ONE THAT WOULD ENJOIN THE

6

GOVERNMENT FROM PREVENTING RELIGIOUS GATHERINGS IN HOMES, AND

7

YES, THEY DO DESCRIBE THEIR GATHERINGS IN PART AS CONSISTING OF

8

WORSHIP, BUT THEY ALSO DESCRIBE THEM AS CONSISTING OF

9

THEOLOGICAL DISCUSSION AND BIBLE STUDIES, AND IT'S QUITE

10

UNCLEAR TO ME WHAT NEEDS TO BE SATISFIED FOR SOMETHING TO

11

QUALIFY AS A RELIGIOUS GATHERING.
IT'S THE HOLIDAY SEASON, RIGHT?

12

MOST GATHERINGS THAT ARE

13

HAPPENING RIGHT NOW HAVE SOME KIND OF RELIGIOUS DIMENSION TO

14

THEM.

15

SURROUNDING HOLIDAYS.

PEOPLE GET TOGETHER FOR CHRISTMAS, FOR EXAMPLE, AND

16

SO IF THE IDEA IS THAT YOU CAN'T GATHER EXCEPT WHEN

17

THERE'S SOME SORT OF RELIGIOUS DIMENSION TO THE GATHERING, YOU

18

KNOW, THAT'S AN EXCEPTION YOU CAN DRIVE A TRUCK THROUGH, AND

19

THAT'S FAR DIFFERENT FROM THE FACTS THAT WERE PRESENTED IN

20

ROMAN CATHOLIC OR ANY OTHER CASE THAT I'M AWARE OF.

21

THE COURT:

MR. DUNN, DO YOU WANT TO ANSWER WHY WE

22

SHOULD COMPARE RELIGIOUS GATHERINGS TO SHOPPING INSTEAD OF

23

SECULAR GATHERINGS?

24
25

MR. DUNN:
SECOND.

SORRY, YOUR HONOR.

YOU PAUSED THERE FOR A

CAN YOU SAY THAT AGAIN?

UNITED STATES COURT REPORTERS

- App. 162 -

30

THE COURT:

1

OH.

WOULD YOU LIKE TO ADDRESS SORT OF

2

WHAT MR. BUSSEY WAS SAYING ABOUT WHY, WHY COMPARE RELIGIOUS

3

GATHERINGS TO RETAIL SHOPPING VERSUS COMPARING IT TO SECULAR

4

GATHERINGS?
MR. DUNN:

5
6

RIGHT.

I SEE WHAT YOU'RE SAYING.

WELL, I MEAN, I THINK THE MAIN ISSUE IS THAT WHEN YOU ARE

7

ALLOWING PEOPLE TO GATHER INSIDE, YOU KNOW, THE STATE IS

8

ESSENTIALLY MAKING A DECISION ABOUT WHAT IS ESSENTIAL AND WHAT

9

IS NOT ESSENTIAL.

10

AND IT CAN DO THAT VIS-A-VIS SECULAR GATHERINGS.

IT CAN

11

DECIDE THAT THIS SECULAR GATHERING IS NOT AS ESSENTIAL AS THAT

12

SECULAR GATHERING.

13

BUT AT SOME LEVEL, WHENEVER PEOPLE ARE GATHERED INDOORS,

14

IT'S ALL GATHERINGS.

15

GATHERINGS EXEMPTED IN THE BLUEPRINT, SUCH AS LAW FIRMS CAN

16

OPERATE AND THERE CAN BE BUSINESS MEETINGS INSIDE A LAW FIRM

17

OFFICE.

18

DISTANCED AND MASKED AND BEST PRACTICES.

19
20
21
22
23
24
25

AND OUR VIEW IS THAT THERE ARE MANY

PRESUMABLY THOSE WOULD ALL NEED TO BE SOCIALLY

AND OUR VIEW IS THE SAME EXACT TYPE OF THING COULD BE DONE
IN THE HOME.
AND SAME IDEA, AGAIN, WITH FILMING A MOVIE IN A HOME.
THAT'S A GATHERING.
BASICALLY THE WAY IT IS DEFINED, A GATHERING IS ANY TIME
PEOPLE COME TOGETHER IN THE SAME PLACE.
NOW, A WAL-MART MIGHT BE SORT OF DIFFERENT ENOUGH THAT YOU

UNITED STATES COURT REPORTERS

- App. 163 -

31

1

COULD HAVE DIFFERENT RULES FOR A WAL-MART THAN AN IN-HOME

2

GATHERING.

3

BUT IN OUR VIEW THE STATE HAS CARVED OUT SUFFICIENT

4

EXEMPTIONS TO IT THAT, AT THE VERY LEAST, IT HAS TO SATISFY

5

STRICT SCRUTINY.

6

IT HAS TO SHOW THAT IT'S NARROWLY TAILORED.

7

WHAT DIOCESE OF BROOKLYN REALLY SORT OF HAMMERS HOME IS THAT

8

THE STATE CAN'T JUST SORT OF WAVE ITS HANDS AND GET BY WITH

9

SAYING, TRUST OUR EXPERTISE.

10

IT DOESN'T MEAN IT AUTOMATICALLY FAILS, BUT
I THINK THAT WAS

IT HAS TO ACTUALLY PROVE UP WHY

IT IS ESSENTIAL TO BAN THOSE TYPES OF RELIGIOUS GATHERINGS.

11

THE COURT:

12

MS. HADDAD:

YES, YOUR HONOR.

13

THE COURT:

GO AHEAD, PLEASE.

14

MS. HADDAD:

15

TOO MUCH INTO ROMAN CATHOLIC.

16

RULE THAT ONLY APPLIED TO HOUSES OF WORSHIP THAT WAS DESCRIBED

17

AS BEING SIGNIFICANTLY HARSHER THAN RESTRICTING -- THAN ANY

18

RESTRICTIONS OR NO RESTRICTIONS ON A VARIETY OF ACTIVITIES AT

19

DIFFERENT RISK LEVELS.

20

MS. HADDAD, DO YOU WANT TO RESPOND?

FIRST, MR. DUNN, I THINK, IS READING FAR
ROMAN CATHOLIC CONCERNED A, A

ALSO, ROMAN CATHOLIC DOES NOT MANDATE STRICT SCRUTINY IN

21

EVERY -- EVERY TIME -- FOR EVERY RESTRICTION THAT IS ON A HOUSE

22

OF WORSHIP OR ON RELIGIOUS SERVICES OR THAT IMPACTS RELIGION.

23

RATHER, THE SUPREME COURT, SINCE ROMAN CATHOLIC ISSUED,

24

HAS REMANDED THREE CASES BACK TO THE DISTRICT COURT -- NOT TO

25

THE CIRCUIT COURT, BUT TO THE DISTRICT COURT -- TO ANALYZE

UNITED STATES COURT REPORTERS

- App. 164 -

32

1

THOSE STATES' RESTRICTIONS AND TO SEE WHETHER -- TO DETERMINE

2

WHETHER ROMAN CATHOLIC APPLIES.

3
4
5

AND THE NINTH CIRCUIT, IN FACT, DID THAT JUST LAST WEEK IN
HARVEST ROCK.
REGARDING WHETHER OR NOT -- REGARDING PLAINTIFFS'

6

COMPARISON OF RESTRICTIONS ON RELIGIOUS GATHERINGS TO HOUSE OF

7

WORSHIP RESTRICTIONS, AGAIN, THAT IS -- THAT'S AN INAPT

8

COMPARISON.

9

RISKS.

10

THEY ARE TWO DIFFERENT ACTIVITIES WITH DIFFERENT

AND I DO WANT TO POINT OUT THAT JUSTICE KAVANAUGH, IN HIS

11

CONCURRENCE IN ROMAN CATHOLIC, DID SAY THAT THE STATE HAS

12

AUTHORITY TO IMPOSE EVEN VERY STRICT RESTRICTIONS ON ATTENDANCE

13

OF RELIGIOUS SERVICES AND SECULAR GATHERINGS ALIKE.

14

THAT'S APPROPRIATE HERE.

AS MR. BUSSEY POINTED OUT,

15

THERE'S NOTHING IN ROMAN CATHOLIC THAT OVERRULES STORMANS OR

16

OVERRULES CHURCH OF LUKUMI.

17

ANALYSIS AND A COMPARISON ANALYSIS OF ANY RELEVANT EXCEPTIONS

18

TO BE DONE BY THE COURT TO DETERMINE WHETHER OR NOT THE

19

COURT -- THE STATE'S RESTRICTIONS, IN FACT, ARE NOT NEUTRAL AND

20

GENERALLY APPLICABLE.

THERE'S STILL A RISK-BASED

21

I WOULD ALSO POINT THE COURT'S ATTENTION TO A SIXTH

22

CIRCUIT DECISION THAT ISSUED AFTER ROMAN CATHOLIC ANALYZING --

23

LOOKING AT KENTUCKY'S RESTRICTIONS ON SCHOOL CLOSURES.

24

WAS A FREE EXERCISE CHALLENGE THERE BROUGHT BY RELIGIOUS

25

SCHOOLS, AND KENTUCKY THERE FOUND, EVEN IN CONSIDERATION OF

UNITED STATES COURT REPORTERS

- App. 165 -

THERE

33

1

ROMAN CATHOLIC, THAT THAT RULE, LIKE THIS ONE, THE RULE WAS

2

NEUTRALLY APPLICABLE EVEN THOUGH THERE ARE ALSO EXCEPTIONS FOR

3

RETAIL AND FOR IN-PERSON WORSHIP AND FOR OTHER GATHERINGS AS

4

WELL, BECAUSE THE SIXTH CIRCUIT NOTED THAT THOSE RESTRICTIONS

5

WERE BASED ON THE COMPARABLE RISKS AND WHETHER MASK WEARING AND

6

SOCIAL AND PHYSICAL DISTANCING AND SANITATION MEASURES COULD

7

COMPLETELY ELIMINATE THAT RISK OR REDUCE THAT RISK ENOUGH TO

8

MEET THE STATE'S INTEREST, AND WE DO THINK THAT'S INSTRUCTIVE

9

HERE.

10

THE COURT:

IN YOUR COMBINED SUPPLEMENTAL BRIEF --

11

I'M LOOKING AT THE BOTTOM OF PAGE 4 -- YOU SAY, "IN THEORY,

12

PLAINTIFFS COULD SATISFY THESE HOUSE OF WORSHIP REQUIREMENTS

13

AND CONDUCT A WORSHIP SERVICE UNDER THE GUIDANCE IN THEIR HOME,

14

BUT PLAINTIFFS HAVE NOT ALLEGED THAT THEY INTEND TO DO SO."

15
16

SO I GUESS THE QUESTION IS, DOES THE -- DOES THE GUIDANCE
PERMIT PRIVATE PLAINTIFFS TO HOLD WORSHIP SERVICES, OR NOT?

17

MS. HADDAD:

18

THE COURT:

19

MS. HADDAD:

20

SO -YOU SAY THEY COULD.
SO, YOUR HONOR, THE -- IF PLAINTIFFS

ASSERT THAT THEY ARE HOUSES OF WORSHIP --

21

THE COURT:

22

MS. HADDAD:

UM-HUM.
-- AND THAT THEY WISH -- AND THAT

23

THEY -- THAT THEY WISH TO HAVE THEIR RELIGIOUS GATHERING --

24

THEIR RELIGIOUS WORSHIP IN THEIR OWN PRIVATE HOME, THAT THEIR

25

OWN PRIVATE HOMES ARE HOUSES OF WORSHIP, THEY COULD CONCEIVABLY

UNITED STATES COURT REPORTERS

- App. 166 -

34

1

HAVE THOSE RULES APPLY TO THEM IF THEY CAN MEET ALL OF THE

2

REQUIREMENTS, NOT JUST COVID-RELATED REQUIREMENTS, BUT NON

3

COVID-RELATED REQUIREMENTS THAT FOLLOW HOUSES OF WORSHIP.

4

BUT AS I NOTED EARLIER, ONE OF THE PLAINTIFFS HAS SAID

5

AFFIRMATIVELY HIS HOME IS NOT A HOUSE OF WORSHIP, AND NEITHER

6

PLAINTIFF IS ASSERTING THAT THEY WANT THE HOUSE OF WORSHIP

7

GUIDELINES TO APPLY TO THEM.

8
9
10

THEY WANT, RATHER, AN EXCEPTION TO THE GATHERING
GUIDELINES.
THE COURT:

CAN ANYONE JUST CIRCUMVENT THE GUIDANCE

11

AND JUST SELF DECLARE THAT THEIR HOUSE IS A HOUSE OF WORSHIP?

12

I GUESS I'M NOT CLEAR ON --

13

MS. HADDAD:

YOUR HONOR, IT'S CONCEIVABLE THAT PEOPLE

14

WOULD BE ABLE TO SHOW THAT THEY COMPLY WITH ANY LOCAL ZONING

15

RULES AND THAT THEY -- ANY ATTENDANT -- IF THERE'S INSURANCE

16

REQUIREMENTS -- THOSE ARE NON COVID REGULATIONS.

17

AND THEN REGARDING THE COVID RESTRICTIONS, IF

18

PLAINTIFFS -- IF SOMEONE CAN SHOW THAT THEIR HOME QUALIFIES AS

19

A HOUSE OF WORSHIP, THEN CONCEIVABLY, YES.

20

THE COURT:

21

MS. HADDAD:

22

THE COURT:

23
24
25

OKAY.
BUT I -- OH, SORRY.
OH, GO AHEAD.

DID YOU FINISH?

I WANT TO

LET YOU FINISH.
MS. HADDAD:

I JUST WANTED TO REITERATE AGAIN THAT

PLAINTIFFS HERE ARE ASSERTING NO SUCH THING.

UNITED STATES COURT REPORTERS

- App. 167 -

35

THE COURT:

1

HOW -- YOU KNOW, ONE OF THE THINGS THAT

2

THE DEFENDANT SORT OF RELIED ON, YOU KNOW, BEFORE ROMAN

3

CATHOLIC WAS CHIEF JUSTICE ROBERTS' CONCURRENCE IN SOUTH BAY

4

UNITED PENTECOSTAL CHURCH.

5

HOW USEFUL IS THAT ANYMORE?

6

MR. DUNN:

7

THE COURT:

8

IN LIGHT OF ROMAN CATHOLIC DIOCESE,

NOT AT ALL FROM OUR PERSPECTIVE.
ALL RIGHT.

LET ME HEAR FROM THE DEFENDANTS.

9

MS. HADDAD:

YOUR HONOR, I THINK YOU'RE REFERRING TO

10

HIS STATEMENT THAT DEFERENCE MUST -- THAT STATE EXPERTISE MUST

11

BE -- MUST BE GIVEN DEFERENCE TO.

12
13

THE COURT:
CONCURRENCE.

14

IS THAT CORRECT?

I'M -- I'M REFERRING TO HIS WHOLE

IS IT WORTH EVEN RELYING ON THAT ANYMORE?

MS. HADDAD:

WELL, TO THE EXTENT THAT -- TO THE

15

EXTENT THAT THAT CONCURRENCE INCLUDES A -- TO THE EXTENT THAT

16

THE CONCURRENCE GIVES DEFERENCE TO STATE EXPERTISE, TO MEDICAL

17

EXPERTISE AND DATA-DRIVEN OPINIONS ON HOW TO HANDLE A PUBLIC

18

HEALTH CRISIS, WE THINK IT DOES.

19

AS WE POINTED OUT IN OUR SUPPLEMENTAL DECLARATION, IN

20

ROMAN CATHOLIC, THEY DID -- THE COURT DID NOTE THAT DEFERENCE

21

MUST BE GIVEN TO THOSE DECISIONS, AND WE THINK THAT THERE -- A

22

MAJORITY OF THE COURT BELIEVES THAT, AND WE CITED TO THOSE

23

DECLARATIONS -- EXCUSE ME -- TO THOSE DECISIONS THAT POINT THAT

24

OUT.

25

AND ALSO, WE WOULD NOTE THAT IN CALGARY CHAPEL, WHICH THE

UNITED STATES COURT REPORTERS

- App. 168 -

36

1

NINTH CIRCUIT ISSUED EARLIER THIS WEEK, THEY ALSO NOTED THAT

2

IT'S IMPORTANT TO -- THAT STATES ARE THE ONES THAT HAVE THE

3

EXPERTISE IN MAKING THESE PUBLIC HEALTH -- MAKING THESE PUBLIC

4

HEALTH DETERMINATIONS.
THE COURT:

5

LET ME ASK MR. DUNN, JUST FOR

6

CLARIFICATION OF YOUR DUE PROCESS CLAIM, IS THE RIGHT AT ISSUE

7

IN THAT CLAIM THE RIGHT TO MAKE A LIVING OR THE RIGHT TO CHOOSE

8

ONE'S OWN EMPLOYMENT?
MR. DUNN:

9
10
11
12
13

SPECIFICALLY IT WOULD BE THE RIGHT TO EARN

A LIVING.
THE COURT:

OKAY.

AND WOULD YOU AGREE THAT THAT'S

NOT A FUNDAMENTAL RIGHT?
MR. DUNN:

I WOULD AGREE THE SUPREME COURT HAS NOT

14

SQUARELY HELD THAT IT'S A FUNDAMENTAL RIGHT.

15

RESERVE THAT FOR APPEAL.

16

I THINK WE WOULD

I MEAN, I -- FROM OUR PERSPECTIVE, IT SHOULD BE A

17

FUNDAMENTAL RIGHT AND IT IS A FUNDAMENTAL RIGHT, BUT WE CONCEDE

18

THAT THE SUPREME COURT HAS NOT YET HELD THAT SQUARELY.

19

THE COURT:

OKAY.

LET ME RAISE A POINT THAT THE

20

PLAINTIFFS RAISE IN THEIR REPLY BRIEF, AND THAT IS THAT THE

21

SUPREME COURT DECLINED TO DISCUSS JACOBSON IN THE PER CURIAM

22

OPINION IN ROMAN CATHOLIC.

23

MS. HADDAD:

WHAT'S YOUR RESPONSE TO THAT?

WELL, YOUR HONOR, WHILE THEY DIDN'T

24

DISCUSS JACOBSON, THEY DID NOTE THE DEFERENCE TO STATE

25

DETERMINATIONS AS TO, AS TO MEDICAL EXPERTISE AND DATA-DRIVEN

UNITED STATES COURT REPORTERS

- App. 169 -

37

1
2

DETERMINATIONS.
AND WE WOULD ALSO ARGUE THAT TO THE EXTENT THEY DIDN'T

3

CONSIDER JACOBSON IN THE FREE -- IN THE CONTEXT OF A FREE

4

EXERCISE CLAIM, THAT CERTAINLY DOESN'T APPLY IN THE CONTEXT OF

5

THE FIRST AMENDMENT CLAIM OR PLAINTIFFS' EQUAL -- EXCUSE ME --

6

OTHER FIRST AMENDMENT CLAIMS, FREE SPEECH AND FREEDOM OF

7

ASSOCIATION CLAIMS, AND PLAINTIFFS' DUE PROCESS PROTECTION

8

CLAIMS.

9
10

BUT MOREOVER, WE ARE CONFIDENT THAT OUR, OUR RULES SURVIVE
UNDER TRADITIONAL CONSTITUTIONAL ANALYSIS.

11

THE COURT:

LET ME ASK MR. DUNN, DO YOU AGREE THAT

12

THE RATIONAL BASIS REVIEW APPLIES TO YOUR EQUAL PROTECTION

13

CLAIMS?

14

MR. DUNN:

YES, WE DO, YOUR HONOR.

AS WE'VE LAID

15

OUT, WE THINK IT HAS TO BE AT THE HEIGHTENED RATIONAL BASIS, A

16

RATIONAL BASIS WITH A BITE.

17

THIS IS NOT THE TYPE OF CASE WHERE IT IS APPROPRIATE TO

18

APPLY THE SORT OF EVERYDAY CONCEIVABLE BASIS WHEN YOU'RE

19

DEALING WITH UNPRECEDENTED RESTRICTIONS FOR -- YOU KNOW, IT

20

LOOKS LIKE IT'LL BE GOING ON OVER A YEAR THAT HAVE REALLY

21

DESTROYED CALIFORNIA BUSINESSES, YOU KNOW, RAISED SUICIDE

22

RATES, ADDICTION RATES.

23

IT'S ONE OF THE THINGS THAT IS SORT OF STUNNING TO US FROM

24

THE DEFENDANTS' BRIEFS IS THEY REALLY HAVE MADE NO EFFORT TO

25

SHOW HOW ANY OF THE MASSIVE COSTS THAT HAVE BEEN INFLICTED ARE

UNITED STATES COURT REPORTERS

- App. 170 -

38

1

WORTH IT.

2

NO COLLATERAL DAMAGES.

3

IT'S ALL SORT OF FOCUSSED ON VIRUSES, THAT THERE WAS

BUT AS DR. BHATTACHARYA LAID OUT IN HIS REPLY DECLARATION

4

THAT THERE'S BEEN AN ENORMOUS AMOUNT OF COLLATERAL DAMAGE,

5

BEYOND JUST THE ECONOMIC DAMAGE, IN TERMS OF PUBLIC HEALTH.

6

HE EXPLAINED, THE EXCESS DEATHS FOR PEOPLE AGES 29 TO 45, IT'S

7

LIKE 26 PERCENT, AND A TEENY PERCENT OF THAT IS COVID RELATED.

8

SO THERE'S -- CLEARLY PEOPLE ARE DYING AS A RESULT OF

9

THINGS OTHER THAN COVID, AND MOST SIGNS POINT TO LOSS OF JOBS,

10

AS

ISOLATION, DEPRESSION AND THESE THINGS OF TYPES.

11

SO WHEN THE STATE IS ENACTING THAT TYPE OF REGIME, OUR

12

ARGUMENT IS, AT THE VERY MINIMUM, IT HAS TO BE A RATIONAL BASIS

13

WITH A BITE.

14

RECORD.

15

LET THE STATE CLOSE BUSINESSES FOR A YEAR.

IT CAN'T JUST BE ANY CONCEIVABLE BASIS AND, FINE, WE

THE COURT:

16
17

THERE HAS TO BE SOME ANALYSIS OF THE FACTUAL

DO ANY DEFENDANTS WANT TO RESPOND TO

THAT?

18

MR. BUSSEY:

19

THE COURT:

YES.
I'M ASSUMING YOU'RE GOING TO HAVE A

20

CAUSATION ARGUMENT, THAT A LOT OF THESE ARE GOING TO HAPPEN

21

ANYWAY, SOME OF THE SOCIAL DISTANCING WOULD HAPPEN ANYWAY EVEN

22

IF IT WASN'T MANDATED BY GOVERNMENT.

23
24
25

MR. BUSSEY:

SURE.

WHAT ELSE?

A FEW POINTS I WOULD MAKE.

FIRST IS THAT THEY ARGUED RATIONAL BASIS IN THEIR MOVING
PAPERS, AND I DIDN'T SEE AN APPEARANCE OF RATIONAL BASIS WITH A

UNITED STATES COURT REPORTERS

- App. 171 -

39

1

BITE UNTIL THEIR REPLY BRIEF, SO I THINK THERE'S AN ARGUMENT

2

THAT THAT HAS BEEN WAIVED.

THAT'S NUMBER ONE.

3

NUMBER TWO, THE CASE THAT THEY CITE FOR THE PROPOSITION

4

THAT A RATIONAL BASIS WITH A BITE SHOULD APPLY IS A NORTHERN

5

DISTRICT CASE, UNITED STATES V. WILDE, AND THAT CASE SAYS THE

6

STANDARD APPLIES WHEN A LAW OR REGULATION APPEARS TO HAVE BEEN

7

BASED ON ANIMUS OR A DESIRE TO HARM A POLITICALLY UNPOPULAR

8

GROUP.

9

AND AS I UNDERSTAND THEIR ALLEGATIONS HERE, THEY'RE

10

ALLEGING EXACTLY THE OPPOSITE OF THAT, THAT THIS IS A

11

SOCIETY-WIDE RESTRICTION THAT IS HURTING EVERYBODY.

12

BEEN TARGETED ONLY ON AN UNPOPULAR GROUP.

13

IT HASN'T

AND THEN AS TO THE LAST POINT, THE NOTION THAT MANY DEATHS

14

AND HARMS ARE ATTRIBUTABLE TO THIS, THE REALITY IS WE DON'T

15

KNOW WHY ALL OF THOSE DEATHS ARE OCCURRING.

16

WE DO KNOW THAT THERE'S A DISEASE THAT'S GOING THROUGH THE

17

COMMUNITY, AND WE KNOW THAT DISEASE IS CAUSING A LOT OF

18

SUFFERING.

19

THE DISEASE WE DON'T KNOW.

20
21
22

HOW MUCH OF THE EXCESS DEATHS CAN BE ATTRIBUTED TO

AND AGAIN, OUR ABILITY TO IDENTIFY SOMEBODY AS HAVING DIED
FROM COVID-19 AS OPPOSED TO SOMETHING ELSE IS LIMITED.
AND THEN ANOTHER POINT WE'RE SEEING RIGHT NOW IS THAT

23

HOSPITALS ARE COMPLETELY FULL AND THERE MAY BE SOME EFFECTS

24

THERE FOR PEOPLE WHO DON'T HAVE COVID WHO MAY HAVE MORE

25

DIFFICULTY GETTING THE TREATMENT THEY NEED BECAUSE OF COVID.

UNITED STATES COURT REPORTERS

- App. 172 -

40

1

COVID RATES ARE SURGING.

PEOPLE ARE BEING DRIVEN NOT TO

2

THE CLOSEST HOSPITAL RIGHT NOW, BUT THEY'RE BEING DRIVEN TO

3

HOSPITALS FARTHER AWAY BECAUSE THERE'S NO BEDS IN THE ONE NEAR

4

THEM.

5

SO THERE'S AT LEAST SOME PERCENTAGE OF THOSE EXCESS DEATHS

6

THAT, ALTHOUGH NOT DIRECTLY ATTRIBUTABLE TO COVID, ARE

7

INDIRECTLY ATTRIBUTABLE TO THE DISEASE RATHER THAN THE SHELTER

8

IN PLACE ORDERS THAT HAVE BEEN IMPOSED IN RESPONSE TO THE

9

DISEASE.

10

MS. HADDAD:

11

THE COURT:

LET ME ASK -- I'M SORRY.

MS. HADDAD:

THANK YOU, YOUR HONOR.

12
13

YOUR HONOR -GO AHEAD,

PLEASE.

14

I JUST WANTED TO BRIEFLY ADD TWO POINTS.

15

ONE, OUR EXPERTS HAVE DISCUSSED AT LENGTH WHY OUR

16

RESTRICTIONS ARE PROPORTIONAL TO THE HARMS CAUSED AND WHY THE

17

RESTRICTIONS THAT ARE IMPOSED ARE PROPORTIONAL TO -- AND THAT

18

THE INDIVIDUAL LIBERTIES THAT ARE RESTRICTED ARE -- AGAIN, THEY

19

ARE PROPORTIONAL TO THE RELEVANT HARMS.

20
21
22

AND I'VE PROVIDED THE PARAGRAPH NUMBERS FOR THAT, SO I
WOULD REQUEST THAT THE COURT, THAT THE COURT LOOK AT THAT.
ALSO, WHAT PLAINTIFFS WANT ARE NO RESTRICTIONS -- WELL,

23

ONLY RESTRICTIONS ON A VERY TARGETED PORTION OF THE POPULATION,

24

AND THAT SIMPLY -- WHILE IT WOULD BE WONDERFUL TO SAY THAT

25

ONLY -- THAT COVID ONLY AFFECTS OR ONLY DOES EGREGIOUS HARM TO

UNITED STATES COURT REPORTERS

- App. 173 -

41

1

THE ELDERLY AND THAT THE RESTRICTIONS THAT CAN BE IMPLEMENTED

2

CAN JUST TARGET LONG-TERM CARE FACILITIES, THAT WON'T STOP THE

3

SPREAD OF THIS VIRUS.

4

AND AS WE'VE SHOWN, AS OUR DECLARANTS HAVE SUBMITTED, WE

5

HAVE ALSO TARGETED LONG-TERM HEALTH CARE FACILITIES AND NURSING

6

HOMES.

7

BUT ALONE, AS OUR EXPERTS HAVE SAID, THAT WILL NOT STOP

8

THE SPREAD OF THE VIRUS AND THAT WILL NOT STOP THE ATTENDANT

9

DEATHS AND THE LONG-TERM HEALTH EFFECTS THAT THE VIRUS -- THAT

10

WE'RE JUST ONLY NOW LEARNING ABOUT.
THE COURT:

11

LET ME ASK MR. DUNN A FOLLOW-UP QUESTION

12

TO MS. HADDAD'S POINT, AND THAT IS THAT IT'S HARD TO TARGET

13

ONLY VULNERABLE POPULATIONS BECAUSE PEOPLE WHO ARE WORKING IN

14

FOOD SERVICE OR CUSTODIAL CAPACITY OR CAREGIVING CAPACITY AT A

15

NURSING HOME WILL PRESUMABLY NOT BE OLD ENOUGH THAT THEY NEED

16

TO BE LIVING IN THAT NURSING HOME, BUT WILL BE YOUNGER, MAYBE

17

MORE LIKELY A POPULATION TO BE ASYMPTOMATIC.

18

SO HOW CAN WE SEGREGATE RESTRICTIONS ON JUST THAT

19

POPULATION WHEN THEY'RE GOING TO COME INTO CONTACT -- OR THEY

20

DON'T HAVE THE PRIVILEGE OF LIVING IN A NURSING HOME, BUT ARE

21

ACTUALLY LIVING IN A HIGH DENSITY HOUSE WITH JUST A LOT OF, YOU

22

KNOW, YOUNGER RELATIVES, CHILDREN, GRANDCHILDREN, NIECES AND

23

NEPHEWS.

24

ACROSS GENERATIONS?

25

HOW DO WE DO THAT WHEN OUR WORLD IS VERY INTERTWINED

MR. DUNN:

I THINK DR. BHATIA'S DECLARATION IS WHERE

UNITED STATES COURT REPORTERS

- App. 174 -

42

1

I WOULD DIRECT YOU ON THIS ONE.

I MEAN, AS HE EXPLAINED, THERE

2

IS A MASSIVE DIFFERENCE IN OUTCOMES IN THE VARIOUS NURSING

3

HOMES THAT CAN REALLY ONLY BE EXPLAINED BY THE INTERVENTIONS

4

CHOSEN AND THE PRECAUTIONS TAKEN AT THOSE NURSING HOMES.
HE IDENTIFIED ONE IN SAN FRANCISCO AND THE CAL VET NURSING

5
6

HOME, WHO PRESUMABLY FACE NEARLY IDENTICAL RISKS TO OTHER

7

NURSING HOMES OPERATED BY THE STATE, AND NOTED THAT THE DEATHS

8

WERE ESSENTIALLY 0 AND 1 BECAUSE THEY HAD IMPLEMENTED FAR MORE

9

RIGOROUS TESTING PROTOCOLS FOR THOSE WHO WORK THERE, HYGIENE

10

PROTOCOLS, YOU KNOW, RESTRICTIONS ON VISITATIONS.
CERTAINLY IT'S NOT EASY, AND AS WE EXPLAINED, IT'S NOT --

11
12

IT'S NOT LIKE YOU CAN TOTALLY SEAL OFF THE VULNERABLE FROM THE

13

INVULNERABLE UNTIL, YOU KNOW, THERE'S BEEN SOME SORT OF

14

RESISTANCE BUILT UP IN THE COMMUNITY.
BUT CERTAINLY IT CAN BE TARGETED FAR MORE THAN IT HAS

15
16

BEEN.

17

SORT OF MOVING IN THAT DIRECTION AND DOING WHAT THEY CAN.

18

WE WILL TAKE THE DEFENDANTS AT THEIR WORD THAT THEY'RE

AND IN TERMS OF AN OVERARCHING STRATEGY, WHAT WE TAKE FROM

19

THE DEFENDANTS' DECLARATIONS IS ESSENTIALLY, YOU KNOW, IT'S

20

IMPOSSIBLE TO DO THAT, AND SO THE ONLY WAY TO HELP THESE PEOPLE

21

IS TO SLOW DOWN THE SPREAD OF THE VIRUS ACROSS THE ENTIRE

22

POPULATION, SO WE HAVE TO RESTRICT EVERYBODY, EVEN THE YOUNG,

23

EVEN THE VERY YOUNG -- YOU KNOW, SCHOOLS ARE STILL CLOSED BY

24

AND LARGE AROUND CALIFORNIA EVEN THOUGH THEY'RE NOT AT RISK AT

25

ALL -- AND THAT'S THE ONLY WAY TO PROTECT THE ELDERLY.

UNITED STATES COURT REPORTERS

- App. 175 -

43

AND FROM WHAT WE HAVE PRESENTED, THAT'S NOT ACTUALLY THE

1
2

CASE.

3

FOR PEOPLE WHO LIVE IN NURSING HOMES AND FOR FOLKS WHO HAVE

4

ASSISTED LIVING.

5

FOLKS WHO GET SOME SORT OF IN-HOME CARE.

6

SO OUR VIEW IS THERE'S FAR MORE THAT CAN BE DONE, BOTH

I THINK THAT'S A MUCH LARGER POPULATION EVEN,

AND THEN AS YOU MENTIONED, THERE ARE MULTIGENERATIONAL

7

FAMILIES, AND WHAT WE PRESENTED IS THERE'S OPPORTUNITIES TO

8

PROVIDE ESSENTIALLY ISOLATION HOUSING, YOU KNOW, SEPARATE FROM

9

THAT FOR THOSE FOLKS.

10

YOU KNOW, WE'RE NOT A TOTALITARIAN SYSTEM, SO WE'RE NOT A

11

PLACE THAT'S GOING TO FORCE PEOPLE TO QUARANTINE OUTSIDE THEIR

12

HOME, BUT CERTAINLY MAKING THAT AVAILABLE, AS EVEN CHICAGO

13

HAS -- JAPAN HAS DONE THIS, AND OTHER PLACES -- AND THAT WOULD

14

DRASTICALLY REDUCE THE DEATHS WHICH ARE, AS WE'VE EXPLAINED,

15

REALLY CLUSTERED IN THE ELDERLY AND SORT OF VULNERABLE

16

POPULATIONS RATHER THAN SPREAD OUT COMMUNITY WIDE.

17

THE COURT:

BUT YOU WOULD CONCEDE THAT EVEN FOR THE

18

LESS VULNERABLE POPULATIONS, THEY DO SOMETIMES SUFFER SERIOUS

19

EFFECTS FOLLOWING A CORONAVIRUS INFECTION?

20

MR. DUNN:

I MEAN, THERE'S NO SUCH THING AS A PERSON

21

WHO'S COMPLETELY INVULNERABLE EX-ANTE.

22

WILL AND WHO WON'T GET SICK.

23

YOU CAN'T PREDICT WHO

BUT THE STATISTICS ARE PRETTY CLEAR THAT THE YOUNG ARE FAR

24

LESS AT RISK OF COVID THAN THEY ARE FOR INFLUENZA.

25

HAVE DIED OF THE FLU THIS YEAR THAN OF COVID-19.

UNITED STATES COURT REPORTERS

- App. 176 -

MORE KIDS

44

1

SO, YOU KNOW, LIKE I SAID, THERE'S NO WAY TO SAY A YOUNG

2

PERSON IS ABSOLUTELY INVULNERABLE TO IT, BUT STATISTICALLY

3

SPEAKING, THEY'RE NOT AT RISK.
THE COURT:

4

LET ME ASK, HOW DO YOU ALL WANT TO

5

PROCEED?

6

MR. DUNN?

7

MANAGEMENT WITH THIS CASE OF GOING THROUGH DISCOVERY AND

8

SUMMARY JUDGMENT AND SETTING A TRIAL?

9

REQUEST A STAY SO YOU CAN TAKE THIS UP ON APPEAL?

10
11
12
13

I'M ASSUMING THAT YOU WANT TO APPEAL.

IS THAT RIGHT,

SO DO WE NEED TO CONTINUE WITH, LIKE, NORMAL CASE

OR ARE YOU ALL GOING TO

WHAT'S YOUR THINKING, ON BOTH SIDES, ABOUT HOW THIS CASE
SHOULD PROCEED?
MR. DUNN:

WELL, IT DEPENDS ON WHAT YOUR HONOR DOES

IN THIS RULING.

14

BUT, I MEAN, I THINK FROM OUR PERSPECTIVE, WE WOULD

15

CERTAINLY APPEAL THE DENIAL OF ANY P.I., OR A PARTIAL DENIAL

16

WE'D HAVE TO EVALUATE.

17

THE COURT:

18

MR. DUNN:

UM-HUM.
BUT, I MEAN, WE THINK IT COULD BE

19

EXTREMELY VALUABLE TO HAVE AN EVIDENTIARY HEARING WITH THE

20

EXPERTS PRESENT.

21

LIGHT ON A SUMMARY JUDGMENT RULING.

22

I THINK THAT'S SOMETHING THAT COULD SHED

I MEAN, IF WE THOUGHT THE BLUEPRINT WAS GOING TO GO AWAY

23

IN A COUPLE MONTHS, THAT MIGHT NOT BE NECESSARY.

24

POINT IT LOOKS LIKE THE STATE COULD MAINTAIN THESE TYPES OF

25

RESTRICTIONS, YOU KNOW, GOING FORWARD, AND WE'VE ALREADY HAD

UNITED STATES COURT REPORTERS

- App. 177 -

BUT AT THIS

45

1

ONE OF OUR CLIENTS LOSE THEIR BUSINESS, AND OTHERS MAY LOSE

2

THEM SOON.
SO I THINK, YOU KNOW, WE'RE GOING TO KEEP PRESSING.

3

MS. HADDAD:

4

YOUR HONOR, I WOULD -- I JUST WANT TO

5

RESPOND TO ONE POINT THAT MR. DUNN MADE IN ANSWER TO YOUR

6

PREVIOUS QUESTION.
REGARDING TARGETED RESTRICTIONS OF NURSING HOMES AND

7
8

LONG-TERM CARE FACILITIES, AS DR. KURTZ DESCRIBES IN HER

9

DECLARATION, THOSE MEASURES WERE IMPLEMENTED, BEGAN BEING

10

IMPLEMENTED IN THE STATE -- BY THE STATE IN JANUARY OF 2020

11

WHEN WE FIRST LEARNED OF THE THREAT.
BUT ALSO, DR. RUTHERFORD, DR. STOTO, AND DR. WATT HAVE ALL

12
13

SAID THAT THE RISK OF COVID-19 IS NOT JUST FOR THOSE WHO LIVE

14

IN LONG-TERM CARE FACILITIES AS YOU NOTED, AND THAT ONLY, ONLY

15

IMPLEMENTING TARGETED RESTRICTIONS IS IMPOSSIBLE.

16

STOP THE SPREAD OF THE VIRUS AND IT WOULD NOT STOP THE DEATHS

17

AND THE HOSPITALIZATIONS THAT THE STATE WANTS TO AVOID.

IT WOULD NOT

REGARDING WHAT -- REGARDING CASE MANAGEMENT, IF YOUR HONOR

18
19

ISSUES AGAINST THE STATE, I THINK WE WOULD CERTAINLY APPEAL,

20

AND WE WOULD HAVE TO EVALUATE WHETHER, WHETHER OR NOT TO SEEK A

21

STAY.

22
23
24
25

THE COURT:

OKAY.

ALL RIGHT.

DOES THE COUNTY WANT TO BE HEARD ON THIS POINT ABOUT HOW
THIS CASE SHOULD PROCEED?
MR. BUSSEY:

YEAH.

I WOULD SAY THAT WE AGREE WITH

UNITED STATES COURT REPORTERS

- App. 178 -

46

1

THE STATE AND ADD ONE OTHER POINT, WHICH IS THAT IF THE COURT

2

IS INCLINED TO ISSUE ANY TYPE OF INJUNCTION, PARTICULARLY IF IT

3

WOULD BE ONE THAT COULD IMPACT THE CURRENT ORDERS AS OPPOSED TO

4

THE ONES THAT WERE IN PLACE IN OCTOBER, WE WOULD -- WE WOULD

5

ASK THAT IT NOT GO INTO EFFECT IMMEDIATELY SO THAT WE COULD

6

HAVE TIME TO MAKE ANY CHANGES THAT WE NEED TO THE ORDERS TO

7

SURVIVE WHATEVER TEST THE COURT LAYS OUT IN ITS ORDER.

8
9

IF, FOR EXAMPLE, WE END UP IN A SITUATION WHERE THE COURT
DETERMINES THAT GATHERINGS CAN'T BE RESTRICTED AT A CERTAIN

10

LEVEL UNLESS SOMETHING OTHER THAN GATHERINGS IS EQUALLY

11

RESTRICTED, THE COUNTY MIGHT RESPOND TO THAT, OR LIKELY WOULD

12

RESPOND TO THAT BY RATCHETING UP THE RESTRICTIONS ON THOSE

13

OTHER THINGS RATHER THAN RATCHETING DOWN THE RESTRICTIONS ON

14

GATHERINGS BECAUSE WE REALLY ARE NOT IN A SITUATION WHERE WE

15

CAN AFFORD TO HAVE PEOPLE CONGREGATING RIGHT NOW.

16
17

THE COURT:

ALL RIGHT.

WELL, THIS IS WHAT I'D LIKE TO DO:

WELL, FIRST OF ALL,

18

I'M GOING TO THANK YOU FOR YOUR PATIENCE.

19

ABOUT AN HOUR AND TEN MINUTES.

20

BREAK AND THEN JUST COME BACK AND I THINK IT'LL ONLY BE A FEW

21

MINUTES HOPEFULLY WHEN WE COME BACK.

22
23
24
25

I'D LIKE TO TAKE JUST A BRIEF

ALL RIGHT?

SO LET'S JUST TAKE A BRIEF BREAK NOW.
THE CLERK:

WE'VE BEEN GOING

THANK YOU.

THANK YOU SO MUCH.

WE'RE IN RECESS.

(RECESS FROM 3:44 P.M. UNTIL 3:52 P.M.)
THE COURT:

ALL RIGHT.

WELCOME BACK.

UNITED STATES COURT REPORTERS

- App. 179 -

47

I JUST HAVE ONE LAST QUESTION, AND THAT IS FOR MR. DUNN.

1
2

I WOULD LIKE YOU TO RESPOND TO MR. BUSSEY -IS IT BUSSEY OR BUSSEY?

3
4

MR. BUSSEY:

5

THE COURT:

BUSSEY?

BUSSEY, YOUR HONOR.
OKAY.

-- TO MR. BUSSEY'S POINT THAT IF YOU MAKE AN EXCEPTION FOR

6
7

IN-HOME WORSHIP GATHERINGS, THAT DURING THIS HOLIDAY SEASON,

8

BASICALLY THAT CAN ENCOMPASS EVERY SINGLE IN-HOME GATHERING

9

BECAUSE THERE MAY BE SOME RELIGIOUS ASPECT TO EVERY GATHERING

10

THAT WE'RE ANTICIPATING HAVING OVER THE NEXT COUPLE WEEKS.
WHAT'S YOUR RESPONSE TO THAT?

11

MR. DUNN:

12

I DON'T THINK THERE'S ANY REASON THAT THAT

13

WOULD NEED TO BE THE CASE.

I MEAN, OUR VIEW IS THAT WE'RE

14

TALKING ABOUT GATHERINGS WHERE THE PRIMARY PURPOSE OF THE

15

GATHERING IS RELIGIOUS.
SO WE RECOGNIZE, YOU KNOW, YOU COULD TRY TO SNEAK YOUR WAY

16
17

THROUGH THAT -- AND PEOPLE ARE PRESUMABLY TRYING ALL SORTS OF

18

WAYS TO GET AROUND THE GATHERING BANS NOW -- BUT OUR VIEW IS

19

THAT THE EXCEPTION THAT WE'RE LOOKING FOR, THE INJUNCTION THAT

20

WE'RE LOOKING FOR WOULD APPLY TO THE GATHERINGS WHERE THE

21

PRIMARY PURPOSE IS RELIGIOUS, AND SPECIFICALLY I THINK

22

GATHERINGS WHERE THERE HAS BEEN A HISTORY OF HAVING THOSE TYPES

23

OF GATHERINGS.

24

IT.

25

THOSE WOULD BE THE MOST OBVIOUS CANDIDATES FOR

JUST GATHERING FOR THE SUPER BOWL AND PRAYING FOR THE

UNITED STATES COURT REPORTERS

- App. 180 -

48

1

49ERS DOES NOT CONVERT THAT TO A RELIGIOUS GATHERING.

YOU

2

KNOW, MAYBE MORE PEOPLE SHOULD HAVE DONE THAT LAST YEAR.

3

SO THAT'S OUR VIEW.

4

IN TERMS OF HOW THAT'S ENFORCED ON THE GROUND, I THINK THE

5

COUNTY HAS TO DEAL WITH THIS ALL THE TIME WHERE IT'S HAVING TO

6

DEAL WITH FOLKS WHO ARE CLAIMING THAT IT'S A PROTEST WHEN

7

REALLY IT'S A BLOCK PARTY, OR TRYING TO FIGURE OUT WAYS TO GET

8

AROUND IT.

9

BUT IN TERMS OF ENFORCEMENT, THAT'S A SEPARATE ISSUE.

10

WHAT WE'RE LOOKING FOR IS BASICALLY A CLEAR RULING THAT IF YOUR

11

GATHERING'S PRIMARY PURPOSE -- IF YOU HAVE A HOUSE CHURCH, YOU

12

HAVE A LONG-STANDING BIBLE STUDY -- THAT THAT TYPE OF FREE

13

EXERCISE IS ALLOWED.

14

THE COURT:

ALL RIGHT.

WELL, I'M GOING TO THANK ALL

15

OF YOU FOR YOUR PATIENCE AND YOUR FLEXIBILITY IN HAVING THIS

16

HEARING START AT A LATER TIME, AND THANK YOU ALL VERY MUCH.

17

OKAY.

TAKE CARE.

18

MR. DUNN:

19

MR. BUSSEY:

THANK YOU, YOUR HONOR.

20

MS. HADDAD:

THANK YOU, YOUR HONOR.

21

THE CLERK:

22

THANK YOU, YOUR HONOR.

COURT IS ADJOURNED.

(THE PROCEEDINGS WERE CONCLUDED AT 3:54 P.M.)

23
24
25

UNITED STATES COURT REPORTERS

- App. 181 -

1
2
3

CERTIFICATE OF REPORTER

4
5
6
7

I, THE UNDERSIGNED OFFICIAL COURT REPORTER OF THE UNITED

8

STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF CALIFORNIA,

9

280 SOUTH FIRST STREET, SAN JOSE, CALIFORNIA, DO HEREBY

10
11

CERTIFY:
THAT THE FOREGOING TRANSCRIPT, CERTIFICATE INCLUSIVE, IS

12

A CORRECT TRANSCRIPT FROM THE RECORD OF ZOOM PROCEEDINGS IN THE

13

ABOVE-ENTITLED MATTER.

14
15
16
17

_______________________________
LEE-ANNE SHORTRIDGE, CSR, CRR
CERTIFICATE NUMBER 9595

18

DATED:

JANUARY 15, 2021

19
20
21
22
23
24
25

UNITED STATES COURT REPORTERS

- App. 182 -

Blueprint for a Safer Economy
Activity and Business Tiers
March 11, 2021
SECTORS

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

Critical Infrastructure

Open with modifications

Open with modifications

Open with modifications

Open with modifications

Gatherings (current
posted performance
limits)

Outdoor gatherings only
with modifications
x Max 3 households

Limited Services

Open with modifications

Indoor gatherings strongly
discouraged, allowed with
modifications
x Max 3 households
Open with modifications

Indoor gatherings strongly
discouraged, allowed with
modifications
x Max 3 households
Open with modifications

Indoor gatherings strongly
discouraged, allowed with
modifications
x Max 3 households
Open with modifications

Outdoor Playgrounds &
Outdoor Recreational
Facilities
Hair Salons &
Barbershops

Open with modifications

Open with modifications

Open with modifications

Open with modifications

Open indoors with
modifications

Open indoors with
modifications

Open indoors with
modifications

Open indoors with
modifications

All Retail
(including critical
infrastructure, except
standalone grocers)

Open indoors with
modifications
x Max 25% capacity

Open indoors with
modifications
x Max 50% capacity

Open indoors with
modifications

Open indoors with
modifications

1

- App. 183 -

SECTORS

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

Open indoors with
modifications
x Max 50% capacity
x Closed common areas
x Reduced capacity food
courts (see restaurants)
Open indoors with
modifications
Open indoors with
modifications
x Indoor activities max
25% capacity
Open indoors with
modifications
x Max 25% capacity

Open indoors with
modifications
x Closed common areas
x Reduced capacity food
courts (see restaurants)

Open indoors with
modifications
x Reduced capacity food
courts (see restaurants)

Open indoors with
modifications
Open indoors with
modifications
x Indoor activities max
50% capacity
Open indoors with
modifications
x Max 50% capacity

Open indoors with
modifications
Open indoors with
modifications

Open indoors with
modifications
x Max 25% capacity or
100 people, whichever
is fewer

Open indoors with
modifications
x Max 50% capacity or
200 people, whichever
is fewer

Open indoors with
modifications
x Max 50% capacity

Shopping Centers (Malls, Open indoors with
modifications
Destination Centers,
Swap Meets)
x Max 25% capacity
x Closed common areas
x Closed food courts
Personal Care Services
Museums, Zoos, and
Aquariums

Places of Worship

Movie Theaters

Open indoors with
modifications
Outdoor only with
modifications

x
x

Outdoor encouraged
Indoor strongly
discouraged, allowed
with modifications
x Max 25% capacity
Outdoor only with
modifications

Open indoors with
modifications
x Max 50% capacity

2

- App. 184 -

SECTORS

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

Open with modifications
x +Fitness centers (+10%)

Open with modifications
x +Fitness centers (+25%)
x +Indoor pools

Open with modifications
x +Fitness Centers (50%)
x +Spa facilities etc.

Gyms and Fitness Centers Outdoor only with
modifications

Open indoors with
modifications
x Max 10% capacity
x +Climbing walls

Open indoors with
modifications
x Max 25% capacity
x +Indoor pools

Restaurants

Outdoor only with
modifications

Open indoors with
modifications
x Max 25% capacity or
100 people, whichever
is fewer

Open indoors with
modifications
x Max 50% capacity or
200 people, whichever
is fewer

Open indoors with
modifications
x Max 50% capacity
x +Saunas
x +Steam rooms
Open indoors with
modifications
x Max 50% capacity

Wineries, Breweries and
Distilleries***

Effective March 13, 2021:
Outdoor only with
modifications
x Reservations
x 90-minute time limit
x Seating/tables only
x Limited hours (service for
on-site consumption
closed by 8 pm)

Effective March 13, 2021:
Outdoor only with
modifications
x Reservations
x 90-minute time limit
x Seating/tables only
x Limited hours (service
for on-site consumption
closed by 8 pm)

Effective March 13, 2021:
Open indoors with
modifications
x Max 25% capacity
indoors, or 100 people,
whichever is fewer

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Hotels and Lodging

Open with modifications

Effective March 13, 2021:
Open indoors with
modifications
x Max 50% capacity or 200
people indoors, whichever
is fewer

3

- App. 185 -

SECTORS

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

Bars (where no
meal provided;
follow restaurant
guidance where
meal is provided)

Closed

Closed

Open outdoors
with modifications

Family Entertainment
Centers

Outdoor only with
modifications e.g.
x Kart Racing
x Mini Golf
x Batting Cages

Outdoor only with
modifications e.g.
x Kart Racing
x Mini Golf
x Batting Cages

Open indoors for naturally
distanced activities with
modifications
x Max 25% capacity
x Bowling Alleys

Open indoors for activities
with increased risk of
proximity and mixing with
modifications
x Max 50% capacity
x Arcade Games
x Ice and roller skating
x Indoor playgrounds

Cardrooms, Satellite
Wagering

Outdoor only with
modifications

Outdoor only with
modifications

Open indoors with
modifications
x Max 25% capacity

Open indoors with
modifications
x Max 50% capacity

Offices

Remote

Remote

Open indoors with
modifications
x Encourage telework

Open indoors with
modifications
x Encourage telework

Effective March 13, 2021:
Open indoors with
modifications
x Max 25% capacity indoors,
or 100 people, whichever
is fewer

4

- App. 186 -

SECTORS

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Outdoor Live Events with
Assigned Seats and
Controlled Mixing (e.g.,
sports and live
performances)*
Indoor guidance
forthcoming

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

Current:
Open with modifications,
no live audiences
Effective April 1, 2021:
x 100 people or fewer
x Regional visitors (120
miles)
x Advanced reservations
only
x No concessions or
concourse sales

Current:
Open with modifications,
no live audiences

Current:
x Open with
modifications
x Permanent venues with
Effective April 1, 2021:
live audiences outdoors
x Max 20%, includes
only
suites with 25%
x Capacity must be
occupancy per suite and
limited to 20%
suites no more than 3
x Reservations required
households
x Assigned seating only
x Weekly worker testing
x In-seat concessions only
program
(no concourse sales)
x In-state visitors only,
x Regional attendees
check for current
only (within 120 miles)
CDPH Travel Advisory
in effect
Effective April 1, 2021:
x Advanced
x Max 33%, includes
reservations only
suites with 25%
x Primarily in-seat
occupancy per suite
concessions (no
x Weekly worker testing
concourse sales)
program
x In-state visitors only,
check for current
CDPH Travel Advisory

in effect

- App. 187 -

Current:
x Open with
modifications
x Permanent venues with
live audiences outdoors
only
x Capacity must be
limited to 25%
x Reservations required
x Assigned seating only
x In-seat concessions only
(no concourse sales)
x Regional attendees
only (within 120 miles)
Effective April 1, 2021:
x Max 67%, includes
suites with 25%
occupancy per suite
x In-state visitors only,
check for current CDPH
Travel Advisory in effect
x Primarily in-seat
concessions (no
concourse sales)
5

SECTORS

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

x

Amusement Parks**

Current:
Closed
Effective April 1, 2021:
Closed

Primarily in-seat
concessions (no
concourse sales)
x Max 67% if all guests
are tested or show
proof of full vaccination
Current:
Current:
Closed
x Smaller parks can open
with modifications
Effective April 1, 2021:
x Capacity must be limited
x Max 15%
to 25% or 500 people,
x Small Groups - Max 10
whichever is less
people or 3 household
x Outdoor attractions only
groups with no
can open
intergroup mixing
x Reservations or
x Indoor capacity max 15%
advanced ticket sales
with time restrictions
required
x No indoor dining
x Local attendees only
x Weekly worker testing
(from the same county
program
as the park’s location)
x In-state visitors only,
check for current CDPH Effective April 1, 2021:
Travel Advisory in effect x Max 25%
x Online ticket purchases x Indoor capacity max 25%
only
with time restrictions

Current:
x Larger parks can open
with modifications
x Park capacity must be
limited to 25%
x Reservations or advanced
ticket sales required
Effective April 1, 2021:
x Max 35%
x Indoor capacity max 25%
with time restrictions
x Weekly worker testing
program
x With other modifications
x In-state visitors only,
check for current CDPH
Travel Advisory in effect
6

- App. 188 -

SECTORS

Post 2 million doses
administered in first Healthy
Places Index quartile
Post 4 million doses
administered in first Healthy
Places Index quartile

Tier 1
Widespread
(Case Rate >7 and Test
Positivity >8%)
CR >10

Tier 2
Substantial
(Case Rate 4-7 and Test
Positivity 5-8%)
CR 4-10

Tier 3
Moderate
(Case Rate 1-3.9 and Test
Positivity 2-4.9%)
CR 1-3.9

Tier 4
Minimal
(Case Rate <1 and Test
Positivity <2%)
CR <1

CR >10

CR 6-10

CR 2-5.9

CR <2

x

Overnight Sleepaway
Camps****

Closed

Effective June 1, 2021:
Open with modifications

Weekly worker testing
program
x With other modifications
x In-state visitors only,
check for current CDPH
Travel Advisory in effect
Effective June 1, 2021:
Effective June 1, 2021:
Open with modifications
Open with modifications

Updated on March 11, 2021:
***Effective March 13, 2021.
****Regardless of trigger being met, these activities (overnight sleepaway camps) cannot begin any sooner than June 1, 2021.
Updated on March 5, 2021:
*Regardless of trigger being met, these activities (outdoor live events) cannot begin any sooner than April 1, 2021.
**Regardless of trigger being met, these activities (amusement parks) cannot begin any sooner than April 1, 2021.

7

- App. 189 -

State of California—Health and Human
Services Agency
Sandra Shewry
Acting Director
Erica S. Pan, MD, MPH
Acting State Health O icer

California Department of
Public Health

GAVIN NEWSOM
Governor

November 13, 2020
TO:

All Californians

SUBJECT:

CDPH Guidance for the Prevention of COVID-19 Transmission for Gatherings

Summary
This guidance provides an updated plan for Californians to gather outside their household and replaces the March
16, 2020, October 9, 2020 and other prior gatherings guidance. It applies to private gatherings, and all other
gatherings not covered by existing sector guidance are prohibited. It also applies to activities protected by the First
Amendment to the extent that they are not already permitted by other guidance, notwithstanding any guidance,
orders, or directives to the contrary. Gatherings are defined as social situations that bring together people from
di erent households at the same time in a single space or place. When people from di erent households mix, this
increases the risk of transmission of COVID-19.

Context
COVID-19 continues to pose a severe risk to communities and requires all people in California to follow necessary
precautions and to adapt the way they live and function in light of this ongoing risk. The safest way to gather is to
spend time with people in the same household, gather virtually, or gather outdoors.
The season of cold weather has now arrived in many parts of the state, and rainy season is imminent, making it
more di icult to gather outdoors. Because of this, many people in California may feel the need to gather indoors
instead. Indoor gatherings remain risky activities, and it would always be safer to gather outdoors or virtually
whenever possible. But this guidance explains some important and necessary steps to make indoor gatherings
less risky if they do occur.
In general, the more people from di erent households a person interacts with at a gathering, the closer the
physical interaction is, and the longer the interaction lasts, the higher the risk that a person with a COVID-19
infection, symptomatic or asymptomatic, may spread it to others. Public health studies have also shown that the
risk of transmission is increased in indoor spaces, particularly when there isn’t appropriate ventilation. [1] Unlike
indoor spaces, wind and air in outdoor spaces can help reduce spread of the virus from one person to another.

- App. 190 -

Planning scenarios published by the CDC estimate that, on average, a person with COVID-19 goes on to infect
between 2-4 people, with a best estimate of 2.5 when there are no preventive measures.[2] For example, if each
infected person spreads the virus to two people, who in turn spread it to two others each; those four will spread
the virus to eight others; those eight will spread the virus to 16; and so on. As a result, a er 10 transmission cycles,
one person could be responsible for 1,024 other people contracting the virus.[3] Additionally, there is broad
agreement that people who are not experiencing symptoms can still spread COVID-19[4].The fact that COVID-19
can be spread by people who don’t have symptoms or aren’t showing symptoms yet is one of the aspects of the
COVID-19 that makes it di icult to control.
All gatherings pose a higher risk of transmission and spread of COVID-19 when people mix from di erent
households and communities. The likelihood of transmission and spread increases with laughing, singing, loud
talking and di iculty maintaining physical distance. Limiting attendance at gatherings is a way to reduce the risk of
spread as it lowers the number of di erent people who are interacting. Additionally, by limiting attendance there
is an improved ability to perform e ective contact tracing if there is a positive case discovered, which can help to
slow the spread of COVID-19[5]. People who do choose to attend gatherings should discuss and agree upon the
specific group rules before convening together.
Like other types of activities, activities protected by the First Amendment pose risks of COVID-19 transmission.
People who wish to engage in political, artistic, or other forms of expression or in religious expression and practice
are strongly encouraged to find means of expression that do not involve in-person gatherings or to wait to gather
in person until those activities are permitted by the Blueprint for a Safer Economy. However, because this
guidance o ers safer ways to operate in the colder climate, with higher likelihood of rain, associated with the time
of year we now enter, the safeguards in this guidance apply as well to activities protected by the First Amendment
and those activities are not prohibited if conducted in accordance with this guidance.

Recommendations & Mandatory Requirements for All Gatherings
All persons planning to host or participate in a private gathering, as defined above, must comply with the
requirements identified below and are strongly encouraged to follow the recommendations as well. Activities
protected by the First Amendment may proceed under this guidance notwithstanding any guidance, orders, or
directives to the contrary. Local health jurisdictions may be more restrictive than this guidance. Refer to your local
guidance for what is allowed in your area.

1. Attendance
a. Gatherings that include more than 3 households are prohibited. This includes everyone present, including
hosts and guests. Remember, the smaller the number of people, the safer.
b. Keep the households that you interact with stable over time. By spending time with the same people, risk
of transmission is reduced. Participating in multiple gatherings with di erent households or groups is strongly
discouraged.
c. The host should collect names of all attendees and contact information in case contact tracing is needed
later.

2. Location: Gatherings Must be Outdoors for Counties in the Purple Tier
a. Gatherings that occur outdoors are significantly safer than indoor gatherings. All gatherings must be held
outside in the Purple Tier, and indoor gatherings are strongly discouraged in Red, Orange and Yellow Tiers.

- App. 191 -

i. If gathering indoors, increase fresh air circulation by opening windows or doors, as much as
possible, especially in the rooms where people are gathering.
b. A gathering of no more than three households is permitted in a public park or other outdoor space, even if
unrelated gatherings of other groups up to three households are also occurring in the same park or other outdoor
space. If multiple such gatherings are occurring, mixing between groups gatherings is not allowed. Additionally,
multiple gatherings of three households cannot be jointly organized or coordinated to occur in the same public
park or other outdoor space at the same time – this would constitute a gathering exceeding the permitted
household limits.

3. Don’t Attend Gatherings If You Feel Sick
a. Anyone with any COVID-19-like symptoms (fever, cough, shortness of breath, chills, night sweats, sore
throat, nausea, vomiting, diarrhea, tiredness, muscle or body aches, headaches, confusion, or loss of sense of
taste/smell), must stay home and not come into contact with anyone outside their household.
b. Anyone who develops COVID-19 within 48 hours a er attending a gathering should notify the organizer of
the gathering and/or other attendees as soon as possible regarding the potential exposure.

4. Individuals in a High-Risk Group are Discouraged from Attending any Gatherings
a. People at higher risk of severe illness or death from COVID-19 (such as older adults and people with
chronic medical conditions) are strongly urged not to attend any gatherings, especially indoor gatherings.
b. If higher-risk individuals do attend any gatherings, they should do the following to decrease the risk for
exposure:
i. Spend as much time outside, or near outside air flow such as open windows or doors, as possible.
ii. Wear a respirator or surgical mask instead of a cloth mask, and minimize any time at the event with
the mask o .
iii. Remain at least six feet, or ideally even farther away, from others outside their household as much
as possible, especially when people are eating or drinking without face coverings.
iv. Spend a shorter time at the gathering than others to reduce potential exposure.

5. Practice Physical Distancing and Hand Hygiene at Gatherings
a. For any gatherings permitted under this guidance, the space must be large enough so that everyone at a
gathering can maintain at least a 6-foot physical distance from others (not including their own household) at all
times.
b. Seating must provide at least 6 feet of distance (in all directions—front-to-back and side-to-side) between
di erent households.
c. Everyone at a gathering should frequently wash their hands with soap and water, or use hand sanitizer if
soap and water are not available.

- App. 192 -

d. Shared items should be minimized during a gathering. Food and beverages should be served by a person
who washes or sanitizes their hands frequently, and who must wear a face covering. Self-serve items from
communal containers should be minimized.
e. Remind all persons to sanitize hands before eating or drinking, and a er touching shared items if shared
items are unavoidable.

6. Wear a Face Covering to Keep COVID-19 from Spreading
a. When gathering, face coverings must be worn in accordance with the CDPH Guidance on the Use of Face
Coverings, unless an exemption is applicable.
b. People at gatherings are advised to limit removal of their face coverings to when they are actively eating or
drinking. While face coverings are removed for this purpose, they should stay at least 6 feet away from everyone
outside their own household, and put their face covering back on as soon as they are done with the activity.
c. Face coverings can also be removed to meet urgent medical needs (for example, to use an asthma inhaler,
take medication, or if feeling light-headed).

7. Keep it short
a. Gatherings should be two hours or less. The longer the duration, the risk of transmission increases.

8. Singing, Chanting, Shouting, Cheering and Similar Activities Are Strongly Discouraged
at Outdoor Gatherings and Prohibited at Indoor Gatherings
a. Singing, chanting, shouting, cheering, physical exertion, and similar activities significantly increase the
risk of COVID-19 transmission because these activities increase the release of respiratory droplets and fine
aerosols into the air. Because of this, singing, chanting, shouting, cheering, and similar activities are strongly
discouraged in outdoor settings, but if they occur, the following rules and recommendations apply:
i. All people who are singing, chanting, shouting, cheering, or engaging in similar activities should
wear a face covering at all times while engaging in those activities, including anyone who is leading a song, chant,
or cheer. Because these activities pose a very high risk of COVID-19 transmission, face coverings are essential to
reduce the spread of respiratory droplets and fine aerosols;
ii. People who are singing, shouting, chanting, cheering, or exercising are strongly encouraged to
maintain physical distancing beyond 6 feet to further reduce risk.
iii. People who are singing or chanting are strongly encouraged to do so quietly (at or below the
volume of a normal speaking voice).
b. Instrumental music is allowed outdoors as long as the musicians maintain at least 6-foot physical
distancing. Musicians must be from one of the three households. Playing of wind instruments (any instrument
played by the mouth, such as a trumpet or clarinet) is strongly discouraged, and if played should use protective or
tightly woven cloth barriers on the instrument bells or at the end of the instrument to protect from spread of

- App. 193 -

condensation droplets. If music is played, it is recommended that the volume be quiet enough that attendees can
speak in a normal voice without shouting.
c. Singing, chanting, shouting, cheering, playing of wind instruments and similar activities are not permitted in
indoor gatherings.

[1] See, e.g., Hiroshi Nishiura, et al., Closed environments facilitate secondary transmission of coronavirus disease
2019 (COVID-19); Hu Qian, et al., “Indoor transmission of SARS-CoV-2” [pre-print] published in medRxiv on April 4,
2020.
[2] See Planning Scenarios.
[3] See, e.g., Report 3: Natsuko Imai et al, WHO Collaborating Centre for Infectious Disease Modelling, MRC Centre
for Global Infectious Disease Analysis, J-IDEA, “Imperial college London, UK. Transmissibility of 2019 -n-CoV).” See
also Inglesby T B JAMA Public Health Measures and the Reproduction Number of SARS-CoV-2. JAMA
Network.2020.7878 (May 1, 2020).
[4] Transmission of SARS-CoV-2: implications for infection prevention precautions.
[5] See Preventing the Spread of the Coronavirus

California Department of Public Health
PO Box, 997377, MS 0500, Sacramento, CA 95899-7377
Department Website (cdph.ca.gov)

- App. 194 -

1
2
3
4
5
6
7
8
9
10
11
12
13

ROBERT DUNN (SBN: 275600)
JOHN D. TRIPOLI (SBN: 262542)
EIMER STAHL LLP
99 South Almaden Boulevard, Suite 662
San Jose, CA 95113
(669) 231-8755
rdunn@eimerstahl.com
jtripoli@eimerstahl.com
RYAN J. WALSH (pro hac vice pending)
JOHN K. ADAMS (pro hac vice pending)
AMY C. MILLER (pro hac vice pending)
EIMER STAHL LLP
10 East Doty Street, Suite 800
Madison, WI 53703
(608) 441-5798
rwalsh@eimerstahl.com
jadams@eimerstahl.com
amiller@eimerstahl.com
Attorneys for Plaintiffs

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

UNITED STATES DISTRICT COURT FOR
NORTHERN DISTRICT OF CALIFORNIA
RITESH TANDON, an individual;
KAREN BUSCH, an individual;
TERRY GANNON, an individual;
CAROLYN GANNON, an individual;
JEREMY WONG, an individual;
JULIE EVARKIOU, an individual;
DHRUV KHANNA, an individual;
CONNIE RICHARDS, an individual;
FRANCES BEAUDET, an individual;
and MAYA MANSOUR, an individual,
Plaintiffs,
v.
GAVIN NEWSOM, in his official
capacity as the Governor of California;

Case No. 5:20-cv-07108
DECLARATION OF PLAINTIFF
JEREMY WONG IN SUPPORT OF
PRELIMINARY
INJUNCTION

1

Decl. of Jeremy Wong

- App. 195 -

ER-1006

1
2
3
4
5
6
7
8
9
10
11

XAVIER BECERRA, in his official
capacity as the Attorney General of
California; SANDRA SHEWRY, in
her official capacity as the Acting State
Director of the California Department
of Public Health; ERICA S. PAN, in
her official capacity as the Acting State
Public Health Officer of the California
Department of Public Health;
JEFFREY V. SMITH, in his official
capacity as County Executive of Santa
Clara County; and SARA H. CODY, in
her official capacity as the Health
Officer and Public Health Director of
Santa Clara County,
Defendants.

12
13

Jeremy Wong declares, pursuant to 28 U.S.C. § 1746, that the following is true

14

and correct:

15

1.

I am a resident of Santa Clara County in the State of California. I have

16

personal knowledge of the matters set forth below and would testify competently to

17

them if called upon to do so.

18

2.

I am a full-time Christian minister, and, as part of my ministry, for nearly 3

19

years I have hosted members of my congregation in my home for communal worship,

20

including Biblical studies, theological discussions, collective prayer, and musical

21

praise.

22

3.

23
24

These gatherings occurred on a weekly basis and often involved around 8

to 10 persons.
4.

Since Governor Newsom, the California Department of Public Health, and

25

Santa Clara County issued their orders barring in-person gatherings, I have not been

26

able to host any in-person events. I cannot hold such gatherings indoors under the

27

state’s guidance because my house is not a place of worship and the state made no

28

exemptions for in-home communal worship. Under CDPH guidance, I could not hold
2
Decl. of Jeremy Wong

- App. 196 -

ER-1007

1

these informal religious activities outdoors because they are not a “protest,” “cultural

2

event,” or “religious ceremony.” On October 9, 2020, the state banned all indoor

3

gatherings. And before October 13, 2020, Santa Clara County similarly banned all

4

indoor gatherings.

5

5.

These orders come at a particularly worrisome time for my religious

6

assemblies because prayer and faith-based teachings are critical means to cope with and

7

respond to the COVID-19 crisis. Communal worship, congregational study, and

8

collective prayer are central tenets of my faith and ministry. These types of in-person

9

gatherings are impossible to replicate in an online format. An online or virtual sermon

10

cannot replicate God’s presence among an assembled church. In-person worship is

11

indispensable. The Bible commands us to do certain activities such as singing and

12

gathering in person. Every description of the church in the New Testament is that of a

13

physically gathered people. Not only are such things irreplaceable by virtual options,

14

but it is a matter of obedience to the Word of God.

15

6.

If allowed to do so, I could hold communal gatherings in a way that

16

protects my guests. I have access to large outdoor spaces at my home. For example, I

17

could hold an in-person gathering in my backyard where attendees could socially

18

distance by more than six feet. They would also wear masks, gloves, screens, or other

19

devices to protect and inhibit the spread of COVID-19 and would have access to hand-

20

washing locations or hand sanitizer. To further secure against infection, we will also use

21

virus-killing chemicals in shared spaces. I would also require that anyone who is sick or

22

has symptoms to stay at home. These mitigation measures have been approved and

23

recommended by the CDC and CDPH. I could similarly host safe gatherings indoors at

24

my house—in smaller numbers—using social distancing, mask wearing, and aggressive

25

sanitizing.

26

7.

27

If the ban on gatherings were lifted, I would once again host these

communal worship and study events.

28
3
Decl. of Jeremy Wong

- App. 197 -

ER-1008

Case 5:20-cv-07108-LHK Document 18-7 Filed 10/22/20 Page 4 of 4

1

I declare under penalty of perjury, under the laws of the United States of America

2

and the State of California, that the foregoing is true and correct to the best of my

3

knowledge.

4

5

Date: October 19, 2020

6
7

By

8

Jere

n6& L~

9
10
11

12
13

14
15
16
17
18
19
20
21
22

23
24
25
26

27
28

4

Decl. of Jeremy Wong

soz JO 9 ~ ~ a6ed '9-£ ~ :.AJtU3PIO '£ZZO£OZ~ :a1 · ~ZOZ/60/£0 'szz~a-~z :ase~ER-1009
- App. 198 -

1
2
3
4
5
6
7

ROBERT DUNN (SBN: 275600)
JOHN D. TRIPOLI (SBN: 262542)
EIMER STAHL LLP
99 South Almaden Boulevard, Suite 662
San Jose, CA 95113
(669) 231-8755
rdunn@eimerstahl.com
jtripoli@eimerstahl.com

11
12

RYAN J. WALSH (pro hac vice pending)
JOHN K. ADAMS (pro hac vice pending)
AMY C. MILLER (pro hac vice pending)
EIMER STAHL LLP
10 East Doty Street, Suite 800
Madison, WI 53703
(608) 441-5798
rwalsh@eimerstahl.com
jadams@eimerstahl.com
amiller@eimerstahl.com

13

Attorneys for Plaintiffs

8
9
10

14

15

UNITED STATES DISTRICT COURT FOR

16

NORTHERN DISTRICT OF CALIFORNIA

17
18
19
20
21
22
23
24
25
26
27
28

RITESH TANDON, an individual;
KAREN BUSCH, an individual;
TERRY GANNON, an individual;
CAROLYN GANNON, an individual;
JEREMY WONG, an individual;
JULIE EVARKIOU, an individual;
DHRUV KHANNA, an individual;
CONNIE RICHARDS, an individual;
FRANCES BEAUDET, an individual;
and MAYA MANSOUR an individual,
Plaintiffs,
v.

Case No. 5:20-cv-07108
DECLARATION OF PLAINTIFF
KAREN BUSCH IN SUPPORT
PRELIMINARY INJUNCTION

GAVIN NEWSOM, in his official
capacity as the Governor of California;

1

Decl. of Karen Busch

- App. 199 -

ER-1014

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

XAVIER BECERRA, in his official
capacity as the Attorney General of
California; SANDRA SHEWRY, in
her official capacity as the Acting State
Director of the California Department
of Public Health; ERICA S. PAN, in
her official capacity as the Acting State
Public Health Officer of the California
Department of Public Health;
JEFFREY V. SMITH, in his official
capacity as County Executive of Santa
Clara County; and SARA H. CODY, in
her official capacity as the Health
Officer and Public Health Director of
Santa Clara County,
Defendants.
Karen Busch declares, pursuant to 28 U.S.C. § 1746, that the following is true
and correct:
1.
I am a resident of Santa Clara County in the State of California. I have
personal knowledge of the matters set forth below and would testify competently to
them if called upon to do so.
2.
For over 2 years I have hosted Bible study gatherings in my home, which
included faith-based discussions and collective prayer.
These gatherings occurred on a rotational basis among the Bible study
3.
group members every two weeks. The group included 6 couples (total of 12 persons).
Since Governor Newsom, the California Department of Public Health, and
4.
Santa Clara County issued their orders barring in-person gatherings, I have not been
able to host any in-person events. These orders come at a particularly worrisome time
for my religious assemblies because prayer and faith-based teachings are critical means
for my Bible study group to cope with and respond to the COVID-19 crisis. Yet
because of the various state and county regulations, I am unable to worship in the
privacy of my home with other people outside of my immediate family. Under CDPH
2

Decl. of Karen Busch

- App. 200 -

ER-1015

1

guidance, I am not even able to hold worship and study activities outdoors because they

2

are not a

3

meetings indoors whenever needed due to weather. But on October 9, 2020, the state

4

banned all indoor gatherings. And before October 13, 2020, Santa Clara County

5

similarly banned all indoor gatherings.

6

5.

or

I wish to hold my

Communal worship, congregational study, and collective prayer are central

7

tenets of my faith. These types of in-person gatherings are impossible to replicate in an

8

online format. An online or virtual sermon cannot replicate

9

assembled church. In-person worship is indispensable. Several members of my Bible

10

study do not even have computers and thus cannot participate in an online format and

11

are only able to phone in to the session.

12

6.

presence among an

If allowed to do so, I could hold Bible study and communal worship

13

gatherings in a way that protects my guests. Group members could wear masks to

14

protect and inhibit the spread of COVID-19 and would have access to hand-washing

15

locations or hand sanitizer. To further secure against infection, we will also use virus-

16

killing chemicals in shared spaces. I would also require that anyone who is sick or has

17

symptoms to stay at home. These mitigation measures have been approved and

18

recommended by the CDC and CDPH. We are able to fly in an airplane within inches

19

of another person for 10 hours so I feel comfortable sharing my home for 2 hours with a

20

select group of known people that would facilitate contract tracing should it ever be

21

necessary.

22

7.

If the ban on gatherings were lifted, I would once again host these

23

communal worship and Bible study events to better inform me and my peers on our

24

shared faith.

25
26
27
28
3

Decl. of Karen Busch

- App. 201 -

ER-1016

1

I declare under penalty of perjury, under the laws of the United States of America

2

and the State of California, that the foregoing is true and correct to the best of my

3
4

knowledge.

5

Date: October 19, 2020

6
By:

7

Karen Busch

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

4

Decl. of Karen Busch
- App. 202 -

ER-1017

Case: 21-15228, 03/04/2021, ID: 12025182, DktEntry: 9, Page 44 of 66

No. 21-15228

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

RITESH TANDON, ET AL,

Plaintiffs-Appellants,
v.
GAVIN NEWSOM, ET AL,

Defendants-Appellees.

DECLARATION OF PLAINTIFF-APPELLANT JEREMY WONG
IN SUPPORT OF MOTION FOR INJUNCTION PENDING
APPEAL

ROBERT E. DUNN
JOHN D. TRIPOLI

RYANJ. WALSH
JOHN K. ADAMS
AMY C. MILLER

EIMER STAHL LLP
10 East Doty Street, Suite 800
Madison, WI 53703
(608) 441-5798

EIMER STAHL LLP
99 South Almaden Blvd.,
Suite 641
San Jose, CA 95113
(408) 889-1690

Counsel for Plaintiffs-Appellants

Jeremy Wong declares, pursuant to 28 U.S.C. § 1746, that the
following is true and correct:
1.

I am a resident of Santa Clara County in the State of

California. I have personal knowledge of the matters set forth below.
- App. 203 -

Case: 21-15228, 03/04/2021, ID: 12025182, DktEntry: 9, Page 45 of 66

2.

I am a full-time Christian minister, and, as part of my

ministry, for nearly 3 years I have hosted members of my congregation
in my home for communal worship, including Biblical studies, theological
discussions, collective prayer, and musical praise.

These gatherings

occurred on a weekly basis and often involved around 8 to 10 persons.
3.

Since Governor Newsom, the California Department of Public

Health, and Santa Clara County issued their orders barring in-person
gatherings, I have not been able to host any in-person events. I cannot
hold such gatherings indoors under the state's guidance because my
house is not a place of worship and the state made no exemptions for inhome communal worship.
4.

Even after nearly a year of government orders, changes in

scientific knowledge, treatment, and vaccination for COVID-19, the State
and County orders still prevent me from hosting these in-person events
with more than three households.
5.

If the ban were lifted, I would once aga1n host these

communal worship and religious study events.

I could hold these

events in a way that protects my guests, including through the use of
outdoor space, social distancing, mask wearing, sanitization of shared
spaces, handwashing and hand sanitizer. I would also require that

2

- App. 204 -

Case: 21-15228, 03/04/2021, ID: 12025182, DktEntry: 9, Page 46 of 66

anyone who is sick or has symptoms to stay at home. These mitigation
measures have been approved and recommended by the CDC and CDPH.
I declare under penalty of perjury, under the laws of the United
States of America and the State of California, that the foregoing is true
and correct to the best of my knowledge.
Date: March 2, 2021

Jere .

3

- App. 205 -

Case: 21-15228, 03/04/2021, ID: 12025182, DktEntry: 9, Page 48 of 66

No. 21-15228

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

RITESH TANDON, ET AL,

Plaintiffs-Appellants,
v.
GAVIN NEWSOM, ET AL,

Defendants-Appellees.

DECLARATION OF PLAINTIFF-APPELLANT KAREN BUSCH
IN SUPPORT OF MOTION FOR INJUNCTION PENDING
APPEAL

ROBERT E. DUNN
JOHN D. TRIPOLI

RYANJ. WALSH
JOHN K. ADAMS
AMY C. MILLER

EIMER STAHL LLP
10 East Doty Street, Suite 800
Madison, WI 53703
(608) 441-5798

EIMER STAHL LLP
99 South Almaden Blvd.,
Suite 641
San Jose, CA 95113
(408) 889-1690

Counsel for Plaintiffs-Appellants

Karen Busch declares, pursuant to 28 U.S.C. § 1746, that the
following is true and correct:
1.

I am a resident of Santa Clara County in the State of

California. I have personal knowledge of the matters set forth below.
- App. 206 -

Case: 21-15228,03/04/2021, ID: 12025182, DktEntry: 9, Page 49 of66

2.

For over 2 years I hosted Bible study gatherings in my home,

which included faith-based discussions and collective prayer.

These

gatherings occurred on a rotational basis among the Bible study group
members every two weeks. The group included 6 couples (total of 12
persons).
3.

Since Governor Newsom, the California Department of Public

Health, and Santa Clara County issued their orders barring in-person
gatherings, I have not been able to host any in-person events.
4.

Even after nearly a year of government orders, changes in

scientific knowledge, treatment, and vaccination for COVID-19, the State
and County orders still prevent me from hosting these in-person events
with more than three households.
5.

If the ban on gatherings were lifted, I would once again host

these Bible study events. I could hold these events in a way that protects
my guests, including through the use of mask wearing, sanitization of
shared spaces, handwashing and hand sanitizer. I would also require
that anyone who is sick or has symptoms to stay at home. These
mitigation measures have been approved and recommended by the CDC
and CDPH.
2

- App. 207 -

Case: 21-15228, 03/04/2021, ID: 12025182, DktEntry: 9, Page 50 of 66

I declare under penalty of perjury, under the laws of the United
States of America and the State of California, that the foregoing is true
and correct to the best of my knowledge.
Date: March 2, 2021
By:

~--~

Karen Busch

3

- App. 208 -

